APPENDIX

APPENDIX 1
Shaffer v. Commissioner of Revenue,
485 Mass. 198 (2020) 148 N.E.3d 1197
Supreme Judicial Court of Massachusetts,
Suffolk.
M. Christine SHAFFER, executrix,1
v.
COMMISSIONER OF REVENUE.

Synopsis

SJC-12812
|
Argued February 10, 2020.
|
Decided July 10, 2020.

Background: Executrix of decedent, who was lifetime
income beneficiary of qualified terminable interest
property (QTIP) trust created in New York by her
predeceasing husband, appealed from decision of the
Appellate Tax Board, 2019 WL 2158344, which
determined that there was no constitutional or
statutory barrier to assessment of Massachusetts
estate tax on value of QTIP assets included in
decedent’s gross estate when she died while
domiciled in Massachusetts. Estate’s application for
direct appellate review was granted.
Holdings: The Supreme Judicial Court, Cypher, J.,
held that:
assessment of Massachusetts estate tax on value
of QTIP trust assets included in decedent’s gross
estate when she died while domiciled in
Massachusetts did not violate due process, and
[1]

1

Of the estate of Adelaide P. Chuckrow.

1a

decedent’s Massachusetts estate tax obligation
included all assets reported in federal gross estate,
including QTIP assets.
[2]

Affirmed.
**1198 Taxation, Estate tax, Trust. Trust, Taxation.
Due Process ofLaw, Taxation. Words, “Transfer,”
“Massachusetts gross estate.”
Appeal from a decision of the Appellate Tax Board.
The Supreme Judicial Court granted an application
for direct appellate review.
Attorneys and Law Firms
Leo J. Cushing, (Jenna R. Wolinetz, Waltham, also
present) for the taxpayer.
Celine E. de la Foscade-Condon (John J. Connors,
Jr., Boston, also present) for Commissioner of
Revenue.
Present: Gants, C.J., Lenk, Gaziano, Lowy, Budd,
Cypher, & Kafker, JJ.
Opinion
CYPHER, J.
*198 This case concerns whether the intangible
assets in a qualified terminable interest property
(QTIP) trust, which was created by the predeceasing
spouse in New York, are subject to *199 the
Massachusetts estate tax, G. L. c. 65C, § 2A (a),
when the surviving spouse died domiciled in
Massachusetts. Adelaide P. Chuckrow (decedent),
the lifetime income beneficiary of the QTIP trust
created in New York by her late husband Robert
Chuckrow (Robert), died domiciled in Massachusetts
in 2011. The decedent’s estate (estate) included the
value of the QTIP trust assets in computing her

2a

Federal estate tax return, but not in computing her
Massachusetts estate tax return. The Commissioner
of Revenue (commissioner) selected the estate’s
Massachusetts return for audit and assessed an
additional
Massachusetts
estate
tax
of
$1,809,141.88, based on the value of the QTIP
assets. The Appellate Tax Board (board) upheld the
assessment. The key issue before us is whether the
intangible assets in a QTIP trust created by the
predeceasing spouse when he was domiciled in a
different State are includable in the gross estate of
the Massachusetts domiciliary decedent for purposes
of calculating the Massachusetts estate tax under
§ 2A (a). We affirm the decision of the board that
there is not a constitutional or a statutory barrier to
the assessment of **1199 Massachusetts estate tax,
on the value of the QTIP assets.
Background. 1. Statutory framework. We begin with
an overview of the statutory framework, in order to
provide context to the following discussion.
[1]a.

Federal estate tax and Massachusetts estate tax.
An estate tax is a tax on the privilege of transferring
property at death. See Knowlton v. Moore, 178 U.S.
41, 56, 20 S.Ct. 747, 44 L.Ed. 969 (1900). Internal
Revenue Code § 2001(a) sets forth the Federal estate
tax: “A tax is hereby imposed on the transfer of the
taxable estate of every decedent who is a citizen or
resident of the United States.” 26 U.S.C. § 2001(a).
General Laws c. 65C, § 2A (a), sets forth the
Massachusetts estate tax. Following various versions
of the Massachusetts estate tax in response to the
changes in the Internal Revenue Code, in 2002, the
Legislature amended § 2A to use a “sponge tax”

3a

calculation2 based upon the Federal credit for State
death taxes that would have been allowable to a
decedent’s estate in 2000. See G. L. c. 65C, § 2A (a);
St. 2002, c. 186, §§ 28, 34; St. 2002, c. 364, §§ 10, 23.
See also Department of Revenue, Technical
Information Release 02-18 (Nov. 6, 2002) (“reference
point Massachusetts uses to tie itself to the [Internal
Revenue] Code for sponge tax purposes is a fixed
date instead of a reference *200 point that
automatically incorporates any federal changes.
Thus, due to the decoupling legislation, the
Massachusetts sponge tax is now tied to the
[Internal Revenue] Code as in effect on December 31,
2000”). The Massachusetts estate tax imposes a tax
“upon the transfer of the estate of each person dying
on or after January 1, 1997 who, at the time of
death, was a resident of the commonwealth.” G. L.
c. 65C, § 2A (a).
[2]b.

Marital deduction. The marital deduction allows
an estate to deduct from the value of the taxable
estate certain property that passes or has passed
from a decedent to the decedent’s surviving spouse.
26 U.S.C. § 2056(a). In general, a marital deduction
defers the estate tax on the property subject to the
marital deduction until the death of the surviving
spouse; it does not eliminate the tax liability
altogether. See Estate of Sommers v. Commissioner
of Internal Revenue, 149 T.C. 209, 223 (2017).
c. QTIP trust. An estate generally may not make use
of the marital deduction when conveying terminable
interest property (terminable interest rule). 26
U.S.C. § 2056(b)(1). However, 26 U.S.C. § 2056(b)(7)
Under a “sponge tax,” the State tax liability is determined
based on the Federal estate death tax credit. See Ward v.
Commissioner of Corps. & Taxation, 369 Mass. 3, 4, 336 N.E.2d
862 (1975).
2

4a

provides an exception to the terminable interest rule
for QTIP. To become QTIP, (1) the property must
pass from the predeceasing spouse, (2) the surviving
spouse must have a qualifying income interest for
life3 in the property, and (3) the executor of the
estate of the predeceasing spouse must elect to
designate the property as QTIP. 26 U.S.C.
§ 2056(b)(7)(B). Using a QTIP trust allows for the
deferral of the Federal estate tax on the assets used
to create the QTIP trust until the surviving spouse
dies.4 See **1200 26 U.S.C. § 2044. See also Estate of
Clayton v. Commissioner of Internal Revenue, 976
F.2d 1486, 1491-1493 (5th Cir. 1992) (explaining
history of marital deduction and QTIP).
2. Robert’s creation of the QTIP trust. Robert died in
July 1993, while domiciled in New York.5 His last
will and testament established a trust for the
decedent’s benefit. The trust qualified for a QTIP
trust election under 26 U.S.C. § 2056(b)(7) and under
New *201 York law. At the time of Robert’s death,
the trust assets totaled $844,101.27, and consisted
wholly of intangible property, including shares in
various companies and a fifty percent limited
“The surviving spouse has a qualifying income interest for life
if ... (I) the surviving spouse is entitled to all the income from
the property, payable annually or at more frequent intervals, or
has a usufruct interest for life in the property, and (II) no
person has a power to appoint any part of the property to any
person other than the surviving spouse.” 26 U.S.C. §
2056(b)(7)(B)(ii).
4 Although not relevant to this appeal, the assets in a QTIP
trust would be subject to tax before the surviving spouse’s
death if the surviving spouse disposed of all or part of the
qualifying income interest before his or her death. 26 U.S.C. §
2519.
5 At the time of Robert’s death, the decedent was also domiciled
in New York.
3

5a

partnership interest in Chuckrow Smith Associates,
L.P.
The trustees of the trust were the two adult
daughters of the decedent and Robert. The decedent
did not hold general or limited powers of
appointment over the trust assets. The trustees were
entitled to the remainder interest of the trust upon
the decedent’s death.
After Robert’s death, his estate filed Federal and
New York tax returns.6 In both returns, the estate
reported no tax due, claiming the marital deduction
in the full amount of the QTIP assets.
3. Prior proceedings. The decedent died in August
2011, while domiciled in Massachusetts. The estate
filed a Massachusetts estate tax return, reporting a
tax due of $100,997 and including a payment in that
amount. The value of the QTIP assets was not
included in the Massachusetts estate tax return, but
it was included in the estate’s Federal tax return.7
The estate did not file a New York estate tax return,
nor did it pay any New York estate tax.
The
commissioner
selected
the
estate’s
Massachusetts estate tax return for an audit. The
commissioner sent the estate a notice of intention to
assess and a notice of intention to assess work
papers, showing the commissioner proposed an
additional Massachusetts tax assessment of
$1,809,141.88. The additional tax assessment was
based on the total gross estate reported on the
Federal estate tax return. The commissioner
Robert’s estate did not file a Massachusetts tax return.
The estate’s Massachusetts return reported a total gross
estate of $2,382,148, and the estate’s Federal return reported a
total gross estate of $15,633,617, the difference being the value
of the QTIP assets.

6
7

6a

assessed the tax as proposed, and sent the estate a
notice of assessment, which included the
$1,809,141.88 plus interest. The estate paid the
amount assessed.
The estate then filed an abatement application,
which the commissioner denied. The estate appealed
to the board from the denial of the abatement
application. The parties submitted an agreed
statement of facts along with their arguments in
briefs and oral arguments, and no evidentiary
hearing was held.
4. The board’s decision. The board issued a decision
in favor of the commissioner and subsequently
promulgated its findings of fact and report. One of
the board’s commissioners dissented.
*202 The board ruled that the QTIP assets were
subject to tax under G. L. c. 65C, § 2A (a). It
disagreed with the two primary arguments raised by
the estate: (1) that there was only one transfer of the
QTIP assets, which took place when Robert died in
New York, and therefore the Massachusetts
assessment violates the Fourteenth Amendment to
the United States Constitution and art. 10 of the
Massachusetts Declaration of Rights; and (2) that
the QTIP assets were not includable in the
decedent’s estate because “the definition **1201 of
‘Massachusetts gross estate’ in [G. L. c. 65C, § 1 (f),]
excludes QTIP property for which a Federal, but not
a Massachusetts, QTIP election was made.”
In addressing the estate’s constitutional argument
and interpreting the term “transfer,” the board
relied on case law analogous to the present matter,
in which courts gave the term a broad construction.
See Fernandez v. Wiener, 326 U.S. 340, 352, 66 S.Ct.
178, 90 L.Ed. 116 (1945); Estate of Brooks v.

7a

Commissioner of Revenue Servs., 325 Conn. 705,
733, 159 A.3d 1149 (2017), cert. denied, ––– U.S. –––
–, 138 S. Ct. 1181, 200 L.Ed.2d 314 (2018). The
board also noted that 26 U.S.C. § 2044(c) provides, in
part, that QTIP property “shall be treated as
property passing from” the surviving spouse, and
that other sections of the Internal Revenue Code
treat the surviving spouse as the transferor of the
full value of the QTIP property. See 26 U.S.C.
§§ 2044(c), 2519, 2652(a). The board accordingly
determined that for estate tax purposes, there are
two transfers of QTIP assets. The first is “a transfer
from the estate of the first-to-die spouse to the
surviving spouse when the QTIP election is made,”
and the second is “a transfer from the estate of the
surviving spouse to the designated beneficiaries
when the surviving spouse dies.” Applying that
reasoning to the QTIP assets at issue, the board
ruled that constitutional principles were not violated
because the second transfer of the QTIP assets
occurred in Massachusetts.
In addressing the estate’s statutory argument, the
board stated that the “fatal flaw” with the estate’s
analysis that G. L. c. 65C, § 1 (f), “provides that only
those QTIP assets for which a Massachusetts
deduction was allowed in the estate of the first-to-die
spouse are includable in the Massachusetts gross
estate of the surviving spouse” was that § 1 (f)
defines “Massachusetts gross estate,” which is a
term “not found in the operative taxing statute, [G.
L. c. 65C,] § 2A.” The board looked to the
Legislature’s enactment of § 1 (f), as well as to its
enactment of G. L. c. 65C, § 3A, which addresses the
Massachusetts election of QTIP treatment, and
determined that the § 1 (f), definition of
Massachusetts *203 gross estate applies only when

8a

the predeceasing spouse makes a Massachusetts
QTIP election under § 3A. It therefore concluded
that because Robert did not make a Massachusetts
QTIP election and there was not any Massachusetts
QTIP property (as defined in § 3A), §§ 1 (f) and 3A do
not pertain to the estate’s Massachusetts estate tax
obligation under § 2A (a).8
The board therefore ruled that the decedent’s estate
“is taxable under the unambiguous terms of [§ 2A
(a)].” The dissenting commissioner concluded that
the only transfer of the QTIP assets occurred at the
time of Robert’s death, and that therefore the
commissioner’s assessment violated constitutional
principles.
The estate filed a timely notice of appeal from the
board’s decision, and we granted its motion for direct
appellate review.
[3] [4]Discussion. 1. Standard of review. In reviewing
decisions of the board, “[w]e review conclusions of
law, including questions of statutory construction, de
novo.” Shrine of Our Lady of La Salette Inc. v.
Assessors of Attleboro, 476 Mass. 690, 696, 71
N.E.3d 509 (2017), quoting **1202 New England
Forestry Found., Inc. v. Assessors of Hawley, 468
Mass. 138, 149, 9 N.E.3d 310 (2014). “However,
because the board is an agency charged with
administering the tax law and has expertise in tax
matters, we give weight to its interpretation of tax
The board also rejected the estate’s argument regarding
potential double taxation and G. L. c. 65C, § 1 (f), concluding,
“The [estate] offered no reasoned basis to interpret a statute
that prevents double taxation of Massachusetts QTIP property
under limited circumstances in a manner that prevents
taxation of the QTIP assets where no double taxation is
possible and the assets are explicitly and exclusively taxable
under [G. L. c. 65C,] § 2A.”
8

9a

statutes ...” (quotation and citation omitted). AA
Transp. Co. v. Commissioner of Revenue, 454 Mass.
114, 119, 907 N.E.2d 1090 (2009). See Boston
Professional Hockey Ass’n v. Commissioner of
Revenue, 443 Mass. 276, 285, 820 N.E.2d 792 (2005)
(“We will not modify or reverse a decision of the
board if the decision is based on both substantial
evidence and a correct application of the law”).
[5]2.

Constitutionality of the Massachusetts estate
tax. We first address whether the Massachusetts
estate tax, G. L. c. 65C, § 2A (a), violates the due
process clause of the Fourteenth Amendment and
art. 10. The estate argues that the Massachusetts
estate tax violates constitutional principles because
it includes property wherever situated. The estate
further contends that the board erred in finding that
a transfer occurred upon the death of the decedent,
and that therefore Massachusetts did not have a
constitutional basis to tax the QTIP trust assets. The
commissioner argues that *204 the Massachusetts
estate tax does not violate constitutional principles
and that a transfer occurred upon the death of the
decedent and, therefore, the decedent’s domicil in
Massachusetts provided the constitutional basis for
Massachusetts to tax the trust assets. We agree with
the board that the Massachusetts estate tax does not
violate constitutional principles and that a transfer
occurred upon the death of the decedent.
[6]States

may only impose an estate tax on tangible
property, such as real estate, located within the
State’s jurisdiction. See Frick v. Pennsylvania, 268
U.S. 473, 488-492, 45 S.Ct. 603, 69 L.Ed. 1058
(1925). The analysis, however, differs for a State’s
imposition of an estate tax on intangible property,
such as the QTIP assets here, with the decedent’s
domicil in the State at death forming the requisite
10a

nexus for the State to impose the estate tax. See
Curry v. McCanless, 307 U.S. 357, 366, 59 S.Ct. 900,
83 L.Ed. 1339 (1939); Page v. Commissioner of
Revenue, 389 Mass. 388, 395, 450 N.E.2d 590 (1983).
See also Graves v. Schmidlapp, 315 U.S. 657, 660, 62
S.Ct. 870, 86 L.Ed. 1097 (1942) (“Intangibles, which
are legal relationships between persons and which in
fact have no geographical location, are so associated
with the owner that they and their transfer at death
are taxable at the place of his domicile ...”).
In addition, “the estate tax as originally devised and
constitutionally supported was a tax upon transfers.”
Fernandez, 326 U.S. at 352, 66 S.Ct. 178. See G. L.
c. 65C, § 2A (a) (“A tax is hereby imposed upon the
transfer of the estate of each person dying on or after
January 1, 1997 who, at the time of death, was a
resident of the commonwealth”). See generally
Knowlton, 178 U.S. at 56, 20 S.Ct. 747. Therefore,
because in the present case the QTIP trust consisted
completely of intangible assets, and the decedent
was domiciled in Massachusetts at the time of her
death in 2011 and was therefore subject to the
provisions of § 2A (a), the question presented herein
is what constitutes a “transfer” for estate tax
purposes.
As the board did in interpreting “transfer,” we look
to case law analogous to the issue at hand. In
Fernandez, 326 U.S. at 342, 352, 355, 66 S.Ct. 178,
the United States Supreme Court addressed the
scope of what constitutes a transfer in the context of
an estate tax levied on the termination of marital
community property and noted that the decedent’s
death enabled the surviving spouse to have greater
rights in the subject property. The Court stated that
an estate tax is not limited to literal **1203
transfers at death, but “extends to the creation,
11a

exercise, acquisition, or relinquishment of any power
or legal privilege which is incident to the ownership
of property.” Id. at 352, 66 S.Ct. 178. In Estate of
Brooks, 325 Conn. at 733, 159 A.3d 1149, the
Connecticut *205 Supreme Court used the broad
interpretation of the term “transfer” from Fernandez
in addressing the issue of Connecticut’s ability to tax
the value of assets in a QTIP trust. As in the case at
hand, in Estate of Brooks, the trust at issue was
created by the predeceasing spouse while he was a
domiciliary of another State, and then the surviving
spouse died as a domiciliary of Connecticut. Id. at
707-708, 159 A.3d 1149. The estate of the surviving
spouse
challenged
the
constitutionality
of
Connecticut’s imposition of an estate tax on the
QTIP assets, arguing, in part, that the only transfer
of the QTIP assets took place in the other State. Id.
at 726, 159 A.3d 1149. The Connecticut Supreme
Court determined that a second transfer of the QTIP
assets occurred upon the death of the surviving
spouse. Id. at 730-731, 159 A.3d 1149. In reaching
this conclusion, the court stated that “a sovereign
may tax the transmutation of legal rights in
property occasioned by death.” Id. at 729, 159 A.3d
1149, citing Fernandez, supra at 358, 66 S.Ct. 178.
The Connecticut Supreme Court noted that the
Fernandez Court’s practical approach “looked not to
whether death was the generating source of ‘rights,’
but rather whether death was the generating source
of ‘changes in the legal and economic relationships to
the property taxed.’” Estate of Brooks, supra at 733,
159 A.3d 1149, quoting Fernandez, supra at 356-357,
66 S.Ct. 178.
In addition, the Federal QTIP rules create fictional
transfers. Although the surviving spouse receives
only a lifetime income interest from the predeceasing

12a

spouse, the Internal Revenue Code QTIP rules treat
property subject to a QTIP election as passing in full
from the predeceasing spouse to the surviving
spouse, with the property then passing from the
surviving spouse. See 26 U.S.C. §§ 2044(c),
2056(b)(7)(A), 2519(a); Estate of Morgens v.
Commissioner of Internal Revenue, 678 F.3d 769,
771 (9th Cir. 2012) (“underlying premise of the QTIP
regime is that the surviving spouse is deemed to
receive and then give the entire QTIP property,
rather than just the income interest. The purpose of
the QTIP regime is to treat the two spouses as a
single economic unit with respect to the QTIP
property while still allowing the first-to-die spouse to
control the eventual disposition of the property”).
In the present case, the decedent’s death created a
change in the legal relationship among the QTIP
assets, the decedent, and the beneficiaries. See
Fernandez, 326 U.S. at 355, 66 S.Ct. 178; Estate of
Brooks, 325 Conn. at 733, 159 A.3d 1149. Before her
death, the decedent had a lifetime interest in the
QTIP assets. See 26 U.S.C. § 2056(b)(7)(B). After her
death, her daughters, as the beneficiaries, received a
present interest in the QTIP assets. It is this change
in legal relationship *206 that occurred upon the
death of the decedent that constitutes a transfer for
estate tax purposes and brings the QTIP assets
within the Massachusetts taxable estate. See
Fernandez, supra at 355, 66 S.Ct. 178; Estate of
Brooks, supra at 729, 733, 159 A.3d 1149.
We therefore agree with the board that two transfers
of QTIP property occur for estate tax purposes, with
the first occurring when the predeceasing spouse
makes the QTIP election and the second occurring
upon the death of the surviving spouse. Therefore,
the decedent’s domicil in Massachusetts at the time
13a

of her death, and therefore at the time of the second
transfer, provided the connection to the **1204
Commonwealth to allow Massachusetts to impose an
estate tax on the QTIP assets.
[7]3. Applicability of definition of “Massachusetts
grossestate” in G. L. c. 65C, § 1 (f). We next address
whether the board correctly determined that G. L.
c. 65C, §§ 1 (f) and 3A, do not bear upon the estate’s
Massachusetts estate tax obligation. The estate
argues that the definition of “Massachusetts gross
estate” in § 1 (f) should apply to the Massachusetts
estate tax, and that therefore the value of the QTIP
assets should not be included in the estate. The
commissioner responds that § 1 (f) is not applicable
to G. L. c. 65C, § 2A, and that the board correctly
interpreted and applied the unambiguous language
of § 2A, which requires the inclusion of all assets
reported in the Federal gross estate. We agree with
the board that § 1(f) does not apply to the estate’s
Massachusetts estate tax obligation under § 2A.
[8]We look first to the plain meaning of the statute.
See Thurdin v. SEI Boston, LLC, 452 Mass. 436, 444,
895 N.E.2d 446 (2008) (“where the language of a
statute is plain and unambiguous, it is conclusive as
to legislative intent”). General Laws c. 65C, § 1 (f),
defines “Massachusetts gross estate.”9 See G. L.
c. 65C, § 1 (“When used in this chapter the following
“[T]he federal gross estate ... plus the value of any property (i)
in which the decedent had at death a qualifying income interest
for life described in [G. L. c. 65C, § 3A (c),] ... and (ii) for which
a deduction was allowed for Massachusetts estate tax purposes
with respect to the transfer of such property to the decedent ....
The Massachusetts gross estate shall not include the value of
any property in which the decedent had a qualifying income
interest for life which is not otherwise includible in the
Massachusetts gross estate under the first sentence of this
paragraph ....” G. L. c. 65C, § 1 (f).
9

14a

words or terms shall have, unless the context clearly
indicated otherwise, the following meanings ...”).
The term “Massachusetts gross estate,” however, is
not used in G. L. c. 65C, § 2A, which is the statute
the estate was subject to *207 because the decedent
died on or after January 1, 1997. Instead of referring
to “Massachusetts gross estate,” § 2A provides for an
estate tax equal to the State tax credit “that would
have been allowable to a decedent’s estate as
computed under Code section 2011, as in effect on
December 31, 2000.” G. L. c. 65C, § 2A (a). See G. L.
c. 65C, § 2A (e) (“all references and provisions in this
chapter to the Internal Revenue Code or Code,
unless the context clearly indicates otherwise, shall
be to the Code as in effect on December 31, 2000”).
General Laws c. 65C, § 3A, which covers the
Massachusetts QTIP election by the predeceasing
spouse, and is not at issue here, does utilize the term
“Massachusetts gross estate.” G. L. c. 65C, § 3A (b)
(providing requirements to qualify as QTIP for
Massachusetts estate tax purposes, including that
subject property must be “included in the
Massachusetts gross estate” of predeceasing spouse).
The Legislature enacted § 3A in 1985, at the same
time that it amended G. L. c. 65C, § 1 (f), to address
a decedent’s qualifying income interest and to refer
to § 3A. See St. 1985, c. 711, §§ 6, 12. While § 3A
provides requirements for the predeceasing spouse to
make a QTIP election, § 1 (f), in turn, provides that
when the surviving spouse who had a qualifying
income interest for life, as described in § 3A (c), dies,
then only property for which the predeceasing
spouse was allowed a Massachusetts deduction will
be included in the taxable estate of the surviving
spouse. In other words, the definition of
“Massachusetts gross estate” in § 1 (f) applies only
15a

where
the
predeceasing
spouse
makes
a
Massachusetts QTIP election for property that is
included in the Massachusetts gross estate of the
predeceasing spouse under § 3A.
**1205 Because Robert’s estate did not make a
Massachusetts QTIP election, nor was there
otherwise any Massachusetts QTIP property as
defined in G. L. c. 65C, § 3A, the board did not err in
determining that G. L. c. 65C, §§ 1 (f) and 3A, do not
bear upon the estate’s Massachusetts estate tax
obligation under G. L. c. 65C, § 2A. Therefore, we
look to the plain meaning of § 2A, which requires the
inclusion of all assets that the estate reported in the
Federal gross estate.10 Therefore, the QTIP assets
were includable *208 in the estate for purposes of
the Massachusetts estate tax.
For the foregoing reasons, we affirm the decision of
the board.
So ordered.

In addition, the estate’s contention that the current
Massachusetts estate tax does not eliminate the potential of
double taxation is without merit under the present
circumstances. The estate is not subject to double taxation, as
the QTIP assets in Robert’s estate were not subject to
Massachusetts or New York tax before the decedent’s death.
10

16a

APPENDIX 2
COMMONWEALTH OF MASSACHUSETTS

Appellate Tax Board
100 Cambridge Street, Suite 200
Boston, Massachusetts 02114

(617) 727-3100
(617) 727-6234 FAX

Docket No. C327773

M. CHRISTINE SHAFFER, AS EXECUTRIX,
Appellant.
COMMISSIONER OF REVENUE,
Appellee.
DECISION
The decision is for the Appellee.
Commissioner Scharaffa dissents.
APPELLATE TAX BOARD
By/s/ Thomas W. Hammond, Jr. Chairman
Frank J. Scharaffa

Commissioner

/s/ James D. Rose

Commissioner

/s/ Richard G. Chmielinski

Commissioner

/s/ Patricia M. Good
Patricia M. Good

Commissioner

Attest: /s/
Asst. Clerk of the Board

17a

Year Assessed: 2011
Estate Tax
Date: SEP 11 2017
(Seal)
NOTICE: Pursuant to G.L. c. 58A, § 13 and CMR
1.32, either party may request findings of fact and
report within ten days of this Decision and may also
appeal this Decision in accordance with the
Massachusetts Rules of Appellate Procedure and 831
CMR 1.35.

18a

COMMONWEALTH OF MASSACHUSETTS

Appellate Tax Board
100 Cambridge Street, Suite 200
Boston, Massachusetts 02114

(617) 727-3100
(617) 727-6234 FAX
Leo J. Cushing, Esq.
Cushing & Dolan, P.C.
375 Totten Pond Road, Suite 200
Waltham, MA 02451

SEP 11 2017

Re: M. Christine Shaffer, as Executrix v.
Commissioner of Revenue
Docket No. C327773
Dear Sir:
Enclosed please find copy of Decision
promulgated by the board this day in the aboveentitled appeal.
Very truly yours,
/s/
Asst. Clerk of the Board
/ag
Encl.
Copy to: John J. Connors, Jr., Esq.
Department of Revenue

19a

APPENDIX 3
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
RECEIVED
2019 APR 29 PM 2:17
LITIGATION BUREAU
M. CHRISTINE SHAFFER,
AS EXECUTRIX OF THE ESTATE
OF ADELAIDE CHUCKROW
v. COMMISSIONER OF REVENUE
Docket No. C327773

Promulgated:
April 29, 2019

This is an appeal under the formal procedure
pursuant to G.L. c. 62C, § 39, from the refusal of the
Commissioner of Revenue (“Commissioner” or
“appellee”) to abate estate tax assessed to M.
Christine Shaffer as Executrix of the Estate of
Adelaide Chuckrow (“appellant” or “estate”) under
G.L. c. 65C, § 2A (a) ( “§ 2A (a)”) .
Commissioner Good heard the appeal and was
joined in the decision for the appellee by Chairman
Hammond
and
Commissioners
Rose
and
Chmielinksi. Commissioner Scharaffa dissented.
These findings of fact and report are made
pursuant to a request by the appellee under G.L.
c. 58A, § 13 and 831 CMR 1.32.

Leo J. Cushing, Esq. and Luke C. Bean, Esq.

for the appellant.

John J. Connors, Jr., Esq. for the appellee.

20a

FINDINGS OF FACT AND REPORT
The facts of this appeal, which was submitted
on a statement of agreed facts and exhibits along
with briefs and oral argument, are not in dispute.
The sole issue presented for consideration by the
Appellate Tax Board (“Board”) was whether assets
that were part of a Qualified Terminable Interest
Property (“QTIP”) trust and included in the Federal
gross estate of Adelaide Chuckrow (“Mrs. Chuckrow”
or “decedent”) were properly included in the
calculation of her Massachusetts estate tax pursuant
to § 2A(a) The relevant facts as stipulated by the
parties are summarized below.
Mrs. Chuckrow died on August 14, 2011. At
the time of her death, Mrs. Chuckrow was a
Massachusetts resident. Mrs. Chuckrow had
previously resided in Chappaqua, New York, but
moved to Williamstown, Massachusetts in her later
years to be cared for by her daughter.
Mrs. Chuckrow’s late husband, Robert
Chuckrow (“Mr. Chuckrow”), died on July 11, 1993,
while domiciled in New York. His Last Will and
Testament established a QTIP trust (“Trust”) for the
benefit of Mrs. Chuckrow under Internal Revenue
Code (“Code”) § 2056 (b) (7) (“Code § 2056 (b) (7)”)
and the corollary provisions of New York law. The
assets of the Trust (“QTIP assets”) consisted entirely
of intangible property, and had a value of
$844,101.27 at the time of Mr. Chuckrow’s death.
Under the terms of the Trust, as required by
Code § 2056(b)(7), Mrs. Chuckrow was entitled to all
of the income from the Trust as long as she lived as
well as distributions from the principal of the Trust,
at the sole discretion of the trustees. The trustees of

21a

the Trust were the couple’s adult daughters, who
were entitled to the remainder interest in the Trust.
As will be discussed in greater detail below,
the effect of a QTIP trust is to defer the collection of
estate taxes from the time of the death of the first-todie spouse to the time of the death of the second-todie spouse, while still allowing the first-to-die spouse
to control the ultimate disposition of the assets. The
deferral is accomplished by allowing the first-to-die
spouse to claim a marital deduction for the value of
the assets in the QTIP trust; absent the QTIP
provisions in Code § 2056(b)(7), the marital
deduction would not be available for the transfer of a
terminable interest in property. The trade-off is that
the estate of the second-to-die spouse must report
and pay taxes on the full value of the assets in a
QTIP trust at the time of that spouse’s death.
Accordingly, following Robert Chuckrow's
death, his estate filed both Federal and New York
estate tax returns claiming a marital deduction in
the full amount of the QTIP assets and reporting no
tax due. No Massachusetts estate tax return was
filed because Mr. Chuckrow was not domiciled in
Massachusetts at the time of his death and owned no
property in Massachusetts.
There is no dispute, however, that Mrs.
Chuckrow was a Massachusetts resident at the time
of her death on August 14, 2011. Accordingly, on
May 14, 2012, the appellant filed on behalf of the
estate of Mrs. Chuckrow a Massachusetts estate tax
return reporting a tax due of $100,997, based on a
total estate of $2,382,148. The tax was paid in full.
The appellant did not include the value of the
QTIP assets when computing Mrs. Chuckrow’s
Massachusetts estate tax.

22a

The appellant likewise filed a Federal estate
tax return, which reported a total gross estate of
$15,633,617. The appellant included the value of the
QTIP assets in Mrs. Chuckrow’s Federal gross estate
and paid the appropriate Federal estate tax. The
appellant did not file an estate tax return in New
York or pay a New York estate tax because Mrs.
Chuckrow was a Massachusetts resident at the time
of her death and owned no property in New York.
Accordingly, because Mr. Chuckrow’s estate had
taken a marital deduction for the full value of the
QTIP assets at the time of his death and the
appellant did not include the QTIP assets in Mrs.
Chuckrow’s Massachusetts estate, the appellant did
not pay estate tax on the QTIP assets in any State.
The Commissioner selected Mrs. Chuckrow’s
Massachusetts estate tax return for audit and sent
the appellant a Notice of Intent to Assess (“NIA”)
dated September 27, 2013. The NIA proposed an
additional assessment of tax in the amount of
$1,809,141.99. The additional assessment was based
on increasing her total estate by $13,251,469,
consistent with the total gross estate reported on the
Federal estate tax return, which included the value
of the QTIP assets.
The Commissioner assessed the tax as
proposed and sent the appellant a Notice of
Assessment dated March 18, 2014, which included
the additional tax proposed along with interest in
the amount of $143,890, for a total balance due of
$1,953,032. The appellant paid that amount in full.
On April 11, 2014, the appellant filed an
Application for Abatement with the Commissioner,
seeking an abatement of the additional tax assessed.
By Notice of Abatement Determination dated May

23a

19, 2015, the Commissioner denied the appellant’s
Application for Abatement. The appellant timely
filed her appeal with the Board on June 25, 2015. On
the basis of the foregoing facts, the Board found and
ruled that it had jurisdiction to hear and decide this
appeal.
As described more fully below, on the date of
Mrs. Chuckrow’s death, § 2A(a) imposed a tax on
“the transfer of the estate of each person dying on or
after January 1, 1997 who, at the time of death, was
a resident of the commonwealth.” There was no
dispute in the present appeal that Mrs. Chuckrow
was a resident of Massachusetts at the time of her
death, and the Board so found. To the extent it is a
finding of fact, and as will be discussed further
below, the Board found that a transfer of the QTIP
assets occurred upon the death of Mrs. Chuckrow,
within the meaning of § 2A(a).
Accordingly, the Board ruled that the QTIP
assets, which were properly included in the Federal
gross estate of Mrs. Chuckrow, were also properly
includable in her Massachusetts estate subject to tax
under § 2A(a). The Board therefore found and ruled
that the appellant failed to demonstrate her
entitlement to an abatement of the tax and issued a
decision for the appellee in this appeal.
OPINION
Resolution of the issue of whether
Massachusetts may properly impose an estate tax on
the value of the QTIP assets requires an analysis of
both Federal and Massachusetts estate tax
provisions and the interplay between them. These
provisions have evolved considerably over the years
and a·review of the history of these taxing regimes is
necessary to resolve the issue raised in this appeal.

24a

The Federal estate tax has been in effect for
more than a century. First enacted as temporary
measures to fund wars, Congress enacted a
permanent estate tax in 1916. See Revenue Act of
1916, ch. 463, 39 Stat. 756. In 1948, in order to
reconcile anomalies in the estate taxation of
community—property and common-law property
States, Congress created the marital deduction. See
Revenue Act of 1948, Pub. L. No. 80-471, 62 Stat.
110. Under that legislation, the decedent spouse’s
estate received a deduction for one half of the
property that passed to the surviving spouse, with
an exception relevant here: ineligible for the marital
deduction were “terminable interests” in property,
that is, an interest in property that terminated at
the surviving spouse’s death.
In 1981, Congress enacted sweeping changes
to its estate tax regime under the Economic Recovery
Tax Act, including an increase in the marital
deduction from one-half of the value of property
passing to a spouse to an unlimited deduction. See
Pub. L. No. 97-34, § 403(a), 95 Stat. 301. In addition,
Congress created an exception to the aforementioned
“terminable interest” exclusion by enacting
§ 2056(b)(7), which created the concept of a
“qualified terminable interest” in property that
qualified for the marital deduction and gave rise to
the estate planning device known as the QTIP trust.
For a terminable interest to be a qualified
terminable interest under Code § 2056(b)(7): (1) the
surviving spouse must receive all of the income from
the QTIP property for life payable at least annually;
(2) no person can have a power to appoint any part of
the QTIP property to any person other than the
surviving spouse; and (3) an irrevocable QTIP
election must be made by the executor of the first-to25a

die spouse. The first-to-die spouse’s estate gets the
benefit of an unlimited marital deduction for the
value of property for which a QTIP election is made;
however, the QTIP property will be included in the
Federal estate of the surviving spouse and is treated
as property passing from the surviving spouse under
Code § 2044(c).
From a practical perspective, the use of a
QTIP trust allows the first-to-die spouse to control
the disposition of the assets upon the death of his or
her spouse. From a tax perspective, it allows for a
deferral of the Federal estate tax on the QTIP assets
until the death of the surviving spouse.
Massachusetts, meanwhile, has had its own
estate tax in one form or another for nearly a
century. See St. 1926, c. 355. Originally
implemented as what is commonly referred to as a
“sponge-tax,” that is, a tax equal to the credit
allowable under Federal law for State death taxes,
Massachusetts created a stand-alone estate tax in
1975 by enacting G.L. c. 65C.
In response to the 1981 Federal change that
ushered in the QTIP trust, Massachusetts added a
QTIP provision to its estate tax regime in 1985 that
was substantially similar to the provisions of Code
§ 2056(b)(7). See G. L. c. 6SC, § 3A. The
Massachusetts statute required a separate QTIP
election and, although similar in most respects to the
Federal QTIP provisions, Massachusetts did not
permit an unlimited marital deduction until July 1,
1994.
Beginning in 1992, when the Legislature
enacted G.L. c. 65C, § 2A, the stand-alone tax was
phased out and Massachusetts reverted back to a
sponge-tax based on the Federal credit. For

26a

decedents dying on or after January 1, 1997, § 2A
provided that the Massachusetts estate tax was to be
determined under the provisions of the Code as in
effect at the time of a decedent’s death.
In 2001, Congress enacted legislation slowly
phasing out the Federal estate tax over a period of
years, including an elimination of the State death
tax credit. See Economic Growth and Tax Relief
Reconciliation Act of 2001, Pub. L. No. 107-16, 115
Stat. 38. Concerned by the potential loss of revenue,
Massachusetts and many other State’s amended
their estate tax legislation to preserve the sponge
effect by adhering to the provisions of the Code as in
effect on December 31, 2000, prior to the phase-out
of the Federal estate tax, rather than the date-ofdeath version of the Code. See St. 2002, c. 186, § 28;
St. 2002, c. 364, § 10.
Accordingly, at the time of Mrs. Chuckrow’s
death in Massachusetts on August 14, 2011, § 2A(a)
imposed a sponge tax on “the transfer of the estate of
each person dying on or after January 1, 1997 who,
at the time of death, was a resident of the
commonwealth.” The sponge tax was based on the
Code provisions in effect on December 31, 2000.
At the time of Mrs. Chuckrow’s death in 2011,
§ 2A(a) provided in pertinent part that:
The amount of the tax shall be the sum
equal to the amount by which the credit

for state death taxes that would have
been allowable to a decedent’s estate as
computed under Code section 2011, as
in effect on December 31, 2000,

hereinafter referred to as the “credit”,
exceeds the lesser of:

27a

(i)
the aggregate amount of all
estate,
inheritance,
legacy
and
succession taxes actually paid to the
several states of the United States,
other than the commonwealth, in
respect to any property owned by that
decedent or subject to those taxes as
part of or in connection with his estate;
or
(ii)
an amount equal to the
proportion of such allowable credit as
the value of properties taxable by other
states bears to the value of the entire
federal gross estate wherever situated.
(emphasis added). Because the appellant paid no
State tax to any jurisdiction other than
Massachusetts, sub-paragraph (i) is zero. Therefore,
the Massachusetts estate tax due from Mrs.
Chuckrow’s estate is equal to the State tax credit
that would have been allowable to the appellant for
Federal estate tax purposes under the provisions of
the Code in effect on December 31, 2000. See also
G.L. c. 65C, § 2A (e) (“all references and provisions in
this chapter to the Internal Revenue Code shall be to
the Code as in effect on December 31, 2000.”).
The calculation of the State tax credit
allowable under the Code in effect on December 31,
2000 begins with the determination of the Federal
gross estate. The applicable version of Code § 2031
provided that the gross estate includes the value at
the time of the decedent’s death of “all property, real
or personal, tangible or intangible, wherever
situated.” Regarding the value of property in which a
decedent, such as Mrs. Chuckrow, had a qualified
terminable interest, the applicable version of Code

28a

§ 2044 provided that the value of such property is
includable in the decedent’s estate if a marital
deduction had been allowed with respect to such
property when it was transferred to the decedent by
the first-to-die spouse.
There is no dispute that Mr. Chuckrow’s
estate was allowed a marital deduction on the QTIP
property that was transferred from his estate to Mrs.
Chuckrow and that the value of the QTIP assets
would have been properly includable in Mrs.
Chuckrow’s estate for Federal estate tax purposes
under the December 31, 2000 version of the Code.1
Calculation of the State tax credit is then a
mechanical
exercise
of
subtracting
various
deductions and referring to a tax table under Code
§ 2011(b). The appellant does not dispute the
accuracy of the Commissioner’s State tax credit
calculation.
Applying the unambiguos language of § 2A(a)
and the cited Code provisions, the Massachusetts
estate tax due from the appellant was equal to the
State tax credit calculated under the Code provisions
applicable as of December 31, 2000; therefore, the
Board found and ruled that the subject assessment
was proper. See, e.g., Massachusetts Broken Stone
Co. v. Weston, 430 Mass. 637, 640 (2000)(“Where the
language of a statute is clear, courts must give effect
to its plain and ordinary meaning and the courts
need not look beyond the words of the statute
itself.”); Commissioner of Revenue v. Franchi, 423
Mass. 817, 822 (1996).
There is also no dispute that the value of the QTIP assets was
properly included in Mrs. Chuckrow’s Federal gross estate
under the version of the Code applicable for Federal purposes
as of the date of her death.
1

29a

In an effort to avoid this straightforward
result, the appellant advanced two principal
arguments: (1) there is no constitutional basis for
Massachusetts to impose a tax on the value of the
QTIP assets because the only transfer of the QTIP
assets occurred when Mr. Chuckrow died in New
York; and (2) the QTIP assets are not includable in
Mrs. Chuckrow’s estate because the definition of
“Massachusetts gross estate” in G. L. c. 65C, § 1(f)
excludes QTIP property for which a Federal, but not
a Massachusetts, QTIP election was made. For the
reasons that follow, the Board rejected both of these
arguments.
I.

APPELLANT'S CONSTITUTIONAL
ARGUMENT

The appellant argued that the subject
assessment violates the Fourteenth Amendment of
the U.S. Constitution and Article 10 of the
Massachusetts Declaration of Rights because
Massachusetts is attempting to tax a transfer of
assets that took place outside of Massachusetts.
Although the U.S. Constitution prohibits
direct taxes unless they are apportioned among the
States (U.S. Const. Art. I, § 9, cl. 4), it has long been
held that estate taxes are not a direct tax on the
value of the property but an excise on the privilege of
transferring the property, Knowlton v. Moore, 178
U.S. 41 (1900). Somewhat less settled is the question
of what constitutes a transfer for estate tax
purposes. See Coolidge v. Long, 282 U.S. 582 (1931);
Fernandez v. Wiener, 326 U.S. 340 (1945); Morgens
v. Commissioner of Internal Revenue, 678 F.3d 769,
776, n.7 (9th Cir. 2012); In re Estate of Bracken, 175
Wash. 2d 549 (2012).

30a

In Fernandez, the U.S. Supreme Court
rejected a restrictive interpretation of the term
transfer and instead embraced a broader
construction. In that case, a decedent’s heirs
challenged the inclusion in the estate of the first-todie spouse of the full value of marital community
property, including the value of the one-half share
that was owned by a surviving spouse prior to the
death of the first-to-die spouse. Id. at 346-47. The
heirs argued that the surviving spouse “acquire[d] no
new or different interest in the property,” as a result
of the decedent’s death, and as such there was no
transfer. Id. The Court rejected this position and
upheld the imposition of the tax, after noting that
the surviving spouse enjoyed greater rights in the
property at issue following the death of the first-todie spouse. Id. at 355-56. In so holding, the Court
noted
A proper excise or estate tax, however,
is levied not only upon literal transfers at
death. Rather, any ‘creation, exercise,
acquisition, or relinquishment of any power or
legal privilege which is incident to the
ownership of property’ at the death of the
decedent is subject to tax as a transfer at
death. In other words, a sovereign may tax the
transmutation of legal rights in property
occasioned by death.

Id. at 352.
This view of the term “transfer” has recently
been applied in a case involving facts nearly
identical to the present appeal. In Estate of Brooks
v. Sullivan, 325 Conn. 705 (2017), cert. denied, 583
U.S. 608 (2018), Connecticut assessed an estate tax
on the value of assets in a QTIP trust upon the death
of the surviving spouse, who was a resident of
31a

Connecticut at the time of her death. The QTIP trust
at issue in that case had been created by the
surviving spouse’s late husband when he was a
domiciliary of Florida. Id. at 707-09. Her estate
claimed that Connecticut could not constitutionally
tax the trust’s QTIP assets following her death, as
the only transfer of those assets had occurred in
Florida. Id. at 726.
Though the underlying facts of Fernandez
were different, the Connecticut Supreme Court
observed that the rationale of Fernandez “fit[s]
comfortably” within the context of the change in
relationships to QTIP property effectuated by the
death of a second-to-die spouse Id. at 730. Taking a
“more practical approach” that gave weight to “the
economic and legal shifts occasioned by death rather
than a reliance on formalistic property law
distinctions in determining whether a properly
taxable transfer has occurred,” the Connecticut
Supreme Court concluded that a transfer of the
QTIP assets had occurred upon the death of the
surviving spouse, such that Connecticut could
constitutionally impose an estate tax on those assets.
Id. at 733.
The Board in this appeal agreed with the
reasoning espoused in Brooks. A QTIP election
brings about more than just a deferral of tax. It
creates new relationships between the trust assets,
the surviving spouse, and the beneficiaries, and it is
precisely the type of “transmutation of legal rights in
property” that constitutes a “transfer” for purposes
of § 2A(a). Fernandez, 362 U.S. at 352. A broad
construction of the term transfer is particularly
warranted in consideration of the underlying
premise of the QTIP regime which is

32a

that the entire QTIP property, rather
than just the income interest, is deemed
to pass to, and then from, the surviving
spouse. Thus, the two spouses are
treated as a single economic unit with
respect to the QTIP property while still
allowing the first-to-die spouse to
control the eventual disposition of the
property.

Morgans, 678 F.3d at 776, n.7.
Accordingly, for estate tax purposes, there are
two transfers of QTIP property: (1) a transfer from
the estate of the first-to-die spouse to the surviving
spouse when the QTIP election is made; and (2) a
transfer from the estate of the surviving spouse to
the designated beneficiaries when the surviving
spouse dies.
The Board therefore rejected the appellant’s
argument that the only transfer of QTIP property
occurred when Mr. Chuckrow died in New York.
Moreover, many of the cases cited by the appellant
in support of· its position were·decided
long before the evolution of state and
federal tax schemes that employ
complex fictions designed to effectuate
certain public policy - such as treating a
married couple as a single economic
unit while ensuring that tax schemes do
not form apertures through which it
would be possible to avoid taxation.

Brooks, 325 Conn. at 733.
These cases could not and did not consider the
various dispositive fictions created under the estate
tax statutes; indeed, contrary to the appellant’s

33a

argument, these fictions provide that the surviving
spouse is treated as the transferor of QTIP property.
First and foremost, Code § 2044(c) provides
that once the estate of the first-to-die spouse elects
QTIP treatment, the QTIP property is included in
surviving spouse’s estate and “shall be treated as
property passing from” the surviving spouse.
Because the QTIP property is treated as passing
from the surviving spouse, Code § 1014(b)(10)
provides that the remainder beneficiaries receive a
stepped-up basis in the QTIP assets to the value of
the assets as of the date of the surviving spouse’s
death. The surviving spouse is also treated as the
transferor of the full value of the QTIP property not
just the value of the income interest -- for gift tax
and generation-skipping tax purposes. See Code
§§ 2519 and 2652(a).
Further, although the treatment of Mrs.
Chuckrow as the transferor of the QTIP property
may have resulted from certain fictions under the
Code, there was nothing fictional about the benefit of
the complete deferral of State and Federal estate tax
upon Mr. Chuckrow’s death that resulted from the
application of the relevant fictions. Having received
the benefit of these fictions, the appellant cannot
now disavow the consequence of associated relevant
fictions upon Mrs. Chuckrows’ death. See Morgens,
678 F.3d at 776, n.7. (“The Estate cannot first use
that favorable tax deferral (the § 2056 marital
deduction) and then claim that the property never
actually passed to [the surviving spouse.]”). See also
General Mills, Inc. v. Commissioner of Revenue, 440
Mass. 154, 170 (2003) (holding that a taxpayer who
chose to accept the benefit of a “fictional” treatment
of a sale of stock as a deemed sale of assets under
Code § 338(h)(10) for Federal tax purposes could not
34a

re-characterize the transaction as a stock sale for
Massachusetts tax purposes, noting that “[t]here
was nothing ‘fictional’ about the effect of the election
for Federal tax purposes.”).
The Board therefore found and ruled that
Mrs. Chuckrow is properly treated as the transferor
of the QTIP property. Accordingly, the Board
rejected the appellant’s constitutional argument that
was based on the assertion that the sole transfer of
the QTIP assets took place outside of Massachusetts
and ruled that Massachusetts has the power to exact
an estate tax on the appellant’s transfer of the QTIP
assets.
II.

APPELLANT’S STATUTORY
ARGUMENT

The appellant’s statutory argument is based
on its reading of G.L. c. 65C, § 1(f) (“§ 1(f)”). The
appellant maintained that the definition of
“Massachusetts gross estate” under § 1(f) excludes
from Mrs. Chuckrow’s estate the value of the QTIP
assets because Mr. Chuckrow’s estate made a
Federal, but not a Massachusetts, QTIP election.
The operative language of § 1(f) defines the
“Massachusetts gross estate” as:
the federal gross estate . . . plus the
value of any property (i) in which the
decedent had at death a qualifying
income interest for life described in
subsection (c) of section three A . . . and
(ii) for which a deduction was allowed
for Massachusetts estate tax purposes
with respect to the transfer of such
property
to
the
decedent.
The
Massachusetts gross estate shall not
include the value of any property in

35a

which the decedent had a qualifying
income interest for life which is not
otherwise
includible
in
the
Massachusetts gross estate under the
first sentence of this paragraph,
notwithstanding the right of the
executor of the decedent’s estate to
recover federal or Massachusetts estate
taxes from such property.
In the appellant’s view, this language requires
that only QTIP property “for which a deduction was
allowed for Massachusetts estate tax purposes” may
be included in the Massachusetts gross estate of the
surviving spouse. Because Mr. Chuckrow’s estate did
not make a Massachusetts QTIP election, no
deduction was allowed to it for Massachusetts estate
tax purposes and, therefore, the appellant
maintained that the QTIP assets were not includable
in Mrs. Chuckrow’s Massachusetts gross estate.
In the appellant’s view, § 1(f) was enacted to
prevent the double taxation of QTIP assets in the
Massachusetts estates of both the first-to-die spouse
and the surviving spouse. Because, it reasoned, the
estate of the first-to-die spouse could make a Federal
election in an amount greater than its
Massachusetts QTIP election—particularly during
the time that Massachusetts allowed only a 50
percent marital deduction in contrast to the
unlimited Federal deduction—the Massachusetts
estate of the first-to-die spouse could include assets
that were not included in its Federal gross estate,
i.e., assets for which a Federal but not a
Massachusetts QTIP election was made. When the
surviving spouse dies, all of the QTIP assets for
which the estate of the first-to-die spouse made a
Federal QTIP election would be included in the
36a

Federal gross estate of the surviving spouse. If the
Massachusetts gross estate of the surviving spouse
was equal to its Federal gross estate, the QTIP
assets for which a Federal but not a Massachusetts
QTIP election had been made would be includible in
the surviving spouse’s estate and subject to a second
estate tax. Therefore, the appellant reasoned, § 1(f)
provides that only those QTIP assets for which a
Massachusetts deduction was allowed in the estate
of the first-to-die spouse are includible in the
Massachusetts gross estate of the surviving spouse.
The fatal flaw with the appellant’s analysis is
that § 1(f) defines a term—“Massachusetts gross
estate”—that is not found in the operative taxing
statute, § 2A. As detailed previously, because Mrs.
Chuckrow was a Massachusetts resident who died
on or after January 1, 1997, her estate is subject to
tax under § 2A. There is no reference to
“Massachusetts gross estate” in § 2A; rather, the
§ 2A tax is equal to the State tax credit that would
have been allowable to the appellant under the
provisions of the Code as in effect on December 31,
2000.
The term “Massachusetts gross estate” is,
however, used in G.L. c. 65C, § 3A, which deals with
the Massachusetts election of QTIP treatment by the
first-to-die spouse. Both, § 1(f) and § 3A were
enacted simultaneously in 1985 in response to the
Federal legislation in 1981 creating the QTIP
concept. See St. 1985, c. 711, §§ 5 and 11. These
provisions work in tandem: § 3A describes the
requirements for a Massachusetts QTIP election by
the first-to-die spouse and § 1(f) provides for the
Massachusetts state tax consequences to the
surviving spouse of a Massachusetts QTIP election.

37a

More specifically, in order for property to be
considered “qualified terminable interest property”
for Massachusetts estate tax purposes, § 3A
requires, inter alia, that the first-to-die spouse elect
Massachusetts QTIP treatment and that such
property must be “included in the Massachusetts
gross estate” of the first-to-die spouse and pass to
the surviving spouse. See § 3A(b). When the
surviving spouse dies, § 1(f) provides that if the
spouse had a qualifying income interest for life as
described in § 3A, then only property for which a
Massachusetts deduction had been allowed will be
taxable in the surviving spouse’s estate.
Therefore,
the
§
1(f)
definition
of
Massachusetts gross estate is applicable only where
the first-to-die spouse makes a Massachusetts QTIP
election for property that is included in the
Massachusetts gross estate of the first-to-die spouse
under § 3A. Where, as here, there was no
Massachusetts QTIP election by the first-to-die
spouse and no Massachusetts QTIP property as
defined in § 3A, neither § 1(f) nor § 3A has any
bearing on the appellant’s Massachusetts estate tax
obligation under § 2A.
Moreover, the double taxation of QTIP assets
that the appellant claimed § 1(f) was meant to
address is not a possibility under the facts of this
appeal.2 The QTIP assets were not included in Mr.
Chuckrow’s estate and were not subject to
Massachusetts tax prior to Mrs. Chuckrow’s death.
The appellant offered no reasoned basis to interpret
The appellant’s analysis of § 1(f) does not account for
situations like the present one where no part of the QTIP
assets were subject to Massachusetts estate tax on the death of
the first-to-die spouse.
2

38a

a statute that prevents double taxation of
Massachusetts QTIP property under limited
circumstances in a manner that prevents taxation of
the QTIP assets where no double taxation is possible
and the assets are, explicitly and exclusively taxable
under § 2A.
Accordingly, the Board found and ruled that
the appellant is taxable under the unambiguous
terms of § 2A(a) and there is no constitutional or
statutory impediment to the imposition of the
subject assessment. Therefore, the Board issued a
decision for the appellee in this appeal.
THE APPELLATE TAX BOARD
By: /s/ Thomas W. Hammond, Jr.
Thomas W. Hammond, Jr., Chairman
A true copy,
Attest” /s/
Clerk of the Board
Commissioner Scharaffa Dissenting.
As noted by the majority, the facts of this
appeal are not in dispute. Briefly, when the
decedent, Mrs. Chuckrow, died on August 14, 2011,
she was a resident of Massachusetts. Mrs. Chuckrow
had resided in Chappaqua, New York, with her late
husband, Mr. Chuckrow, who died on July 11, 1993.
In his will, Mr. Chuckrow established a QTIP trust
for the benefit of Mrs. Chuckrow that held intangible
assets (“Trust” and “QTIP assets,” as defined above).
The Trust was established federally under the Code
and in New York under applicable law.
Pursuant to the Trust, Mrs. Chuckrow was
entitled to all of the income from the Trust while she
lived, and distributions from the Trust’s principal,
39a

the latter at the sole discretion of the Trust’s
trustees. The trustees, the Chuckrows’ adult
daughters, were entitled to the remainder interest in
the Trust.
Following Mr. Chuckrow’s death, his estate
filed both Federal and New York estate tax returns,
claiming a marital deduction in the full amount of
the QTIP assets. The estate did not file a
Massachusetts estate tax return because Mr.
Chuckrow was not domiciled in Massachusetts at the
time of his death and owned no property in
Massachusetts. When Mrs. Chuckrow died, her
estate filed Federal and Massachusetts estate tax
returns, including the value of the QTIP assets in
her Federal gross estate, but excluding that value
from her “Total gross estate” on Massachusetts Form
M-706. Following an audit, the Commissioner of
Revenue issued an additional assessment based on a
calculation of estate tax that incorporated the value
of the QTIP assets.
Given the preceding facts, the Board found
and rule that upon Mrs. Chuckrow’s death, the QTIP
assets were properly included in the calculation of
Mrs. Chuckrow’s Massachusetts estate tax pursuant
to G.L. c. 65C, § 2A(a). In reaching their conclusion,
the Board rejected the appellant’s two principal
arguments, one of which was based on statutory
construction, and the other, constitutional principles
that the appellant asserted undermine the disputed
assessment. My concern lies primarily with the
appellant’s constitutional argument, which I believe
is dispositive and precludes inclusion of the QTIP
assets in Mrs. Chuckrow’s Massachusetts estate.
The majority correctly observes that estate
taxes are not a direct tax on the value of property

40a

but an excise on the privilege of transferring
property. Knowlton v. Moore, 178 U.S. 41 (1900); see
also Estate of Ackerley, 389 P.3d 583 (2017). The
parties to this appeal also agree that for state tax
purposes, a transfer of the QTIP assets occurred
upon Mr. Chuckrow’s death, tax on which was
deferred by virtue of a qualifying QTIP election.
There is a dispute, however, as to whether a taxable
transfer of the QTIP assets also occurred upon Mrs.
Chuckrow’s death. Unlike the majority, I believe
that the sole transfer occurred at the time of Mr.
Chuckrow’s
death,
a
conclusion
that
for
constitutional reasons fatally undermines the
Commissioner of Revenue’s assessment.
Although Mrs. Chuckrow was entitled to the
Trust’s income while she lived, as well as
distributions from the Trust’s principal at the sole
discretion of the Trust’s trustees, she had no power
or control whatsoever over the QTIP assets. Lacking
such power or control, there was nothing for Mrs.
Chuckrow to transfer with respect to the QTIP
assets upon her death. The true and only transfer,
and thus the only relevant taxable event, occurred
on the death of Mr. Chuckrow.
The Supreme Court of the State of
Washington addressed the question of when a
taxable transfer occurs in In re Estate of Bracken,
175 Wn.2d 549 (2012). In Bracken, the court
considered the Washington Department of Revenue’s
attempt to impose a tax on the estates of second-todie spouses attributable to QTIP trusts that had
been established by their spouses who had died first.
In 2006, the Washington legislature enacted a standalone estate tax and authorized the creation of a
Washington QTIP election. The first-to-die spouses
died, and their executors made Federal QTIP
41a

elections, before the enactment of the statute. The
court found that Washington could not impose a “tax
on the Federal QTIP trusts upon the deaths of the
second-to-die spouses in part because no taxable
transfer occurred upon their deaths. Id. at 575-76.
More particularly, the estate tax requires a transfer
of property to impose a tax; the transfer of assets of a
QTIP trust occurs when the first spouse dies; and
because no taxable transfer occurs at the surviving
spouse’s death, the state could not impose an estate
tax. See Id. The present appeal involves a similar
lack of a taxable transfer, but in the context of
impermissible extraterritorial taxation.
The due process clause of the Fourteenth
Amendment prohibits a state from imposing a tax on
a transaction that occurs entirely outside its borders.
“[T]he exaction by a State of a tax which it is without
power to impose is, a taking of property without due
process of law in violation of the Fourteenth
Amendment.” Frick v. Pennsylvania, 268 U.S. 473,
488-89 (1925). Frick hews to McCulloch v. Maryland,
17 U.S. 316, 429 (1819), in which the Court held that
the power to tax “is an incident of sovereignty, and is
co-extensive with that to which it is an incident. All
subjects over which the sovereign power of a state
extends, are objects of taxation; but those over which
it does not extend, are, upon the soundest principles,
exempt from taxation. This proposition may almost
be pronounced self-evident.” Id. at 429. Absent a
finding that a second transfer of the QTIP assets
occurred upon Mrs. Chuckrow’s death, the sole
transfer of the property at issue in this appeal
occurred outside of and was unrelated to
Massachusetts, and the disputed assessment does
not pass constitutional muster.

42a

In sum, for estate tax purposes, a transfer of
the QTIP assets occurred entirely outside of
Massachusetts upon the death of Mr. Chuckrow, a
New York resident who created a New York Trust.
Further, no additional transfer occurred upon Mrs.
Chuckrow’s death. Under these circumstances, the
Commissioner of Revenue’s assessment cannot be
upheld because it depends on Massachusetts
reaching beyond its sovereign powers in violation of
fundamental constitutional principles. Accordingly, a
decision should have been issued in favor of the
appellant.
By: /s/ Frank J. Scharaffa
Frank J. Scharaffa, Commissioner
A true copy,
Attest: /s/
Clerk of the Board

43a

The Commonwealth of Massachusetts
Appellate Tax Board

100 Cambridge Street, Suite 200
Boston, MA 02114

(617) 727-3100
(617) 727-6234 FAX

APR 29 2019

Leo J. Cushing, Esq.
Cushing & Dolan, P.C.
375 Totten Pond Road, Suite 200
Waltham, MA 02451
Re:
Christine M. Shaffer
Executrix of the Estate of Adelaide P.
Chuckrow v. Commissioner of Revenue
Docket No: C327773
Dear Sir,
Enclosed, please see copy of Findings of Fact
and Report promulgated by the Appellate Tax Board
in the above-entitled appeals.
Sincerely,
/s/
Clerk of the Board
Cc:

John J. Connors, Jr., Esq.
Department of Revenue
Litigation Bureau - 7th Floor
100 Cambridge Street
Boston, MA 02114

/lm

44a

APPENDIX 4
U.S.C.A. Const. Amend. XIV
AMENDMENT XIV. CITIZENSHIP;
PRIVILEGES AND IMMUNITIES; DUE
PROCESS; EQUAL PROTECTION;
APPOINTMENT OF REPRESENTATION;
DISQUALIFICATION OF OFFICERS; PUBLIC
DEBT; ENFORCEMENT
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
Section 2. Representatives shall be apportioned
among the several States according to their
respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed.
But when the right to vote at any election for the
choice of electors for President and Vice President of
the United States, Representatives in Congress, the
Executive and Judicial officers of a State, or the
members of the Legislature thereof, is denied to any
of the male inhabitants of such State, being twentyone years of age, and citizens of the United States, or
in any way abridged, except for participation in
rebellion, or other crime, the basis of representation
therein shall be reduced in the proportion which the
number of such male citizens shall bear to the whole
number of male citizens twenty-one years of age in
such State.

45a

Section 3. No person shall be a Senator or
Representative in Congress, or elector of President
and Vice President, or hold any office, civil or
military, under the United States, or under any
State, who, having previously taken an oath, as a
member of Congress, or as an officer of the United
States, or as a member of any State legislature, or as
an executive or judicial officer of any State, to
support the Constitution of the United States, shall
have engaged in insurrection or rebellion against the
same, or given aid or comfort to the enemies thereof.
But Congress may by a vote of two-thirds of each
House, remove such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion,
shall not be questioned. But neither the United
States nor any State shall assume or pay any debt or
obligation incurred in aid of insurrection or rebellion
against the United States, or any claim for the loss
or emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5. The Congress shall have power to enforce,
by appropriate legislation, the provisions of this
article.
<Section 1 of this amendment is further
displayed in separate documents according to
subject matter,>
<see USCA Const Amend. XIV, § 1-Citizens>
<see USCA
Privileges>

Const

Amend.

XIV,

§ 1-

<see USCA Const Amend. XIV, § 1-Due Proc>

46a

<see USCA Const Amend. XIV, § 1-Equal
Protect>
<sections 2 to 5 of this amendment are
displayed as separate documents,>
<see USCA Const Amend. XIV, § 2,>
<see USCA Const Amend. XIV, § 3,>
<see USCA Const Amend. XIV, § 4,>
<see USCA Const Amend. XIV, § 5,>
U.S.C.A. Const. Amend. XIV, § 1-Citizens
Section 1. Citizens of United States
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. * * *
<For complete text of Amend. XIV, see USCA
Const Amend. XIV-Full Text>
<Section 1 of this amendment is further
displayed in separate documents according to
subject matter,>
<see USCA
Privileges>

Const

Amend.

XIV,

§ 1-

<see USCA Const Amend. XIV, § 1-Due Proc>
<see USCA Const Amend. XIV, § 1-Equal
Protect>
U.S.C.A. Const. Amend. XIV, § 1-Privileges
Section 1. Privileges and Immunities
* * * No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; * * *

47a

<For complete text of Amend. XIV, see USCA
Const Amend. XIV-Full Text>
<Section 1 of this amendment is further
displayed in separate documents according to
subject matter,>
<see USCA Const Amend. XIV, § 1-Citizens>
<see USCA Const Amend. XIV, § 1-Due Proc>
<see USCA Const Amend. XIV, § 1-Equal
Protect>
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process are
displayed in multiple documents.>
* * * nor shall any State deprive any person of life,
liberty, or property, without due process of law; * * *
<For complete text of Amend. XIV, see USCA
Const Amend. XIV-Full Text>
<Section 1 of this amendment is further
displayed in separate documents according to
subject matter,>
<see USCA Const Amend. XIV, § 1-Citizens>
<see USCA
Privileges>

Const

Amend.

XIV,

§ 1-

<see USCA Const Amend. XIV, § 1-Equal
protection of the laws>
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process in
General are displayed in multiple documents.
For text, historical notes, and references, see
48a

first document for USCA Const Amend. XIV,
§ 1-Due Proc. >
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process are
displayed in multiple documents. For text of
due process clause, historical notes, and
references, see first document for USCA
Const Amend. XIV, § 1-Due Proc.>
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process are
displayed in multiple documents. For text of
due process clause, historical notes, and
references, see first document for USCA
Const Amend. XIV, § 1-Due Proc.>
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due Process of law
<Notes of Decisions for Due Process are
displayed in multiple documents. For text of
due process clause, historical notes, and
references, see first document for USCA
Const Amend. XIV, § 1-Due Proc.>
U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process are
displayed in multiple documents. For text of
due process clause, historical notes, and
references, see first document for USCA
Const Amend. XIV, § 1-Due Proc.>

49a

U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law
<Notes of Decisions for Due Process are
displayed in multiple documents. For text of
due process clause, historical notes, and
references, see first document for USCA
Const Amend. XIV, § 1-Due Proc.>
U.S.C.A. Const. Amend. XIV, § 1-Equal Protect
Section 1. Equal protection of the laws
<Notes of Decisions for Equal Protection are
displayed in three separate documents. Notes
of Decisions for roman heads I through XIII
are contained in this document. Notes of
Decisions for roman heads XIV through LIII
are contained in the second document for
USCA Const Amend. XIV, § 1-Equal
Protection. For Notes of Decisions for roman
heads LIV through LXXVIII, see third
document for USCA Const Amend. XIV, § 1Equal Protection.>
* * * nor deny to any person within its jurisdiction
the equal protection of the laws.
<For complete text of Amend. XIV, see USCA
Const Amend. XIV-Full Text>
<Section 1 of this amendment is further
displayed in separate documents according to
subject matter,>
<see USCA Const Amend. XIV, § 1-Citizens>
<see USCA
Privileges>

Const

Amend.

XIV,

§ 1-

<see USCA Const Amend. XIV, § 1-Due Proc>

50a

U.S.C.A. Const. Amend. XIV, § 1-Equal Protect
Section 1. Equal Protection of the laws
<Notes of Decisions for Equal Protection are
displayed in three separate documents. Notes
of Decisions for roman heads XIV through
LIII are contained in this document. For text
of amendment and Notes of Decisions for
roman heads I through XIII, see first
document for USCA Const Amend. XIV, § 1Equal Protection. For Notes of Decisions for
roman heads LIV through LXXVIII, see third
document for USCA Const Amend. XIV, § 1Equal Protection.>
U.S.C.A. Const. Amend. XIV, § 1-Equal Protect
Section 1. Equal Protection of the laws
<Notes of Decisions for Equal Protection are
displayed in three separate documents. Notes
of Decisions for roman heads LIV through
end are contained in this document. For text
of amendment and Notes of Decisions for
roman heads I through XIII, see first
document for USCA Const Amend. XIV, § 1Equal Protection. For Notes of Decisions for
roman heads XIV through LIII, see second
document for USCA Const Amend. XIV, § 1Equal Protection.>
U.S.C.A. Const. Amend. XIV, § 2
Section 2. Apportionment of Representatives
Representatives shall be apportioned among the
several States according to their respective numbers,
counting the whole number of persons in each State,
excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for

51a

President and Vice President of the United States,
Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or
other crime, the basis of representation therein shall
be reduced in the proportion which the number of
such male citizens shall bear to the whole number of
male citizens twenty-one years of age in such State.
<For complete text of Amendment XIV, see
USCA Const Amend. XIV-Full Text>
U.S.C.A. Const. Amend. XIV, § 3
Section 3. Disqualification as Officers or Electors
of Persons Who Have Engaged in Insurrection or
Rebellion; Removal of Disability
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President,
or hold any office, civil or military, under the United
States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
State legislature, or as an executive or judicial
officer of any State, to support the Constitution of
the United States, shall have engaged in
insurrection or rebellion against the same, or given
aid or comfort to the enemies thereof. But Congress
may by a vote of two-thirds of each House, remove
such disability.
<For complete text of Amendment XIV, see
USCA Const Amend. XIV-Full Text>

52a

U.S.C.A. Const. Amend. XIV, § 4
Section 4. Validity of Public Debt; Debts for
Payment of Pensions or Bounties in Suppressing
Insurrection; Payment of Obligations Incurred in
Aid of Insurrection or Claims for Emancipation of
Slaves
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against
the United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
<For complete text of Amendment XIV, see
USCA Const Amend. XIV-Full Text>
U.S.C.A. Const. Amend. XIV, § 5
Section 5. Legislation for Enforcement of Article
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.
<For complete text of Amendment XIV, see
USCA Const Amend. XIV-Full Text>
U.S.C.A. Const. Amend. XIV, § 5, USCA CONST
Amend. XIV, § 5
Current through P.L. 116-158. Some statute sections
may be more current, see credits for details.

53a

APPENDIX 5
M.G.L.A. Pt. I, T. IX, Ch. 65C, Refs & Annos
M.G.L.A. Pt. I, T. IX, Ch. 65C, Refs & Annos, MA ST
Pt. I, T. IX, Ch. 65C, Refs & Annos
Current through Chapter 88 of the 2019 1st Annual
Session
M.G.L.A. 65C § 1
§ 1. Definitions
When used in this chapter the following words or
terms shall have, unless the context clearly indicated
otherwise, the following meanings:-(a) “Code”, the Internal Revenue Code of the United
States, as amended and in effect on January first,
nineteen hundred and seventy-five.1
(b) “Commissioner”, the commissioner of revenue.
<[ There is no subsection (c).]>
(d) “Federal gross estate”, the gross estate as defined
under the Code except that, (1) notwithstanding
section two thousand and thirty-five of the Code,2
the value of the gross estate shall include the value
of all property to the extent of any interest therein of
which the decedent has at any time made a transfer,
relinquished a power, or exercised or released a
general power of appointment, except in case of a
bona fide sale for an adequate and full consideration
in money or money’s worth, by trust or otherwise,
during the three year period ending with the date of
the decedent’s death; provided, however, that the
value of such property or interest therein so
transferred or subject to the power so relinquished,
1
2

26 U.S.C.A. § 1 et seq.
26 U.S.C.A. § 2035.

54a

exercised or released exceeds ten thousand dollars
for any person during a calendar year; and (2)
notwithstanding section two thousand and forty of
the Code,3 one-half of the value of any interest in
any property shall be included in the gross estate if
such interest is held by the decedent and the
decedent’s spouse as tenants by the entirety, or joint
tenants with right of survivorship, but only if the
decedent and the spouse of the decedent are the only
joint tenants.
(e) “Massachusetts adjusted gross estate”, the
Massachusetts gross estate less the deductions
allowable under section three pursuant to sections
two thousand and fifty-three and two thousand and
fifty-four of the Code.4
(f) “Massachusetts gross estate”, the federal gross
estate, whether or not a federal estate tax return is
required to be filed, plus the value of any property (i)
in which the decedent had at death a qualifying
income interest for life described in subsection (c) of
section three A, or to the extent of any such interest
therein of which the decedent has at any time made
a transfer, by trust or otherwise, under any
circumstances which would require the property to
be included in the gross estate under the provisions
of this chapter and (ii) for which a deduction was
allowed for Massachusetts estate tax purposes with
respect to the transfer of such property to the
decedent; and less the value of real and tangible
personal property having an actual situs outside the
commonwealth. The Massachusetts gross estate
shall not include the value of any property in which
the decedent had a qualifying income interest for life
3
4

26 U.S.C.A. § 2040.
26 U.S.C.A. §§ 2053, 2054.

55a

which is not otherwise includible in the
Massachusetts gross estate under the first sentence
of this paragraph, notwithstanding the right of the
executor of the decedent’s estate to recover federal or
Massachusetts estate taxes from such property.
(g) “Massachusetts net estate”, the Massachusetts
gross estate less the following deductions to the
extent they are allowable under section three: (1)
funeral expenses; (2) claims against the estate; and
(3) unpaid mortgages on, or any indebtedness in
respect of, property where the value of the decedent’s
interest therein, undiminished by such mortgage or
indebtedness, is included in the value of the
Massachusetts gross estate.
(h)
“Massachusetts
taxable
estate”,
the
Massachusetts gross estate less the exemption and
deductions allowable under section three.
(i) “Resident”,
commonwealth.

any

person

56a

domiciled

in

the

M.G.L.A. 65C § 2
§ 2. Computation of estate tax
(a) A tax computed in accordance with the following
table less the credit, if any, provided in subsection
(a) of section three, is hereby imposed on the transfer
of the Massachusetts taxable estate of every
deceased resident of Massachusetts:-The Massachusetts
If the Massachusetts
estate tax shall be:
taxable estate is:

Over

But not over

0

50,000

5% of the
taxable estate

50,000

100,000

$ 2,500 plus
7% of the
excess over

$ 50,000

100,000

200,000

$ 6,000 plus
9% of the
excess over

$ 100,000

200,000

400,000

$ 15,000 plus $ 200,000
10% of the
excess over

57a

400,000

600,000

$ 35,000 plus $ 400,000
11% of the
excess over

600,000

800,000

$ 57,000 plus $ 600,000
12% of the
excess over

800,000

1,000,000 $ 81,000 plus $ 800,000
13% of the
excess over

1,000,000

2,000,000 $107,000 plus $1,000,000
14% of the
excess over

2,000,000

4,000,000 $247,000 plus $2,000,000
15% of the
excess over

4,000,000

$547,000 plus $4,000,000
16% of the
excess over

; provided, however, that the tax under this
subsection shall not be greater than twenty per cent
of the amount by which the Massachusetts net
estate exceeds the exemption given at subsection (a)
of section three.

58a

(b) If the maximum credit for state death taxes
allowable to the estate of a deceased resident or
nonresident against the federal estate tax, computed
according to the rate schedule found in section two
thousand and eleven of the Code1 based upon an
amount equal to the Massachusetts taxable estate,
computed, with respect to a nonresident, as if the
decedent had been a resident and apportioned in
accordance with subsection (b) of section four,
exceeds the tax imposed under subsection (a), the
amount of such excess shall be added to the tax
imposed under said subsection (a). In the case of a
decedent who was a nonresident of the United
States, however, the Massachusetts taxable estate
shall be computed as if such decedent had been a
resident without apportionment in accordance with
subsection (b) of section four. For purposes of this
subsection, the Massachusetts taxable estate shall
include the value of any property subject to a power
of appointment to the extent that such value has
been excluded from the computation in said
subsection (a) because a tax had been paid thereon
pursuant to section fourteen of chapter sixty-five and
shall also include the value of qualified terminable
interest property, as defined in subsection (b)(7)(B)
of section two thousand and fifty-six of the Internal
Revenue Code2 in effect on January first, nineteen
hundred and eighty-five, to the extent that such
property has been included in the gross estate of the
decedent as finally determined for federal estate tax
purposes but has not been included in the gross
estate of the decedent for Massachusetts estate tax
purposes, in each case less the deductions described
in subsection (b) of section three attributable thereto
1
2

26 U.S.C.A. § 2011.
26 U.S.C.A. § 2056.

59a

and the value of real and tangible personal property
includible therein and having an actual situs outside
the commonwealth.
(c) The provisions of this section shall apply to
decedents dying on or before December thirty-first
nineteen hundred and ninety-six.

60a

M.G.L.A. 65C § 2A
§ 2A. Transfer of estate and real property; tax
(a) A tax is hereby imposed upon the transfer of the
estate of each person dying on or after January 1,
1997 who, at the time of death, was a resident of the
commonwealth. The amount of the tax shall be the
sum equal to the amount by which the credit for
state death taxes that would have been allowable to
a decedent’s estate as computed under Code section
2011, as in effect on December 31, 2000, hereinafter
referred to as the “credit”, exceeds the lesser of:
(i) the aggregate amount of all estate, inheritance,
legacy and succession taxes actually paid to the
several states of the United States, other than the
commonwealth, in respect to any property owned by
that decedent or subject to those taxes as part of or
in connection with his estate; or
(ii) an amount equal to the proportion of such
allowable credit as the value of properties taxable by
other states bears to the value of the entire federal
gross estate wherever situated.
(b) A tax is hereby imposed upon the transfer of real
property situated in this Commonwealth and upon
tangible personal property having an actual situs in
this Commonwealth of every person who at the time
of his death was not a resident of this
Commonwealth. The amount of this tax is a sum
equal to the proportion of the credit which the value
of Massachusetts real and tangible personal
property taxed in this Commonwealth which
qualifies for such credit bears to the value of the
decedent’s total federal gross estate.
(c) Notwithstanding any other provision of law, the
tax imposed by subsections (a) and (b) shall be
61a

computed upon the value of any property subject to a
power of appointment which is includible in the
federal gross estate, notwithstanding that a tax has
been paid thereon pursuant to section fourteen of
chapter sixty-five.1
(d) For the purposes of computing the tax imposed by
subsections (a) and (b), the provisions of section
three shall not apply.
(e) For the estate of decedents dying on or after
January 1, 2003, all references and provisions in this
chapter to the Internal Revenue Code or Code,
unless the context clearly indicates otherwise, shall
be to the Code as in effect on December 31, 2000.

1

Suspended; see 65C App. § 14.

62a

M.G.L.A. 65C § 3
§ 3. Exemption and deductions
(a) An exemption equal to the Massachusetts net
estate shall be allowed if the Massachusetts net
estate is three hundred thousand dollars or less for
decedents dying after December thirty-first,
nineteen hundred and ninety-two and on or before
December thirty-first, nineteen hundred and ninetythree; four hundred thousand dollars or less for
decedents dying after December thirty-first,
nineteen hundred and ninety-three and on or before
December thirty-first, nineteen hundred and ninetyfour; five hundred thousand dollars or less for
decedents dying after December thirty-first,
nineteen hundred and ninety-four and on or before
December thirty-first, nineteen hundred and ninetyfive; and six hundred thousand dollars or less for
decedents dying after December thirty-first,
nineteen hundred and ninety-five and on or before
December thirty-first, nineteen hundred and ninetysix; provided, that the exemption shall not exceed an
amount equal to the smallest federal taxable estate
that absorbs the allowable federal credit under
section two thousand and ten of the Internal
Revenue Code as amended and in effect as of the
date of death of the decedent. Except for purposes of
the final clause of subsection (a) of section two of
chapter sixty-five C, if the Massachusetts net estate
exceeds the amount of the exemption, no exemption
shall apply.
(b) In addition to the exemption provided in
subsection (a), the deductions allowable in
computing the Massachusetts taxable estate shall
consist of the deduction or portions thereof, other
than the exemption found in section two thousand

63a

and fifty-two of the Code,1 which are allowable in
determining the federal taxable estate and which are
attributable
to
property
included
in
the
Massachusetts gross estate; provided, however, that
the deduction for property which has passed or
passes to a surviving spouse shall not be limited by
subsection (c) of section two thousand and fifty-six of
the Code. No deduction for interest shall be allowed
hereunder unless the same has been paid or has,
solely through the passage of time, accrued within
three years from the due date of the return, without
regard to any extension granted.
(c) Notwithstanding the provisions of subsection (b)
or any general or special law to the contrary, if a
deduction from any federal estate tax would not be
allowed because of a failure to meet the
requirements set forth pursuant to section two
thousand and fifty-five of the Code2 in effect on
January first, nineteen hundred and eighty-five, and
if the relevant governing instrument is the subject of
a qualified reformation as hereinafter defined as a
result of which a deduction under said section two
thousand and fifty-five would be allowable from any
federal estate tax, then a similar deduction shall be
allowed from any tax imposed pursuant to this
chapter to the extent that it can be attributed to
property included in the Massachusetts gross estate.
For purposes of this subsection, the term “qualified
reformation” shall mean a change of a governing
instrument which is a qualified reformation as
defined in section two thousand and fifty-five (e) of
the Internal Revenue Code3 in effect on January
first, nineteen hundred and eighty-five.
26 U.S.C.A. § 2052 (repealed).
26 U.S.C.A. § 2055.
3 26 U.S.C.A. § 2055(e).
1
2

64a

(d) If the right to claim any deduction otherwise
allowable is waived for federal estate tax purposes,
such right shall be considered waived for
Massachusetts estate tax purposes.

65a

M.G.L.A. 65C § 3A
§ 3A. Qualified terminable interest property
(a) In the case of qualified terminable interest
property, (i) for purposes of subsection (a) of section
two thousand and fifty-six of the Code,1 such
property shall be treated as passing to the surviving
spouse, and (ii) for purposes of subsection (b)(1)(A) of
section two thousand and fifty-six of the Code,2 no
part of such property shall be treated as passing to
any person other than the surviving spouse;
provided, however, that a deduction with respect to
such terminable interest property shall not be
limited by subsection (c) of section two thousand and
fifty-six of the Code.
(b) For purposes of this section, the term “qualified
terminable interest property” shall mean property (i)
which is included in the Massachusetts gross estate,
(ii) which passes from the decedent, (iii) in which the
surviving spouse has a qualifying income interest for
life, and (iv) to which an election under this section
applies.
(c) The surviving spouse has a qualifying income
interest for life if (i) the surviving spouse is entitled
to all the income from the property, payable
annually or at more frequent intervals, and (ii) no
person has a power to appoint any part of the
property to any person other than the surviving
spouse. Clause (ii) of this subsection shall not apply
to a power exercisable only at or after the death of
the surviving spouse.
(d) The term “property” includes an interest in
property.
1
2

26 U.S.C.A. § 2056(a).
26 U.S.C.A. § 2056(b)(1)(A).

66a

(e) A specific portion of property shall be treated as
separate property.
(f) An election under this section with respect to any
property shall be made by the executor on the
Massachusetts estate tax return filed within the
time prescribed for filing such return, or any
extension of such time granted by the commissioner,
to have the property treated as qualified terminable
interest property for Massachusetts estate tax
purposes. Such election, once made, shall be
irrevocable and shall be separate from and
independent of any election made by the executor for
federal estate tax purposes.
(g) If the surviving spouse of the decedent is the only
noncharitable beneficiary of a qualified charitable
remainder trust, subsection (b)(1) of section two
thousand and fifty-six of the Code3 shall not apply to
any interest in such trust which passes or has
passed from the decedent to such surviving spouse.
For purposes of the preceding sentence, the term
“noncharitable beneficiary” shall mean any
beneficiary of the qualified charitable remainder
trust other than an organization described in
subsection (c) of section one hundred and seventy of
the Code4 and the term “qualified charitable
remainder trust” shall mean a charitable remainder
annuity trust or charitable remainder unitrust as
described in section six hundred and sixty-four of the
Code.5
(h) Nothing in this section or any other provision of
this chapter shall allow the value of any interest in

26 U.S.C.A. § 2056(b)(1).
26 U.S.C.A. § 170(c).
5 26 U.S.C.A. § 664.
3
4

67a

property to be deducted under this chapter more
than once with respect to the same decedent.
M.G.L.A. 65C § 4
§ 4. Nonresident decedents; tax on certain
property located in commonwealth
(a) A tax is hereby imposed on the transfer of a
nonresident decedent’s real and tangible personal
property having an actual situs in Massachusetts, if
such property would have been included in the
Massachusetts gross estate had the decedent been a
resident.
(b) The tax imposed under subsection (a) shall be an
amount which bears the same ratio to the tax that
would be due if the decedent had been a resident as
(i) the value of all real and tangible personal
property, diminished by any mortgage or lien
thereon, having an actual situs in Massachusetts,
the transfer of which is subject to tax under said
subsection (a) bears to (ii) the value of the decedent’s
Massachusetts gross estate, diminished by any
mortgage or lien or property included therein,
determined as if he had been a resident.
M.G.L.A. 65C § 4A
§ 4A. Generation-skipping transfers
(a) When used in this section, the following words
shall, unless the context indicates otherwise, have
the following meanings:-(1) “Generation-skipping transfer”, every transfer
subject to the federal generation-skipping transfer
tax in which the original transferor is a resident of
the commonwealth at the date of original transfer or
the property transferred is real or personal property
in the commonwealth.

68a

(2) “Original transferor”, any grantor, donor, settlor
or testator who by grant, gift, trust or will makes a
transfer of real or personal property that results in a
federal generation-skipping transfer tax.
(b) A tax is hereby imposed upon every generationskipping transfer in which the original transferor is
a resident of the commonwealth at the date of
original transfer, in an amount equal to the amount
allowable as a credit for state death taxes under
section twenty-six hundred and two of the Internal
Revenue Code of the United States in effect on
December thirty-first, nineteen hundred and eightyone.
(c) A tax is hereby imposed upon every generationskipping transfer in which the original transferor is
not a resident of the commonwealth at the date of
the original transfer but in which the property
transferred includes real or personal property in the
commonwealth, in an amount equal to the amount
allowable as a credit for state death taxes under
section twenty-six hundred and two of the Internal
Revenue Code of the United States in effect on
December thirty-first, nineteen hundred and eightyone.
(d) Every person required to file a return reporting a
generation-skipping transfer under applicable
federal law and regulations shall file with the
commissioner, on or before the last day prescribed
for filing the federal return, a return in such form as
the commissioner may prescribe, including a
duplicate copy of the federal return.
(e) The person liable for payment of the federal
generation-skipping transfer tax shall be liable for
the tax imposed by this section, which tax is due
upon a taxable distribution or taxable termination as

69a

determined under the applicable provisions of the
federal generation-skipping transfer tax, and shall
be paid to the commissioner.
(f) Any person failing to file any payment of tax
required by this section when due shall be subject to
the interest and penalty provisions under sections
thirty-two and thirty-three of chapter sixty-two C.
(g) If, after a duplicate copy of the federal return of a
generation-skipping transfer has been filed with the
commissioner, the amount of the federal generationskipping transfer tax is increased or decreased by
the federal government, an amended return shall be
filed with the commissioner showing all changes
made in the original return and the amount of
increase or decrease in the federal generationskipping transfer tax and in the state death tax
credit relating thereto.

70a

M.G.L.A. 65C § 5
§ 5. Valuation; gross estate
(a) Property in the Massachusetts gross estate shall
be valued as of the date of death of the decedent;
provided, however, that if an alternate valuation has
been properly elected for purposes of the federal
estate tax in accordance with section two thousand
and thirty-two of the Code1 in effect on January first,
nineteen hundred and eighty-five the property in the
Massachusetts gross estate shall be valued as of the
dates used for federal estate tax valuation purposes;
and provided, further, that if no federal estate tax is
payable under federal estate tax laws applicable to
the decedent’s estate, whether or not a federal estate
tax return is required to be filed, the executor may
elect to value the property in the Massachusetts
gross estate on the alternate valuation dates and in
the manner provided under the provisions of section
two thousand and thirty-two of said Code on the
Massachusetts estate tax return.
(b) The value of an annuity, a life estate or an
interest in property less than an absolute interest
shall be determined in accordance with the actuarial
tables in effect as of the decedent’s death under
section two thousand and thirty-one of the Code2 in
effect on January first, nineteen hundred and eightyfive at such time and regulations issued thereunder.
(c) If the gross estate of a decedent dying on or before
December 31, 2018 includes real property devoted to
use as a farm for farming purposes, the estate may
elect to value such property in accordance with

1
2

26 U.S.C.A. § 2032.
26 U.S.C.A. § 2031.

71a

section 2032A of the Code3 in effect on January 1,
1985. If a federal return is required to be filed, such
election shall be consistent with the election made
for federal estate tax purposes. All substantive and
procedural provisions of said section 2032A shall,
insofar as pertinent and consistent, apply to such
election. The commissioner shall promulgate
regulations to carry out this subsection.
(d)(1) As used in this subsection, the following words
shall have the following meanings unless the context
clearly requires otherwise:
“Applicable date”, the date upon which the 10-year
period that the estate shall be liable for assessment
under paragraph (4) begins; provided, however, that
for qualifying agricultural and associated land, the
applicable date shall be the date of death of the
decedent; and provided further, that for qualifying
noncommitted land, the applicable date shall be 2
years from the date of death of the decedent.
“Associated land”, land under the same ownership as
and contiguous to qualifying agricultural land and
which, as of the date of death of the decedent, is not
committed to residential, industrial or commercial
use; provided, however, that land shall be deemed
contiguous if it is separated from other land under
the same ownership only by a public or private way
or waterway; provided further, that land under the
same ownership shall be deemed contiguous if it is
connected to other land under the same ownership
by an easement for water supply; and provided
further, that any such land in excess of 100 per cent
of the acreage of qualifying agricultural land shall be
deemed qualifying noncommitted land.
3

26 U.S.C.A. § 2032A.

72a

“Closely-held
agricultural
land”,
qualifying
agricultural and associated land and qualifying
noncommitted land for which an election is made
under this subsection.
“Qualifying agricultural land”, land which meets the
definition of forest land under chapter 61, land
actively devoted to agricultural, horticultural or
agricultural and horticultural uses under chapter
61A and recreational land under chapter 61B that is
also used for farming or agriculture as defined in
section 1A of chapter 128 and has been devoted to
any such use for not less than 2 of the tax years
immediately preceding the death of the decedent;
provided, however, that the land need not be
classified by municipal assessors as forest land
under chapter 61, land actively devoted to
agricultural or horticultural or agricultural and
horticultural uses under said chapter 61A or
recreational land under said chapter 61B to qualify
for valuation as closely-held agricultural land under
this subsection.
“Qualifying noncommitted land”, land that is not
qualifying agricultural land and is not committed to
residential, industrial or commercial use, including
associated land in excess of 100 per cent of the
acreage of qualifying agricultural land.
“Savings”, the difference between the estate taxes
paid as a result of an election made under this
subsection and the estate taxes that would have
otherwise been paid had the election not been made.
(2) If the gross estate of a decedent dying on or after
January 1, 2019 includes real property that is
qualifying agricultural land, associated land or
qualifying noncommitted land, the estate may elect
to value such property, or any portion thereof, as

73a

closely-held agricultural land pursuant to the
valuation set by the farmland valuation advisory
commission established in section 11 of chapter 61A
for the fiscal year of the most recent growing season.
The value of closely-held agricultural land as
determined pursuant to such election shall only be
for the purpose of computing the tax due under this
chapter. Such election shall be subject to paragraphs
(3) to (6), inclusve.4
(3) Unless the property is restricted by a
nondevelopment covenant that: (i) is approved by the
commissioner of agriculture; (ii) is for the purposes
of maintaining the land in agricultural use; (iii)
precludes non-agricultural development of the land;
(iv) is recorded at the registry of deeds in the
counties or districts in which the property is located;
and (v) does not expire within 10 years of the
applicable date, the commissioner shall forthwith
cause to be recorded in the registry of deeds of the
counties or districts in which the property is situated
a statement which shall constitute a lien upon the
land covered by election under this subsection. The
statement shall include any owners of record, the
savings as a result of such election, the fair market
value of the property and a description of the land
adequate for identification. Unless such a statement
is recorded, the lien shall not be effective with
respect to a bona fide purchaser or other transferee
without actual knowledge of the lien. Upon
application by a record owner, any such lien shall be
released by the commissioner with respect to that
property upon the facts being established by record
or by affidavit or otherwise that all assessments
have been paid or unless it is more than 10 years
4

So in enrolled bill; probably should read, “inclusive”.

74a

past the applicable date and no assessment is due.
All recording fees paid under this subsection,
whether for statements of liens, certificates, releases
or otherwise, shall be borne by the owner of record of
the land.
Property restricted by an agricultural preservation
restriction as defined in section 31 of chapter 184
that is signed by the commissioner of agriculture
shall be deemed to be restricted by a
nondevelopment covenant if the restriction: (i) is
approved by the commissioner of agriculture; (ii) is
for the purposes of maintaining the land in
agricultural use; (iii) precludes non-agricultural
development of the land; (iv) is recorded at the
registry of deeds in the counties or districts in which
the property is located; and (v) does not expire
within 10 years of the applicable date.
(4)(i) When land valued as closely-held agricultural
land under this subsection within a period of 10
years from the applicable date is sold for other use or
no longer qualifies as closely-held agricultural land,
any owners shall immediately notify the
commissioner of such sale or change of use and an
assessment shall be due to the commonwealth. Such
assessment shall be calculated with interest based
on the date of sale for other use or based on the last
date of use as closely-held agricultural land as
specified in this paragraph.
The assessment shall be equal to 100 per cent of the
savings if such date is not more than 1 year after the
applicable date; 90 per cent of the savings if such
date is more than 1 year but not more than 2 years
after the applicable date; 80 per cent of the savings if
such date is more than 2 years but not more than 3
years after the applicable date; 70 per cent of the

75a

savings if such date is more than 3 years but not
more than 4 years after the applicable date; 60 per
cent of the savings if such date is more than 4 years
but not more than 5 years after the applicable date;
50 per cent of the savings if such date is more than 5
years but not more than 6 years after the applicable
date; 40 per cent of the savings if such date is more
than 6 years but not more than 7 years after the
applicable date; 30 per cent of the savings if such
date is more than 7 years but not more than 8 years
after the applicable date; 20 per cent of the savings if
such date is more than 8 years but not more than 9
years after the applicable date; 10 per cent of the
savings if such date is more than 9 years but not
more than 10 years after the applicable date. No
assessment shall be due if such date is more than 10
years from the applicable date.
Such assessment shall also include interest
calculated at a simple interest rate of 5 per cent per
annum on the savings from the applicable date.
There shall be an additional assessment equal to 30
per cent of the savings if the date of sale for other
use or the last date of use while qualified as closelyheld agricultural land occurs not more than 1 year of
the applicable date and 15 per cent of the savings if
such date occurs more than 1 year but not more than
2 years after the applicable date.
(ii) If an election has been made with respect to: (A)
qualifying non-committed land which, on the
applicable date, fails to meet the definition of forest
land under chapter 61; (B) land actively devoted to
agricultural or horticultural or agricultural and
horticultural uses under chapter 61A; or (C)
recreational land under chapter 61B that is also
used for farming or agriculture as defined in section

76a

1A of chapter 128, an assessment shall be due to the
commonwealth and payable by the owners not more
than 30 days of the applicable date; provided,
however, that the land need not be classified by
municipal assessors as forest land under said
chapter 61, land actively devoted to agricultural or
horticultural or agricultural and horticultural uses
under said chapter 61A or recreational land under
said chapter 61B. Such assessment shall be equal to
the sum of: (I) 100 per cent of the savings; (II)
interest calculated at a simple interest rate of 5 per
cent per annum on the savings from the date of
death of the decedent; and (III) an additional
assessment equal to 30 per cent of the savings.
(iii) Notwithstanding this paragraph, there shall be
no assessment if the land involved, or a lesser
interest in the land involved, is acquired for a
natural resource by the commonwealth or by a
nonprofit conservation organization; provided,
however, that if any portion of the land is sold or
converted to commercial, residential or industrial
use not more than 10 years after the applicable date
by a nonprofit conservation organization, an
assessment shall be imposed against the nonprofit
conservation organization in the amount that would
have been imposed at the time of acquisition of the
subject parcel by the nonprofit conservation
organization had the transaction been subject to an
assessment or, in the case of qualifying noncommitted land acquired by a nonprofit conservation
organization before the applicable date, the amount
that would have been imposed on the applicable date
under subparagraph (ii).
(iv) In the case of sale for other use of closely-held
agricultural
land,
other
than
qualifying
noncommitted land sold for other use before the
77a

applicable date, assessments imposed by this
subsection shall be due and payable by the grantor
at the time of transfer of the property by deed or
other instrument of conveyance. In the case of
qualifying non-committed land sold for other use
before the applicable date, assessments imposed by
this subsection shall be due and payable by the
grantor on the applicable date. In the case of change
to a non-qualifying use, assessments imposed by this
subsection shall be due and payable by the owners
not more than 30 days after the last date of use as
closely-held agricultural land, regardless of the date
on which the commissioner was notified by the
owners of such change of use.
(v) An assessment shall only be imposed under this
subsection on that portion of the land on which the
use has changed. If, by conveyance or other action of
the owner thereof, a portion of land which is valued
as closely-held agricultural land under this
subsection is separated for other use, the land so
separated shall be subject to liability for assessment,
interest and additional assessment under this
paragraph based on the proportion that the acreage
of the land so separated bears to the total acreage of
the land valued as closely-held agricultural land
under this subsection.
(5) All buildings located on land which is valued as
closely-held agricultural land under this subsection
and all land occupied by a dwelling or regularly used
for family living shall not be valued as provided in
this subsection.
(6) The commissioner shall promulgate regulations
to carry out this subsection.

78a

M.G.L.A. 65C § 6
§ 6. Executor’s liability for tax
(a) The tax imposed by this chapter shall be paid by
the executor. The term “executor”, wherever used in
this chapter, means the executor or administrator of
the decedent, or, if there is no executor or
administrator appointed, qualified and acting within
the commonwealth, then any person in actual or
constructive possession of any property of the
decedent. The probate court may authorize an
executor to sell so much of the property of the estate
as will enable him to pay such tax in the same
manner as it may authorize him to sell such
property for the payment of debts.
(b) No final account of an executor of any estate shall
be allowed by the probate court unless and until the
executor shall have filed in the probate court a
certificate of the commissioner showing either that
the amount of the tax has been paid, that payment
thereof has been secured as provided in section ten,
or that no tax is due. For dates of death on or after
January 1, 1997, said certificate of the commissioner
shall not be required.
M.G.L.A. 65C § 7
§ 7. Discharge of executor’s personal liability
If the executor makes a written application,
accompanied by a copy of the final determination of
federal estate tax liability, to the commissioner for
determination of the amount of the tax and
discharge from personal liability therefor, the
commissioner, as soon as possible, and in any event
within one year after the making of such application,
or, if the application is made before the return is
filed, then within one year after the return is filed,
79a

shall notify the executor of the amount of the tax.
The executor, on payment of the amount of which he
is notified, shall be discharged from personal
liability for any deficiency in tax thereafter found to
be due, and shall be entitled to a receipt or writing
showing such discharge.
M.G.L.A. 65C § 8
§ 8. Records, statements and returns; rules and
regulations
Every person liable for any tax imposed by this
chapter, or for the collection thereof, shall keep such
records, render such statements, make such returns,
and comply with such rules and regulations as the
commissioner may from time to time prescribe.
M.G.L.A. 65C § 9
§ 9. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 10
§ 10. Extension of due date for payment of tax
(a) The commissioner may extend the time for
payment of the tax imposed by this chapter for a
reasonable period not to exceed six months from the
date fixed for the payment thereof. If the
commissioner finds that the payment on the due
date of any part of such tax would result in undue
hardship, he may extend the time for payment for a
reasonable period not in excess of three years from
the date fixed for payment of the tax. If an extension
is granted, the commissioner may require the
taxpayer:-(i) to deposit with the state treasurer bonds or other
negotiable obligations of the commonwealth or of the
United States of America of such aggregate face
amount as the commissioner may from time to time
80a

deem necessary to adequately secure payment of
such taxes; or
(ii) to give a bond to the state treasurer in such
amount and with such sureties as the commissioner
deems necessary, conditioned upon the payment of
the amount with respect to which the extension is
granted in accordance with the terms of the
extension.
In case of a deposit of bonds or other negotiable
obligations with the state treasurer hereunder he
shall pay to such taxpayer the interest accruing
thereon, and, if such taxes shall be paid in full when
due in accordance with the terms of the extension,
he shall return such bonds or obligations to the
persons entitled thereto; but if such taxes shall not
be paid when due, the state treasurer may sell all or
any part of such bonds or obligations to satisfy such
taxes, and shall return to the taxpayer all the
proceeds of such sale, and all such bonds or
obligations, remaining in his hands after satisfying
such taxes.
(b) If the value of a reversionary or remainder
interest in property is included in the value of the
gross estate, the payment of the part of the tax
imposed by this chapter attributable to such interest
may, at the election of the executor, be postponed
until six months after the termination of the
precedent interest or interests in the property, and
the amount the payment of which is so postponed
shall then be payable, together with interest thereon
at the rate of eight per cent per annum from the date
the tax was payable under section thirty-two of
chapter sixty-two C until such amount is paid. The
postponement of such amount shall be under
regulations to be prescribed by the commissioner,

81a

and shall be upon condition that the executor, or any
other person liable for the tax, shall give bond to the
state treasurer in such amount, and with such
sureties as the commissioner deems necessary,
conditioned upon the payment within six months
after the termination of such precedent interest or
interests of the amount the payment of which is so
postponed together with interest thereon, as
hereinbefore provided.
M.G.L.A. 65C § 11
§§ 11, 12. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 12
§§ 11, 12. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 13
§ 13. Fraudulent underpayment; penalty
If any part of any underpayment of tax required to
be shown on the return required by section
seventeen of chapter sixty-two C is due to fraud,
there shall be added to the tax an amount equal to
fifty per cent of the underpayment. For purposes of
this section, the term “underpayment” means a
deficiency assessed pursuant to subsection (b) of
section twenty-six of chapter sixty-two C except that,
for this purpose, the tax shown on a return referred
to in subsection (a) of said section twenty-six shall be
taken into account only if such return was filed
before the last day prescribed for the filing of such
return, determined with regard to any extension of
time. If any penalty is assessed for fraud under this
section for an underpayment of tax required to be
shown on the return, no penalty under section
thirty-three of chapter sixty-two C shall be assessed
with respect to the same underpayment.

82a

M.G.L.A. 65C § 14
§ 14. Lien for unpaid tax; liability for delinquent
tax; release or discharge of lien
(a) Unless the tax imposed by this chapter is sooner
paid in full, it shall be a lien for ten years from the
date of death upon the Massachusetts gross estate of
the decedent, except that such part of the
Massachusetts gross estate as is used for the
payment of charges against the estate and expenses
of its administration, allowed by the probate court
having jurisdiction thereof, shall be divested of such
lien. For dates of death on or after January 1, 1997,
an affidavit of the executor, subscribed to under the
pains and penalties of perjury, recorded in the
appropriate registry of deeds and stating that the
gross estate of the decedent does not necessitate a
federal estate tax filing, shall release the gross
estate of the lien imposed by this section.
(b) If the tax imposed by this chapter is not paid
when due, then the spouse, transferee, trustee,
surviving tenant, person in possession of the real or
personal property by reason of the exercise,
nonexercise, or release of a power of appointment, or
beneficiary, who receives, or has on the date of the
decedent’s death, real or personal property included
in the Massachusetts gross estate to the extent of
the value, at the time of the decedent’s death, of such
property shall be personally liable for such tax. Any
part of such real property, which, prior to the
decedent’s death, was conveyed by a deed of the
decedent not disclosing an intention that it take
effect in possession or enjoyment at or after his
death and such deed was recorded or registered prior
to the decedent’s death, and any part of such
personal property transferred by, or transferred by a

83a

transferee of, such spouse, transferee, trustee,
surviving tenant, person in possession of property by
reason of the exercise, nonexercise, or release of a
power of appointment, or beneficiary, to a bona fide
purchaser, mortgagee or pledgee, for an adequate
and full consideration in money or money’s worth
shall be divested of the lien provided in subsection
(a), and a lien shall then attach to all the property of
such spouse, transferee, trustee, surviving tenant,
person in possession, beneficiary, or transferee of
any such person, except any part transferred to a
bona fide purchaser, mortgagee or pledgee for an
adequate and full consideration in money or money’s
worth.
(c) The lien imposed by this section shall not be valid
with respect to a security, as hereinafter defined, as
against any mortgagee, pledgee, or purchaser of any
such security, for an adequate and full consideration
in money or money’s worth, or if at the time of such
mortgage, pledge, or purchase such mortgagee,
pledgee or purchaser is without notice or knowledge
of the existence of such lien. As used in this section,
the term “security” shall mean any bond, debenture,
note or certificate or other evidence of indebtedness,
issued by any corporation, including one issued by a
government or political subdivision thereof, with
interest coupons or in registered form, share of stock,
voting trust certificate, or any certificate of interest
or participation in, certificate of deposit or receipt
for, temporary or interim certificate for, or warrant
or right to subscribe to or purchase, any of the
foregoing; negotiable instrument; or money.
(d) The commissioner may release, or give a partial
discharge of, any lien imposed by this chapter with
respect to all or any part of the property subject to
such lien, if he is satisfied that the collection of the
84a

tax will not thereby be jeopardized. The issuance by
the commissioner of any certificate of release or of
partial discharge shall be held conclusive that the
lien upon the property covered by the certificate is
extinguished.
(e) Such lien shall cease to attach to any personal
property after the same has been sold or disposed of
for value by the person lawfully entitled to make
such sale or disposition; provided, however, that
such lien shall forthwith, upon any sale or
disposition of such personal property, attach to the
proceeds or other property acquired in substitution
therefor. A license issued or decree entered
authorizing the sale of real estate of a resident
decedent or of any property of a nonresident
decedent subject to such lien shall state
affirmatively that the commissioner has released or
discharged the lien, and before such a license or
decree is issued or entered, it shall appear in the
records of the probate court that the commissioner
has released or discharged the lien with respect to
such property.
(f) In the case of any interest in qualified real
property, devoted to use as a farm for farming
purposes and valued pursuant to the provisions of
subsection (c) of section 5, an amount equal to the
adjusted tax difference attributable to such interest
within the meaning of section two thousand and
thirty-two A of the Code1 in effect on January first,
nineteen hundred and eighty-five shall be a lien in
favor of the commonwealth on the property in which
such interest exists. Such lien shall arise at the time
an election is filed under subsection (c) and shall
continue with respect to any interest in the qualified
1

26 U.S.C.A. § 2032A.

85a

real property (1) until the liability of tax under
subsection (c) of section two thousand and thirty-two
A of said Code,2 with respect to such interest has
been satisfied or (2) until it is established to the
satisfaction of the commissioner that no further tax
liability may arise under section two thousand and
thirty-two A of said Code, with respect to such
interest. For purposes of this section, the term
“qualified
real
property”
includes
qualified
replacement property (within the meaning of section
two thousand and thirty-two A(h)(3)(B) of said
Code,3 and qualified exchange property (within the
meaning of section two thousand and thirty-two
A(i)(3) of said Code.4
M.G.L.A. 65C § 15
§ 15. Assessment of tax on decedent’s transferee
(a) The amount of the liability, at law or in equity, of
a transferee of property of a decedent in respect of
the tax imposed by this chapter shall, except as
hereinafter in this section provided, be assessed,
collected, and paid in the same manner and subject
to the same provisions and limitations as in the case
of the tax with respect to which the liability was
incurred. Any such liability may be either as to the
amount of tax shown on a return or as to any
deficiency in tax.
(b) The period of limitations for assessment of any
such liability of a transferee shall be as follows:-(i) In the case of the liability of an initial transferee,
within one year after the expiration of the period of
limitation for assessment against the transferor.
26 U.S.C.A. § 2032A(c).
26 U.S.C.A. § 2032A(h)(3)(B).
4 26 U.S.C.A. § 2032A(i)(3).
2
3

86a

(ii) In the case of the liability of a transferee within
one year after the expiration of the period of
limitation for assessment against the preceding
transferee, but not more than three years after the
expiration of the period of limitation for assessment
against the initial transferor;
except that if, before the expiration of the period of
limitation for the assessment of the liability of the
transferee, a court proceeding for the collection of
the tax or liability in respect thereof has been begun
against the initial transferor or the last preceding
transferee, respectively, then the period of limitation
for assessment of the liability of the transferee shall
expire one year after the return of execution.
(c) In the absence of notice to the commissioner
under section sixteen of the existence of a fiduciary
relationship, any notice of liability enforceable under
this section, if addressed in the name of the decedent
or other person subject to liability and mailed to his
last known address, shall be sufficient.
(d) As used in this section, the term “transferee”
includes donee, heir, legatee, devisee and his
distributee, and includes a person who, under
subsection (b) of section fourteen, is personally liable
for any part of the tax.
M.G.L.A. 65C § 16
§ 16. Executor; fiduciaries; assumption of powers
and duties
(a) Upon notice to the commissioner that any person
is acting as executor, such person shall assume the
powers, rights, duties and privileges of an executor
in respect of the tax imposed by this chapter until
notice is given that such person is no longer acting
as executor.

87a

(b) Upon notice to the commissioner that any person
is acting in a fiduciary capacity for a person subject
to the liability specified in section fifteen, the
fiduciary shall assume on behalf of such person the
powers, rights, duties, and privileges of such person
under such section, except that the liability shall be
collected from the estate of such person, until notice
is given that the fiduciary capacity has terminated.
M.G.L.A. 65C § 17
§§ 17 to 20. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 18
§§ 17 to 20. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 19
§§ 17 to 20. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 20
§§ 17 to 20. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 21
§ 21. Death taxes of nonresident decedent; proof of
payment; filing
(a) The terms “death tax” and “death taxes”, as used
in this section, shall include inheritance, succession,
transfer and estate taxes and any taxes levied
against the estate of a decedent upon the occasion of
his death.
(b) At any time before the expiration of eighteen
months after the qualification in any probate court
in the commonwealth of any executor of the will or
administrator of the estate of any nonresident
decedent, such executor or administrator shall file
with such court proof that all death taxes, together
with interest or penalties thereon, which are due to

88a

the state of domicile of such decedent or to any
political subdivision thereof, have been paid or
secured, or that no such taxes, interest or penalties
are due, as the case may be, unless it appears that
letters testamentary or of administration have been
issued on the estate of such decedent in the state of
his domicile, herein called the domiciliary state.
(c) The proof required by subsection (b) may be in the
form of a certificate issued by the official or body
charged with the administration of the death tax
laws of the domiciliary state. If such proof has not
been filed within the time limited in subsection (b)
and if within such time it does not appear that
letters testamentary or of administration have been
issued in the domiciliary state, the register of
probate shall forthwith upon the expiration of such
time notify by mail the official or body of the
domiciliary state charged with the administration of
the death tax laws thereof with respect to such
estate, and shall state in such notice so far as is
known to him-(i) the name, date of death and last domicile of such
decedent,
(ii) the name and address of each executor or
administrator,
(iii) a summary of the values of the real estate,
tangible personalty, and intangible personalty,
wherever situated, belonging to such decedent at the
time of his death, and
(iv) the fact that such executor or administrator has
not filed theretofore the proof required in subsection
(b).
Such register shall attach to such notice a plain copy
of the will and codicils of such decedent, if he dies

89a

testate, or, if he died intestate, a list of his heirs and
next of kin, so far as is known to such register.
Within sixty days after the mailing of such notice the
official or body charged with the administration of
the death tax laws of the domiciliary state may file
with such probate court in this commonwealth a
petition for an accounting in such estate, and such
official or body of the domiciliary state shall, for the
purposes of this section, be a party interested for the
purpose of petitioning such probate court for such
accounting. If such petition be filed within said
period of sixty days, such probate court shall order
such accounting, and upon such accounting being
filed and approved shall order either the payments of
any such tax found to be due to the domiciliary state
or subdivision thereof or the remission to a fiduciary
appointed or to be appointed by the probate court, or
other court charged with the administration of
estates of decedents, of the domiciliary state, of
creditors and expenses of administration in this
commonwealth.
(d) No final account of an executor or an
administrator of a nonresident decedent shall be
allowed unless either:-(i) proof has been filed as required by subsection (b),
or
(ii) notice under subsection (c) has been given to the
official or body charged with the administration of
the death tax laws of the domiciliary state, and such
official or body has not petitioned for an accounting
under said section within sixty days after the
mailing of such notice, or
(iii) an accounting has been filed and approved under
said subsection (c), an order has been made upon
such accounting and it appears that the executor or

90a

administrator has paid such sums and remitted such
securities, if any, as he was required to pay or remit
by such decree, or
(iv) it appears that letters testamentary or of
administration have been issued by the domiciliary
state and that no notice has been given under said
subsection (c).
(e) This section shall apply to the estate of a
nonresident decedent only in case the laws of the
domiciliary state contain a provision, of any nature
or however expressed, whereby the commonwealth is
given reasonable assurance, as finally determined by
the commissioner, of the collection of its death taxes,
interest and penalties from the estates of decedents
dying domiciled in the commonwealth, when such
estates are administered in whole or in part by a
probate court or other court charged with
administration of estates of decedents in such other
states.
(f) The provisions of this section shall be liberally
construed in order to insure that the domiciliary
state of any nonresident decedent whose estate is
administered in the commonwealth shall receive any
death taxes, together with interest and penalties
thereon, due to it from the estate of such decedent.
M.G.L.A. 65C § 22
§§ 22, 23. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 23
§§ 22, 23. Repealed, 1976, 415, Sec. 115

91a

M.G.L.A. 65C § 24
§ 24. Documents; issuance; fees
The commissioner is hereby authorized to issue the
following documents and to charge and collect
therefor the fees as determined annually by the
commissioner of administration under the provision
of section three B of chapter seven, except that in
those cases where a fee has been paid with the filing
of a return under section seventeen of chapter sixtytwo C, no additional fee shall be charged or collected
for copies of any of said documents. In each case, the
fee for a duplicate original or for additional copies of
any document shall be the same as for the document
itself.
(a) For a certificate of release of any lien imposed by
this chapter, a certificate of discharge of any
property subject to any lien imposed by this chapter,
or a certificate that particular property is free of any
lien imposed by this chapter.
(b) For a certificate showing no tax is due under this
chapter as a result of the death of a specified
decedent.
(c) For a copy of a computation sheet showing the
computation of the tax due under this chapter as a
result of the death of a specified decedent.
(d) For a certificate showing the amount of tax paid
under this chapter.
(e) For a duplicate copy of a notice of assessment
showing the amount of any tax assessed under this
chapter.
(f) For a duplicate copy of a receipt showing the
amount of any tax paid under this chapter.

92a

M.G.L.A. 65C § 25
§ 25. Repealed, 1976, 415, Sec. 115
M.G.L.A. 65C § 26
§ 26. Tax evasion; penalties
Any person who willfully attempts in any manner to
evade or defeat any tax imposed by this chapter or
the payment thereof shall, in addition to other
penalties provided by law, be guilty of a felony and,
upon conviction thereof, shall be punished by a fine
of not more than five thousand dollars, or by
imprisonment for not more than two and one half
years, or both.
M.G.L.A. 65C § 27
§ 27. Willful failure to pay tax or provide
information; penalties
Except as otherwise expressly provided in this
chapter, any person required under this chapter to
pay any tax, or required by this chapter or chapter
sixty-two C, or regulations made under the authority
of chapter fourteen and chapter sixty-two C to make
a return or supply any information, who willfully
fails to pay such tax or make such return or supply
such information at the time or times required by
law or regulations, shall, in addition to other
penalties provided by law, be guilty of a
misdemeanor, and, upon conviction thereof, shall be
punished by a fine of not more than one thousand
dollars, or by imprisonment in a jail or house of
correction for not more than one year, or both.

93a

M.G.L.A. 65C § 28
§ 28. Removal or concealment of goods; penalties
Any person who removes, deposits or conceals, or is
concerned in removing, depositing, or concealing,
any goods or commodities for or in respect whereof
any tax is or shall be imposed, with intent to evade
or defeat the assessment or collection of any tax
imposed by this chapter shall be guilty of a felony
and, upon conviction thereof, shall be punished by a
fine of not more than one thousand dollars or
imprisonment in jail for not more than two years, or
both.

94a

APPENDIX 6
C.G.S.A. § 12-391
§ 12-391. Transfer of resident and nonresident
estates. Definitions. Rate of tax. Determination of
domicile. Limit on tax payable. Reduction of tax
for investment in private investment fund
Effective: July 8, 2019
(a) With respect to estates of decedents who die prior
to January 1, 2005, and except as otherwise provided
in section 59 of public act 03-1 of the June 30 special
session,1 a tax is imposed upon the transfer of the
estate of each person who at the time of death was a
resident of this state. The amount of the tax shall be
the amount of the federal credit allowable for estate,
inheritance, legacy and succession taxes paid to any
state or the District of Columbia under the
provisions of the federal internal revenue code2 in
force at the date of such decedent’s death in respect
to any property owned by such decedent or subject to
such taxes as part of or in connection with the estate
of such decedent. If real or tangible personal
property of such decedent is located outside this
state and is subject to estate, inheritance, legacy, or
succession taxes by any state or states, other than
the state of Connecticut, or by the District of
Columbia for which such federal credit is allowable,
the amount of tax due under this section shall be
reduced by the lesser of: (1) The amount of any such
taxes paid to such other state or states or said
Section 59 of public act 03-1 of the June 30 special session is
special in nature and was not classified to the general statutes
but remains in full force and effect according to its terms.
1

2

26 U.S.C.A. § 1 et seq.

95a

district and allowed as a credit against the federal
estate tax; or (2) an amount computed by
multiplying such federal credit by a fraction, (A) the
numerator of which is the value of that part of the
decedent’s gross estate over which such other state
or states or said district have jurisdiction for estate
tax purposes to the same extent to which this state
would assert jurisdiction for estate tax purposes
under this chapter with respect to the residents of
such other state or states or said district, and (B) the
denominator of which is the value of the decedent’s
gross estate. Property of a resident estate over which
this state has jurisdiction for estate tax purposes
includes real property situated in this state, tangible
personal property having an actual situs in this
state, and intangible personal property owned by the
decedent, regardless of where it is located. The
amount of any estate tax imposed under this
subsection shall also be reduced, but not below zero,
by the amount of any tax that is imposed under
chapter 2163 and that is actually paid to this state.
(b) With respect to the estates of decedents who die
prior to January 1, 2005, and except as otherwise
provided in section 59 of public act 03-1 of the June
30 special session, a tax is imposed upon the transfer
of the estate of each person who at the time of death
was a nonresident of this state, the amount of which
shall be computed by multiplying (1) the federal
credit allowable for estate, inheritance, legacy, and
succession taxes paid to any state or states or the
District of Columbia under the provisions of the
federal internal revenue code in force at the date of
such decedent’s death in respect to any property
3

C.G.S.A. § 12-340 et seq.

96a

owned by such decedent or subject to such taxes as a
part of or in connection with the estate of such
decedent by (2) a fraction, (A) the numerator of
which is the value of that part of the decedent’s gross
estate over which this state has jurisdiction for
estate tax purposes and (B) the denominator of
which is the value of the decedent’s gross estate.
Property of a nonresident estate over which this
state has jurisdiction for estate tax purposes
includes real property situated in this state and
tangible personal property having an actual situs in
this state. The amount of any estate tax imposed
under this subsection shall also be reduced, but not
below zero, by the amount of any tax that is imposed
under chapter 216 and that is actually paid to this
state.
(c) For purposes of this section and section 12-392:
(1) (A) “Connecticut taxable estate” means, with
respect to the estates of decedents dying on or after
January 1, 2005, but prior to January 1, 2010, (i) the
gross estate less allowable deductions, as determined
under Chapter 11 of the Internal Revenue Code,4
plus (ii) the aggregate amount of all Connecticut
taxable gifts, as defined in section 12-643, made by
the decedent for all calendar years beginning on or
after January 1, 2005, but prior to January 1, 2010.
The deduction for state death taxes paid under
Section 2058 of said code shall be disregarded.
(B) “Connecticut taxable estate” means, with respect
to the estates of decedents dying on or after January
1, 2010, but prior to January 1, 2015, (i) the gross
estate less allowable deductions, as determined
4

26 U.S.C.A. § 2001 et seq.

97a

under Chapter 11 of the Internal Revenue Code, plus
(ii) the aggregate amount of all Connecticut taxable
gifts, as defined in section 12-643, made by the
decedent for all calendar years beginning on or after
January 1, 2005. The deduction for state death taxes
paid under Section 2058 of said code shall be
disregarded.
(C) “Connecticut taxable estate” means, with respect
to the estates of decedents dying on or after January
1, 2015, (i) the gross estate less allowable
deductions, as determined under Chapter 11 of the
Internal Revenue Code, plus (ii) the aggregate
amount of all Connecticut taxable gifts, as defined in
section 12-643, made by the decedent for all calendar
years beginning on or after January 1, 2005, other
than Connecticut taxable gifts that are includable in
the gross estate for federal estate tax purposes of the
decedent, plus (iii) the amount of any tax paid to this
state pursuant to section 12-642 by the decedent or
the decedent’s estate on any gift made by the
decedent or the decedent’s spouse during the threeyear period preceding the date of the decedent’s
death. The deduction for state death taxes paid
under Section 2058 of the Internal Revenue Code
shall be disregarded.
(2) “Internal Revenue Code” means the Internal
Revenue Code of 1986, or any subsequent
corresponding internal revenue code of the United
States, as amended from time to time, except in the
event of repeal of the federal estate tax, then all
references to the Internal Revenue Code in this
section shall mean the Internal Revenue Code as in
force on the day prior to the effective date of such
repeal.

98a

(3) “Gross estate” means the gross estate, for federal
estate tax purposes.
(d) (1) (A) With respect to the estates of decedents
who die on or after January 1, 2005, but prior to
January 1, 2010, a tax is imposed upon the transfer
of the estate of each person who at the time of death
was a resident of this state. The amount of the tax
shall be determined using the schedule in subsection
(g) of this section. A credit shall be allowed against
such tax for any taxes paid to this state pursuant to
section 12-642 for Connecticut taxable gifts made on
or after January 1, 2005, but prior to January 1,
2010.
(B) With respect to the estates of decedents who die
on or after January 1, 2010, but prior to January 1,
2015, a tax is imposed upon the transfer of the estate
of each person who at the time of death was a
resident of this state. The amount of the tax shall be
determined using the schedule in subsection (g) of
this section. A credit shall be allowed against such
tax for any taxes paid to this state pursuant to
section 12-642 for Connecticut taxable gifts made on
or after January 1, 2005, provided such credit shall
not exceed the amount of tax imposed by this
section.
(C) With respect to the estates of decedents who die
on or after January 1, 2015, but prior to January 1,
2016, a tax is imposed upon the transfer of the estate
of each person who at the time of death was a
resident of this state. The amount of the tax shall be
determined using the schedule in subsection (g) of
this section. A credit shall be allowed against such
tax for (i) any taxes paid to this state pursuant to
section 12-642 by the decedent or the decedent’s

99a

estate for Connecticut taxable gifts made on or after
January 1, 2005, and (ii) any taxes paid by the
decedent’s spouse to this state pursuant to section
12-642 for Connecticut taxable gifts made by the
decedent on or after January 1, 2005, that are
includable in the gross estate of the decedent,
provided such credit shall not exceed the amount of
tax imposed by this section.
(D) With respect to the estates of decedents who die
on or after January 1, 2016, but prior to January 1,
2019, a tax is imposed upon the transfer of the estate
of each person who at the time of death was a
resident of this state. The amount of the tax shall be
determined using the schedule in subsection (g) of
this section. A credit shall be allowed against such
tax for (i) any taxes paid to this state pursuant to
section 12-642 by the decedent or the decedent’s
estate for Connecticut taxable gifts made on or after
January 1, 2005, and (ii) any taxes paid by the
decedent’s spouse to this state pursuant to section
12-642 for Connecticut taxable gifts made by the
decedent on or after January 1, 2005, that are
includable in the gross estate of the decedent,
provided such credit shall not exceed the amount of
tax imposed by this section. In no event shall the
amount of tax payable under this section exceed
twenty million dollars. Such twenty-million-dollar
limit shall be reduced by the amount of (I) any taxes
paid to this state pursuant to section 12-642 by the
decedent or the decedent’s estate for Connecticut
taxable gifts made on or after January 1, 2016, and
(II) any taxes paid by the decedent’s spouse to this
state pursuant to section 12-642 for Connecticut
taxable gifts made by the decedent on or after
January 1, 2016, that are includable in the gross

100a

estate of the decedent, but in no event shall the
amount be reduced below zero.
(E) With respect to the estates of decedents who die
on or after January 1, 2019, a tax is imposed upon
the transfer of the estate of each person who at the
time of death was a resident of this state. The
amount of the tax shall be determined using the
schedule in subsection (g) of this section. A credit
shall be allowed against such tax for (i) any taxes
paid to this state pursuant to section 12-642 by the
decedent or the decedent’s estate for Connecticut
taxable gifts made on or after January 1, 2005, and
(ii) any taxes paid by the decedent’s spouse to this
state pursuant to section 12-642 for Connecticut
taxable gifts made by the decedent on or after
January 1, 2005, that are includable in the gross
estate of the decedent, provided such credit shall not
exceed the amount of tax imposed by this section. In
no event shall the amount of tax payable under this
section exceed fifteen million dollars. Such fifteenmillion-dollar limit shall be reduced by the amount
of (I) any taxes paid to this state pursuant to section
12-642 by the decedent or the decedent’s estate for
Connecticut taxable gifts made on or after January
1, 2016, and (II) any taxes paid by the decedent’s
spouse to this state pursuant to section 12-642 for
Connecticut taxable gifts made by the decedent on or
after January 1, 2016, that are includable in the
gross estate of the decedent, but in no event shall the
amount be reduced below zero.
(2) If real or tangible personal property of such
decedent is located outside this state, the amount of
tax due under this section shall be reduced by an
amount computed by multiplying the tax otherwise
due pursuant to subdivision (1) of this subsection,
101a

without regard to the credit allowed for any taxes
paid to this state pursuant to section 12-642, by a
fraction, (A) the numerator of which is the value of
that part of the decedent’s gross estate attributable
to real or tangible personal property located outside
of the state, and (B) the denominator of which is the
value of the decedent’s gross estate.
(3) For a resident estate, the state shall have the
power to levy the estate tax upon real property
situated in this state, tangible personal property
having an actual situs in this state and intangible
personal property included in the gross estate of the
decedent, regardless of where it is located. The state
is permitted to calculate the estate tax and levy said
tax to the fullest extent permitted by the
Constitution of the United States.
(e) (1) (A) With respect to the estates of decedents
who die on or after January 1, 2005, but prior to
January 1, 2010, a tax is imposed upon the transfer
of the estate of each person who at the time of death
was a nonresident of this state. The amount of such
tax shall be computed by multiplying (i) the amount
of tax determined using the schedule in subsection
(g) of this section by (ii) a fraction, the numerator of
which is the value of that part of the decedent’s gross
estate over which this state has jurisdiction for
estate tax purposes, and the denominator of which is
the value of the decedent’s gross estate. A credit
shall be allowed against such tax for any taxes paid
to this state pursuant to section 12-642, for
Connecticut taxable gifts made on or after January
1, 2005, but prior to January 1, 2010.
(B) With respect to the estates of decedents who die
on or after January 1, 2010, but prior to January 1,

102a

2016, a tax is imposed upon the transfer of the estate
of each person who at the time of death was a
nonresident of this state. The amount of such tax
shall be computed by multiplying (i) the amount of
tax determined using the schedule in subsection (g)
of this section by (ii) a fraction, the numerator of
which is the value of that part of the decedent’s gross
estate over which this state has jurisdiction for
estate tax purposes, and the denominator of which is
the value of the decedent’s gross estate. A credit
shall be allowed against such tax for any taxes paid
to this state pursuant to section 12-642, for
Connecticut taxable gifts made on or after January
1, 2005, provided such credit shall not exceed the
amount of tax imposed by this section.
(C) With respect to the estates of decedents who die
on or after January 1, 2016, but prior to January 1,
2019, a tax is imposed upon the transfer of the estate
of each person who at the time of death was a
nonresident of this state. The amount of such tax
shall be computed by multiplying (i) the amount of
tax determined using the schedule in subsection (g)
of this section by (ii) a fraction, the numerator of
which is the value of that part of the decedent’s gross
estate over which this state has jurisdiction for
estate tax purposes, and the denominator of which is
the value of the decedent’s gross estate. A credit
shall be allowed against such tax for any taxes paid
to this state pursuant to section 12-642 for
Connecticut taxable gifts made on or after January
1, 2005, provided such credit shall not exceed the
amount of tax imposed by this section. In no event
shall the amount of tax payable under this section
exceed twenty million dollars. Such twenty-milliondollar limit shall be reduced by the amount of (I) any

103a

taxes paid to this state pursuant to section 12-642 by
the decedent or the decedent’s estate for Connecticut
taxable gifts made on or after January 1, 2016, and
(II) any taxes paid by the decedent’s spouse to this
state pursuant to section 12-642 for Connecticut
taxable gifts made by the decedent on or after
January 1, 2016, that are includable in the gross
estate of the decedent, but in no event shall the
amount be reduced below zero.
(D) With respect to the estates of decedents who die
on or after January 1, 2019, a tax is imposed upon
the transfer of the estate of each person who at the
time of death was a nonresident of this state. The
amount of such tax shall be computed by multiplying
the amount of tax determined using the schedule in
subsection (g) of this section by a fraction, the
numerator of which is the value of that part of the
decedent’s gross estate over which this state has
jurisdiction for estate tax purposes, and the
denominator of which is the value of the decedent’s
gross estate. A credit shall be allowed against such
tax for (i) any taxes paid to this state pursuant to
section 12-642 by the decedent or the decedent’s
estate for Connecticut taxable gifts made on or after
January 1, 2005, and (ii) any taxes paid by the
decedent’s spouse to this state pursuant to section
12-642 for Connecticut taxable gifts made by the
decedent on or after January 1, 2005, that are
includable in the gross estate of the decedent,
provided such credit shall not exceed the amount of
tax imposed by this section. In no event shall the
amount of tax payable under this section exceed
fifteen million dollars. Such fifteen-million-dollar
limit shall be reduced by the amount of (I) any taxes
paid to this state pursuant to section 12-642 by the

104a

decedent or the decedent’s estate for Connecticut
taxable gifts made on or after January 1, 2016, and
(II) any taxes paid by the decedent’s spouse to this
state pursuant to section 12-642 for Connecticut
taxable gifts made by the decedent on or after
January 1, 2016, that are includable in the gross
estate of the decedent, but in no event shall the
amount be reduced below zero.
(2) (A) For a nonresident estate, the state shall have
the power to levy the estate tax upon all real
property situated in this state and tangible personal
property having an actual situs in this state.
(B) For real property and tangible personal property
owned by a pass-through entity, the entity shall be
disregarded for estate tax purposes and such
property shall be treated as personally owned by the
decedent in proportion to the nonresident decedent’s
constructive ownership in the pass-through entity if
(i) the entity does not carry on a business for the
purpose of profit and gain, (ii) the ownership of the
property by the entity was not for a valid business
purpose, or (iii) the property was acquired by other
than a bona fide sale for full and adequate
consideration and the decedent retained any power
with respect to or interest in the property that would
bring the real property situated in this state or the
tangible personal property having an actual situs in
the state within the decedent’s federal gross estate.
Nothing in this subparagraph shall be deemed to
impose a lien in favor of the state of Connecticut
under subsection (d) of section 12-398 or section 45a107b against any real property included in the
nonresident
decedent’s
estate
under
this
subparagraph to any greater extent than if the
nonresident decedent was a resident decedent
105a

owning an interest in a pass-through entity owning
real property located in this state. For purposes of
this subparagraph, “pass-through entity” means a
partnership or an S corporation, as those terms are
defined in section 12-699, or a single member limited
liability company that is disregarded for federal
income tax purposes.
(C) The state is permitted to calculate the estate tax
and levy said tax to the fullest extent permitted by
the Constitution of the United States.
(f) (1) For purposes of the tax imposed under this
section, the value of the Connecticut taxable estate
shall be determined taking into account all of the
deductions available under the Internal Revenue
Code of 1986, specifically including, but not limited
to, the deduction available under Section 2056(b)(7)
of said code5 for a qualifying income interest for life
in a surviving spouse.
(2) An election under said Section 2056(b)(7) may be
made for state estate tax purposes regardless of
whether any such election is made for federal estate
tax purposes. The value of the gross estate shall
include the value of any property in which the
decedent had a qualifying income interest for life for
which an election was made under this subsection.
(g) (1) With respect to the estates of decedents dying
on or after January 1, 2005, but prior to January 1,
2010, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:

5

26 U.S.C.A. § 2056.

106a

Amount of Connecticut
Taxable Estate

Rate of Tax

Not over $2,000,000

None

Over $2,000,000 but not
over $2,100,000

5.085% of
the excess over $0

Over $2,100,000 but not
over $2,600,000

$106,800 plus 8% of
the excess over
$2,100,000

Over $2,600,000 but not
over $3,100,000

$146,800 plus 8.8% of
the excess over
$2,600,000

Over $3,100,000 but not
over $3,600,000

$190,800 plus 9.6% of
the excess over
$3,100,000

Over $3,600,000 but not
over $4,100,000

$238,800 plus 10.4% of
the excess over
$3,600,000

Over $4,100,000 but not
over $5,100,000

$290,800 plus 11.2% of
the excess over
$4,100,000

Over $5,100,000 but not
over $6,100,000

$402,800 plus 12% of
the excess over
$5,100,000

107a

Over $6,100,000 but not
over $7,100,000

$522,800 plus 12.8% of
the excess over
$6,100,000

Over $7,100,000 but not
over $8,100,000

$650,800 plus 13.6% of
the excess over
$7,100,000

Over $8,100,000 but not
over $9,100,000

$786,800 plus 14.4%
of the excess over
$8,100,000

Over $9,100,000 but not
over $10,100,000

$930,800 plus 15.2% of
the excess over
$9,100,000

Over $10,100,000

$1,082,800 plus 16% of
the excess over
$10,100,000

(2) With respect to the estates of decedents dying on
or after January 1, 2010, but prior to January 1,
2011, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $3,500,000

None

108a

Over $3,500,000 but not
over $3,600,000

7.2% of
the excess over
$3,500,000

Over $3,600,000 but not
over $4,100,000

$7,200 plus 7.8% of
the excess over
$3,600,000

Over $4,100,000 but not
over $5,100,000

$46,200 plus 8.4% of
the excess over
$4,100,000

Over $5,100,000 but not
over $6,100,000

$130,200 plus 9.0% of
the excess over
$5,100,000

Over $6,100,000 but not
over $7,100,000

$220,200 plus 9.6% of
the excess over
$6,100,000

Over $7,100,000 but not
over $8,100,000

$316,200 plus 10.2% of
the excess over
$7,100,000

Over $8,100,000 but not
over $9,100,000

$418,200 plus 10.8% of
the excess over
$8,100,000

Over $9,100,000 but not
over $10,100,000

$526,200 plus 11.4% of
the excess over
$9,100,000

Over $10,100,000

$640,200 plus 12% of
the excess over
$10,100,000

109a

(3) With respect to the estates of decedents dying on
or after January 1, 2011, but prior to January 1,
2018, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $2,000,000

None

Over $2,000,000 but not
over $3,600,000

7.2% of the excess
over $2,000,000

Over $3,600,000 but not
over $4,100,000

$115,200 plus 7.8% of
the excess over
$3,600,000

Over $4,100,000 but not
over $5,100,000

$154,200 plus 8.4% of
the excess over
$4,100,000

Over $5,100,000 but not
over $6,100,000

$238,200 plus 9.0% of
the excess over
$5,100,000

Over $6,100,000 but not
over $7,100,000

$328,200 plus 9.6% of
the excess over
$6,100,000

Over $7,100,000 but not
over $8,100,000

$424,200 plus 10.2% of
the excess over
$7,100,000

110a

Over $8,100,000 but not
over $9,100,000

$526,200 plus 10.8% of
the excess over
$8,100,000

Over $9,100,000 but not
over $10,100,000

$634,200 plus 11.4% of
the excess over
$9,100,000

Over $10,100,000

$748,200 plus 12% of
the excess over
$10,100,000

(4) With respect to the estates of decedents dying on
or after January 1, 2018, but prior to January 1,
2019, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $2,600,000

None

Over $2,600,000 but
Not over $3,600,000

7.2% of the
excess over $2,600,000

Over $3,600,000 but
not over $4,100,000

$72,000 plus 7.8% of
the excess over
$3,600,000

111a

Over $4,100,000 but
not over $5,100,000

$111,000 plus 8.4% of
the excess over
$4,100,000

Over $5,100,000 but
not over $6,100,000

$195,000 plus 10% of
the excess over
$5,100,000

Over $6,100,000 but
not over $7,100,000

$295,000 plus 10.4% of
the excess over
$6,100,000

Over $7,100,000 but
not over $8,100,000

$399,000 plus 10.8% of
the excess over
$7,100,000

Over $8,100,000 but
not over $9,100,000

$507,000 plus 11.2% of
the excess over
$8,100,000

Over $9,100,000 but
not over $10,100,000

$619,000 plus 11.6% of
the excess over
$9,100,000

Over $10,100,000

$735,000 plus 12% of
the excess over
$10,100,000

(5) With respect to the estates of decedents dying on
or after January 1, 2019, but prior to January 1,
2020, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:

112a

Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $3,600,000

None

Over $3,600,000 but
not over $4,100,000

7.8% of
the excess over
$3,600,000

Over $4,100,000 but
not over $5,100,000

$39,000 plus 8.4% of
the excess over
$4,100,000

Over $5,100,000 but
not over $6,100,000

$123,000 plus 10% of
the excess over
$5,100,000

Over $6,100,000 but
not over $7,100,000

$223,000 plus 10.4% of
the excess over
$6,100,000

Over $7,100,000 but
not over $8,100,000

$327,000 plus 10.8% of
the excess over
$7,100,000

Over $8,100,000 but
not over $9,100,000

$435,000 plus 11.2% of
the excess over
$8,100,000

Over $9,100,000 but
not over $10,100,000

$547,000 plus 11.6% of
the excess over
$9,100,000

113a

Over $10,100,000

$663,000 plus 12% of
the excess over
$10,100,000

(6) With respect to the estates of decedents dying on
or after January 1, 2020, but prior to January 1,
2021, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $5,100,000

None

Over $5,100,000 but
not over $6,100,000

10% of the excess
over $5,100,000

Over $6,100,000 but
not over $7,100,000

$100,000 plus 10.4% of
the excess over
$6,100,000

Over $7,100,000 but
not over $8,100,000

$204,000 plus 10.8% of
the excess over
$7,100,000

Over $8,100,000 but
not over $9,100,000

$312,000 plus 11.2% of
the excess over
$8,100,000

Over $9,100,000 but
not over $10,100,000

$424,000 plus 11.6% of
the excess over
$9,100,000

114a

Over $10,100,000

$540,000 plus 12% of
the excess over
$10,100,000

(7) With respect to the estates of decedents dying on
or after January 1, 2021, but prior to January 1,
2022, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $7,100,000

None

Over $7,100,000 but
not over $8,100,000

10.8% of
the excess over
$7,100,000

Over $8,100,000 but
not over $9,100,000

$108,000 plus 11.2% of
the excess over
$8,100,000

Over $9,100,000 but
not over $10,100,000

$220,000 plus 11.6% of
the excess over
$9,100,000

Over $10,100,000

$336,000 plus 12% of
the excess over
$10,100,000

(8) With respect to the estates of decedents dying on
or after January 1, 2022, but prior to January 1,

115a

2023, the tax based on the Connecticut taxable
estate shall be as provided in the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over $9,100,000

None

Over $9,100,000 but
not over $10,100,000

11.6% of
the excess over
$9,100,000

Over $10,100,000

$116,000 plus 12% of
the excess over
$10,100,000

(9) With respect to the estates of decedents dying on
or after January 1, 2023, the tax based on the
Connecticut taxable estate shall be as provided in
the following schedule:
Amount of
Connecticut
Taxable Estate

Rate of Tax

Not over the federal
basic exclusion amount

None

Over the federal
basic exclusion amount

12% of
the excess over
the federal basic
exclusion amount

116a

(h) (1) For the purposes of this chapter, each
decedent shall be presumed to have died a resident
of this state. The burden of proof in an estate tax
proceeding shall be upon any decedent’s estate
claiming exemption by reason of the decedent’s
alleged nonresidency.
(2) Any person required to make and file a tax return
under this chapter, believing that the decedent died
a nonresident of this state, may file a request for
determination of domicile in writing with the
Commissioner of Revenue Services, stating the
specific grounds upon which the request is founded
provided (A) such person has filed such return, (B) at
least two hundred seventy days, but no more than
three years, has elapsed since the due date of such
return or, if an application for extension of time to
file such return has been granted, the extended due
date of such return, (C) such person has not been
notified, in writing, by said commissioner that a
written agreement of compromise with the taxing
authorities of another jurisdiction, under section 12395a, is being negotiated, and (D) the commissioner
has not previously determined whether the decedent
died a resident of this state. Not later than one
hundred eighty days following receipt of such
request for determination, the commissioner shall
determine whether such decedent died a resident or
a nonresident of this state. If the commissioner
commences negotiations over a written agreement of
compromise with the taxing authorities of another
jurisdiction after a request for determination of
domicile is filed, the one-hundred-eighty-day period
shall be tolled for the duration of such negotiations.
When, before the expiration of such one-hundredeighty-day period, both the commissioner and the

117a

person required to make and file a tax return under
this chapter have consented in writing to the making
of such determination after such time, the
determination may be made at any time prior to the
expiration of the period agreed upon. The period so
agreed upon may be extended by subsequent
agreements in writing made before the expiration of
the
period
previously
agreed
upon.
The
commissioner shall mail notice of his proposed
determination to the person required to make and
file a tax return under this chapter. Such notice
shall set forth briefly the commissioner’s findings of
fact and the basis of such proposed determination.
Sixty days after the date on which it is mailed, a
notice of proposed determination shall constitute a
final determination unless the person required to
make and file a tax return under this chapter has
filed, as provided in subdivision (3) of this
subsection, a written protest with the Commissioner
of Revenue Services.
(3) On or before the sixtieth day after mailing of the
proposed determination, the person required to
make and file a tax return under this chapter may
file with the commissioner a written protest against
the proposed determination in which such person
shall set forth the grounds on which the protest is
based. If such a protest is filed, the commissioner
shall reconsider the proposed determination and, if
the person required to make and file a tax return
under this chapter has so requested, may grant or
deny such person or the authorized representatives
of such person an oral hearing.
(4) Notice of the commissioner’s determination shall
be mailed to the person required to make and file a
tax return under this chapter and such notice shall
118a

set forth briefly the commissioner’s findings of fact
and the basis of decision in each case decided
adversely to such person.
(5) The action of the commissioner on a written
protest shall be final upon the expiration of one
month from the date on which he mails notice of his
action to the person required to make and file a tax
return under this chapter unless within such period
such person seeks review of the commissioner’s
determination pursuant to subsection (b) of section
12-395.
(6) Nothing in this subsection shall be construed to
relieve any person filing a request for determination
of domicile of the obligation to pay the correct
amount of tax on or before the due date of the tax.
(i) The tax calculated pursuant to the provisions of
this section shall be reduced in an amount equal to
half of the amount invested by a decedent in a
private investment fund or fund of funds pursuant to
subdivision (43) of section 32-39, provided (1) any
such reduction shall not exceed five million dollars
for any such decedent, (2) any such amount invested
by the decedent shall have been invested in such
fund or fund of funds for ten years or more, and (3)
the aggregate amount of all taxes reduced under this
subsection shall not exceed thirty million dollars.

119a

APPENDIX 7
MD Code, Tax - General, § 7-309
§ 7-309. Changes in federal estate tax law
Effective: July 1, 2018
In general
(a) Notwithstanding an Act of Congress that repeals
or reduces the federal credit under § 2011 of the
Internal Revenue Code, the provisions of this
subtitle in effect before the passage of the Act of
Congress shall apply with respect to a decedent who
dies after the effective date of the Act of Congress so
as to continue the Maryland estate tax in force
without reduction in the same manner as if the
federal credit had not been repealed or reduced.
Determination of Maryland estate tax
(b )(I) Except as provided in paragraphs (2) through
(9) of this subsection and subsection (c) of this
section, after the effective date of an Act of Congress
described in subsection (a) of this section, the
Maryland estate tax shall be determined using:
(i) the federal credit allowable by § 2011 of the
Internal Revenue Code as in effect before the
reduction or repeal of the federal credit pursuant to
the Act of Congress; and (ii) other provisions of
federal estate tax law as in effect on the date of the
decedent’s death.
(2) Except as provided in paragraphs (3) through (9)
of this subsection and subsection (c) of this section, if
the federal estate tax is not in effect on the date of
the decedent’s death, the Maryland estate tax shall
be determined using:

120a

(i) the federal credit allowable by § 2011 of the
Internal Revenue Code as in effect before the
reduction or repeal of the federal credit pursuant to
the Act of Congress; and
(ii) other provisions of federal estate tax law as in
effect on the date immediately preceding the
effective date of the repeal of the federal estate tax.
(3)(i) Notwithstanding any increase in the unified
credit allowed against the federal estate tax for
decedents dying after 2003, the unified credit used
for determining the Maryland estate tax for a
decedent may not exceed the applicable credit
amount corresponding to an applicable exclusion
amount, within the meaning of§ 20 I 0( c) of the
Internal Revenue Code, of:
1. $1,000,000 for a decedent dying before January 1,
2015;
2. $1,500,000 for a decedent dying on or after
January 1, 2015, but before January 1, 2016;
3. $2,000,000 for a decedent dying on or after
January 1, 2016, but before January 1, 2017;
4. $3,000,000 for a decedent dying on or after
January 1, 2017, but before January 1, 2018;
5. $4,000,000 for a decedent dying on or after
January 1, 2018, but before January 1, 2019; and
6. $5,000,000 for a decedent dying on or after
January 1, 2019, plus any deceased spousal unused
exclusion amount calculated in accordance with
paragraph (9) of this subsection.
(ii) The Maryland estate tax shall be determined
without regard to any deduction for State death
taxes allowed under § 2058 of the Internal Revenue
Code.
121a

(iii) Unless the federal credit allowable by § 2011 of
the Internal Revenue Code is in effect on the date of
the decedent’s death, the federal credit used to
determine the Maryland estate tax may not exceed
16% of the amount by which the decedent’s taxable
estate, as defined in § 2051 of the Internal Revenue
Code, exceeds:
1. $1,000,000 for a decedent dying before January 1,
2015;
2. $1,500,000 for a decedent dying on or after
January 1, 2015, but before January 1, 2016;
3. $2,000,000 for a decedent dying on or after
January 1, 2016, but before January 1, 2017;
4. $3,000,000 for a decedent dying on or after
January 1, 2017, but before January 1, 2018;
5. $4,000,000 for a decedent dying on or after
January 1, 2018, but before January 1, 2019; and
6. $5,000,000 for a decedent dying on or after
January 1, 2019, plus any deceased spousal unused
exclusion amount calculated in accordance with
paragraph (9) of this subsection.
(4)(i) With regard to an election to value property as
provided in § 2032 of the Internal Revenue Code, if a
federal estate tax return is not required to be filed:
1. an irrevocable election made on a timely filed
Maryland estate tax return shall be deemed to be an
election as required by§ 2032(d) of the Internal
Revenue Code;
2. the provisions of§ 2032(c) of the Internal Revenue
Code do not apply; and
3. an election may not be made under item 1 of this
subparagraph unless that election will decrease:

122a

A. the value of the gross estate; and
B. the Maryland estate tax due with regard to the
transfer of a decedent's Maryland estate.
(ii) An election to value property as provided in
§ 2032 of the Internal Revenue Code for Maryland
estate tax purposes must be the same as the election
made for federal estate tax purposes.
(5)(i) With regard to an election to treat property as
marital deduction qualified tenninable interest
property in calculating the Maryland estate tax, an
irrevocable election made on a timely filed Maryland
estate tax return shall be deemed to be an election
as required by§ 2056(b)(7)(B)(i), (iii), and (v) of the
Internal Revenue Code.
(ii) An election under this paragraph made on a
timely filed Maryland estate tax return shall be
recognized for purposes of calculating the Maryland
estate tax even if an inconsistent election is made for
the same decedent for federal estate tax purposes.
(6)(i) For purposes of calculating Ma1yland estate
tax, a decedent shall be deemed to have had a
qualifying income interest for life under § 2044(a) of
the Internal Revenue Code with regard to any
property for which a marital deduction qualified
terminable interest property election was made for
the decedent's predeceased spouse on a timely filed
Maryland estate tax return under paragraph (5) of
this subsection.
(ii) For the purpose of apportioning Maryland estate
tax under§ 7-308 of this subtitle, any property as to
which a decedent is deemed to have had a qualifying
income interest for life under subparagraph (i) of
this paragraph shall be deemed to be included in

123a

both the estate and the taxable estate of the
decedent.
(7) For purposes of calculating Maryland estate tax,
amounts allowable under § 2053 or § 2054 of the
Internal Revenue Code as a deduction in computing
the taxable estate of a decedent may not be allowed
as a deduction or as an offset against the sales price
of property in determining gain or loss if the amount
has been allowed as a deduction in computing the
federal taxable income of the estate or of any other
person.
(8) Notwithstanding any contrary definition of
“marriage” and “spouse” under any applicable
provision of federal law, for purposes of calculating
Ma1yland estate tax under this subsection, the
surviving “spouse” of a decedent shall include any
individual to whom, at the time of the decedent’s
death, the decedent was lawfully married as
determined under the laws of the State.
(9)(i) In this paragraph, “deceased spousal unused
exclusion amount” means the applicable exclusion
amount in effect at the time of the death of the last
predeceased spouse of the decedent under paragraph
(3) of this subsection reduced by the taxable estate of
the last predeceased spouse:
1. as reported on a Maryland estate tax return filed
with the Comptroller; or
2. as reported on a federal estate tax return, if the
last predeceased spouse was not a Maryland resident
and no property with a Maryland estate tax situs
was includible in the gross estate of the last
predeceased spouse.

124a

(ii) The deceased spousal unused exclusion amount
may not be taken into account under paragraph (3)
of this subsection unless:
1. if the last predeceased spouse died on or after
January 1, 2019, a Mary land estate tax return is
timely filed for the last predeceased spouse, on which
the deceased spousal unused exclusion amount is
calculated and an irrevocable election is made that
the deceased spousal unused exclusion amount may
be taken into account; or 2. if the last predeceased
spouse died before January 1, 2019, or was not a
Maryland resident and no property with a Maryland
estate tax situs was includible in the gross estate of
the last predeceased spouse, an election was made
under § 2010(c) of the Internal Revenue Code on the
federal estate tax return of the last predeceased
spouse.
Agricultural property
(c)(I)(i) In this subsection the following words have
the meanings indicated.
(ii) “Fanning purposes” has the meaning stated in
§ 2032A(e)(5) of the Internal Revenue Code.
(iii) “Qualified agricultural property” means real or
personal property that is used primarily for farming
purposes.
(iv) “Qualified recipient” means an individual who
enters into an agreement to use qualified
agricultural property for fanning purposes after the
decedent’s death.
(2) The Maryland estate tax shall be determined by
excluding from the value of the gross estate up to
$5,000,000 of the value of qualified agricultural
property that passes from the decedent to or for the
use of a qualified recipient.
125a

(3) If the value of qualified agricultural property that
passes from the decedent to or for the use of a
qualified recipient exceeds $5,000,000, the Maryland
estate tax imposed on the Maryland estate of the
decedent may not exceed the sum of:
(i) 16% of the amount by which the decedent's
taxable estate, excluding the value of all qualified
agricultural property that passes from the decedent
to or for the use of a qualified recipient, exceeds the
applicable exclusion amount specified under
subsection (b) of this section; and
(ii) 5% of the amount by which the value of qualified
agricultural property that passes from the decedent
to or for the use of a qualified recipient exceeds
$5,000,000.
(4)(i) The Maryland estate tax shall be recaptured as
provided in this paragraph if, within 10 years after
the decedent’s death, the qualified agricultural
property ceases to be used for farming purposes.
(ii) The amount of the estate tax imposed under this
paragraph shall be the additional Maryland estate
tax that would have been payable at the time of the
decedent’s death but for the provisions under
paragraphs (2) and (3) of this subsection.
(5) The Comptroller shall adopt regulations to
implement this subsection.

126a

APPENDIX 8
26 U.S.C.A. § 2011, I.RC. §2011
§ 2011. Credit for State death taxes
Effective: [See Text Amendments] to December 18,
2014
(a) In general.--The tax imposed by section 2001
shall be credited with the amount of any estate,
inheritance, legacy, or succession taxes actually paid
to any State or the District of Columbia, in respect of
any property included in the gross estate (not
including any such taxes paid with respect to the
estate of a person other than the decedent).
(b) Amount of credit.-(1) In general.--Except as provided in paragraph (2),
the credit allowed by this section shall not exceed
the appropriate amount stated in the following table:
If the adjusted
taxable estate is:

The maximum tax
credit shall be:

Not over $90,000
8 / 10 ths of 1% of the amount by which the
adjusted taxable estate exceeds $40.000.
Over $90,000 but not over $140,000
$400 plus 1.6% of the excess over $90,000.
Over $140,000 but not over $240,000
$1,200 plus 2.4% of the excess over$ 140,000.
Over $240,000 but not over $440,000
$3,600 plus 3.2% of the excess over $240,000.
Over $440,000 but not over $640,000
$10,000 plus 4% of the excess over $440,000.
Over $640,000 but not over $840,000
$18,000 plus 4.8% of the excess over $640,000.

127a

Over $840,000 but not over $1,040,000.
$27,600 plus 5 .6% of the excess over $840,000.
Over $1,040,000 but not over $1,540,000
$38,800 plus 6.4% of the excess over $1,040,000.
Over $1,540,000 but not over $2,040,000
$70,800 plus 7.2% of the excess over $1,540,000.
Over $2,040,000 but not over $2,540,000.
$106.800 plus 8% of the excess over $2,040,000.
Over $2,540,000 but not over $3,040,000
$146,800 plus 8.8% of the excess over $2,540,000.
Over $3,040,000 but not over $3,540.000
$190,800 plus 9.6% of the excess over $3,040,000.
Over $3,540,000 but not over $4,040,000
$238,800 plus 10.4% of the excess over $3,540,000.
Over $4,040,000 but not over $5,040,000
$290,800 plus 11.2% of the excess over $4,040,000.
Over $5,040,000 but not over $6,040.000
$402,800 plus 12% of the excess over $5,040,000.
Over $6,040,000 but not over $7,040,000
$522,800 plus 12.8% of the excess over $6,040,000.
Over $7,040,000 but not over $8,040,000
$650,800 plus 13 .6% of the excess
$7,040,000.

over

Over $8,040,000 but not over $9,040,000
$786.800 plus 14.4% of the excess over $8,040,000.
Over $9,040,000 but not over $ 10,040,000
$930,800 plus 15.2% of the excess over $9,040,000.
Over $10,040,000
$1,082,800 plus
$10,040,000.

16%

128a

of

the

excess

over

(2) Reduction of maximum credit.-(A) In general.--In the case of estates of decedents
dying after December 31,200 I, the credit allowed by
this section shall not exceed the applicable
percentage of the credit otherwise determined under
paragraph()).
(B) Applicable percentage.-In the case of estates
of decedents dying
during:

The applicable
percentage is:

2002 .................................................. 75 percent
2003 .................................................. 50 percent
2004 ................................................. 25 percent.
(3) Adjusted taxable estate.--For purposes of this
section, the term “adjusted taxable estate” means
the taxable estate reduced by $60,000.
(c) Period of limitations on credit.--The credit
allowed by this section shall include only such taxes
as were actually paid and credit therefor claimed
within 4 years after the filing of the return required
by section 6018, except that-(1) If a petition for redetermination of a deficiency
has been filed with the Tax Court within the time
prescribed in section 6213(a), then within such 4ycar period or before the expiration of 60 days after
the decision of the Tax Court becomes final.
(2) If, under section 6161 or 6166, an extension of
time has been granted for payment of the tax shown
on the return or of a deficiency, then within such 4year period or before the date of the expiration of the
period of the extension.
(3) If a claim for refund or credit of an overpayment
of Lax imposed by this chapter has been filed within

129a

the time prescribed in section 6511, then within such
4-year period or before the expiration of 60 days from
the date of mailing by certified mail or registered
mail by the Secretary Lo the taxpayer of a notice of
the disallowance of any part of such claim, or before
the expiration of 60 days after a decision by any
court of competent jurisdiction becomes final with
respect to a timely suit instituted upon such claim,
whichever is later.
Refund based on the credit may (despite the
provisions of sections 6511 and 6512) be made if
claim therefor is filed within the period above
provided. Any such refund shall be made without
interest.
(d) Limitation in cases involving deduction under
section 2053(d).--In any case where a deduction is
allowed under section 2053(d) for an estate,
succession, legacy, or inheritance tax imposed by a
State or the District of Columbia upon a transfer for
public, charitable, or religious uses described in
section 2055 or 2106(a)(2), the allowance of the
credit under this section shall be subject to the
following conditions and limitations:
(1) The taxes described in subsection (a) shall not
include any estate, succession, legacy, or inheritance
tax for which such deduction is allowed under
section 2053(d).
(2) The credit shall not exceed the lesser of-(A) the amount stated in subsection (b) on an
adjusted taxable estate determined by allowing such
deduction authorized by section 2053(d) or
(B) that proportion or the amount stated in
subsection (b) on an adjusted taxable estate
determined without regard to such deduction

130a

authorized by section 2053(d) as (i) the amount of
the taxes described in subsection (a), as limited by
the provisions of paragraph (1) or this subsection,
bears to (ii) the amount of the taxes described in
subsection (a) before applying the limitation
contained in paragraph (1) or this subsection.
(3) If the amount determined under subparagraph
(B) or paragraph (2) is less than the amount
determined under subparagraph (A) or that
paragraph, then for purposes of subsection (d) such
lesser amount shall be the maximum credit provided
by subsection (b).
(e) Limitation based on amount of tax.--The credit
provided by this section shall not exceed the amount
of the tax imposed by section 2001, reduced by the
amount or the unified credit provided by section
2010.
(f) Termination.--This section shall not apply to the
estates of decedents dying after December 31, 2004.

131a

APPENDIX 9
26 U.S.C.A. § 2044, I.R.C. § 2044
§ 2044. Certain property for which marital
deduction was previously allowed
(a) General rule.--The value of the gross estate shall
include the value of any property to which this
section applies in which the decedent had a
qualifying income interest for life.
(b) Property to which this section applies.--This
section applies to any property if-(1) a deduction was allowed with respect to the
transfer of such property to the decedent-(A) under section 2056 by reason of subsection
(b)(7) thereof, or
(B) under section 2523 by reason of subsection (f)
thereof, and
(2) section 2519 (relating to dispositions of certain
life estates) did not apply with respect to a
disposition by the decedent of part or all of such
property.
(c) Property treated as having passed from
decedent.--For purposes of this chapter and chapter
13, property includible in the gross estate of the
decedent under subsection (a) shall be treated as
property passing from the decedent.

132a

APPENDIX 10
26 U.S.C.A. § 2056, I.R.C. § 2056
§ 2056. Bequests, etc., to surviving spouse
Effective: August 5, 1997
(a) Allowance of marital deduction.--For purposes of
the tax imposed by section 2001, the value of the
taxable estate shall, except as limited by subsection
(b), be determined by deducting from the value of the
gross estate an amount equal to the value of any
interest in property which passes or has passed from
the decedent to his surviving spouse, but only to the
extent that such interest is included in determining
the value of the gross estate.
(b) Limitation in the case of life estate or other
terminable interest.-(1) General rule.--Where, on the lapse of time, on
the occurrence of an event or contingency, or on the
failure of an event or contingency to occur, an
interest passing to the surviving spouse will
terminate or fail, no deduction shall be allowed
under this section with respect to such interest-(A) if an interest in such property passes or has
passed (for less than an adequate and full
consideration in money or money’s worth) from
the decedent to any person other than such
surviving spouse (or the estate of such spouse);
and
(B) if by reason of such passing such person (or
his heirs or assigns) may possess or enjoy any
part of such property after such termination or
failure of the interest so passing to the surviving
spouse;

133a

and no deduction shall be allowed with respect to
such interest (even if such deduction is not
disallowed under subparagraphs (A) and (B))-(C) if such interest is to be acquired for the
surviving spouse, pursuant to directions of the
decedent, by his executor or by the trustee of a
trust.
For purposes of this paragraph, an interest shall
not be considered as an interest which will
terminate or fail merely because it is the
ownership of a bond, note, or similar contractual
obligation, the discharge of which would not have
the effect of an annuity for life or for a term.
(2) Interest in unidentified assets.--Where the
assets (included in the decedent’s gross estate) out
of which, or the proceeds of which, an interest
passing to the surviving spouse may be satisfied
include a particular asset or assets with respect to
which no deduction would be allowed if such asset
or assets passed from the decedent to such spouse,
then the value of such interest passing to such
spouse shall, for purposes of subsection (a), be
reduced by the aggregate value of such particular
assets.
(3) Interest of spouse conditional on survival for
limited period.--For purposes of this subsection, an
interest passing to the surviving spouse shall not
be considered as an interest which will terminate
or fail on the death of such spouse if-(A) such death will cause a termination or failure
of such interest only if it occurs within a period
not exceeding 6 months after the decedent’s
death, or only if it occurs as a result of a common
disaster resulting in the death of the decedent

134a

and the surviving spouse, or only if it occurs in
the case of either such event; and
(B) such termination or failure does not in fact
occur.
(4) Valuation of interest passing to surviving
spouse.--In determining for purposes of subsection
(a) the value of any interest in property passing to
the surviving spouse for which a deduction is
allowed by this section-(A) there shall be taken into account the effect
which the tax imposed by section 2001, or any
estate, succession, legacy, or inheritance tax, has
on the net value to the surviving spouse of such
interest; and
(B) where such interest or property is
encumbered in any manner, or where the
surviving spouse incurs any obligation imposed
by the decedent with respect to the passing of
such interest, such encumbrance or obligation
shall be taken into account in the same manner
as if the amount of a gift to such spouse of such
interest were being determined.
(5) Life estate with power of appointment in
surviving spouse.--In the case of an interest in
property passing from the decedent, if his
surviving spouse is entitled for life to all the
income from the entire interest, or all the income
from a specific portion thereof, payable annually or
at more frequent intervals, with power in the
surviving spouse to appoint the entire interest, or
such specific portion (exercisable in favor of such
surviving spouse, or of the estate of such surviving
spouse, or in favor of either, whether or not in each
case the power is exercisable in favor of others),

135a

and with no power in any other person to appoint
any part of the interest, or such specific portion, to
any person other than the surviving spouse-(A) the interest or such portion thereof so passing
shall, for purposes of subsection (a), be
considered as passing to the surviving spouse,
and
(B) no part of the interest so passing shall, for
purposes of paragraph (1)(A), be considered as
passing to any person other than the surviving
spouse.
This paragraph shall apply only if such power in
the surviving spouse to appoint the entire
interest, or such specific portion thereof, whether
exercisable by will or during life, is exercisable
by such spouse alone and in all events.
(6) Life insurance or annuity payments with power
of appointment in surviving spouse.--In the case of
an interest in property passing from the decedent
consisting of proceeds under a life insurance,
endowment, or annuity contract, if under the
terms of the contract such proceeds are payable in
installments or are held by the insurer subject to
an agreement to pay interest thereon (whether the
proceeds, on the termination of any interest
payments, are payable in a lump sum or in annual
or more frequent installments), and such
installment or interest payments are payable
annually or at more frequent intervals,
commencing not later than 13 months after the
decedent’s death, and all amounts, or a specific
portion of all such amounts, payable during the life
of the surviving spouse are payable only to such
spouse, and such spouse has the power to appoint
all amounts, or such specific portion, payable

136a

under such contract (exercisable in favor of such
surviving spouse, or of the estate of such surviving
spouse, or in favor of either, whether or not in each
case the power is exercisable in favor of others),
with no power in any other person to appoint such
amounts to any person other than the surviving
spouse-(A) such amounts shall, for purposes of
subsection (a), be considered as passing to the
surviving spouse, and
(B) no part of such amounts shall, for purposes of
paragraph (1)(A), be considered as passing to any
person other than the surviving spouse.
This paragraph shall apply only if, under the
terms of the contract, such power in the
surviving spouse to appoint such amounts,
whether exercisable by will or during life, is
exercisable by such spouse alone and in all
events.
(7) Election with respect to life estate for surviving
spouse.-(A) In general.--In the case
terminable interest property--

of

qualified

(i) for purposes of subsection (a), such property
shall be treated as passing to the surviving
spouse, and
(ii) for purposes of paragraph (1)(A), no part of
such property shall be treated as passing to
any person other than the surviving spouse.
(B) Qualified terminable interest property
defined.--For purposes of this paragraph-(i) In general.--The term “qualified terminable
interest property” means property-137a

(I) which passes from the decedent,
(II) in which the surviving spouse has a
qualifying income interest for life, and
(III) to which an
paragraph applies.

election

under

this

(ii) Qualifying income interest for life.--The
surviving spouse has a qualifying income
interest for life if-(I) the surviving spouse is entitled to all the
income from the property, payable annually
or at more frequent intervals, or has a
usufruct interest for life in the property, and
(II) no person has a power to appoint any part
of the property to any person other than the
surviving spouse.
Subclause (II) shall not apply to a power
exercisable only at or after the death of
the surviving spouse. To the extent
provided in regulations, an annuity shall
be treated in a manner similar to an
income interest in property (regardless of
whether the property from which the
annuity is payable can be separately
identified).
(iii) Property includes interest therein.--The
term “property” includes an interest in
property.
(iv) Specific portion treated as separate
property.--A specific portion of property shall
be treated as separate property.
(v) Election.--An election under this paragraph
with respect to any property shall be made by
the executor on the return of tax imposed by
138a

section 2001. Such an election, once made, shall
be irrevocable.
(C) Treatment of survivor annuities.--In the case
of an annuity included in the gross estate of the
decedent under section 2039 (or, in the case of an
interest in an annuity arising under the
community property laws of a State, included in
the gross estate of the decedent under section
2033) where only the surviving spouse has the
right to receive payments before the death of
such surviving spouse-(i) the interest of such surviving spouse shall be
treated as a qualifying income interest for life,
and
(ii) the executor shall be treated as having
made an election under this subsection with
respect to such annuity unless the executor
otherwise elects on the return of tax imposed
by section 2001.
An election under clause (ii), once made, shall
be irrevocable.
(8) Special rule for charitable remainder trusts.-(A) In general.--If the surviving spouse of the
decedent is the only beneficiary of a qualified
charitable remainder trust who is not a
charitable beneficiary nor an ESOP beneficiary,
paragraph (1) shall not apply to any interest in
such trust which passes or has passed from the
decedent to such surviving spouse.
(B) Definitions.--For purposes of subparagraph
(A)-(i)
Charitable
beneficiary.--The
term
“charitable beneficiary” means any beneficiary

139a

which is an organization described in section
170(c).
(ii) ESOP beneficiary.--The term “ESOP
beneficiary” means any beneficiary which is an
employee stock ownership plan (as defined in
section 4975(e)(7)) that holds a remainder
interest in qualified employer securities (as
defined in section 664(g)(4)) to be transferred to
such plan in a qualified gratuitous transfer (as
defined in section 664(g)(1)).
(iii) Qualified charitable remainder trust.--The
term “qualified charitable remainder trust”
means a charitable remainder annuity trust or
a charitable remainder unitrust (described in
section 664).
(9) Denial of double deduction.--Nothing in this
section or any other provision of this chapter shall
allow the value of any interest in property to be
deducted under this chapter more than once with
respect to the same decedent.
(10) Specific portion.--For purposes of paragraphs
(5), (6), and (7)(B)(iv), the term “specific portion”
only includes a portion determined on a fractional
or percentage basis.
(c) Definition.--For purposes of this section, an
interest in property shall be considered as passing
from the decedent to any person if and only if-(1) such interest is bequeathed or devised to such
person by the decedent;
(2) such interest is inherited by such person from
the decedent;

140a

(3) such interest is the dower or curtesy interest (or
statutory interest in lieu thereof) of such person as
surviving spouse of the decedent;
(4) such interest has been transferred to such
person by the decedent at any time;
(5) such interest was, at the time of the decedent’s
death, held by such person and the decedent (or by
them and any other person) in joint ownership
with right of survivorship;
(6) the decedent had a power (either alone or in
conjunction with any person) to appoint such
interest and if he appoints or has appointed such
interest to such person, or if such person takes
such interest in default on the release or
nonexercise of such power; or
(7) such interest consists of proceeds of insurance
on the life of the decedent receivable by such
person.
Except as provided in paragraph (5) or (6) of
subsection (b), where at the time of the decedent’s
death it is not possible to ascertain the particular
person or persons to whom an interest in property
may pass from the decedent, such interest shall, for
purposes of subparagraphs (A) and (B) of subsection
(b)(1), be considered as passing from the decedent to
a person other than the surviving spouse.
(d) Disallowance of marital deduction
surviving spouse not United States citizen.--

where

(1) In general.--Except as provided in paragraph
(2), if the surviving spouse of the decedent is not a
citizen of the United States-(A) no deduction
subsection (a), and

shall

141a

be

allowed

under

(B) section 2040(b) shall not apply.
(2) Marital deduction allowed for certain transfers
in trust.-(A) In general.--Paragraph (1) shall not apply to
any property passing to the surviving spouse in a
qualified domestic trust.
(B) Special rule.--If any property passes from the
decedent to the surviving spouse of the decedent,
for purposes of subparagraph (A), such property
shall be treated as passing to such spouse in a
qualified domestic trust if-(i) such property is transferred to such a trust
before the date on which the return of the tax
imposed by this chapter is made, or
(ii) such property is irrevocably assigned to
such a trust under an irrevocable assignment
made on or before such date which is
enforceable under local law.
(3) Allowance of credit to certain spouses.--If-(A) property passes to the surviving spouse of the
decedent (hereinafter in this paragraph referred
to as the “first decedent”),
(B) without regard to this subsection, a deduction
would be allowable under subsection (a) with
respect to such property, and
(C) such surviving spouse dies and the estate of
such surviving spouse is subject to the tax
imposed by this chapter,
the Federal estate tax paid (or treated as paid
under section 2056A(b)(7)) by the first decedent
with respect to such property shall be allowed as
a credit under section 2013 to the estate of such

142a

surviving spouse and the amount of such credit
shall be determined under such section without
regard to when the first decedent died and
without regard to subsection (d)(3) of such
section.
(4) Special rule where resident spouse becomes
citizen.--Paragraph (1) shall not apply if-(A) the surviving spouse of the decedent becomes
a citizen of the United States before the day on
which the return of the tax imposed by this
chapter is made, and
(B) such spouse was a resident of the United
States at all times after the date of the death of
the decedent and before becoming a citizen of the
United States.
(5) Reformations permitted
(A) In general.--In the case of any property with
respect to which a deduction would be allowable
under subsection (a) but for this subsection, the
determination of whether a trust is a qualified
domestic trust shall be made-(i) as of the date on which the return of the tax
imposed by this chapter is made, or
(ii) if a judicial proceeding is commenced on or
before the due date (determined with regard to
extensions) for filing such return to change
such trust into a trust which is a qualified
domestic trust, as of the time when the changes
pursuant to such proceeding are made.
(B) Statute of limitations.--If a judicial
proceeding described in subparagraph (A)(ii) is
commenced with respect to any trust, the period
for assessing any deficiency of tax attributable to

143a

any failure of such trust to be a qualified
domestic trust shall not expire before the date 1
year after the date on which the Secretary is
notified that the trust has been changed
pursuant to such judicial proceeding or that such
proceeding has been terminated.

144a

APPENDIX 11
26 U.S.C.A. § 2519, I.R.C. § 2519
§ 2519. Dispositions of certain life estates
(a) General rule.--For purposes of this chapter and
chapter 11, any disposition of all or part of a
qualifying income interest for life in any property to
which this section applies shall be treated as a
transfer of all interests in such property other than
the qualifying income interest.
(b) Property to which this subsection applies.--This
section applies to any property if a deduction was
allowed with respect to the transfer of such property
to the donor-(1) under section 2056 by reason of subsection
(b)(7) thereof, or
(2) under section 2523 by reason of subsection (f)
thereof.
(c) Cross reference.-For right of recovery for gift tax in the case of
property treated as transferred under this
section, see section 2207A(b).

145a

APPENDIX 12
26 C.F.R. § 20.2011–1, Treas. Reg. § 20.2011–1
§ 20.2011–1 Credit for State death taxes.
(a) In general. A credit is allowed under section 2011
against the Federal estate tax for estate,
inheritance, legacy or succession taxes actually paid
to any State, Territory, or the District of Columbia,
or, in the case of decedents dying before September
3, 1958, any possession of the United States
(hereinafter referred to as “State death taxes”). The
credit, however, is allowed only for State death taxes
paid (1) with respect to property included in the
decedent’s gross estate, and (2) with respect to the
decedent’s estate. The amount of the credit is subject
to the limitation described in paragraph (b) of this
section. It is subject to further limitations described
in § 20.2011–2 if a deduction is allowed under
section 2053(d) for State death taxes paid with
respect to a charitable gift. See paragraph (a) of §
20.2014–1 as to the allowance of a credit for death
taxes paid to a possession of the United States in a
case where the decedent died after September 2,
1958.
(b) Amount of credit. (1) If the decedent’s taxable
estate does not exceed $40,000, the credit for State
death taxes is zero. If the decedent’s taxable estate
does exceed $40,000, the credit for State death taxes
is limited to an amount computed in accordance with
the following table:
Table for Computation of Maximum Credit for State
Death Taxes

146a

(A)—Taxable
estate equal
to or more
than—

(B)—Taxable
estate less
than—

(C)—Credit
on amount in
column (A)

(D)—Rates
of credit on
excess over
amount in
column (A)
(percent)

$40,000

$90,000

......

0.8

90,000

140,000

$400

1.6

140,000

240,000

1,200

2.4

240,000

440,000

3,600

3.2

440,000

640,000

10,000

4.0

640,000

840,000

18,000

4.8

840,000

1,040,000

27,600

5.6

1,040,00
0

1,540,000

38,800

6.4

1,540,00
0

2,040,000

70,800

7.2

2,040,00
0

2,540,000

106,800

8.0

2,540,00
0

3,040,000

146,800

8.8

147a

3,040,00
0

3,540,000

190,800

9.6

3,540,00
0

4,040,000

238,800

10.4

4,040,00
0

5,040,000

290,800

11.2

5,040,00
0

6,040,000

402,800

12.0

6,040,00
0

7,040,000

522,800

12.8

7,040,00
0

8,040,000

650,800

13.6

8,040,00
0

9,040,000

786,800

14.4

9,040,00
0

10,040,00
0

930,800

15.2

10,040,0
00

..........

1,082,80
0

16.0

(2) Subparagraph (1) of this paragraph may be
illustrated by the following example:

148a

Example. (i) The decedent died January 1, 1955,
leaving a taxable estate of $150,000. On January 1,
1956, inheritance taxes totaling $2,500 were actually
paid to a State with respect to property included in
the decedent’s gross estate. Reference to the table
discloses that the specified amount in column (A)
nearest to but less than the value of the decedent’s
taxable estate is $140,000. The maximum credit in
respect of this amount, as indicated in column (C), is
$1,200. The amount by which the taxable estate
exceeds the same specified amount is $10,000. The
maximum credit in respect of this amount, computed
at the rate of 2.4 percent indicated in column (D), is
$240. Thus, the maximum credit in respect of the
decedent’s taxable estate of $150,000 is $1,440, even
though $2,500 in inheritance taxes was actually paid
to the State.
(ii) If, in subdivision (i) of this example, the amount
actually paid to the State was $950, the credit for
State death taxes would be limited to $950. If, in
subdivision (i) of this example, the decedent’s
taxable estate was $35,000, no credit for State death
taxes would be allowed.
(c) Miscellaneous limitations and conditions to
credit—(1) Period of limitations. The credit for State
death taxes is limited under section 2011(c) to those
taxes which were actually paid and for which a
credit was claimed within four years after the filing
of the estate tax return for the decedent’s estate. If,
however, a petition has been filed with the Tax
Court of the United States for the redetermination of
a deficiency within the time prescribed in section
6213(a), the credit is limited to those taxes which
were actually paid and for which a credit was
claimed within four years after the filing of the

149a

return or within 60 days after the decision of the Tax
Court becomes final, whichever period is the last to
expire. Similarly, if an extension of time has been
granted under section 6161 for payment of the tax
shown on the return, or of a deficiency, the credit is
limited to those taxes which were actually paid and
for which a credit was claimed within four years
after the filing of the return, or before the date of the
expiration of the period of the extension, whichever
period is last to expire. If a claim for refund or credit
of an overpayment of the Federal estate tax is filed
within the time prescribed in section 6511, the credit
for State death taxes is limited to such taxes as were
actually paid and credit therefor claimed within four
years after the filing of the return or before the
expiration of 60 days from the date of mailing by
certified or registered mail by the district director to
the taxpayer of a notice of disallowance of any part
of the claim, or before the expiration of 60 days after
a decision by any court of competent jurisdiction
becomes final with respect to a timely suit instituted
upon the claim, whichever period is the last to
expire. See section 2015 for the applicable period of
limitations for credit for State death taxes on
reversionary or remainder interests if an election is
made under section 6163(a) to postpone payment of
the estate tax attributable to reversionary or
remainder interests. If a claim for refund based on
the credit for State death taxes is filed within the
applicable period described in this subparagraph, a
refund may be made despite the general limitation
provisions of sections 6511 and 6512. Any refund
based on the credit described in this section shall be
made without interest.
(2) Submission of evidence. Before the credit for
State death taxes is allowed, evidence that such

150a

taxes have been paid must be submitted to the
district director. The district director may
require the submission of a certificate from the
proper officer of the taxing State, Territory, or
possession of the United States, or the District of
Columbia, showing: (i) The total amount of tax
imposed (before adding interest and penalties
and before allowing discount); (ii) the amount of
any discount allowed; (iii) the amount of any
penalties and interest imposed or charged; (iv)
the total amount actually paid in cash; and (v)
the date or dates of payment. If the amount of
these taxes has been redetermined, the amount
finally determined should be stated. The
required evidence should be filed with the return,
but if that is not convenient or possible, then it
should be submitted as soon thereafter as
practicable. The district director may require the
submission of such additional proof as is deemed
necessary to establish the right to the credit. For
example, he may require the submission of a
certificate of the proper officer of the taxing
jurisdiction showing (vi) whether a claim for
refund of any part of the State death tax is
pending and (vii) whether a refund of any part
thereof has been authorized, and if a refund has
been made, its date and amount, and a
description of the property or interest in respect
of which the refund was made. The district
director may also require an itemized list of the
property in respect of which State death taxes
were imposed certified by the officer having
custody of the records pertaining to those taxes.
In addition, he may require the executor to
submit a written statement (containing a
declaration that it is made under penalties of
perjury) stating whether, to his knowledge, any
151a

person has instituted litigation or taken an
appeal (or contemplates doing so), the final
determination of which may affect the amount of
those taxes. See section 2016 concerning the
redetermination of the estate tax if State death
taxes claimed as credit are refunded.
(d) Definition of “basic estate tax”. Section 2011(d)
provides definitions of the terms “basic estate tax”
and “additional estate tax”, used in the Internal
Revenue Code of 1939, and “estate tax imposed by
the Revenue Act of 1926”, for the purpose of
supplying a means of computing State death taxes
under local statutes using those terms, and for use
in determining the exemption provided for in section
2201 for estates of certain members of the Armed
Forces. See section 2011(e)(3) for a modification of
these definitions if a deduction is allowed under
section 2053(d) for State death taxes paid with
respect to a charitable gift.

152a

APPENDIX 13
26 C.F.R. § 20.2033–1, Treas. Reg. § 20.2033–1
§ 20.2033–1 Property in which the decedent had
an interest.
(a) In general. The gross estate of a decedent who
was a citizen or resident of the United States at the
time of his death includes under section 2033 the
value of all property, whether real or personal,
tangible or intangible, and wherever situated,
beneficially owned by the decedent at the time of his
death. (For certain exceptions in the case of real
property situated outside the United States, see
paragraphs (a) and (c) of § 20.2031–1.) Real property
is included whether it came into the possession and
control of the executor or administrator or passed
directly to heirs or devisees. Various statutory
provisions which exempt bonds, notes, bills, and
certificates of indebtedness of the Federal
Government or its agencies and the interest thereon
from taxation are generally not applicable to the
estate tax, since such tax is an excise tax on the
transfer of property at death and is not a tax on the
property transferred.
(b) Miscellaneous examples. A cemetery lot owned by
the decedent is part of his gross estate, but its value
is limited to the salable value of that part of the lot
which is not designed for the interment of the
decedent and the members of his family. Property
subject to homestead or other exemptions under
local law is included in the gross estate. Notes or
other claims held by the decedent are likewise
included even though they are cancelled by the
decedent’s will. Interest and rents accrued at the
date of the decedent’s death constitute a part of the

153a

gross estate. Similarly, dividends which are payable
to the decedent or his estate by reason of the fact
that on or before the date of the decedent’s death he
was a stockholder of record (but which have not been
collected at death) constitute a part of the gross
estate.

154a

APPENDIX 14
PL 107-16, June 7, 2001, 115 Stat 38
UNITED STATES PUBLIC LAWS
107th Congress - First Session
Convening January, 2001
Additions and Deletions are not identified in this
database.
Vetoed provisions within tabular material are not
displayed
PL 107-16 (HR 1836)
June 7, 2001
ECONOMIC GROWTH AND TAX RELIEF
RECONCILIATION ACT OF 2001
An Act To provide for reconciliation pursuant to
section 104 of the concurrent resolution on the
budget for fiscal year 2002.
Be it enacted by the Senate and House of
Representatives of the United States of America in
Congress assembled,
SECTION I. SHORT TITLE; REFERENCES;
TABLE OF CONTENTS.
<< 26 USCA § 1 NOTE>>
(a) SHORT TITLE.-This Act may be cited as the
"Economic Growth and Tax Relief Reconciliation Act
of 2001".
(b) AMENDMENT OF 1986 CODE.-Except as
otherwise expressly provided, whenever in this Act
an amendment or repeal is expressed in terms of an
amendment to, or repeal of, a section or other
provision, the reference shall be considered to be
155a

made to a section or other provision of the Internal
Revenue Code of 1986.
(c) TABLE OF CONTENTS.-The table of contents of
this Act is as follows:
Sec. I. Short title; references; table of contents.
TITLE I-INDIVIDUAL INCOME TAX RATE
REDUCTIONS
Sec. 101. Reduction in income tax rates for
individuals.
Sec. 102. Repeal of phaseout of personal exemptions.
Sec. 103. Phaseout of overall limitation on itemized
deductions.
TITLE II-TAX BENEFITS RELATING TO
CHILDREN
Sec. 201. Modifications to child tax credit.
Sec. 202. Expansion of adoption credit and adoption
assistance programs.
Sec. 203. Refunds disregarded in the administration
of Federal programs and federally assisted
programs.
Sec. 204. Dependent care credit.
Sec. 205. Allowance of credit for employer expenses
for child care assistance.
TITLE III-MARRIAGE PENALTY RELIEF
Sec. 301. Elimination of marriage penalty in
standard deduction.
Sec. 302. Phaseout of marriage penalty in 15-percent
bracket.
Sec. 303. Marriage penalty relief for earned income
credit; earned income to include only amounts
156a

includible in gross income; simplification of earned
income credit.
TITLE IV-AFFORDABLE EDUCATION
PROVISIONS
Subtitle A-Education Savings Incentives
Sec. 401. Modifications to education individual
retirement accounts.
Sec. 402. Modifications to qualified tuition programs.
Subtitle B-Educational Assistance
Sec. 411. Extension of exclusion for employerprovided educational assistance.
Sec. 412. Elimination of 60-month limit and increase
in income limitation on student loan interest
deduction.
Sec. 413. Exclusion of certain amounts received
under the National Health Service Corps
Scholarship Program and the F. Edward Hebert
Armed Forces Health Professions Scholarship and
Financial Assistance Program.
Subtitle C-Liberalization of Tax-Exempt Financing
Rules for Public School Construction
Sec. 421. Additional increase in arbitrage rebate
exception for governmental bonds used to finance
educational facilities.
Sec. 422. Treatment of qualified public educational
facility bonds as exempt facility bonds.
Subtitle D-Other Provisions
Sec. 431. Deduction for higher education expenses.

157a

TITLE V-ESTATE, GIFT, AND GENERATIONSKIPPING TRANSFER TAX PROVISIONS
Subtitle A-Repeal of Estate and Generation-Skipping
Transfer Taxes
Sec. 501. Repeal of estate and generation-skipping
transfer taxes.
Subtitle B-Reductions of Estate and Gift Tax Rates
Sec. 511. Additional reductions of estate and gift tax
rates.
Subtitle C-Increase in Exemption Amounts
Sec. 521. Increase in exemption equivalent of unified
credit, lifetime gifts exemption, and GST exemption
amounts.
Subtitle D-Credit for State Death Taxes
Sec. 531. Reduction of credit for State death taxes.
Sec. 532. Credit for State death taxes replaced with
deduction for such taxes.
Subtitle E-Carryover Basis at Death; Other Changes
Taking Effect With Repeal
Sec. 541. Termination of step-up in basis at death.
Sec. 542. Treatment of property acquired from a
decedent dying after December 31, 2009.
Subtitle F-Conservation Easements
Sec. 551. Expansion of
conservation easements.

estate

tax

rule

for

Subtitle G-Modifications of Generation-Skipping
Transfer Tax
Sec. 561. Deemed allocation of GST exemption to
lifetime transfers to trusts; retroactive allocations.

158a

Sec. 562. Severing of trusts.
Sec. 563. Modification of certain valuation rules.
Sec. 564. Relief provisions.
Subtitle H-Extension of Time for Payment of Estate
Tax
Sec. 571. Increase in number of allowable partners
and shareholders in closely held businesses.
Sec. 572. Expansion of availability of installment
payment for estates with interests qualifying lending
and finance businesses.
Sec. 573. Clarification of availability of installment
payment.
Subtitle I-Other Provisions
Sec. 581. Waiver of statute of limitation for taxes on
certain farm valuations.
TITLE VI-PENSION AND INDIVIDUAL
RETIREMENT ARRANGEMENT PROVISIONS
Subtitle A-Individual Retirement Accounts
Sec. 601. Modification of IRA contribution limits.
Sec. 602. Deemed IRAs under employer plans.
Subtitle B-Expanding Coverage
Sec. 611. Increase in benefit and contribution limits.
Sec. 612. Plan loans for subchapter S owners,
partners, and sole proprietors.
Sec. 613. Modification of top-heavy rules.
Sec. 614. Elective deferrals not taken into account
for purposes of deduction limits.

159a

Sec. 615. Repeal of coordination requirements for
deferred compensation plans of State and local
governments and tax-exempt organizations.
Sec. 616. Deduction limits.
Sec. 617. Option to treat elective deferrals as aftertax Roth contributions.
Sec. 618. Nonrefundable credit to certain individuals
for elective deferrals and IRA contributions.
Sec. 619. Credit for pension plan startup costs of
small employers.
Sec. 620. Elimination of user fee for requests to IRS
regarding pension plans.
Sec. 621. Treatment of nonresident aliens engaged in
international transportation services.
Subtitle C-Enhancing Fairness for Women
Sec. 631. Catch-up contributions for individuals age
50 or over.
Sec. 632. Equitable treatment for contributions of
employees to defined contribution plans.
Sec. 633. Faster vesting of ce1tain
matching contributions.

employer

Sec. 634. Modification to minimum distribution
rules.
Sec. 635. Clarification of tax treatment of division of
section 457 plan benefits upon divorce.
Sec. 636. Provisions
distributions.

relating

to

hardship

Sec. 637. Waiver of tax on nondeductible
contributions for domestic or similar workers.

160a

Subtitle D-Increasing Portability for Participants
Sec. 641. Rollovers allowed among various types of
plans.
Sec. 642. Rollovers
retirement plans.

of

IRAs

into

workplace

Sec. 643. Rollovers of after-tax contributions.
Sec. 644. Hardship exception to 60-day rule.
Sec. 645. Treatment of fo1ms of distribution.
Sec. 646. Rationalization
distributions.

of

restrictions

on

Sec. 647. Purchase of service credit in governmental
defined benefit plans.
Sec. 648. Employers may disregard rollovers for
purposes of cash-out amounts.
Sec. 649. Minimum distribution and inclusion
requirements for section 457 plans.
Subtitle E-Strengthening Pension Security and
Enforcement
Part I-General Provisions
Sec. 651. Repeal of 160 percent of current liability
funding limit.
Sec. 652. Maximum contribution deduction rules
modified and applied to all defined benefit plans.
Sec. 653. Excise tax relief for sound pension funding.
Sec. 654. Treatment of multiemployer plans under
section 415.
Sec. 655. Protection of investment of employee
contributions to 401 (k) plans.

161a

Sec. 656. Prohibited allocations of stock in S
corporation ESOP.
Sec. 657. Automatic rollovers of certain mandatory
distributions.
Sec. 658. Clarification of treatment of contributions
to multiemployer plan.
Part II-Treatment of Plan Amendments Reducing
Future Benefit Accruals
Sec. 659. Excise tax on failure to provide notice by
defined benefit plans significantly reducing future
benefit accruals.
Subtitle F-Reducing Regulatory Burdens
Sec. 661. Modification of timing of plan valuations.
Sec. 662. ESOP dividends may be reinvested without
loss of dividend deduction.
Sec. 663. Repeal of transition rule relating to certain
highly compensated employees.
Sec. 664. Employees of tax-exempt entities.
Sec. 665. Clarification of treatment of employerprovided retirement advice.
Sec. 666. Repeal of the multiple use test.
Subtitle G-Miscellaneous Provisions
Sec. 671. Tax treatment and information
requirements of Alaska Native Settlement Trusts.
TITLE VII-ALTERNATIVE MINIMUM TAX
Sec. 701. Increase in alternative minimum tax
exemption.

162a

TITLE VIII-OTHER PROVISIONS
Sec. 801. Time for payment of corporate estimated
taxes.
Sec. 802. Expansion of authority to postpone certain
tax-related deadlines by reason of Presidentially
declared disaster.
Sec. 803. No Federal income tax on restitution
received by victims of the Nazi regime or their heirs
or estates.
TITLE IX-COMPLIANCE WITH
CONGRESSIONAL BUDGET ACT
Sec. 901. Sunset of provisions of Act.
TITLE I-INDIVIDUAL INCOME TAX RATE
REDUCTIONS
SEC. 101. REDUCTION IN INCOME TAX RATES
FOR INDIVIDUALS.
«26 USCA § 1»
(a) IN GENERAL-Section 1 (relating to tax imposed)
is amended by adding at the end the following new
subsection:
"(i) RATE REDUCTIONS AFTER 2000."(1) 10-PERCENT RATE BRACKET."(A) IN GENERAL-In the case of taxable years
beginning after December 31, 2000"(i) the rate of tax under subsections (a), (b), (c), and
(d) on taxable income not over the initial bracket
amount shall be 10 percent, and
"(ii) the 15 percent rate of tax shall apply only to
taxable income over the initial bracket amount but
not over the maximum dollar amount for the 15percent rate bracket.
163a

"(B) INITIAL BRACKET AMOUNT-For purposes of
this paragraph, the initial bracket amount is"(i) $14,000 ($12,000 in the case of taxable years
beginning before January 1, 2008) in the case of
subsection (a),
"(ii) $10,000 in the case of subsection (b), and
"(iii) ½ the amount applicable under clause (i) (after
adjustment, if any, under subparagraph (C)) in the
case of subsections (c) and (d).
"(C) INFLATION ADJUSTMENT-In prescribing the
tables under subsection (f) which apply with respect
to taxable years beginning in calendar years after
2000--"(i) the Secretary shall make no adjustment to the
initial bracket amount for any taxable year
beginning before January 1, 2009,
"(ii) the cost-of-living adjustment used in making
adjustments to the initial bracket amount for any
taxable year beginning after December 31, 2008,
shall be determined under subsection (f)(3) by
substituting '2007' for '1992' in subparagraph (B)
thereof, and
"(iii) such adjustment shall not apply to the amount
referred to in subparagraph (B)(iii).
If any amount after adjustment under the preceding
sentence is not a multiple of $50, such amount shall
be rounded to the next lowest multiple of $50.
"(D) COORDINATION WITH ACCELERATION OF
10 PERCENT RATE BRACKET BENEFIT FOR
2001.-This paragraph shall not apply to any taxable
year to which section 6428 applies.

164a

"(2) REDUCTIONS IN RATES AFTER JUNE 30,
2001.-In the case of taxable years beginning in a
calendar year after 2000, the corresponding
percentage specified for such calendar year in the
following table shall be substituted for the otherwise
applicable tax rate in the tables under subsections
(a), (b), (c), (d), and (e).
The corresponding percentages
shall be substituted for
the following percentages:
"In the case of taxable years
beginning during calendar year:
28%

31%

36%

39.6%

2001

27.5%

30.5%

35.5%

39.1%

2002 and 2003

27.0%

30.0%

35.0%

38.6%

2004 and 2005

26.0%

29.0%

34.0%

37.6%

2006 and thereafter

25.0%

28.0%

33.0%

35.0%

---------------------------------The corresponding percentages
"In the case of taxable years shall be substituted for
beginning during calendar year: the following
percentages:
---------------------------------28% 31 % 36% 39.6%
---------------------------------2001 27.5% 30.5% 35.5% 39.1%
2002 and 2003 27.0% 30.0% 35.0% 38.6%
36% 39.6%

165a

2004 and 2005 26.0% 29.0% 34.0% 37.6%
2006 and thereafter 25.0% 28.0% 33.0% 35.0%
----------------------------------------------------------------------"(3) ADJUSTMENT OF TABLES.-The Secretary
shall adjust the tables prescribed under subsection
(f) to carry out this subsection.".
(b) ACCELERATION OF 10 PERCENT RATE
BRACKET BENEFIT FOR 2001.<< 26 USCA § 6428 >>
(1) IN GENERAL-Subchapter B of chapter 65
(relating to abatements, credits, and refunds) is
amended by adding at the
end the following new section:
"SEC. 6428. ACCELERATION OF 10 PERCENT
INCOME TAX RATE BRACKET BENEFIT FOR
2001.
"(a) IN GENERAL-In the case of an eligible
individual, there shall be allowed as a credit against
the tax imposed by chapter 1 for the taxpayer's first
taxable year beginning in 2001 an amount equal to 5
percent of so much of the taxpayer's taxable income
as does not exceed the initial bracket amount (as
defined in section 1 (i)(1)(B)).
"(b) LIMITATION BASED ON AMOUNT OF TAX.The credit allowed by subsection (a) shall not exceed
the excess (if any) of"(1) the sum of the regular tax liability (as defined in
section 26(b)) plus the tax imposed by section 55,
over
"(2) the sum of the credits allowable under part IV of
subchapter A of chapter 1 (other than the credits

166a

allowable under subpart C thereof, relating to
refundable credits).
"(c) ELIGIBLE INDIVIDUAL-For purposes of this
section, the term 'eligible individual' means any
individual other than
"(1) any estate or trust,
"(2) any nonresident alien individual, and
"(3) any individual with respect to whom a deduction
under section 151 is allowable to another taxpayer
for a taxable year beginning in the calendar year in
which the individual's taxable year begins.
"(d) SPECIAL RULES."(1) COORDINATION WITH ADVANCE REFUNDS
OF CREDIT."(A) IN GENERAL-The amount of credit which
would (but for this paragraph) be allowable under
this section shall be reduced (but not below zero) by
the aggregate refunds and credits made or allowed to
the taxpayer under subsection (e). Any failure to so
reduce the credit shall be treated as arising out of a
mathematical or clerical error and assessed
according to section 6213(b)(1).
"(B) JOINT RETURNS.-In the case of a refund or
credit made or allowed under subsection (e) with
respect to a joint return, half of such refund or credit
shall be treated as having been made or allowed to
each individual filing such return.
"(2) COORDINATION WITH ESTIMATED TAX.The credit under this section shall be treated for
purposes of section 6654(f) in the same manner as a
credit under subpart A of part IV of subchapter A of
chapter 1.

167a

"(e) ADVANCE REFUNDS OF CREDIT BASED ON
PRIOR YEAR DATA."(1) IN GENERAL-Each individual who was an
eligible individual for such individual's first taxable
year beginning in 2000 shall be treated as having
made a payment against the tax imposed by chapter
1 for such first taxable year in an amount equal to
the advance refund amount for such taxable year.
"(2) ADVANCE REFUND AMOUNT-For purposes of
paragraph (1), the advance refund amount is the
amount that would have been allowed as a credit
under this section for such first taxable year if this
section ( other than subsection (d) and this
subsection) had applied to such taxable year.
"(3) TIMING OF PAYMENTS.-In the case of any
overpayment attributable to this subsection, the
Secretary shall, subject to the provisions of this title,
refund or credit such overpayment as rapidly as
possible and, to the extent practicable, before
October 1, 2001. No refund or credit shall be made or
allowed under this subsection after December 31,
2001.
"(4) NO INTEREST-No interest shall be allowed on
any overpayment attributable to this subsection.".
<< 26 USCA prec. § 6411 >>
.

.

.

.

.

<< 26 USCA § 62 NOTE >>
<< 26 USCA §§ 86 nt, 135 nt, 137 nt, 219 nt, 221 nt,
222 nt, 469 nt >>
(d) EFFECTIVE DATE.-The amendments made by
this section shall apply to payments made in taxable
years beginning after December 31, 2001.

168a

TITLE V-ESTATE, GIFT, AND GENERATIONSKIPPING TRANSFER TAX PROVISIONS
Subtitle A-Repeal of Estate and Generation-Skipping
Transfer Taxes
SEC.
501.
REPEAL
OF
ESTATE
AND
GENERATION-SKIPPING TRANSFER TAXES.
<< 26 USCA § 2210 >>
(a) ESTATE TAX REPEAL.-Subchapter C of chapter
11 of subtitle B (relating to miscellaneous) is
amended by adding at the end the following new
section:
"SEC. 2210. TERMINATION.
"(a) IN GENERAL-Except as provided in subsection
(b), this chapter shall not apply to the estates of
decedents dying after December 31, 2009.
"(b)
CERTAIN
DISTRIBUTIONS
FROM
QUALIFIED DOMESTIC TRUSTS.-In applying
section 2056A with respect to the surviving spouse of
a decedent dying before January 1, 2010"(1) section 2056A(b)(l)(A) shall not apply
distributions made after December 31, 2020, and

to

"(2) section 2056A(b)(1)(B) shall not apply after
December 31, 2009 .".
<< 26 USCA § 2664 >>
(b) GENERATION-SKIPPING TRANSFER TAX
REPEAL.-Subchapter G of chapter 13 of subtitle B
(relating to administration) is amended by adding at
the end the following new section:
"SEC. 2664. TERMINATION.
"This chapter shall not apply to generation-skipping
transfers after December 31, 2009.".

169a

(c) CONFORMING AMENDMENTS.<< 26 USCA prec. § 2201 >>
(1) The table of sections for subchapter C of chapter
11 is amended by adding at the end the following
new item:
"Sec. 2210. Termination.".
<< 26 USCA prec. § 2661 >>
(2) The table of sections for subchapter G of chapter
13 is amended by adding at the end the following
new item:
"Sec. 2664. Termination.".
« 26 USCA § 2210 NOTE»
(d) EFFECTIVE DATE.-The amendments made by
this section shall apply to the estates of decedents
dying, and generationskipping transfers, after
December 31, 2009.
Subtitle B-Reductions of Estate and Gift Tax Rates
SEC. 511. ADDITIONAL REDUCTlONS
ESTATE AND GIFT TAX RATES.

OF

<< 26 USCA § 2001 >>
(a) MAXIMUM RATE OF TAX REDUCED TO 50
PERCENT.-The table contained in section 2001(c)(1)
is amended by striking the two highest brackets and
inse11ing the following:
"Over $2,500,000.$1,025,800, plus 50% of the excess
over$2,500,000.".
<< 26 USCA § 2001 >>
(b) REPEAL OF PHASEOUT OF GRADUATED
RATES.-Subsection (c) of section 2001 is amended by
striking paragraph (2).

170a

<< 26 USCA § 2001 >>
(c) ADDITIONAL REDUCTIONS OF MAXIMUM
RATE OF TAX-Subsection (c) of section 2001, as
amended by subsection (b), is amended by adding at
the end the following new paragraph:
"(2) PHASEDOWN OF MAXIMUM RATE OF TAX."(A) IN GENERAL-In the case of estates of
decedents dying, and gifts made, in calendar years
after 2002 and before 2010, the tentative tax under
this subsection shall be determined by using a table
prescribed by the Secretary (in lieu of using the table
contained in paragraph(])) which is the same as such
table; except that"(i) the maximum rate of tax for any calendar year
shall be determined in the table under subparagraph
(B), and
"(ii) the brackets and the amounts setting forth the
tax shall be adjusted to the extent necessary to
reflect the adjustments under subparagraph (A).
"(B) MAXIMUM RATE.The maximum
"In calendar year: rate is:
2003.49 percent
2004.48 percent
2005 .47 percent
2006.46 percent
2007, 2008, and 2009.45 percent.".
<< 26 USCA § 2502 >>
(d) MAXIMUM GIFT TAX RATE REDUCED TO
MAXIMUM INDIVIDUAL RATE AFTER 2009.-

171a

Subsection (a) of section 2502 (relating to rate of tax)
is amended to read as follows:
"(a) COMPUTATION OF TAX."(1) IN GENERAL-The tax imposed by section 2501
for each calendar year shall be an amount equal to
the excess of
"(A) a tentative tax, computed under paragraph (2),
on the aggregate sum of the taxable gifts for such
calendar year and for each of the preceding calendar
periods, over
"(B) a tentative tax, computed under paragraph (2),
on the aggregate sum of the taxable gifts for each of
the preceding calendar periods.
"(2) RATE SCHEDULE.-'If the amount with respect
to which the tentative tax to be computed is:
"If the amount with respect to which the tentative
tax to
The tentative tax is:
be computed is:
Not over $10,000
18% of such amount.
Over $10,000 but not over $20,000
$1,800, plus 20% of the excess over $10,000.
Over $20,000 but not over $40,000
$3,800, plus 22% of the excess over $20,000.
"If the amount with respect to which the tentative
tax is:
tentative tax to be computed is:
Not over $10,000
18% of such amount.
Over $10,000 but not over $20,000
$1,800, plus 20% of the excess over $10,000.
172a

Over $20,000 but not over $40,000
$3,800, plus 22% of the excess over $20,000.
"If the amount with respect to which the tentative
tax to be computed is:
The tentative tax is:
Over $40,000 but not over $60,000
$8,200, plus 24% of the excess over $40,000.
Over $60,000 but not over $80,000
$13,000, plus 26% of the excess over $60,000.
Over $80,000 but not over $100,000
$18,200, plus 28% of the excess over $80,000.
Over $100,000 but not over$ 150,000
$23,800, plus 30% of the excess over $100,000.
Over $150,000 but not over $250,000
$38,800, plus 32% of the excess over $150,000.
Over $250,000 but not over $500,000
$70,800, plus 34% of the excess over $250,000.
Over $500,000
$155,800, plus 35% of the excess over $500,000.".
"If the amount with respect to which the tentative
tax is:
the tentative tax to be computed is:
Over $40,000 but not over $60,000
$8,200, plus 24% of the excess over $40,000.
Over $60,000 but not over $80,000
$13,000, plus 26% of the excess over $60,000.
Over $80,000 but not over $100,000
$18,200, plus 28% of the excess over $80,000.
Over $100,000 but not over $150,000
$23,800, plus 30% of the excess over $100,000.
173a

Over $150,000 but not over $250,000
$38,800, plus 32% of the excess over $150,000.
Over $250,000 but not over $500,000
$70,800, plus 34% of the excess over $250,000.
Over $500,000
$155,800, plus 35% of the excess over $500,000.".
<< 26 USCA § 2511 >>
(e) TREATMENT OF CERTAIN TRANSFERS IN
TRUST-Section 2511 (relating to transfers in
general) is amended by adding at the end the
following new subsection:
"(c) TREATMENT OF CERTAIN TRANSFERS IN
TRUST.-Notwithstanding any other provision of this
section and except as provided in regulations, a
transfer in trust shall be treated as a taxable gift
under section 2503, unless the trust is treated as
wholly owned by the donor or the donor's spouse
under subpart E of part I of subchapter J of chapter
1.".
(f) EFFECTIVE DATES.<< 26 USCA § 2001 NOTE>>
(1) SUBSECTIONS (a) AND (b).-The amendments
made by subsections (a) and (b) shall apply to estates
of decedents dying, and gifts made, after December
31, 2001.
(2) SUBSECTION (c).-The amendment made by
subsection (c) shall apply to estates of decedents
dying, and gifts made, after December 31, 2002.
<< 26 USCA § 2502 NOTE>>
<< 26 USCA § 2511 nt >>

174a

(3) SUBSECTIONS (d) AND (e).-The amendments
made by subsections (d) and (e) shall apply to gifts
made after December 31, 2009.
Subtitle C-Increase in Exemption Amounts
SEC.
521.
INCREASE
IN
EXEMPTION
EQUIVALENT OF UNIFIED CREDIT, LIFETIME
GIFTS EXEMPTION, AND GST EXEMPTION
AMOUNTS.
<< 26 USCA § 2010 >>
(a) IN GENERAL-Subsection (c) of section 2010
(relating to applicable credit amount) is amended by
striking the table and inserting the following new
table:
"In the case of estates of decedents The applicable
dying during: exclusion amount is:
2002 and 2003 .$1,000,000
2004 and 2005.$1,500,000
2006, 2007, and 2008.$2,000,000
2009.$3,500,000.".
(b) LIFETIME GIFT EXEMPTION INCREASED TO
$1,000,000.<< 26 USCA § 2505 >>
(1) FOR PERIODS BEFORE ESTATE TAX
REPEAL-Paragraph (1) of section 2505(a) (relating
to unified credit against gift tax) is amended by
inse11ing "(dete1mined as if the applicable exclusion
amount were $1 ,000,000)" after "calendar year".
<<26 USCA § 2505>>
(2) FOR PERIODS AFTER ESTATE TAX REPEALParagraph (1) of section 2505(a) (relating to unified

175a

credit against gift tax), as amended by paragraph
(1), is amended to read as follows:
"(I) the amount of the tentative tax which would be
determined under the rate schedule set fo11h in
section 2502(a)(2) if the amount with respect to
which such tentative tax is to be computed were
$1,000,000, reduced by".
(c) GST EXEMPTION.<< 26 USCA § 2631 >>
(1) IN GENERAL-Subsection (a) of 263l (relating to
GST
exemption)
is
amended
by
striking
"of$1,000,000" and inserting "amount".
<< 26 USCA § 2631>>
(2) EXEMPTION AMOUNT.-Subsection (c) of section
2631 is amended to read as follows:
"(c) GST EXEMPTION AMOUNT.-For purposes of
subsection (a), the GST exemption amount for any
calendar year shall be equal to the applicable
exclusion amount under section 2010(c) for such
calendar year.".
<< 26 USCA § 2057 >>
(d) REPEAL OF SPECIAL BENEFIT FOR FAMILYOWNED BUSINESS INTERESTS.-Section 2057
(relating to family-owned business interests) is
amended by adding at the end the following new
subsection:
"(j) TERMINATION.-This section shall not apply to
the estates of decedents dying after December 31,
2003.".
<< 26 USCA § 2010 NOTE>>
<< 26 USCA §§ 2057 nt, 2505 nt, 2631 nt >>

176a

(e) EFFECTIVE DATES.(1) IN GENERAL-Except as provided in paragraphs
(2) and (3), the amendments made by this section
shall apply to estates of decedents dying, and gifts
made, after December 31, 2001.
(2) SUBSECTION (b)(2)-The amendments made by
subsection (b)(2) shall apply to gifts made after
December 31, 2009.
(3) SUBSECTIONS (c) AND (d)-The amendments
made by subsections (c) and (d) shall apply to estates
of decedents dying, and generation-skipping
transfers, after December 31, 2003.
Subtitle D-Credit for State Death Taxes
SEC. 531. REDUCTION OF CREDIT FOR STATE
DEATH TAXES.
(a) IN GENERAL-Section 2011 (b) (relating to
amount of credit) is amended
<< 26 USCA § 2011 >>
(1) by striking "CREDIT.-The credit allowed" and
inserting "CREDIT."(1) IN GENERAL-Except as provided in paragraph
(2), the credit allowed",
<< 26 USCA § 2011>>
(2) by striking "For purposes" and inserting the
following:
"(3) ADJUSTED TAXABLE ESTATE.-For purposes",
and
<< 26 USCA § 2011 >>
(3) by inserting after paragraph (1) the following
new paragraph:
"(2) REDUCTION OF MAXIMUM CREDIT.177a

"(A) IN GENERAL-In the case of estates of
decedents dying after December 3 I, 200 I, the credit
allowed by this section shall not exceed the
applicable percentage of the credit otherwise
determined under paragraph (1).
"(B) APPLICABLE PERCENTAGE."In the case of estates of decedents The applicable
dying during: percentage is:
2002.75 percent
2003.50 percent
2004.25 percent.".
<< 26 USCA § 2011 NOTE>>
(b) EFFECTIVE DATE.-The amendments made by
this subsection shall apply to estates of decedents
dying after December 31, 2001.
SEC. 532. CREDIT FOR STATE DEATH TAXES
REPLACED WITH DEDUCTION FOR SUCH
TAXES.
<< 26 USCA § 2011 >>
(a) REPEAL OF CREDIT-Section 2011 (relating to
credit for State death taxes) is amended by adding at
the end the following new subsection:
"(g) TERMINATION.-This section shall not apply to
the estates of decedents dying after December 31,
2004.".
<< 26 USCA § 2058 >>
(b) DEDUCTION FOR STATE DEATH TAXES.-Part
IV of subchapter A of chapter 11 is amended by
adding at the end the following new section:
"SEC. 2058. STATE DEATH TAXES.

178a

"(a) ALLOWANCE OF DEDUCTION.-For purposes
of the tax imposed by section 2001, the value of the
taxable estate shall be determined by deducting from
the value of the gross estate the amount of any
estate, inheritance, legacy, or succession taxes
actually paid to any State or the District of
Columbia, in respect of any prope1ty included in the
gross estate (not including any such taxes paid with
respect to the estate of a person other than the
decedent).
"(b) PERIOD OF LIMITATIONS.-The deduction
allowed by this section shall include only such taxes
as were actually paid and deduction therefor claimed
before the later of"(1) 4 years after the filing of the return required by
section 6018, or
"(2) if"(A) a petition for redetermination of a deficiency has
been filed with the Tax Court within the time
prescribed in section 6213(a), the expiration of 60
days after the decision of the Tax Court becomes
final,
"(B) an extension of time has been granted under
section 6161 or 6166 for payment of the tax shown
on the return, or of a deficiency, the date of the
expiration of the period of the extension, or
"(C) a claim for refund or credit of an overpayment of
tax imposed by this chapter has been filed within the
time prescribed in section 6511, the latest of the
expiration of"(i) 60 days from the date of mailing by certified mail
or registered mail by the Secretary to the taxpayer of
a notice of the disallowance of any part of such
claim,
179a

"(ii) 60 days after a decision by any court of
competent jurisdiction becomes final with respect to
a timely suit instituted upon such claim, or
"(iii) 2 years after a notice of the waiver of
disallowance is filed under section 6532(a)(3).
Notwithstanding sections 6511 and 6512, refund
based on the deduction may be made if the claim for
refund is filed within the period provided in the
preceding sentence. Any such refund shall be made
without interest.".
(c) CONFORMING AMENDMENTS.<< 26 USCA § 2012 >>
(1) Subsection (a) of section 2012 is amended by
striking "the credit for State death taxes provided by
section 2011 and".
<< 26 USCA § 2013 >>
(2) Subparagraph (A) of section 2013(c)(1) is
amended by striking "2011,".
<< 26 USCA § 2014 >>
(3) Paragraph (2) of section 2014(b) is amended by
striking", 2011,".
<< 26 USCA § 2015 >>
<< 26 USCA § 2016 >>
(4) Sections 2015 and 2016 are each amended by
striking "2011 or".
<< 26 USCA § 2053 >>
(5) Subsection (d) of section 2053 is amended to read
as follows:
"(d) CERTAIN FOREIGN DEATH TAXES.-

180a

"(1) IN GENERAL.-Notwithstanding the provisions
of subsection (c)(1)(B), for purposes of the tax
imposed by section 2001, the value of the taxable
estate may be determined, if the executor so elects
before the expiration of the period of limitation for
assessment provided in section 6501, by deducting
from the value of the gross estate the amount (as
determined in accordance with regulations
prescribed by the Secretary) of any estate,
succession, legacy, or inheritance tax imposed by and
actually paid to any foreign country, in respect of
any property situated within such foreign count1y
and included in the gross estate of a citizen or
resident of the United States, upon a transfer by the
decedent for public, charitable, or religious uses
described in section 2055. The determination under
this paragraph of the country within which property
is situated shall be made in accordance with the
rules applicable under subchapter B (sec. 2101 and
following) in determining whether property is
situated within or without the United States. Any
election under this paragraph shall be exercised in
accordance with regulations prescribed by the
Secretary.
"(2)
CONDITION
FOR
ALLOWANCE
OF
DEDUCTION.-No deduction shall be allowed under
paragraph (1) for a foreign death tax specified
therein unless the decrease in the tax imposed by
section 2001 which results from the deduction
provided in paragraph (1) will inure solely for the
benefit of the public, charitable, or religious
transferees described in section 2055 or section
2106(a)(2). In any case where the tax imposed by
section 2001 is equitably apportioned among all the
transferees of property included in the gross estate,
including those described in sections 2055 and

181a

2106(a)(2) (taking into account any exemptions,
credits, or deductions allowed by this chapter), in
determining such decrease, there shall be
disregarded any decrease in the Federal estate tax
which any transferees other than those described in
sections 2055 and 2106(a)(2) are required to pay.
"(3) EFFECT ON CREDIT FOR FOREIGN DEATH
TAXES
OF
DEDUCTION
UNDER
THIS
SUBSECTION."(A) ELECTION.-An election under this subsection
shall be deemed a waiver of the right to claim a
credit, against the Federal estate tax, under a death
tax convention with any foreign country for any tax
or portion thereof in respect of which a deduction is
taken under this subsection.
"(B) CROSS REFERENCE."See section 2014(f) for the effect of a deduction
taken under this paragraph on the credit for foreign
death taxes.".
<< 26 USCA § 2056A >>
(6) Subparagraph (A) of section 2056A(b)(10) is
amended(A) by striking "2011,", and
(B) by inserting "2058," after "2056,".
<< 26 USCA § 2102>>
(7)(A) Subsection (a) of section 2102 is amended to
read as follows:
"(a) IN GENERAL.-The tax imposed by section 2101
shall be credited with the amounts determined in
accordance with sections 2012 and 2013 (relating to
gift tax and tax on prior transfers).".
<< 26 USCA § 2102 >>

182a

(B) Section 2102 is amended by striking subsection
(b) and by redesignating subsection ( c) as subsection
(b).
<< 26 USCA § 2102>>
<< 26 USCA § 2107 >>
(C) Section 2102(b)(5) (as redesignated by
subparagraph (B)) and section 2107(c)(3) are each
amended by striking "2011 to 2013, inclusive," and
inserting "2012 and 2013".
<< 26 USCA § 2106 >>
(8) Subsection (a) of section 2106 is amended by
adding at the end the following new paragraph:
"(4) STATE DEATH TAXES.-The amount which
bears the same ratio to the State death taxes as the
value of the property, as determined for purposes of
this chapter, upon which State death taxes were
paid and which is included in the gross estate under
section 2103 bears to the value of the total gross
estate under section 2103. For purposes of this
paragraph, the term 'State death taxes' means the
taxes described in section 2011(a).".
<< 26 USCA § 2201 >>
(9) Section 2201 is amended(A) by striking "as defined in section 2011(d)", and
(B) by adding at the end the following new flush
sentence:
"For purposes of this section, the additional estate
tax is the difference between the tax imposed by
section 2001 or 2101 and the amount equal to 125
percent of the maximum credit provided by section
2011(b), as in effect before its repeal by the Economic
Growth and Tax Relief Reconciliation Act of 2001.".

183a

<< 26 USCA § 2604 >>
(10) Section 2604 (relating to credit for certain State
taxes) is amended by adding at the end the following
new subsection:
"(c) TERMINATION.-This section shall not apply to
the generation-skipping transfers after December 31,
2004.".
<< 26 USCA § 6511>>
(11) Paragraph (2) of section 6511 (i) is amended by
striking "2011 (c), 2014(b )," and inserting "2014(b)".
<< 26 USCA § 6612>>
(12) Subsection ( c) of section 6612 is amended by
striking "section 2011 ( c) (relating to refunds due to
credit for State taxes),".
<< 26 USCA prec. § 2010 >>
(13) The table of sections for part II of subchapter A
of chapter 11 is amended by striking the item
relating to section 2011.
<< 26 USCA prec. § 2051 >>
(14) The table of sections for part IV of subchapter A
of chapter 11 is amended by adding at the end the
following new item:
"Sec. 2058. State death taxes.".
<< 26 USCA prec. § 2601 >>
(15) The table of sections for subchapter A of chapter
13 is amended by striking the item relating to
section 2604.
<< 26 USCA § 2011 NOTE>>
<< 26 USCA §§ 2012 nt, 2013 nt, 2014 nt, 2015 nt,
2016 nt, 2053 nt, 2056A nt, 2102 nt, 2106 nt, 2107
nt, 2201 nt, 2604 nt, 6511 nt, 6612 nt >>
184a

(d) EFFECTIVE DATE.-The amendments made by
this section shall apply to estates of decedents dying,
and generation-skipping transfers, after December
31, 2004.
Subtitle E-Carryover Basis at Death; Other Changes
Taking Effect With Repeal
<< 26 USCA § 1014 >>
SEC. 541. TERMINATION OF STEP-UP IN BASIS
AT DEATH.
Section 1014 (relating to basis of prope1ty acquired
from a decedent) is amended by adding at the end
the following new subsection:
"(f) TERMINATION.-This section shall not apply
with respect to decedents dying after December 31,
2009.".
SEC.
542.
TREATMENT
OF
PROPERTY
ACQUIRED FROM A DECEDENT DYING AFTER
DECEMBER 31, 2009.
(a) GENERAL RULE.-Part II of subchapter O of
chapter 1 (relating to basis rules of general
application) is amended by inserting after section
1021 the following new section:
<< 26 USCA § 1022 >>
"SEC. 1022. TREATMENT OF PROPERTY
ACQUIRED FROM A DECEDENT DYING AFTER
DECEMBER 31, 2009.
"(a) IN GENERAL-Except as otherwise provided in
this section"(1) property acquired from a decedent dying after
December 31, 2009, shall be treated for purposes of
this subtitle as transferred by gift, and

185a

"(2) the basis of the person acquiring property from
such a decedent shall be the lesser of"
(A) the adjusted basis of the decedent, or
"(B) the fair market value of the property at the date
of the decedent's death.
"(b)
BASIS
PROPERTY.-

INCREASE

FOR

CERTAIN

"(1) IN GENERAL-In the case of property to which
this subsection applies, the basis of such property
under subsection
(a) shall be increased by its basis increase under this
subsection.
"(2) BASIS
subsection-

INCREASE.-For

purposes

of

this

"(A) IN GENERAL-The basis increase under this
subsection for any property is the portion of the
aggregate basis increase which is allocated to the
property pursuant to this section.
"(B) AGGREGATE BASIS JNCREASE.-In the case
of any estate, the aggregate basis increase under this
subsection is $1,300,000.
"(C) LIMIT INCREASED BY UNUSED BUILT-IN
LOSSES AND LOSS CARRYOVERS.-The limitation
under subparagraph (B) shall be increased by"(i) the sum of the amount of any capital loss
carryover under section 1212(b), and the amount of
any net operating loss carryover under section 172,
which would (but for the decedent's death) be carried
from the decedent's last taxable year to a later
taxable year of the decedent, plus
"(ii) the sum of the amount of any losses that would
have been allowable under section 165 if the

186a

property acquired from the decedent had been sold
at fair market value immediately before the
decedent's death.
"(3) DECEDENT NONRESIDENTS WHO ARE NOT
CITIZENS OF THE UNITED STATES.-In the case
of a decedent nonresident not a citizen of the United
States"(A) paragraph (2)(B) shall be applied
substituting '$60,000' for '$1,300,000', and

by

"(B) paragraph (2)(C) shall not apply.
"(c) ADDITIONAL BASIS
PROPERTY
ACQUIRED
SPOUSE.-

INCREASE FOR
BY
SURVIVING

"(1) IN GENERAL-In the case of property to which
this subsection applies and which is qualified
spousal property, the basis of such property under
subsection (a) (as increased under subsection (b))
shall be increased by its spousal property basis
increase.
"(2) SPOUSAL PROPERTY BASIS INCREASE.-For
purposes of this subsection"(A) IN GENERAL-The spousal property basis
increase for property referred to in paragraph (1) is
the portion of the aggregate spousal property basis
increase which is allocated to the property pursuant
to this section.
"(B) AGGREGATE SPOUSAL PROPERTY BASIS
INCREASE.-In the case of any estate, the aggregate
spousal property basis increase is $3,000,000.
"(3)
QUALIFIED
SPOUSAL
PROPERTY-For
purposes of this subsection, the term 'qualified
spousal property' means

187a

"(A) outright transfer property, and
"(B) qualified terminable interest property.
"(4) OUTRIGHT TRANSFER
purposes of this subsection-

PROPERTY-For

"(A) IN GENERAL-The term 'outright transfer
property' means any interest in property acquired
from the decedent by the decedent's surviving
spouse.
"(B) EXCEPTION.-Subparagraph (A) shall not apply
where, on the lapse of time, on the occurrence of an
event or contingency, or on the failure of an event or
contingency to occur, an interest passing to the
surviving spouse will terminate or fail"(i)(I) if an interest in such property passes or has
passed (for less than an adequate and full
consideration in money or money's worth) from the
decedent to any person other than such surviving
spouse (or the estate of such spouse), and
"(II) if by reason of such passing such person (or his
heirs or assigns) may possess or enjoy any part of
such property after such termination or failure of the
interest so passing to the surviving spouse, or
"(ii) if such interest is to be acquired for the
surviving spouse, pursuant to directions of the
decedent, by his executor or by the trustee of a trust.
For purposes of this subparagraph, an interest shall
not be considered as an interest which will terminate
or fail merely because it is the ownership of a bond,
note, or similar contractual obligation, the discharge
of which would not have the effect of an annuity for
life or for a term.
"(C) INTEREST OF SPOUSE CONDITIONAL ON
SURVIVAL FOR LIMITED PERIOD.-For purposes
188a

of this paragraph, an interest passing to the
surviving spouse shall not be considered as an
interest which will terminate or fail on the death of
such spouse if"(i) such death will cause a termination or failure of
such interest only if it occurs within a period not
exceeding 6 months after the decedent's death, or
only if it occurs as a result of a common disaster
resulting in the death of the decedent and the
surviving spouse, or only if it occurs in the case of
either such event, and
"(ii) such termination or failure does not in fact
occur.
"(5)
QUALIFIED
TERMINABLE
INTEREST
PROPERTY-For purposes of this subsection
"(A) IN GENERAL-The term 'qualified terminable
interest property' means property"(i) which passes from the decedent, and
"(ii) in which the surviving spouse has a qualifying
income interest for life.
"(B) QUALIFYING INCOME INTEREST FOR
LIFE.-The surviving spouse has a qualifying income
interest for life if"
(i) the surviving spouse is entitled to all the income
from the property, payable annually or at more
frequent intervals, or has a usufruct interest for life
in the property, and
"(ii) no person has a power to appoint any part of the
property to any person other than the surviving
spouse.
Clause (ii) shall not apply to a power exercisable
only at or after the death of the surviving spouse. To

189a

the extent provided in regulations, an annuity shall
be treated in a manner similar to an income interest
in property (regardless of whether the property from
which the annuity is payable can be separately
identified).
"(C)
PROPERTY
INCLUDES
INTEREST
THEREIN.-The te1m 'property' includes an interest
in property.
"(D)
SPECIFIC
PORTION
TREATED
AS
SEPARATE PROPERTY.-A specific portion of
property shall be treated as separate property. For
purposes of the preceding sentence, the term 'specific
portion' only includes a portion determined on a
fractional or percentage basis.
"(d) DEFINITIONS AND SPECIAL RULES FOR
APPLICATION OF SUBSECTIONS (b) AND (c)."
(1) PROPERTY TO WHICH SUBSECTIONS (b)
AND (c) APPLY."(A) IN GENERAL-The basis of property acquired
from a decedent may be increased under subsection
(b) or (c) only if the property was owned by the
decedent at the time of death.
"(B) RULES RELATING TO OWNERSHIP."(i) JOINTLY HELD PROPERTY.-In the case of
property which was owned by the decedent and
another person as joint tenants with right of
survivorship or tenants by the entirety"(I) if the only such other person is the surviving
spouse, the decedent shall be treated as the owner of
only 50 percent of the property,
"(II) in any case (to which subclause (I) does not
apply) in which the decedent furnished consideration
for the acquisition of the property, the decedent shall
190a

be treated as the owner to the extent of the portion
of the property which is proportionate to such
consideration, and
"(III) in any case (to which subclause (I) does not
apply) in which the property has been acquired by
gift, bequest, devise, or inheritance by the decedent
and any other person as joint tenants with right of
survivorship and their interests are not otherwise
specified or fixed by law, the decedent shall be
treated as the owner to the extent of the value of a
fractional part to be determined by dividing the
value of the property by the number of joint tenants
with right of survivorship.
"(ii) REVOCABLE TRUSTS.-The decedent shall be
treated as owning property transferred by the
decedent during life to a qualified revocable trust (as
defined in section 645(6)(1)).
"(iii) POWERS OF APPOINTMENT-The decedent
shall not be treated as owning any property by
reason of holding a power of appointment with
respect to such property.
"(iv) COMMUNITY PROPERTY.-Property which
represents the surviving spouse's one-half share of
community property held by the decedent and the
surviving spouse under the community property
laws of any State or possession of the United States
or any foreign country shall be treated for purposes
of this section as owned by, and acquired from, the
decedent if at least one-half of the whole of the
community interest in such property is treated as
owned by, and acquired from, the decedent without
regard to this clause.

191a

"(C) PROPERTY ACQUIRED BY DECEDENT BY
GIFT WITHIN 3 YEARS OF DEATH."(i) IN GENERAL-Subsections (b) and (c) shall not
apply to prope1ty acquired by the decedent by gift or
by inter vivos transfer for less than adequate and
full consideration in money or money's worth during
the 3-year period ending on the date of the
decedent's death.
"(ii) EXCEPTION FOR CERTAIN GIFTS FROM
SPOUSE.-Clause (i) shall not apply to property
acquired by the decedent from the decedent's spouse
unless, during such 3-year period, such spouse
acquired the property in whole or in part by gift or
by inter vivos transfer for less than adequate and
full consideration in money or money's worth.
"(D) STOCK OF CERTAIN ENTITIES.-Subsections
(b) and (c) shall not apply to"(i) stock or securities of a foreign personal holding
company,
"(ii) stock of a DISC or former DISC,
"(iii) stock of a foreign investment company, or
"(iv) stock of a passive foreign investment company
unless such company is a qualified electing fund (as
defined in section 1295) with respect to the decedent.
"(2) FAIR MARKET VALUE LIMITATION.-The
adjustments under subsections (b) and (c) shall not
increase the basis of any interest in property
acquired from the decedent above its fair market
value in the hands of the decedent as of the date of
the decedent's death.
"(3) ALLOCATION RULES.-

192a

"(A) IN GENERAL-The executor shall allocate the
adjustments under subsections (b) and (c) on the
return required by section 6018.
"(B) CHANGES IN ALLOCATION.-Any allocation
made pursuant to subparagraph (A) may be changed
only as provided by the Secretary.
"(4) INFLATION ADJUSTMENT
ADJUSTMENT AMOUNTS.-

OF

BASIS

"(A) IN GENERAL-In the case of decedents dying in
a calendar year after 2010, the $1,300,000, $60,000,
and $3,000,000 dollar amounts in subsections (b)
and (c)(2)(B) shall each be increased by an amount
equal to the product of"(i) such dollar amount, and
"(ii) the cost-of-living adjustment determined under
section 1(f)(3) for such calendar year, determined by
substituting '2009' for '1992' in subparagraph (B)
thereof.
"(B) ROUNDING.-If any increase determined under
subparagraph (A) is not a multiple of"
(i) $100,000 in the case of the $1,300,000 amount,
"(ii) $5,000 in the case of the $60,000 amount, and
"(iii) $250,000 in the case of the $3,000,000 amount,
such increase shall be rounded to the next lowest
multiple thereof.
"(e)
PROPERTY
ACQUIRED
FROM
THE
DECEDENT-For purposes of this section, the
following property shall be considered to have been
acquired from the decedent:
"(1) Property acquired by bequest, devise, or
inheritance, or by the decedent's estate from the
decedent.

193a

"(2) Property transferred by the decedent during his
lifetime"(A) to a qualified revocable trust (as defined in
section 645(b)(1)), or
"(B) to any other trust with respect to which the
decedent reserved the right to make any change in
the enjoyment thereof through the exercise of a
power to alter, amend, or terminate the trust.
"(3) Any other property passing from the decedent by
reason of death to the extent that such property
passed without consideration.
"(f) COORDINATION WITH SECTION 691.-This
section shall not apply to property which constitutes
a right to receive an item of income in respect of a
decedent under section 691.
"(g) CERTAIN LIABILITIES DISREGARDED."(1) IN GENERAL-In determining whether gain is
recognized on the acquisition of property"(A) from a decedent by a decedent's estate or any
beneficiary other than a tax-exempt beneficiary, and
"(B) from the decedent's estate by any beneficiary
other than a tax-exempt beneficiary, and in
determining the adjusted basis of such property,
liabilities in excess of basis shall be disregarded.
"(2) TAX-EXEMPT BENEFICIARY-For purposes of
paragraph (1), the term 'tax-exempt beneficiary'
means"(A) the United States, any State
subdivision thereof, any possession of
States, any Indian tribal government
meaning of section 7871), or any
instrumentality of any of the foregoing,

194a

or political
the United
(within the
agency or

"(B) an organization (other than a cooperative
described in section 521) which is exempt from tax
imposed by chapter 1,
"(C) any foreign person or entity (within the meaning
of section l 68(h)(2)), and
"(D) to the extent provided in regulations, any
person to whom property is transferred for the
principal purpose of tax avoidance.
"(h) REGULATIONS.-The Secretary shall prescribe
such regulations as may be necessary to carry out
the purposes of this section.".
(b) INFORMATION RETURNS, ETC.(1) LARGE TRANSFERS AT DEATH.-So much of
subpart C of part II of subchapter A of chapter 61 as
precedes section 6019 is amended to read as follows:
<< 26 USCA prec. * 6018 >>
"Subpart C-Returns Relating to Transfers
During Life or at Death
"Sec. 6018. Returns relating to large transfers at
death.
"Sec. 6019. Gift tax returns.
<< 26 USCA § 6018 >>
"SEC. 6018. RETURNS RELATING TO LARGE
TRANSFERS AT DEATH.
"(a) IN GENERAL-If this section applies to property
acquired from a decedent, the executor of the estate
of such decedent shall make a return containing the
information specified in subsection (c) with respect
to such property.

195a

"(b) PROPERTY TO WHICH SECTION APPLIES."(1) LARGE TRANSFERS.-This section shall apply
to all property (other than cash) acquired from a
decedent if the fair market value of such property
acquired from the decedent exceeds the dollar
amount applicable under section 1022(b)(2)(B)
(without regard to section 1022(6)(2)(C)).
"(2) TRANSFERS OF CERTAIN GIFTS RECEIVED
BY DECEDENT WITHIN 3 YEARS OF DEATH.This section shall apply to any appreciated property
acquired from the decedent if"(A) subsections (b) and ( c) of section 1022 do not
apply to such property by reason of section
1022(d)(1)(C), and
"(B) such property was required to be included on a
return required to be filed under section 6019.
"(3) NONRESIDENTS NOT CITIZENS OF THE
UNITED STATES.-In the case of a decedent who is a
nonresident not a citizen of the United States,
paragraphs (1) and (2) shall be applied"(A) by taking into account only"(i) tangible property situated in the United States,
and
"(ii) other property acquired from the decedent by a
United States person, and
"(B) by substituting the dollar amount applicable
under section 1022(6)(3) for the dollar amount
referred to in paragraph (1).
"(4)
RETURNS
BY
TRUSTEES
OR
BENEFICIARIES.-If the executor is unable to make
a complete return as to any property acquired from
or passing from the decedent, the executor shall

196a

include in the return a description of such property
and the name of every person holding a legal or
beneficial interest therein. Upon notice from the
Secretary, such person shall in like manner make a
return as to such property.
"(c)
INFORMATION
REQUIRED
TO
BE
FURNISHED.-The information specified in this
subsection with respect to any property acquired
from the decedent is"(1) the name and TIN of the recipient of such
property,
"(2) an accurate description of such property,
"(3) the adjusted basis of such property in the hands
of the decedent and its fair market value at the time
of death,
"(4) the decedent's holding period for such property,
"(5) sufficient information to determine whether any
gain on the sale of the property would be treated as
ordinary income,
"(6) the amount of basis increase allocated to the
property under subsection (b) or (c) of section 1022,
and
"(7) such other information as the Secretary may by
regulations prescribe.
"(d) PROPERTY ACQUIRED FROM DECEDENT.For purposes of this section, section 1022 shall apply
for purposes of determining the property acquired
from a decedent.
"(e) STATEMENTS TO BE FURNISHED TO
CERTAIN PERSONS.-Every person required to
make a return under subsection (a) shall furnish to
each person whose name is required to be set forth

197a

in such return (other than the person required to
make such return) a written statement showing"(1) the name, address, and phone number of the
person required to make such return, and
"(2) the information specified in subsection ( c) with
respect to property acquired from, or passing from,
the decedent to the person required to receive such
statement.
The written statement required under the preceding
sentence shall be furnished not later than 30 days
after the date that the return required by subsection
(a) is filed.".
(2) GIFTS.-Section 6019 (relating to gift tax returns)
is amended<< 26 USCA § 6019 >>
(A) by striking "Any individual" and inserting "(a) IN
GENERAL-Any individual", and
<< 26 USCA § 6019 >>
(B) by adding at the end the following new
subsection:
"(b) STATEMENTS TO BE FURNISHED TO
CERTAIN PERSONS.-Every person required to
make a return under subsection (a) shall furnish to
each person whose name is required to be set forth
in such return (other than the person required to
make such return) a written statement showing"(1) the name, address, and phone number of the
person required to make such return, and
"(2) the information specified in such return with
respect to property received by the person required
to receive such statement.

198a

The written statement required under the preceding
sentence shall be furnished not later than 30 days
after the date that the return required by subsection
(a) is filed.".
(3) TIME FOR FILING SECTION 6018 RETURNS.<< 26 USCA § 6075 >>
(A)
RETURNS
RELATING
TO
LARGE
TRANSFERS AT DEATH.-Subsection (a) of section
6075 is amended to read as follows:
"(a)
RETURNS
RELATING
TO
LARGE
TRANSFERS AT DEATH.-The return required by
section 6018 with respect to a decedent shall be filed
with the return of the tax imposed by chapter I for
the decedent's last taxable year or such later date
specified in regulations prescribed by the
Secretary.".
<< 26 USCA § 6075 >>
(B) CONFORMING AMENDMENTS.-Paragraph (3)
of section 6075(b) is amended(i) by striking "ESTATE TAX RETURN" in the
heading and inserting "SECTION 6018 RETURN",
and
(ii) by striking "(relating to estate tax returns)" and
inserting "(relating to returns relating to large
transfers at death)".
(4) PENALTIES.-Part I of subchapter B of chapter
68 (relating to assessable penalties) is amended by
adding at the end the following new section:
<< 26 USCA § 6716 >>

199a

"SEC. 6716. FAILURE TO FILE INFORMATION
WITH RESPECT TO CERTAIN TRANSFERS AT
DEATH AND GIFTS.
"(a)
INFORMATION
REQUIRED
TO
BE
FURNISHED TO THE SECRETARY.-Any person
required to furnish any information under section
6018 who fails to furnish such information on the
date prescribed therefor (determined with regard to
any extension of time for filing) shall pay a penalty
of $10,000 ($500 in the case of information required
to be furnished under section 6018(b)(2)) for each
such failure.
"(b)
INFORMATION
REQUIRED
TO
BE
FURNISHED TO BENEFICIARIES.-Any person
required to furnish in writing to each person
described in section 6018(e) or 6019(b) the
information required under such section who fails to
furnish such information shall pay a penalty of $50
for each such failure.
"(c) REASONABLE CAUSE EXCEPTION.-No
penalty shall be imposed under subsection (a) or (b)
with respect to any failure if it is shown that such
failure is due to reasonable cause.
"(d) INTENTIONAL DISREGARD.-If any failure
under subsection (a) or (b) is due to intentional
disregard of the requirements under sections 6018
and 6019(b), the penalty under such subsection shall
be 5 percent of the fair market value (as of the date
of death or, in the case of section 6019(b), the date of
the gift) of the property with respect to which the
information is required.
"(e) DEFICIENCY PROCEDURES NOT TO
APPLY.-Subchapter B of chapter 63 (relating to
deficiency procedures for income, estate, gift, and

200a

certain excise taxes) shall not apply in respect of the
assessment or collection of any penalty imposed by
this section.".
(5) CLERICAL AMENDMENTS.<< 26 USCA prec. § 6671>>
(A) The table of sections for part I of subchapter B of
chapter 68 is amended by adding at the end the
following new item:
"Sec. 6716. Failure to file information with respect to
ce1tain transfers at death and gifts.".
<< 26 USCA prec. § 6011 >>
(B) The item relating to subpart C in the table of
subparts for part II of subchapter A of chapter 61 is
amended to read as follows:
"Subpart C. Returns relating to transfers during life
or at death.".
<< 26 USCA § 121 >>
(c) EXCLUSION OF GAIN ON SALE OF
PRINCIPAL RESIDENCE MADE AVAILABLE TO
HEIR OF DECEDENT IN CERTAIN CASES.Subsection (d) of section 121 (relating to exclusion of
gain from sale of principal residence) is amended by
adding at the end the following new paragraph:
"(9)
PROPERTY
ACQUIRED
FROM
A
DECEDENT.-The exclusion under this section shall
apply to property sold by
"(A) the estate of a decedent,
"(B) any individual who acquired such property from
the decedent (within the meaning of section 1022),
and

201a

"(C) a trust which, immediately before the death of
the decedent, was a qualified revocable trust (as
defined in section 645(b)(1)) established by the
decedent, determined by taking into account the
ownership and use by the decedent.".
(d) TRANSFERS OF APPRECIATED CARRYOVER
BASIS PROPERTY TO SATISFY PECUNIARY
BEQUEST.
(1) IN GENERAL-Section 1040 (relating to transfer
of certain farm, etc., real property) is amended to
read as follows:
<< 26 USCA § 1040 >>
"SEC. 1040. USE OF APPRECIATED CARRYOVER
BASIS PROPERTY TO SATISFY PECUNIARY
BEQUEST.
"(a) IN GENERAL-If the executor of the estate of
any decedent satisfies the right of any person to
receive a pecuniary bequest with appreciated
property, then gain on such exchange shall be
recognized to the estate only to the extent that, on
the date of such exchange, the fair market value of
such property exceeds such value on the date of
death.
"(b) SIMILAR RULE FOR CERTAIN TRUSTS.-To
the extent provided in regulations prescribed by the
Secretary, a rule similar to the rule provided in
subsection (a) shall apply where"(1) by reason of the death of the decedent, a person
has a right to receive from a trust a specific dollar
amount which is the equivalent of a pecuniary
bequest, and
"(2) the trustee of a trust satisfies such right with
property.

202a

"(c) BASIS OF PROPERTY ACQUIRED IN
EXCHANGE DESCRIBED IN SUBSECTION (a) OR
(b).-The basis of property acquired in an exchange
with respect to which gain realized is not recognized
by reason of subsection (a) or (b) shall be the basis of
such property immediately before the exchange
increased by the amount of the gain recognized to
the estate or trust on the exchange.".
<< 26 USCA prec. § 1031 >>
(2) The item relating to section 1040 in the table of
sections for part III of subchapter O of chapter 1 is
amended to read as follows:
"Sec. 1040. Use of appreciated carryover basis
property to satisfy pecuniary bequest.".
(e) AMENDMENTS RELATED TO CARRYOVER
BASIS.(1) RECOGNITION OF GAIN ON TRANSFERS TO
NONRESIDENTS.<< 26 USCA § 684 >>
(A) Subsection (a) of section 684 is amended by
inserting "or to a nonresident alien" after "or trust".
<< 26 USCA § 684 >>
(B) Subsection (b) of section 684 is amended to read
as follows :
"(b) EXCEPTIONS."(1) TRANSFERS TO CERTAIN TRUSTS.Subsection (a) shall not apply to a transfer to a trust
by a United States person to the extent that any
United States person is treated as the owner of such
trust under section 671.

203a

"(2) LIFETIME TRANSFERS TO NONRESIDENT
ALIENS.-Subsection (a) shall not apply to a lifetime
transfer to a nonresident alien.".
<< 26 USCA § 684 >>
(C) The section heading for section 684 is amended
by inserting "and nonresident aliens" after "estates".
<< 26 USCA prec. § 681 >>
(D) The item relating to section 684 in the table of
sections for subpart F of part I of subchapter J of
chapter 1 is amended by inserting "and nonresident
aliens" after "estates".
(2)
CAPITAL
GAIN
TREATMENT
FOR
INHERITED
ART
WORK
OR
SIMILAR
PROPERTY.<< 26 USCA § 1221 >>
(A) IN GENERAL-Subparagraph (C) of section
1221(a)(3) (defining capital asset) is amended by
inserting "(other than by reason of section 1022)"
after "is determined".
<< 26 USCA § 170>>
(B) COORDINATION WITH SECTION 170.Paragraph (1) of section 170(e) (relating to certain
contributions of ordinary income and capital gain
property) is amended by adding at the end the
following: "For purposes of this paragraph, the
determination of whether property is a capital asset
shall be made without regard to the exception
contained in section 1221 (a)(3)(C) for basis
determined under section 1022.".
<< 26 USCA § 7701 >>

204a

(3) DEFINITION OF EXECUTOR.-Section 7701(a)
(relating to definitions) is amended by adding at the
end the following:
"(47) EXECUTOR.-The term 'executor' means the
executor or administrator of the decedent, or, if there
is no executor or administrator appointed, qualified,
and acting within the United States, then any
person in actual or constructive possession of any
property of the decedent.".
<< 26 USCA § 4947 >>
(4) CERTAIN TRUSTS.-Subparagraph (A) of section
494 7 ( a )(2) is amended by inserting "642(c), " after
"170( f)(2)(B).".
(5) OTHER AMENDMENTS.<< 26 USCA § 1246 >>
(A) Section 1246 is amended by striking subsection
(e).
<< 26 USCA § 1291 >>
(B) Subsection (e) of section 1291 is amended(i) by striking "(e),"; and
(ii) by striking"; except that" and all that follows and
inserting a period.
<< 26 USCA § 1296 >>
(C) Section 1296 is amended by striking sub-section
(i).
<< 26 USCA prec. § 1011 >>
(6) CLERICAL AMENDMENT-The table of sections
for part II of subchapter O of chapter I is amended
by inserting after the item relating to section 1021
the following new item:

205a

"Sec. 1022. Treatment of property acquired from a
decedent dying after December 31, 2009.".
<< 26 USCA § 121 NOTE >>
<< 26 USCA §§ 170 nt, 684 nt, 1014 nt, 1022 nt,
1040 nt, 1221 nt, 1246 nt, 1291 nt, 1296 nt, 4947 nt,
6018 nt, 6019 nt, 6075 nt, 7701 nt >> << 26 USCA
§ 6716 nt >>
(f) EFFECTIVE DATE.(1) IN GENERAL-Except as provided in paragraph
(2), the amendments made by this section shall
apply to estates of decedents dying after December
31, 2009.
(2)
TRANSFERS
TO
NONRESIDENTS.-The
amendments made by subsection (e)(1) shall apply to
transfers after December 31, 2009.
(3) SECTION 4947.-The amendment made by
subsection (e)(4) shall apply to deductions for taxable
years beginning after December 31, 2009.
Subtitle F-Conservation Easements
SEC. 551. EXPANSION OF ESTATE TAX RULE
FOR CONSERVATION EASEMENTS.
<< 26 USCA § 2031 >>
(a) REPEAL OF CERTAIN RESTRICTIONS ON
WHERE LAND IS LOCATED.-Clause (i) of section
203l(c)(8)(A) (defining land subject to a qualified
conservation easement) is amended to read as
follows:
"(i) which is located in the United States or any
possession of the United States,".
<< 26 USCA § 2031 >>

206a

(b)
CLARIFICATION
OF
DATE
FOR
DETERMINING
VALUE
OF
LAND
AND
EASEMENT-Section 2031(c)(2) (defining applicable
percentage) is amended by adding at the end the
following new sentence: "The values taken into
account under the preceding sentence shall be such
values as of the date of the contribution referred to
in paragraph (8)(B).".
<< 26 USCA § 2031 NOTE>>
(c) EFFECTIVE DATE.-The amendments made by
this section shall apply to estates of decedents dying
after December 31, 2000.
Subtitle G-Modifications of Generation-Skipping
Transfer Tax
SEC. 561. DEEMED ALLOCATION OF GST
EXEMPTION TO LIFETIME TRANSFERS TO
TRUSTS; RETROACTIVE ALLOCATIONS.
<< 26 USCA § 2632 >>
(a) IN GENERAL-Section 2632 (relating to special
rules for allocation of GST exemption) is amended by
redesignating subsection (c) as subsection (e) and by
inserting after subsection (b) the following new
subsections:
"(c) DEEMED ALLOCATION TO CERTAIN
LIFETIME TRANSFERS TO GST TRUSTS."(1) IN GENERAL-If any individual makes an
indirect skip during such individual's lifetime, any
unused portion of such individual's GST exemption
shall be allocated to the prope11y transferred to the
extent necessary to make the inclusion ratio for such
property zero. If the amount of the indirect skip
exceeds such unused portion, the entire unused

207a

portion shall
transferred.

be

allocated

to

the

property

"(2) UNUSED PORTION.-For purposes of paragraph
(1), the unused portion of an individual's GST
exemption is that portion of such exemption which
has not previously been"(A) allocated by such individual,
"(B) treated as allocated under subsection (b) with
respect to a direct skip occurring during or before the
calendar year in which the indirect skip is made, or
"(C) treated as allocated under paragraph (1) with
respect to a prior indirect skip.
"(3) DEFINITIONS."(A) INDIRECT SKIP.-For purposes of this
subsection, the te1m 'indirect skip' means any
transfer of property (other than a direct skip) subject
to the tax imposed by chapter 12 made to a GST
trust.
"(B) GST TRUST.-The term 'GST trust' means a
trust that could have a generation-skipping transfer
with respect to the transferor unless"(i) the trust instrument provides that more than 25
percent of the trust corpus must be distributed to or
may be withdrawn by one or more individuals who
are non-skip persons"(I) before the date that the individual attains age
46,
"(II) on or before one or more dates specified in the
trust instrument that will occur before the date that
such individual attains age 46, or
"(III) upon the occurrence of an event that, in
accordance with regulations prescribed by the

208a

Secretary, may reasonably be expected to occur
before the date that such individual attains age 46,
"(ii) the trust instrument provides that more than 25
percent of the trust corpus must be distributed to or
may be withdrawn by one or more individuals who
are non-skip persons and who are living on the date
of death of another person identified in the
instrument (by name or by class) who is more than
10 years older than such individuals,
"(iii) the trust instrument provides that, if one or
more individuals who are non-skip persons die on or
before a date or event described in clause (i) or (ii),
more than 25 percent of the trust corpus either must
be distributed to the estate or estates of one or more
of such individuals or is subject to a general power of
appointment exercisable by one or more of such
individuals,
"(iv) the trust is a trust any portion of which would
be included in the gross estate of a non-skip person
(other than the transferor) if such person died
immediately after the transfer,
"(v) the trust is a charitable lead annuity trust
(within the meaning of section 2642(e)(3)(A)) or a
charitable remainder annuity trust or a charitable
remainder unitrust (within the meaning of section
664(d)), or
"(vi) the trust is a trust with respect to which a
deduction was allowed under section 2522 for the
amount of an interest in the form of the right to
receive annual payments of a fixed percentage of the
net fair market value of the trust property
(determined yearly) and which is required to pay
principal to a non-skip person if such person is alive

209a

when the yearly payments for which the deduction
was allowed terminate.
For purposes of this subparagraph, the value of
transferred property shall not be considered to be
includible in the gross estate of a non-skip person or
subject to a right of withdrawal by reason of such
person holding a right to withdraw so much of such
property as does not exceed the amount referred to
in section 2503(b) with respect to any transferor, and
it shall be assumed that powers of appointment held
by non-skip persons will not be exercised.
"(4) AUTOMATIC ALLOCATIONS TO CERTAIN
GST TRUSTS.-For purposes of this subsection, an
indirect skip to which section 2642(t) applies shall be
deemed to have been made only at the close of the
estate tax inclusion period. The fair market value of
such transfer shall be the fair market value of the
trust property at the close of the estate tax inclusion
period.
"(5) APPLICABILITY AND EFFECT."(A) IN GENERAL-An individual"(i) may elect to have this subsection not apply to"
(I) an indirect skip, or
"(II) any or all transfers made by such individual to a
particular trust, and
"(ii) may elect to treat any trust as a GST trust for
purposes of this subsection with respect to any or all
transfers made by such individual to such trust.
"(B) ELECTIONS."(i) ELECTIONS WITH RESPECT TO INDIRECT
SKIPS.-An election under subparagraph (A)(i)(I)
shall be deemed to be timely if filed on a timely filed

210a

gift tax return for the calendar year in which the
transfer was made or deemed to have been made
pursuant to paragraph (4) or on such later date or
dates as may be prescribed by the Secretary.
"(ii) OTHER ELECTIONS.-An election under clause
(i)(II) or (ii) of subparagraph (A) may be made on a
timely filed gift tax return for the calendar year for
which the election is to become effective.
"(d) RETROACTIVE ALLOCATIONS."(1) IN GENERAL.-If"(A) a non-skip person has an interest or a future
interest in a trust to which any transfer has been
made,
"(B) such person"(i) is a lineal descendant of a grandparent of the
transferor or of a grandparent of the transferor's
spouse or former spouse, and
"(ii) is assigned to a generation below the generation
assignment of the transferor, and
"(C) such person predeceases the transferor, then the
transferor may make an allocation of any of such
transferor's unused GST exemption to any previous
transfer or transfers to the trust on a chronological
basis.
"(2) SPECIAL RULES.-If the allocation under
paragraph (1) by the transferor is made on a gift tax
return filed on or before the date prescribed by
section 6075(b) for gifts made within the calendar
year within which the non-skip person's death
occurred"(A) the value of such transfer or transfers for
purposes of section 2642(a) shall be determined as if

211a

such allocation had been made on a timely filed gift
tax return for each calendar year within which each
transfer was made,
"(B) such allocation shall be effective immediately
before such death, and
"(C) the amount of the transferor's unused GST
exemption available to be allocated shall be
determined immediately before such death.
"(3) FUTURE INTEREST.-For purposes of this
subsection, a person has a future interest in a trust
if the trust may permit income or corpus to be paid
to such person on a date or dates in the future.".
<< 26 USCA § 2632 >>
(b) CONFORMING AMENDMENT.-Paragraph (2) of
section 2632(b) is amended by striking "with respect
to a prior direct skip" and inserting "or subsection
(c)(l)".
<< 26 USCA § 2632 NOTE>>
(c) EFFECTIVE DATES.(1) DEEMED ALLOCATION.-Section 2632(c) of the
Internal Revenue Code of 1986 (as added by
subsection (a)), and the amendment made by
subsection (b), shall apply to transfers subject to
chapter 11 or 12 made after December 31, 2000, and
to estate tax inclusion periods ending after
December 31, 2000.
(2)
RETROACTIVE
ALLOCATIONS.-Section
2632(d) of the Internal Revenue Code of 1986 (as
added by subsection (a)) shall apply to deaths of nonskip persons occurring after December 31, 2000.
SEC. 562. SEVERING OF TRUSTS.
<< 26 USCA § 2642 >>

212a

(a) IN GENERAL-Subsection (a) of section 2642
(relating to inclusion ratio) is amended by adding at
the end the following new paragraph:
"(3) SEVERING OF TRUSTS."(A) IN GENERAL-If a trust is severed in a qualified
severance, the trusts resulting from such severance
shall be treated as separate trusts thereafter for
purposes of this chapter.
"(B) QUALIFIED SEVERANCE.-For purposes of
subparagraph (A)"(i) IN GENERAL-The term 'qualified severance'
means the division of a single trust and the creation
(by any means available under the governing
instrument or under local law) of two or more trusts
if"(I) the single trust was divided on a fractional basis,
and
"(II) the terms of the new trusts, in the aggregate,
provide for the same succession of interests of
beneficiaries as are provided in the original trust.
"(ii) TRUSTS WITH INCLUSION RATIO GREATER
THAN ZERO.-If a trust has an inclusion ratio of
greater than zero and less than 1, a severance is a
qualified severance only if the single trust is divided
into two trusts, one of which receives a fractional
share of the total value of all trust assets equal to
the applicable fraction of the single trust
immediately before the severance. In such case, the
trust receiving such fractional share shall have an
inclusion ratio of zero and the other trust shall have
an inclusion ratio of 1.

213a

"(iii) REGULATIONS.-The term 'qualified severance'
includes any other severance permitted under
regulations prescribed by the Secretary.
"(C) TIMING AND MANNER OF SEVERANCES.-A
severance pursuant to this paragraph may be made
at any time. The Secretary shall prescribe by forms
or regulations the manner in which the qualified
severance shall be reported to the Secretary.".
<< 26 USCA § 2642 NOTE >>
(b) EFFECTIVE DATE.-The amendment made by
this section shall apply to severances after December
31, 2000.
SEC.
563. MODIFICATION
VALUATION RULES.

OF

CERTAIN

<< 26 USCA § 2642 >>
(a) GIFTS FOR WHICH GIFT TAX RETURN FILED
OR DEEMED ALLOCATION MADE.-Paragraph (1)
of section 2642(b) (relating to valuation rules, etc.) is
amended to read as follows:
"(I) GIFTS FOR WHICH GIFT TAX RETURN
FILED OR DEEMED ALLOCATION MADE.-of the
allocation of the GST exemption to any transfers of
property is made on a gift tax return filed on or
before the date prescribed by section 6075(b) for such
transfer or is deemed to be made under section 2632
(b )(I) or ( c )(I)-"(A) the value of such property for
purposes of subsection (a) shall be its value as finally
determined for purposes of chapter 12 (within the
meaning of section 2001 (f)(2)), or, in the case of an
allocation deemed to have been made at the close of
an estate tax inclusion period, its value at the time
of the close of the estate tax inclusion period, and

214a

"(B) such allocation shall be effective on and after
the date of such transfer, or, in the case of an
allocation deemed to have been made at the close of
an estate tax inclusion period, on and after the close
of such estate tax inclusion period.".
<< 26 USCA § 2642 >>
(b) TRANSFERS AT DEATH.-Subparagraph (A) of
section 2642(b)(2) is amended to read as follows:
"(A) TRANSFERS AT DEATH.-If property is
transferred as a result of the death of the transferor,
the value of such property for purposes of subsection
(a) shall be its value as finally determined for
purposes of chapter 11; except that, if the
requirements prescribed by the Secretary respecting
allocation of post-deaU1 changes in value are not
met, the value of such property shall be determined
as of the time of the distribution concerned.".
<< 26 USCA § 2642 NOTE >>
(c) EFFECTIVE DATE.-The amendments made by
this section shall apply to transfers subject to
chapter 11 or 12 of the Internal Revenue Code of
1986 made after December 31, 2000.
SEC. 564. RELIEF PROVISIONS.
<< 26 USCA § 2642 >>
(a) IN GENERAL-Section 2642 is amended by
adding at the end the following new subsection:
"(g) RELIEF PROVISIONS."(1) RELIEF FROM LATE ELECTIONS."(A) IN GENERAL-The Secretary shall by regulation
prescribe such circumstances and procedures under
which extensions of time will be granted to make-

215a

"(i) an allocation of GST exemption described in
paragraph ( 1) or (2) of subsection (b ), and
"(ii) an election under subsection (b)(3) or (c)(5) of
section 2632.
Such regulations shall include procedures for
requesting comparable relief with respect to
transfers made before the date of the enactment of
this paragraph.
"(B)
BASIS
FOR
DETERMINATIONS.-In
determining whether to grant relief under this
paragraph, the Secretary shall take into account all
relevant circumstances, including evidence of intent
contained in the trust instrument or instrument of
transfer and such other factors as the Secretary
deems relevant. For purposes of determining
whether to grant relief under this paragraph, the
time for making the allocation (or election) shall be
treated as if not expressly prescribed by statute.
"(2) SUBSTANTIAL COMPLIANCE.-An allocation
of GST exemption under section 2632 that
demonstrates an intent to have the lowest possible
inclusion ratio with respect to a transfer or a trust
shall be deemed to be an allocation of so much of the
transferor's unused GST exemption as produces the
lowest possible inclusion ratio. In determining
whether there has been substantial compliance, all
relevant circumstances shall be taken into account,
including evidence of intent contained in the trust
instrument or instrument of transfer and such other
factors as the Secretary deems relevant.".
<< 26 USCA § 2642 NOTE>>

216a

(b) EFFECTIVE DATES.(1) RELIEF FROM LATE ELECTIONS.-Section
2642(g)(1) of the Internal Revenue Code of 1986 (as
added by subsection
(a)) shall apply to requests pending on, or filed after,
December 31, 2000.
(2)
SUBSTANTIAL
COMPLIANCE.-Section
2642(g)(2) of such Code (as so added) shall apply to
transfers subject to chapter 11 or 12 of the Internal
Revenue Code of 1986 made after December 31,
2000. No implication is intended with respect to the
availability of relief from late elections or the
application of a rule of substantial compliance on or
before such date.
Subtitle H-Extension of Time for Payment of Estate
Tax
SEC. 571. INCREASE IN NUMBER OF
ALLOWABLE PARTNERS AND SHAREHOLDERS
IN CLOSELY HELD BUSINESSES.
<< 26 USCA § 6166 >>
(a) IN GENERAL-Paragraphs (1)(B)(ii), (1)(C)(ii),
and (9)(B)(iii)(I) of section 6166(b) (relating to
definitions and special rules) are each amended by
striking "15" and inserting "45".
<< 26 USCA § 6166 NOTE >>
(b) EFFECTIVE DATE.-The amendments made by
this section shall apply to estates of decedents dying
after December 31, 2001.
SEC. 572. EXPANSION OF AVAILABILITY OF
INSTALLMENT PAYMENT FOR ESTATES WITH
INTERESTS
QUALIFYING
LENDING
AND
FINANCE BUSINESSES.

217a

<< 26 USCA § 6166 >>
(a) IN GENERAL-Section 6166(b) (relating to
definitions and special rules) is amended by adding
at the end the following new paragraph:
"(10) STOCK IN QUALIFYING LENDING AND
FINANCE BUSINESS TREATED AS STOCK IN AN
ACTIVE TRADE OR BUSINESS COMPANY."(A) IN GENERAL-If the executor elects the benefits
of this paragraph, then
"(i) STOCK IN QUALIFYING LENDING AND
FINANCE BUSINESS TREATED AS STOCK IN AN
ACTIVE TRADE OR BUSINESS COMPANY-For
purposes of this section, any asset used in a
qualifying lending and finance business shall be
treated as an asset which is used in carrying on a
trade or business.
"(ii) 5-YEAR DEFERRAL FOR PRINCIPAL NOT TO
APPLY-The executor shall be treated as having
selected under subsection (a)(3) the date prescribed
by section 615l(a).
"(iii) 5 EQUAL INSTALLMENTS ALLOWED.-For
purposes of applying subsection (a)(l), '5' shall be
substituted for '10'.
"(B) DEFINITIONS.-For purposes of this paragraph"(i) QUALIFYING LENDING AND FINANCE
BUSINESS.-The term 'qualifying lending and
finance business' means a lending and finance
business, if"(I) based on all the facts and circumstances
immediately before the date of the decedent's death,
there was substantial activity with respect to the
lending and finance business, or

218a

"(II) during at least 3 of the 5 taxable years ending
before the date of the decedent's death, such
business had at least 1 fulltime employee
substantially all of whose services were the active
management of such business, 10 full-time,
nonowner employees substantially all of whose
services were directly related to such business, and
$5,000,000 in gross receipts from activities described
in clause (ii).
"(ii) LENDING AND FINANCE BUSINESS.-The
term 'lending and finance business' means a trade or
business of
"(I) making loans,
"(II) purchasing or discounting accounts receivable,
notes, or installment obligations,
"(III) engaging in rental and leasing of real and
tangible personal property, including entering into
leases and purchasing, servicing, and disposing of
leases and leased assets,
"(IV) rendering services or making facilities
available in the ordinary course of a lending or
finance business, and
"(V) rendering services or making facilities available
in connection with activities described in subclauses
(I) through (IV) carried on by the corporation
rendering services or making facilities available, or
another corporation which is a member of the same
affiliated group (as defined in section 1504 without
regard to section 1504(b)(3)).
"(iii) LIMITATION.-The term 'qualifying lending and
finance business' shall not include any interest in an
entity, if the stock or debt of such entity or a
controlled group (as defined in section 267(t)(l)) of
which such entity was a member was readily
219a

tradable on an established securities market or
secondary market (as defined by the Secretary) at
any time within 3 years before the date of the
decedent's death.".
<< 26 USCA § 6166 NOTE>>
(b) EFFECTIVE DATE.-The amendment made by
this section shall apply to estates of decedents dying
after December 31, 2001.
SEC. 573. CLARIFICATION OF AVAILABILITY OF
INSTALLMENT PAYMENT.
<< 26 USCA § 6166 >>
(a) IN GENERAL.-Subparagraph (B) of section
6166(b)(8) (relating to all stock must be non-readilytradable stock) is amended to read as follows:
"(B) ALL STOCK MUST BE NON-READILYTRADABLE STOCK."(i) IN GENERAL.-No stock shall be taken into
account for purposes of applying this paragraph
unless it is 11011-readily tradable stock (within the
meaning of paragraph (7)(8)).
"(ii) SPECIAL APPLICATION WHERE ONLY
HOLDING COMPANY STOCK IS NON-READILYTRADABLE STOCK.-If the requirements of clause
(i) are not met, but all of the stock of each holding
company taken into account is non-readily-tradable,
then this paragraph shall apply, but subsection (a)(I)
shall be applied by substituting '5' for '10'.".
<< 26 USCA § 6166 NOTE>>
(b) EFFECTIVE DATE.-The amendment made by
this section shall apply to estates of decedents dying
after December 31, 2001.

220a

Subtitle I-Other Provisions
« 26 USCA § 2032A NOTE »
SEC. 581. WAIVER OF STATUTE OF LIMITATION
FOR TAXES ON CERTAIN FARM VALUATIONS.
If on the date of the enactment of this Act ( or at any
time within I year after the date of the enactment) a
refund or credit of any overpayment of tax resulting
from the application of section 2032A(c)(7)(E) of the
Internal Revenue Code of 1986 is barred by any law
or rule of law, the refund or credit of such
overpayment shall, nevertheless, be made or allowed
if claim therefor is filed before the date 1 year after
the date of the enactment of this Act.
TITLE VI-PENSION AND INDIVIDUAL
RETIREMENT ARRANGEMENT PROVISIONS
Subtitle A-Individual Retirement Accounts
SEC.
601.
MODIFICATION
CONTRIBUTION LIMITS.

OF

IRA

(a) INCREASE IN CONTRIBUTION LIMIT.« 26 USCA § 219 »
(1) IN GENERAL-Paragraph (1 )(A) of section 219(b)
(relating to maximum amount of deduction) is
amended by striking "$2,000" and inserting "the
deductible amount".
« 26 USCA § 219 »
(2) DEDUCTIBLE AMOUNT-Section 219(b) is
amended by adding at the end the following new
paragraph:
"(5) DEDUCTIBLE
paragraph (1)(A)-

AMOUNT-For

221a

purposes

of

"(A) IN GENERAL-The deductible amount shall be
detem1ined in accordance with the following table:
"For taxable years
The deductible
beginning in: amount is:
2002 through 2004.$3,000
2005 through 2007 .$4,000
2008 and thereafter.$5,000.
"(B)
CATCH-UP
CONTRIBUTIONS
INDIVIDUALS 50 OR OLDER.-

FOR

"(i) IN GENERAL-In the case of an individual who
has attained the age of 50 before the close of the
taxable year, the
deductible amount for such taxable year shall be
increased by the applicable amount.
"(ii) APPLICABLE AMOUNT-For purposes of clause
(i), the applicable amount shall be the amount
determined in accordance with the following table:
"For taxable years
The applicable
beginning in: amount is:
2002 through 2005.$500
2006 and thereafter.$1,000.
"(C) COST-OF-LIVING ADJUSTMENT."(i) IN GENERAL-In the case of any taxable year
beginning in a calendar year after 2008, the $5,000
amount under subparagraph (A) shall be increased
by an amount equal to"(1) such dollar amount, multiplied by. . .

222a

APPENDIX 15
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK

New York County
Surrogate’s Court
Date: October 9, 2018
------------------------------------------------------------------------x
Application of Sara Jane Hogan, as Executor,
Seeking to Vacate and set aside a
Determination of the New York State
Department of Taxation and Finance
Declaring an Estate Tax Deficiency in the
Estate of
EVELYN SEIDEN,
Deceased.
------------------------------------------------------------------------x
DECISION and ORDER
File No.: 2014-4802/B
MELLA, S.:
This is a proceeding pursuant to New York
Tax Law § 998 to vacate and set aside a Notice of
Estate Tax Deficiency. The court is asked here to
determine the effect of the federal estate tax repeal
for the year 2010 on the New York estate tax
attributable to “QTIP” trusts for surviving spouses of
individuals who died in that year.

Decedent Evelyn Seiden (decedent, or wife)
died in November 2014, predeceased in 2010 by her
husband, Jules Seiden (husband). Decedent was the
beneficiary of a trust under her husband’s will that
was eligible for estate tax treatment as Qualified
Terminable Interest Property, known as a “QTIP”

223a

trust. In general, a QTIP trust qualifies for the
marital deduction in the estate of the first spouse to
die, despite the surviving spouse’s lack of control
over the remainder as would otherwise be required
(compare IRC § 2056 [b] [5], with IRC § 2056 [b] [7]
[B]).1 To so qualify under the federal law the first
1

As aptly explained by the 9th Circuit federal appeals

court,
“The QTIP is an exception to an
exception to an exception. In general, a tax is
levied on the transfer of estates. § 2001.
However, the marital deduction is an exception
to this rule, and any interest in property which
passes to a surviving spouse is not considered
part of the decedent’s gross estate. § 2056(a).
Life estates and other terminable interests are
an exception to the marital deduction.
§ 2056(b)(1 ). Finally, the QTIP regime is an
exception to the terminable interest exception
to the marital deduction. A QTIP is a
terminable interest in property which has
certain limiting characteristics: (1) the
surviving spouse receives all of the income from
the property for life, distributed at least
annually (a “qualifying income interest”); (2) no
person can appoint any part of the property to
any person other than the surviving spouse;
and (3) the decedent’s estate elects to treat the
interest as a QTIP. § 2056(b)(7)(B). If an
interest is a QTIP, the regime establishes a
legal fiction: for the purposes of estate taxes,
the entire property is treated as if it passed to
the surviving spouse (and, consequently,
nothing to the remainder [beneficiaries])—even
though the surviving spouse actually possesses
only the income interest. § 2056(b)(7)(A).
Therefore, the marital deduction of § 2056(a)
applies to the entire QTIP property and the
property is not included in the gross estate of
the decedent.

224a

estate must make a specific election on its federal
estate tax return (IRC § 2056 [b] [7] [BJ [i] [III]). A
concomitant federal tax code provision, IRC § 2044,
requires that trust property for which a marital
deduction “was allowed” in this manner be included
in the estate of the surviving spouse.
Due to the repeal of the federal estate tax for
the year 2010, the estate of the husband in this case
was not required to file, and did not file, a federal
estate tax return.2 The husband’s executor was
required to file, and did file, a New York estate tax
return. On the New York return the executor elected
QTIP treatment in the manner authorized by the
New York State Department of Taxation of Finance
(Tax Department) in its Technical Services Bureau
Memorandum TSB-M-10(1)(M), Estate Tax, March
16, 2010 (TSB Memorandum). In accordance with
those instructions, she filed a “pro forma” federal
return with the New York return, indicating the
election by listing the QTIP property in a space on
“The underlying premise of the QTIP
regime is that the surviving spouse is deemed to
receive and then give the entire QTIP property,
rather than just the income interest. The
purpose of the QTIP regime is to treat the two
spouses as a single economic unit with respect
to the QTIP property while still allowing the
first-to-die spouse to control the eventual
disposition of the property.”

(Estate of Morgens v. C.I.R., 678 F.3d 769, 771 [9th Cir 2012].)
The federal estate tax for 2010 was repealed by Section 501 of
the Economic Growth and Tax Relief Reconciliation Act of
2001.
The
Tax
Relief,
Unemployment
Insurance
Reauthorization, and Job Creation Act of 2010 gave executors
the option to apply the estate tax to the estates of decedents
who died in 2010 in return for certain income tax benefits, but
the husband’s executer here did not exercise that option.
2

225a

the federal form designated for that purpose.3 The
husband’s estate took a marital deduction for the
trust property in calculating the New York estate
tax, and the Tax Department issued a closing letter
accepting the return in 2012.
The case here concerns the tax treatment of
the trust in the estate of the wife, as the surviving
spouse. Her executor excluded the value of the trust
property on the federal estate tax return on the basis
that no federal marital deduction had been claimed
or “allowed” in the husband’s estate, as is required to
trigger inclusion in the second estate under IRC
§ 2044. The Internal Revenue Service issued a
closing letter accepting the return as filed. The
estate also excluded the trust property on decedent’s
New York estate tax return, taking the position that
New York law defines its gross estate by reference to
the federal gross estate, which clearly excludes the
property. The Tax Department disagreed and
assessed additional tax in the amount of
$462,546.18,4 all attributable to the QTIP trust.
Decedent’s estate seeks here to vacate the alleged
deficiency. There are no disputed factual issues, and
the parties have agreed that the court decide the
matter on the papers submitted.
The Estate’s Position
The estate argues that IRC § 2044 has no
application to the wife’s estate because, as stated
Specifically, the trust property for which the election was
made and which is referred to herein as the “QTIP” property
was 78.4 percent of a trust designated as “Family Trust” under
the husband’s will.
3

Including interest, the deficiency amounts to $529,342.86.
Decedent’s estate has paid the deficiency to stop the running of
interest.
4

226a

above, no federal marital deduction was allowed in
the estate of her pre-deceased husband. Since the
trust property is not includible in her federal gross
estate, it follows the estate maintains, that the
property is not includible in her New York gross
estate, which is defined solely by reference to the
federal definition. As provided in New York Tax Law
(TL) § 954 (a) :
“The New York gross estate of a
deceased resident means his or her
federal gross estate as defined in the
internal revenue code (whether or not a
federal estate tax return is required to
be filed) . . .”5
The Tax Department Position
The Tax Department contends that TL § 951
as it existed in 2010 requires a different result. That
statute provided, “[A]ny reference to the Internal
Revenue Code means the United States Internal
Revenue Code of 1986, with all amendments enacted
on or before July 22, 1998 . . .” Thus, the Tax
Department argues, the reference in TL § 954(a) to
the internal revenue code means the internal
revenue code as it existed on July 22, 1998, when a
federal marital deduction was “allowed,” making
IRC § 2044 operative under New York’s tax regime
to require inclusion of the trust property in the
second estate.
Discussion
The Tax Department analysis is incorrect.
First, the relevant tax law is that which existed in
The statute includes modifications to the federal definition
concerning
out-of-state
property,
limited
powers
of
appointment, and taxable gifts, not relevant here.
5

227a

2014, when decedent died, and not in 2010, because
it is the tax on the wife’s estate that concerns us
here. In 2014, TL § 951 (a) was rewritten to change
references to the federal tax law from that in effect
on July 22, 1998, to the law as in effect on January
1, 2014. The statute as amended was made
applicable to estates of persons, like decedent, who
died after April 1, 2014 (L 2014, ch 59, pt X, §§ 1,
11). Under the federal tax law in effect on January 1,
2014, no marital deduction was “allowed” for
decedents dying in 2010.6
Second, even under the law as it existed prior
to 2014, no federal marital deduction was “allowed”
in the husband’s estate. To be “allowed” as QTIP
property, it is necessary that the executor make a
particular election on the federal estate tax return.
IRC § 2056 (b) (7) clearly states:
“(i) . . . The term ‘qualified terminable
interest property’ means property—
...
“(III) to which an election under
this paragraph applies.
“( v) Election

...

An election under this paragraph with
respect to any property shall be made
by the executor on the [federal estate
tax return] . . . .”

As noted above, executors had the option of electing certain
income tax benefits in lieu of the benefits of estate tax repeal,
but no such election was made here.
6

228a

See Estate of Morgens v. C.JR. (133 TC 402, 410-411
[2009], affd 678 F3d 769 [9th Cir 2012]) where the
Tax Court stated:

“Three requirements must be met for
terminable interest property to qualify
as QTIP: (1) The property passes from
the decedent, (2) the surviving spouse
has a qualifying income interest for life
in the property, and (3) the executor of

the estate of the first spouse to die
makes an affirmative election to
designate the property as QTIP.
Sec.2056(b)(7)(B)” (emphasis added).7
The husband’s executor did not make the required
election in this case. Therefore, IRC §2044 does not
apply, the QTIP property is not included in the wife’s
federal gross estate, and the property is not included
in the New York gross estate as defined in TL
§ 954(a).
The Tax Department also maintains that the
TSB Memorandum referred to above is controlling
and dispositive of the issue. The memorandum
specifically states that if (as here) an election was
made on a New York return to qualify trust property
for QTIP treatment, “the value of the QTIP property
for which the election was made must be included in
the estate of the surviving spouse.” This
memorandum, however, is merely a statement of the
Accord Terrell v. Sullivan, 2015 WL 2473178, *3 (Super. Ct.
Conn. Jud. Dist. of New Britain, Tax and Administrative
Appeals Session, Apr 29, 2015, No. CV136020308) (“Since
January 1, 1982, federal law has allowed a marital deduction
[if an appropriate election is filed] for certain Trusts even
though the surviving spouse only has life use in the trust
assets” [emphasis added]).
7

229a

Tax Department’s position and has no legal effect.
The role of memoranda such as this is explained in
TL § 171 [Rule Twenty-third]:
“Technical memoranda issued by the
department shall advise and inform
taxpayers and others of existing
interpretations of laws and regulations
by the department or changes to the
statutory or case law of interest to the
public.”
The memoranda “do not have legal force or effect, do
not set precedent and are not binding” (20 NYCRR
2375.6 [c]). See Matter of AIL Systems, Inc., NY St
Tax Appeals Trib DTA No 819303, May 4, 2006,
available
at
https://www.dta.ny.gov/pdf/archive
/Decisions 819303 .dec.pdf:
“Technical Service Bureau Memoranda
are merely informational statements
issued by the Division [of Taxation] to
disseminate current policies and
guidelines and are advisory in nature,
have no legal force or effect, are not
binding and do not rise to the level of
promulgated rule or regulation.”
The memorandum cites IRC § 2044 and Tax Law
§ 954, but, as discussed above, neither of these
sections supports the policy it announces. The Tax
Department cannot use a TSB memorandum to
override statutory provisions.
The Tax Department argues further that the
“duty of consistency” doctrine prevents the wife’s
estate from taking one position on its tax return
when the husband’s estate had taken another. This
doctrine is a form of estoppel, intended to prevent a

230a

taxpayer from benefiting from its error or omission
on a tax return, only to take a contrary position on a
subsequent return after the statute of limitations
has expired on the first. The flaw in this argument is
twofold: the husband’s estate did not make an error
or omission, and the wife’s estate has not taken a
contrary position. Both estates followed the law in
effect at the time of their decedents’ respective
deaths. In a related argument the Tax Department
attempts to show that it “relied” to its detriment on
the husband’s estate return by allowing the statute
of limitations to run on the claim for a marital
deduction. But that claim was entirely lawful, and
the Tax Department cites no authority for how it
might properly have denied that deduction.
The Tax Department also argues that the New
York State legislature always intended that marital
deduction property be taxed in the estate of the
second spouse to die. The estate correctly responds
that it is entitled to rely on the plain language of the
statute, without resort to speculation about what the
legislature intended. As the Court of Appeals stated
in Branford House, Inc. v. Michetti (81 NY2d 681,
686 [1993]),
“Generally, a court may not assume the
existence of legislative error and change
the plain language of a statute to make
it conform to an alleged intent.”
It is true that a court may “correct” a legislative
error in certain cases, but only “if it is established
unquestionably that (1) the true legislative intent is
contrary to the statutory language, and (2) the
mistake is due to inadvertence or clerical error” (id.).
The Tax Department has established neither of
these elements. In fact, the legislature has amended

231a

the Tax Law in other ways to take account of the
federal changes (including § 951, as discussed above,
and § 955 [c]), but, in the eight years since the repeal
of federal tax for the year 2010, has not acted to
change the effect of the repeal on QTIP property in
the circumstances of this case. The court also notes
“the general rule” that “tax statutes are to be strictly
construed with any doubt resolved in favor of the
taxpayer” (Compass Adjusters & Investigators v.

Commissioner of Taxation & Fin. of State of NY.,
197 AD2d 38, 42 [3d Dept 1994]; see also Matter of
Gallatin, 188 Misc 54, 55 [Sur Ct, Orange County
1946], affd 273 AD 870 [2d Dept 1948], affd 298 NY
812 [1949] [“In construing tax statutes it has been
held that the literal meaning of the words is
important, for such statutes are not to be extended
by implication”]).8

Lastly, the Tax Department posits that a
decision vacating the deficiency in this case will
“open the floodgates” to tax avoidance. As the estate
points out, however, the legislature could still amend
the Tax Law to apply to future estates. Moreover, it
is not guaranteed that all or even part of any QTIP
trust would be subject to New York estate tax at the
death of the surviving spouse under present law. The
trust property might decrease in value; it might be
distributed and spent down; or the surviving spouse
might change domicile to another state.
For the foregoing reasons, the petition is
granted and the Notice of Deficiency is hereby
This rule of construction applies to statutes that impose tax,
such as that under consideration here, and is to be
distinguished from laws relating to the collection of tax, not an
issue in this case (Matter of Roosevelt Raceway, Inc. v Bedell,
24 Misc 2d 374 [Sup Ct, Nassau County 1960], affd 12 AD2d
787 (2nd Dept 1961]).
8

232a

vacated. This decision constitutes the order of the
court.
Clerk to notify.
Dated: October 9, 2018

/s/
SURROGATE

233a

APPENDIX 16
FORM ET-3
MASSACHUSETTS DEPARTMENT OF REVENUE
BUREAU OF DESK AUDIT
ESTATE TAX BUREAU
200 ARLINGTON STREET, 4TH FLOOR
CHELSEA, MA 02150
NOTICE OF INTENTION TO ASSESS
WORK PAPERS
Examiner: Leo Haroutunian
Phone Number: 617-887-6838
DATE: 08/29/2013
NAME OF DECEDENT
Adelaide P Chuckrow
DATE OF DEATH·
08/14/2011
ESTATE DEFICIENCY
(OVERASSESSMENT) $
$1,809,141.88
In accordance with the provisions of General laws,
Chapter 62C, section 26(b), you are hereby notified
of the intention of the Commissioner of revenue to
assess, at the expiration of thirty (30) days from the
date of this notice the above named tax in the
amount, and for the reason(s) shown on the attached
pages.
During this thirty-day period you, or your
representative with a properly executed Power of
Attorney (Form M-2848), will be given an
opportunity to confer as to the proposed
assessment(s). If you wish to request a conference, so

234a

indicate by checking the box below and mailing this
notice to the address shown above. You may also
attach and submit a statement in support of your
position if you request a conference.
If you wish to pay within the thirty-day period,
payments should be mailed with one copy of the
Form Estate Tax-3 to the Department of Revenue.
Estate Tax Unit, 200 Arlington Street, 4th Floor,
Chelsea, MA 02150. If payment is not received, a
formal bill will be issued with additional interest
and penalties where applicable.
Massachusetts now has a Taxpayer Bill of rights.
For more information about your individual rights as
a Taxpayer, you can request a copy of “Taxpayers
Guide to the Department of Revenue,’’ by calling
(617) 887-6367 or by writing the Customer Service
Bureau, P.O. Box 7010, Boston, MA 02204.
REQUEST FOR A CONFERENCE
As provided by the Massachusetts General Laws,
Chapter 62C, section 26(b), you are hereby notified
of the proposed tax deficiency/overassessment on the
above estate. You may request a conference on this
determination within 30 days from the date of this
notice before assessment is made.
CONFERENCE REQUEST

CONFERENCE NOT REQUESTED

235a

COMMONWEALTH OF MASSACHUSETTS

EXPLANATION OF CHANGES TO ESTATE
Estate of Adelaide P Chuckrow
Social Security Number
xxx-xx-7341
Date of Death
08/14/2011
Schedule F
Items 1-126
Robert Chuckrow
QTIP Trust
Increase

Reported

Corrected

$
-0$13,224,800

$13,477.559

The decedent was the beneficiary of trust assets held
in the Robert Chuckrow QTIP Trust. The trust
assets were included in the decedent’s pre-deceased
spouse’s estate as a marital deduction under section
2056. The QTIP assets were included in the secondto-die spouse’s federal estate tax return per section
2044. The Massachusetts estate tax is equal to the
state death tax credit allowed by section 2011 of the
IRC in effect on December 31, 2000. Having
Massachusetts domicile, the assets are includable on
line 1 of the 706 (7/99) for the purposes of
determining the state death tax credit. IRC section
2031.

236a

237a

238a

239a

240a

APPENDIX 17

241a

242a

243a

244a

245a

246a

247a

APPENDIX 18

The Commonwealth of Massachusetts
Department of Revenue
Office of Appeals
PO Box 9551
Boston, MA 02114-9551
AMY A. PITTER
COMMISSIONER

DEBRA S. ROKOSZ
DIRECTOR

March 10, 2014
Estate of Adelaide Chuckrow
c/o Christine Shaffer Exec.
10803 Montrose Ave.
P.O. Box 96
Garret Park, MD 20896
RE: Notice of Intention to Assess Estate Tax for the
5/14/12 Taxable Period;
Dear Ms. Shaffer:
Christine Shaffer, in her capacity as executrix
of the Estate of Adelaide Chuckrow (the "Taxpayer"),
requested a conference pursuant to G.L. c. 62C,
§26(b) relating to the proposed assessment of estate
tax for the May 14, 2012 tax period (the "Tax
Period"). The conference regarding the referenced
matter was conducted at this Office on February 12,
2014 with the Taxpayer's representatives, Leo
Cushing Esq. and Luke Bean Esq. The sole issue
presented for consideration is whether the assets of
Trust U/W/O Robert Chuckrow which are included in
the Adelaide Chuckrow's (the "Decedent") federal
gross estate pursuant to IRC §2044 may be excluded

248a

from the calculation of credit for state death tax and
Massachusetts Estate Tax. For the reasons
discussed below, we determine that the assets of
Trust U/W/O Robert Chuckrow are properly
includible in Decedent's federal gross estate
pursuant to IRC §2044; therefore, they shall be
included in the calculation of the credit for state
death tax which is the Massachusetts estate tax.
BACKGROUND
The Decedent died on August 14, 2011. At the
time of her death the decedent was a resident of
Massachusetts and the beneficiary of the Trust
U/W/O Robert Chuckrow (the Estate of Adelaide P.
Chuckrow "Trust"). The Trust was a Qualified
Terminable Interest Property ("QTIP") as proscribed
by IRC §2056(b)(7), allowing the interest passing to
qualify for a marital deduction upon election of the
Estate of taxpayer. The Trust was created by the
Will of Robert Chuckrow on July 11, 1993 at the
time both the Decedent and Robert Chuckrow were
New York residents. An election was made to treat
the interest in the Trust passing to the Decedent as
qualifying for the marital deduction for federal
estate tax purposes.
The Massachusetts Estate Tax Return ("M706") was timely filed on May 14, 2012 reporting a
total gross estate of $2,382,148.00 and a
Massachusetts Estate Tax of $100,997.00. The
return was selected for audit. A Notice of Intention
to Assess was issued on August 29, 2013 giving
notice of the adjustment to increase the estate by
$13,251,469.00 reflecting the value of the assets held
by the Trust and resulting in $1,809,141.88 of
proposed additional estate tax.

249a

The Taxpayer requested a conference
pursuant to G.L. c. 62C, §26(b) which was held on
February 12, 2014. At the conference the Taxpayer's
representative argued that imposition of the
Massachusetts estate tax on property held by the
Trust was not proper because the trust assets were
not the subject of a Massachusetts QTIP election
upon the death of Robert Chuckrow; therefore, the
assets are not includible pursuant to G.L. c. 65C,
§1 (f). The representative also argued that the tax
should not be assessed because Robert Chuckrow
was not a Massachusetts resident and the Decedent
did not have transferrable interest that would be
subject to the Massachusetts estate tax under
Massachusetts Law.
DISCUSSION
The Decedent died on August 14, 2011 and as
such the estate is subject to the provisions of G.L.
c. 65C, §2A. This provides in relevant part that the
Massachusetts estate tax is equal to the credit for
state death taxes as computed under IRC §2011 as
in effect on December 31, 2000, less taxes paid or
credits allocable to other jurisdictions, adjustments
not relevant here.
The Massachusetts estate tax is the credit for
state death tax calculated by reference to the federal
taxable estate which is calculated with reference to
federal gross estate. The Trust property is includible
in the Decedent's federal gross estate pursuant to
IRC §2044 therefore Estate of Adelaide P. Chuckrow
value of the property is used on the calculation of the
estate tax due pursuant to I.R.C. §2011 and G.L.
c. 65C, §2A.

250a

DISPOSITION
We are returning this matter to the Audit
Division for assessment consistent with our
determination.
If the Taxpayer continues to disagree with the
proposed adjustments, then after the Taxpayer has
received a Notice of Assessment, the Taxpayer may
file an Application for Abatement with the Customer
Service Bureau. A hearing requested in connection
with an Application for Abatement will only be
granted if the Taxpayer first establishes to the
satisfaction of the Commissioner that a further
hearing is necessary, either due to the availability of
new factual information or new legal precedent not
available to the Taxpayer at the time of the preassessment conference.
This letter may not be relied upon as
precedent in subsequent or other matters. It
represents the application of previously established
Department policy and statutory or case law only to
this particular set of facts of this particular
Taxpayer for the tax period in issue.
Very truly yours,
COMMISSIONER OF REVENUE
By /s/ Leonard R. Spector
Leonard R. Spector, Deputy Director
Barbara K. Savage, Appeals Officer
cc:

Leo Cushing Esq.
Steven Dodd, Chief, Bureau of Desk Audit
#420215

251a

APPENDIX 19

252a

253a

254a

255a

256a

APPENDIX 20

The Commonwealth of Massachusetts
Department of Revenue
Office of Appeals
PO Box 9551
Boston, MA 02114-9551
AMY A. PITTER
COMMISSIONER

DEBRA S. ROKOSZ
DIRECTOR

January 23, 2014
Estate of Adelaide Chuckrow
c/o Christine Shaffer Exec.
10803 Montrose Ave.
P.O. Box 96
Garret Park, MD 20896
RE:

Office of Appeals Conference Request:
Proposed Assessments of Estate Tax for the
5/14/12 tax period

Dear Ms. Shaffer,
The above-referenced matter has been
transferred to this Office by the Audit Division in
connection with your request for a conference
pursuant to G.L. c. 62C, § 26(b).
Your conference will be conducted on
Wednesday, February 12, 2014 at 9:30 a.m. To
initiate the conference, please dial (617) 626-3227 at
the designated time and ask for the Appeals Officer.

257a

You and/or your representative may appear at
the designated time to present any documentation or
legal arguments that would warrant a finding in
your favor. Your representative must provide a
power of attorney to act on your behalf at the
conference if one has not been provided previously.
Please be advised that if you do not appear for the
conference or contact this Office prior to the
conference to reschedule, we will return the matter
to the Audit Division for assessment as proposed.
Very truly yours,
/s/ Barbara K. Savage
Barbara K. Savage
Appeals Officer
(617)626-3227
Cc:

Steven Dodd, Chief, BODA
Luke C. Bean, Esq.

Deliveries: 100 Cambridge St., Boston, MA 02114 •
Phone: (617)626-3300 • Fax (617)626-3349

258a

FORM M.E.C.L.

APPENDIX 21

Massachusetts Department of Revenue
Bureau of Desk Audit
Estate Tax Unit
PO Box 7023
Boston, MA 02204
Phone# (617) 887-6930
I- PROBATE COURT COPY

Date: 4/25/2014

LUKE C BEAN, ESQ
375 TOTTEN POND RD STE 200
WALTHAM, MA 02451
ESTATE TAX CLOSING LETTER
THIS IS NOT A BILL
Estate of ADELAIDE P CHUCKROW
Probate Court BERKSHIRE
Social Security No. XXX-XX-7341
Probate Number BE1 1P0655E
Date of Death August 14, 2011
The following is a summary from the Department’s
records of the Massachusetts Estate tax liability for
the taxpayer named above, including the net balance
(if any). This letter is the certificate or “closing
letter” that may be required by the Probate Court
under G.L. c. 65C, s6(b). If there is a balance due,
you will receive a separate Notice of Assessment that
contains payment instructions. The amount shown
due on the Notice of Assessment may include
additional interest or penalty. You should retain a
copy of this letter with the records of the Estate. For
259a

dates of death prior to January 1, 1997, your
attorney may need to file this letter with the probate
court in order to close the probate proceedings, if
any.
Very truly yours,
Commissioner of Revenue
By /s/
Bureau of Desk Audit
Estate Tax Unit
Massachusetts Estate Tax
(including returns, audit
assessments etc.) ........................ $1910138.88
Interest .......................................

142606.35

Penalty........................................

0.00

Total Massachusetts Estate Tax
Liabilities....................................

2052745.23

Less Total Payments ..................

2052745.23

Net Balance ................................ $

0.00

Note: Massachusetts G.L. c. 65C, S6(b) was amended
in 1998 as follows: “For dates of death on or after
January 1, 1997, said certificates shall not be
required”. (Chapter 202, S 32, relating to foreign
executors was similarly amended.)

260a

APPENDIX 22

261a

262a

263a

264a

265a

266a

267a

Estate of Adelaide P. Chuckrow
Application for Abatement

Explanation of Issues Involved in Request

268a

Table of Contents
I. Introduction ........................................................... 1
II. Facts..................................................................... 3
III. Background of the federal and Massachusetts
estate tax and marital Deduction ............................. 5
A. History of the federal estate tax ............................5
B. History of the Massachusetts estate tax ...............7
IV. Argument .......................................................... 10
A. The taxable transfer of QTIP occurs at the death
of the first spouse, and because Robert Chuckrow
died in New York, there is no constitutional basis for
Massachusetts to impose a tax .................................10
1. The estate tax does not (and constitutionally
cannot) tax the value property, but rather taxes the
transfer of property ...................................................10
2. The marital deduction is unlike other tax
deductions because it merely delays the collection of
tax ..............................................................................11
3. QTIP trust assets are transferred only one time,
at the death of the first-to-die spouse, and there is
thus no basis for Massachusetts to tax that transfer12
a. A background of QTIP trusts ................................12
b. The taxable transfer of the Trust occurs at the
death of the first-to-die spouse, not the second-to-die
spouse. .......................................................................14
4. The taxable event occurred when Robert
Chuckrow died in New York; thus the QTIP property
is beyond the reach of Massachusetts’s taxing
jurisdiction.................................................................18
a. The Fourteenth Amendment and art. 10 prohibits
a state from taxing a transaction that occurs outside
its borders ..................................................................18
b. Massachusetts is reaching beyond its taxing
jurisdiction in seeking to impose a tax on Adelaide
based on Robert's transfer of property into the
Trust. .........................................................................19

269a

B. Under the terms of the Massachusetts estate tax
statute, the value of the federally elected QTIP
property is not properly includible in Adelaide’s
Massachusetts gross estate ......................................22
I. The executor may make a Massachusetts QTIP
election that is separate from and independent of the
federal QTIP election and the Massachusetts QTIP
election.......................................................................23
2. Because the state and federal QTIP elections can
be different, the analysis does not end simply by
defining the Massachusetts gross estate as the
federal gross estate ...................................................23
3. The last sentence of G.L. c. 65C, § 1(f), explicitly
excludes, from the Massachusetts gross estate, the
value of property for which a federal QTIP election
was made, but no Massachusetts QTIP election was
made ..........................................................................24
4. Under the rules of statutory interpretation, and
the rule of construction that taxing statutes should
avoid double taxation, this analysis of the last
sentence of G.L. c. 65C, § 1, is correct. .....................28
5. Adelaide Chuckrow had a qualifying income
interest for life in Trust property for which a federal
QTIP election was made, but no Massachusetts
QTIP election was made; her situation falls directly
in line with the last sentence of G.L. c. 65C, § 1(f),
and so the value of Robert Chuckrow’s federal QTIP
property must be excluded from Adelaide’s estate ..29
C. Even if the Chuckrows had been Massachusetts
residents at the time of Robert’s death, Robert’s
executor could only have made a Massachusetts
QTIP election on 48.11 % of his estate, and so, at the
very least, abatement in that amount is due
Adelaide’s estate........................................................30
V. Conclusion .......................................................... 31

270a

I. Introduction
The question presented is whether the
Commonwealth of Massachusetts may impose an
estate tax on the surviving spouse based on the
transfer of property into a New York trust by a New
York resident, where the only plausible connection to
Massachusetts is that the surviving spouse-an
income beneficiary under the trust-moved to
Massachusetts after her husband's death. As a
matter of constitutional law and statutory
interpretation, the answer must be no.
Robert Chuckrow's executrix made a federal
QTIP election on the value of property that funded a
testamentary trust. By making a QTIP election, this
transfer qualified for the federal unlimited marital
deduction, thus delaying collection of the tax until
the second spouse's death. Because Robert Chuckrow
was a resident of New York with no Massachusetts
real or tangible personal property, his executrix did
not file a Massachusetts estate tax return (as none
was required), and so did not make a Massachusetts
QTIP election. His wife Adelaide moved to
Massachusetts and died there August 14, 2011. Now,
Massachusetts insists that it may collect a tax on the
value of federally elected QTIP property, because the
Massachusetts gross estate is defined as the federal
gross estate. This assertion is incorrect, for the
following reasons.
First, the attempt to collect this tax is
unconstitutional under the Fourteenth Amendment.
The estate tax is a tax on the privilege of
transferring property at death, rather than a tax on
the property itself. Knowlton v. Moore, 178 U.S. 41
(1900). The taxing authority may tax only the
transfer of the assets. In this case, there was no

271a

transfer by Adelaide. The only transfer took place
when Robert died, at which time the estate tax
would have been imposed, but for the marital
deduction.
Federal law provides for an unlimited marital
deduction, meaning that all property transferred
from the decedent spouse to the surviving spouse
passes tax free—it is expected that the tax will be
collected on the second spouse's death. As a general
rule, terminable interest property (property which
the surviving spouse's interest terminates at her
death) does not qualify for a marital deduction. But
the code creates a statutory exception for qualified
terminable interest property. To qualify, a
terminable interest must meet three conditions:
(1)

the surviving spouse must receive all
income from the property for life,
payable at least annually;

(2)

No person can have a power to appoint
any part of the property to any person
other than the surviving spouse; and

(3)

A QTIP election must be made by the
executor of the deceased spouse's
estate, and this election is irrevocable
once made.

The quid pro quo is that the QTIP election merely
delays collection of the tax, because there is no
separately taxable transfer at the second spouse's
death. To ensure the tax is eventually collected, the
code creates a fictional second transfer, from
surviving spouse to beneficiaries. See I.R.C. § 2044.
This transfer is just that—fictional; the only true
transfer occurs on the first-to-die spouse's death. See
In re Estate of Bracken, 175 Wash. 2d 549 (2012).

272a

And because estate tax may only be collected on a
transfer, Massachusetts cannot constitutionally tax
this New York transfer.
Second, the attempt to collect this tax runs
afoul of the statutory definition of Massachusetts
gross estate. Determining Massachusetts gross
estate begins with the federal gross estate, but it
does not end with it. Indeed, the last sentence of G.L.
c. 65C, § 1(f) provides, in relevant part, that “[t]he
Massachusetts gross estate shall not include the
value of any property in which the decedent had a
qualifying income interest for life which is not
otherwise includible in the Massachusetts gross
estate under the first sentence of this paragraph.”
Although the first sentence of § 1(f) references the
federal gross estate, that portion of the last sentence
seeks to include only property for which a
Massachusetts QTIP election was made. If it
referred back to the federal estate, it would render
this last sentence inoperable, in violation of a
fundamental tenet of statutory construction.
Further, the last sentence serves to prevent
unnecessary double taxation of assets that would
have been already been taxed on the first spouse's
death. This provision was necessary because
Massachusetts maintained a 50% marital deduction,
even after federal law moved to an unlimited—
meaning that executors would regularly make
federal QTIP elections in excess of the state QTIP
election.
II. Facts
Robert Chuckrow and Adelaide Chuckrow, a
married couple, lived in and were residents of
Chappaqua, New York. Robert died on July 11, 1993,
while the couple was living in New York, leaving a
Last Will and Testament. Article Third of Robert's
273a

Will established a trust that would qualify for a
Qualified Terminable Interest Property Trust
election under I.R.C. § 2056(6)(7). A Form 706,
United States Estate (and Generation Skipping
Transfer) Tax Return, was filed.
The federal estate tax return contained the
following information about Robert's estate:
-

Robert's total federal gross estate was
$1,996,043.24.

-

A total marital deduction of $1,436,025.39
was taken.

-

Of that amount, $591,924.12 passed outright
to Adelaide, as a surviving spouse.

-

The remaining $844,101.27 passed into the
Trust established by Article Third of Robert's
Will, which is now known as the “Trust u/w/o
Robert Chuckrow.” Pursuant to I.R.C.
§ 2056(b)(7), the co-executrix elected to have
the Trust treated as a qualified terminable
interest property trust for federal estate tax
purposes.

This $844,101.27 thus qualified for the federal
estate tax marital deduction. Because Robert
Chuckrow was a resident of New York and owned no
real or tangible property in Massachusetts, his
estate did not file a Massachusetts estate tax return.
At some point in time after Robert's death,
Adelaide moved to Massachusetts to be cared for by
her daughter. She died while living in Williamstown,
Massachusetts on August 14, 2011. Adelaide's niece,
the executrix of her estate, filed a Form 706, United
States Estate (and Generation Skipping Transfer)
Tax Return and a Form M-706, Massachusetts
Estate Tax Return.
274a

Adelaide's federal estate, as reflected on Form
706, was as follows:
-

Adelaide's total federal gross estate was
$15,633,617.

-

Of that amount, $13,251,469 consisted of
assets held by the Trust u/w/o Robert
Chuckrow,
which was includible in
Adelaide's federal gross estate under I.R.C.
§ 2044, by virtue of the I.R.C. § 2056(b)(7)
election made for the Trust at Robert's
death.

Accordingly, Adelaide's estate paid $5,225,419 in
federal estate taxes.
Meanwhile, on Form M-706, the executrix
reported a Massachusetts gross estate of $2,382,148
(representing the difference between Adelaide's
federal gross estate and the amount attributable to
the QTIP trust property). Adelaide's estate paid
$100,997 in Massachusetts estate taxes.
Adelaide's estate was selected for audit. On
August 29, 2013, the Department of Revenue issued
a Notice of Intention to Assess, determining that the
Massachusetts gross estate should have included the
assets of the Trust u/w/o Robert Chuckrow, and thus
asserting that the estate owed additional taxes in
the amount of $1,809,141.88. Disagreeing with the
intended assessment, Adelaide's estate requested a
conference pursuant to G.L. c. 62C, § 26(b), which
was held on February 12, 2014. The Department of
Revenue issued its decision letter on March 10, 2014,
denying the estate's requested relief and returning
the matter to the audit division for assessment.
On March 18, 2014, Adelaide's estate received
a Notice of Assessment for $1,953,032, representing

275a

the additional tax of $1,809,141.88 plus accrued
interest thereon. The estate paid the assessed tax on
April 11, 2014, and noted that an application for
abatement would be forthcoming.
The Trust u/w/o Robert Chuckrow did not
terminate on Adelaide's death. It continues to
operate at the present time, and it remains sited in
New York, where it has always been.
III.

Background of the federal and Massachusetts
estate tax and marital deduction
A.

History of the federal estate tax

Prior to the current estate tax system,
Congress imposed temporary death taxes to raise
revenue during or after times of war. The first three
iterations (in 1797, 1862, and 1898) were temporary
revenue raisers, and were repealed after their need
dissipated. The War Revenue Act of 1898 led to the
Supreme Court case of Knowlton v. Moore, 178 U.S.
41 (1900), holding that death taxes were
constitutional and that Congress may properly tax
the transfer of property, but not the value of
property.
The estate tax as we know it came into
existence in 1916, again to fund a war. See Revenue
Act of 1916, ch. 463, 39 Stat. 756. This time,
however; the estate tax was not repealed. Until
World War II, the federal estate tax treated citizens
of common-law states differently from those in
community-property states, such that citizens of
community-property states paid significantly less in
estate taxes due to the form of ownership.
To reconcile this difference, Congress
introduced the marital deduction in 1948, thus
equalizing tax benefits in common-law and

276a

community-property states. See Revenue Act of
1948, Pub. L. No. 80-471, 62 Stat. 110. Under the
1948 legislation, the decedent spouse would receive a
deduction for one-half of the property that passed to
the surviving spouse. Id. § 361. Notably, the 1948
legislation
disqualified
“terminable
interest”
property from the marital deduction, out of fear that
estate tax might be avoided on the death of the
surviving spouse.1 Id. In 1976, Congress increased
the maximum allowable marital deduction to the
greater of $250,000 or one-half of the decedent's
adjusted gross estate. See Tax Reform Act of 1976,
Pub. L. No. 94-455, 90 Stat. 1520, § 2002.
Significant changes to the marital deduction
(and estate taxes generally) came in 1981, under the
Economic Recovery Tax Act. See Economic Recovery
Tax Act of 1981, Pub. L. No. 97-34, 95 Stat. 172.
First, the marital deduction was made unlimited. Id.
§ 403. Second, the marital deduction was expanded
to allow for certain terminable interests to be eligible
for a marital deduction-known as qualified
terminable interests. Id. For a terminable interest
that passes from the decedent spouse to the
surviving spouse to be considered a qualified
terminable interest three conditions must be met:
(1) The surviving spouse must receive all into
me from the property for life, payable at
least annually;

A “terminable interest” is an interest in property that
terminates upon “the lapse of time, on the occurrence of an
event or contingency, or on the failure of an event or
contingency to occur.” I.R.C. § 2056(b)(1). See also Black's Law
Dictionary 886 (9th ed. 2009).
1

277a

(2) No person can have a power to appoint any
part of the property to any person other than
the surviving spouse; and
(3) A QTIP election must be made by the
executor of the deceased spouse's estate, and
this election is irrevocable once made.
See I.R.C. § 2056(b)(7). The tradeoff is that property
for which a QTIP election was made under
§ 2056(b)(7) is includible in the surviving spouse's
federal gross estate pursuant to I.R.C. § 2044.
Hence the QTIP trust was born. The QTIP
trust, has two major advantages, one practical and
one tax-related. The practical advantage is that the
first-to-die spouse controls the ultimate disposition
of the property upon his spouse's death. The tax
advantage is that the surviving spouse can delay
paying estate taxes until her death. And further,
with proper planning, married couples can maximize
both of their federal exemption to minimize estate
taxes paid on family assets.
B. History of the Massachusetts estate tax
Massachusetts enacted its first death tax in
1926, which took advantage of the state death tax
credit under federal estate tax law—otherwise
known as a "sponge tax." St. 1926, c. 355
(establishing estate tax). This tax was suspended
(though never repealed) when the legislature
enacted a stand-alone, Massachusetts estate tax
under St. 1975, c. 684, § 74 (creating G.L. c. 65C).
Under the stand-alone estate tax, there was no
unlimited marital deduction, because federal law did
not yet have an unlimited deduction. Nor was there
a provision for QTIP, because QTIP property was
(again) not yet in existence under federal law.

278a

Rather, Massachusetts mirrored federal law by
providing for a 50% marital deduction.
Massachusetts, mirroring the federal changes
of 1981, added a QTIP section to its estate tax
regime in 1985. St. 1985, c. 711, § 12 (inserting G.L.
c. 65C, § 3A). The Massachusetts QTIP statute
provided definitions nearly identical to those in
I.R.C. § 2056(b)(7). But the Massachusetts QTIP
required a state-level election that was "separate
from and independent of" the federal QTIP election.
G.L. c. 65C, § 3A. Despite mirroring the federal
statute, Massachusetts did not permit an unlimited
state marital deduction until July 1, 1994. See St.
1992, c. 133, §§ 422, 597.2
The stand-alone Massachusetts estate tax was
phased out beginning in 1993, when the legislature
enacted G.L. c. 65C, § 2A, which (for decedents dying
after January 1, 1997) imposed a tax equal to the
state death tax credit under federal law. This was a
second sponge tax that was in effect for decedents
dying between 1997 and 2003.
In 2001, Congress began a decade-long phase
out of the federal estate tax, including an
elimination of the state estate tax credit. See
Economic Growth and Tax Relief Reconciliation Act
of 2001, Pub. L. No. 107-16, 115 Stat. 38
("EGTRRA").
Responding
to
EGTRRA,
the
Massachusetts
legislature
decoupled
the
Massachusetts estate tax from the federal estate tax.
See St. 2002, c. 186, § 28. See also St. 2002, c. 364,
There have been two subsequent amendments to the
Massachusetts estate tax: St. 1992, c. 133, § 422, and St. 1994,
c. 342, § 4. Both became effective for decedent's dying after July
1, 1994, so these amendments were inapplicable at the time of
Robert's death in 1993.
2

279a

§ 10. Thus, for those dying after January 1, 2003, the
amount of the Massachusetts estate tax is computed
by determining what would have been the federal
credit for state estate tax on December 31, 2000. So
when determining Massachusetts estate tax liability,
it is still necessary to fill out the 1999 version of
federal Form 706.
Thus, the Massachusetts estate tax from the
1980s forward was patchwork reaction to federal
laws that has led to much confusion, even for
seasoned practitioners.

3

-

From 1981 to December 31, 1985, federal law
provided for an unlimited marital deduction
and a QTIP election. Massachusetts
permitted a 50% marital deduction, but had
no provision for QTIP elections.

-

From 1986 to June 30, 1994, federal law
provided for an unlimited marital deduction
and a QTIP election. Massachusetts added a
provision for QTIP elections, but still limited
the state marital deduction to 50%.3

-

From July 1, 1994 to December 31, 1996,
federal law maintained the unlimited
marital deduction and QTIP elections.
Massachusetts finally provided the same.

-

From 1997 to December 31, 2002, federal law
provided for an unlimited marital deduction
and QTIP elections. Massachusetts provided
the same, but altered its estate tax regime to
a sponge tax.

-

From January 1, 2003 to the present, the
Massachusetts estate tax is calculated based

Robert Chuckrow died on July 11, 1993.

280a

on the state estate tax credit that would
have applied under the 2000 Internal
Revenue Code.
The above documents differences in federal and
Massachusetts law with regard to the marital
deduction and QTIP elections. But this does not even
take into account the differences between federal
and Massachusetts law regarding the estate tax
exemptions. Because the exemption amounts were
different, the executor would, to minimize estate tax
liability, have to make a federal QTIP election on a
different amount than the state QTIP election. This
chart (also attached as an exhibit) attempts to
visualize the differences:

281a

282a

IV. Argument
A. The taxable transfer of QTIP occurs at the
death of the first spouse, and because Robert
Chuckrow died in New York, there is no
constitutional basis for Massachusetts to
impose a tax.
1. The estate tax does
not
(and
constitutionally cannot) tax the value
property, but rather taxes the transfer of
property.
The United States constitution forbids direct
taxes unless they are apportioned among the states.
U.S. Const. Art. I, § 9, cl. 4. In Knowlton v. Moore,
178 U.S. 41 (1900), the estate tax imposed by the
War Revenue Act of 1898 was challenged as a direct
tax that was not properly apportioned. The Supreme
Court rejected this argument, holding that the estate
tax (and taxes of that general character) are not
taxes on the property or the value of the property
itself but on the privilege of transferring the
property at death: "death is the generating source
from which the particular taxing power takes its
being, and that it is the power to transmit, or the
transmission from the dead to the living, on which
such taxes are more immediately rested." Id. at 56.
Accordingly, estate taxes at the state and
federal level are imposed not on the value of
property, but on the transfer of the taxable estate
from the decedent to the beneficiaries. See I.R.C.
§ 2001 (a) ("A tax is hereby imposed on the transfer
of the taxable estate .... "); 830 Code Mass. Regs.
§ 65C1.1 ("The Massachusetts estate tax is a
transfer tax imposed on the value of all property in
the estate of a decedent at the date of death."). This
is illustrated in Treasury Regulation 20.2033-1,
283a

where it is said that "a cemetery lot owned by the
decedent is part of his gross estate, but its value is
limited to the salable value of that part of the lot
which is not designed for the interment of the
decedent and members of his family." This is so
because the occupied portion of the burial lot is not
transferrable to anyone else by the decedent's
beneficiaries.
2. The marital deduction is unlike other tax
deductions because it merely delays the
collection of tax.
The marital deduction is unlike other tax
deductions. The typical tax deduction is given to
offset expenses or costs that are incurred by the
taxpayer, thus permanently eliminating the basis for
taxation. The marital deduction, on the other hand,
is not an elimination of taxation; it is a deferral or
postponement of a tax that would otherwise be
imposed on the first-to-die spouse. That is, if the
entire taxable estate of the first-to-die spouse is
transferred to the second-to-die, there will be no
estate tax due from the estate of first-to-die spouse
because of the unlimited marital deduction. But the
taxing authority will eventually be able to tax that
transferred property when the surviving spouse dies.
An example: H and W are married in a
jurisdiction with an unlimited marital deduction and
no estate tax exemption. H has $2 million in assets,
and W has $0. When H dies, he can transfer the
entire $2 million to W without incurring any estate
tax liability, because of the unlimited marital
deduction. If W dies a year later, the taxing
authority will then be able to assess a tax on W's $2
million when she transfers it to the beneficiaries.
The taxing authority merely had to delay

284a

enforcement of the tax on the $2 million, though it is
the same $2 million that was originally owned by H.
Of course, in this situation there are two transfers:
one from H to W, and another from W to
beneficiaries.
Contrast the above with a hypothetical where
H's executor makes a QTIP election using a trust
identical to the Trust u/w/o Robert Chuckrow. H has
$2 million; W has $0. When H dies, his entire $2
million is transferred into the trust. His executor
makes a QTIP election (which qualifies for the
marital deduction), so no estate tax is due on H's
death. W does not receive outright any of the $2
million. She still has $0, but she receives all income
from the trust, payable annually. When W dies, her
estate owes estate taxes on the $2 million, but only
by virtue of I.R.C. § 2044, and not § 2031.7 The trust
remains in existence; only an income beneficiary has
been removed by death. In this situation, however,
there was only one transfer—the transfer from H
into the trust. (This is explored more fully below.) W
never had any dominion or control over the property;
nor could she control its disposition. The trust's
terms controlled. So W never had the money, but her
estate is taxed under I.R.C. § 2044.

I.R.C. § 2031 defines gross estate to include, at the decedent's
death, "all property, real or personal, tangible or intangible,
wherever situated"—in other words, all assets the decedent
owns. I.R.C. § 2044, on the other hand, adds to the gross estate
the value of any property "in which the decedent had a
qualifying income interest for life." Section 2044 creates a
fictional transfer of property from the surviving spouse to the
ultimate beneficiaries of a QTIP trust.
7

285a

3. QTIP trust assets are transferred only
one time, at the death of the first-to-die
spouse, and there is thus no basis for
Massachusetts to tax that transfer.
The estate tax is a tax on the transfer of
property at death. When the property transferred is
qualified terminable interest property, there is only
one transfer—and that transfer occurs on the death
of the first-to-die spouse. There is no transfer when
the surviving spouse later dies.
a. A background of QTIP trusts.
QTIP trusts are commonly used in modern
estate planning to minimize estate taxes for families
while preserving assets for the benefit of a surviving
spouse during her lifetime. QTIP trusts are an
exception to the general IRS rule that terminable
interest property cannot qualify for the marital
deduction. Thus, if properly established, QTIP trusts
qualify for the marital deduction.
Typically, property passing from the decedent
spouse to the surviving spouse qualifies for the
unlimited federal marital deduction. I.R.C. § 2056(a).
There are some limitations. One is that no marital
deduction can be taken for terminable interest
property. I.R.C. § 2056(b). But if the terminable
interest property is qualified terminable interest
property (QTIP), it does qualify for the marital
deduction, and so the applicable estate tax is
deferred until the surviving spouse's death. I.R.C.
§ 2056(b)(7).
Qualified terminable interest property is
defined as property "(I) which passes from the
decedent, (II) in which the surviving spouse has a
qualifying income interest for life, and (III) to which

286a

an election under this paragraph applies." I.R.C.
§ 2056(b)(7)(B)(i). And the surviving spouse has a
qualifying income interest for life if "(I) the surviving
spouse is entitled to all income from the property,
payable annually or at more frequent intervals, or
has a usufruct interest for life in the property, and
(II) no person has a power to appoint any part of the
property to any person other than the surviving
spouse." I.R.C. § 2056(b)(7)(B)(ii).
The ordinary federal estate plan for a
decedent who plans to use a QTIP trust proceeds in
this manner. Before his death, the decedent sets up
a plan to use two trusts. Upon death, an amount
equal to the federal exemption passes into a Credit
Shelter Trust, thus utilizing the decedent's federal
estate tax exemption. And the balance of the
decedent's estate would fund a Marital Trust, which
would be eligible for a QTIP election.
The Marital Trust is purposefully structured
so as to preserve the marital deduction. First, the
surviving spouse must be paid income from the trust
at least annually. Second, no person may have the
power to appoint any portion of the trust property to
anyone other than the surviving spouse. And third,
the language of the trust will allow for a QTIP
election to be made by the decedent spouse's
executor, and this election is irrevocable. See I.R.C.
§ 2056(6 )(7).
b. The taxable transfer of the Trust occurs at
the death of the first-to-die spouse, not the
second-to-die spouse.
When Robert Chuckrow died, the executrix of
his estate made an irrevocable federal QTIP election
on a timely filed Form 706 for the Trust assets.
Under the terms of the Trust, Adelaide had no

287a

general power of appointment over the property the
Trust, and she was unable to exercise any dominion
or control over the Trust property. Her interest in
the Trust was limited to her right to receive income
distributions from the Trust, and principal
distributions but only in the trustee's sole and
absolute discretion. The best way to conceptualize
the estate tax liability of QTIP is as a taxable
transfer on the death of the first spouse, but a
deferment on the collection of those taxes until the
second spouse dies. This comports with general
theories of both property law and federal tax law.
First, as a matter of general property law, the
transfer of trust property is completed when the
Donor puts the property into an irrevocable trust.
See In re Estate of Bracken, 175 Wash. 2d 549, 566
(2012), citing Coolidge v. Long, 282 U.S. 582, 605
(1931). The Donor establishes the trust terms,
nominates a trustee, and dictates the ultimate
disposition of the property by listing the
beneficiaries. Once the property is transferred into
an irrevocable trust (assuming the Donor retains no
interest in the trust), the Donor relinquishes all
rights to dominion or control over the property. This
is why a gift tax return is required when a Donor
creates an irrevocable trust in which he is neither
the trustee nor beneficiary.
The Trust established by Robert's will was no
different. Robert, through his executrix, made the
irrevocable election to treat the property transferred
into the Trust as QTIP property. See I.R.C.
§ 2056(b)(7)(v). None of this property was ever
transferred to Adelaide, and she had no authority or
power to alter the Trust's terms, to control its

288a

principal, to change its beneficiaries, or to alter the
principal's ultimate disposition.8
In short, Robert controlled the ultimate
disposition of his property by setting the terms of the
trust, and it was his death that constituted the
transferring event that the federal government (or
any state government, for that matter) could
constitutionally tax. Adelaide had no control or
dominion over the property that was in the Trust.
She could not remove it, add to it, or otherwise
manipulate it. When Adelaide died, there was no
further transfer of the Trust property. Rather, the
property remained (and still remains) held in the
same Trust for the benefit of the class selected by
Robert per the terms of the Trust as he established
it. Adelaide’s death merely changed the class of
beneficiaries eligible to receive Trust property.
Because she had no power or control over the assets
of the Trust, Adelaide cannot be said to have
transferred any of the Trust property upon her
death. Therefore, as a matter of property law, the
only transfer with regard to this QTIP trust was
upon Robert's death.
Second, under the Internal Revenue Code and
applicable regulations, the death of the first-to-die
spouse is the taxable event with regard to QTIP
trust assets. As discussed above, the marital
deduction (which QTIP-elected trusts qualify for) is
not a typical deduction that eliminates taxation
This is also illustrated in Treas. Reg. 20.2033-1, where it is
said, "[a] cemetery lot owned by the decedent is part of his
gross estate, but its value is limited to the salable value of that
part of the lot which is not designed for the interment of the
decedent and members of his family." The reason is obvious:
the portion of the burial plot is used exclusively by the
decedent, and is not transferrable by any of his beneficiaries.
8

289a

completely. Rather, the election only delays or
postpones the collection of the tax (which would
otherwise be due at the decedent spouse's death)
until the surviving spouse dies.
The value of the first-to-die spouse's federal
gross estate includes property that he passes into a
trust for which a QTIP election is intended to be
made. See I.R.C. § 2033 (value of gross estate
includes the value of all property to the extent of the
interest of the decedent); Treas. Regs. §§ 20.0-2(a),
20.2033-1(a), 20.2044-1(e) (Ex. 1). Ordinarily,
terminable interest property passed to a surviving
spouse would not qualify for the marital deduction.
But I.R.C. § 2056(b)(7) provides an exception for
qualified terminable interest property, which does
qualify for the marital deduction. To perfect a QTIP
trust, one of the conditions is that property actually
pass from the first-to-die spouse into the trust. I.R.C.
§ 2056(b)(7)(B)(i)(I) (property "which passes from the
decedent"). Only by virtue of a QTIP election, and
corresponding allowance of a marital deduction, is
such decedent spouse's property not taxed
immediately. The quid pro quo of the marital
deduction created by specific legislative rule,
however, is that estate taxes on the trust assets are
ultimately paid when the surviving spouse dies. The
Code essentially creates a fictional transfer to reach
QTIP property in the surviving spouse's estate—
treating it as having passed to the surviving spouse.
See Rev. Proc. 2001-38 ("For purposes of § 2056(a),
qualified terminable interest property is treated as
passing to the surviving spouse, and no part of the
property is treated as passing to any person other
than the surviving spouse."). It is only treated as
passing to the surviving spouse for purposes of
§ 2056 because the property was actually transferred

290a

into the QTIP trust—forever out of reach of the
surviving spouse.
This point is reiterated in the tax procedures
for the surviving spouse. At the death of the
surviving spouse, where a QTIP election has been
made and the marital deduction previously allowed,
the Code again creates a fictional transfer. Internal
Revenue Code § 2044(c) provides that, for estate tax
purposes, qualified terminable interest property is
"includible in the gross estate of the decedent [the
surviving spouse] under subsection (a) shall be
treated as property passing from the decedent [the
surviving spouse]." Again, it is treated as passing,
but it does not actually pass from the surviving
spouse. This is no accident of phrasing either. In
subsection (b), the Code specifies that this section
applies to property for which "a deduction was
allowed with respect to the transfer of such property
to the decedent [the surviving spouse]." Thus, under
a plain reading, I.R.C. § 2044 recognizes the
differences between property that is actually
transferred and property that is only treated as
transferred.
Furthermore, the Code recognizes that there
is only one transfer by its inclusion of I.R.C. § 2207
A. Under § 2207A, the second-to-die's estate is
entitled to recover from the QTIP trust the position
of the second-to-die's estate tax that is attributable
to the § 2044 inclusion of QTIP trust—i.e., the
portion the surviving spouse fictionally transfers to
the ultimate beneficiaries by virtue of § 2044. Thus,
even the Code recognizes that the surviving spouse
does not and cannot actually transfer any property
from a QTIP trust on her death, which is why
§ 2207A allocates the ultimate tax liability for taxes

291a

assessed on the value of QTIP property to the QTIP
assets themselves.
This is not some hovel or unique
interpretation. Indeed, the Supreme Court of
Washington reached the very same conclusion in In
re Estate of Bracken, 175 Wash. 2d 549 (2012). The
court held that the taxable transfer of property
passing to a trust for which a QTIP election was
made is on first-to-die's death. Id. at 567-568.
Therefore, the state could not retroactively impose
Washington estate taxes on the second-to-die spouse
attributable to assets of a QTIP trust for her benefit.
Id. at 566-568, 575-576. Bracken is discussed in
further detail below.9
Accordingly, under general principles of
property law and federal and state tax law, the only
transfer of QTIP assets occurs at the death of the
first-to-die spouse. And this true transfer is the
transfer of assets from the decedent into the
qualifying trust. Nevertheless, the Code supposes a
two-step fictional transfer of QTIP assets: first from
the decedent spouse to the surviving spouse, and
then a second fictional transfer from the surviving
spouse to the ultimate beneficiaries. But these two
Other courts have discussed the fictional transfer on the
surviving spouse's death. See Estate of Bonner v. United
States, 84 F.3d 196, 198 (5th Cir. 1996) ("Although § 2044
contemplates that the QTIP property will be treated as having
passed from Bonner for estate tax purposes, the stah1te does
not require, nor logically contemplate that in so passing, the
QTIP assets would merge with other assets."); Estate of
Mellinger v. Comm 'r, 112 T.C. 26, 35 (1999) ("[QTIP] properly
is 'treated as property passing from the' surviving spouse, sec.
2044(c), and is taxed as part of the surviving spouse's estate at
death, but QTIP property does not actually pass to or from the
surviving spouse.").
9

292a

transfers are just that fictional. The Code creates
these fictional events in order to collect, on the death
of the second spouse, the tax that otherwise would be
collectible upon the death of the first-to-die spouse.
Without the first fictional transfer (from decedent
spouse to surviving spouse), taxes would be
immediately due. But, if the first fictional transfer
were allowed without the second fictional transfer
from the surviving spouse to the ultimate
beneficiaries, the trust assets would escape estate
taxation altogether, since an income interest in a
trust created by a third party expires at death with
no general power of appointment over such assets
would not be includible in the decedent's gross
estate—but for the fiction created by I.R.C. § 2044.
Adelaide, having no control over the Trust
assets, had nothing to actually transfer on her death.
The true transfer, and thus the taxable event,
occurred on the death of Robert.
4. The taxable event occurred when Robert
Chuckrow died in New York; thus the
QTIP property is beyond the reach of
Massachusetts's taxing jurisdiction.
Because the taxable transfer occurred on the
death of Robert Chuckrow, the Massachusetts
Department of Revenue is powerless to impose a tax
on the Trust assets at the death of Adelaide
Chuckrow.
a. The Fourteenth Amendment and art.
10 prohibits a state from taxing a
transaction that occurs outside its
borders.
The due process clause of the Fourteenth
Amendment prohibits a state from imposing a tax on

293a

a transaction that occurs entirely outside its borders.
"[T]he exaction by a State of a tax which it is without
power to impose is a taking of property without due
process of law in violation of the Fourteenth
Amendment." Frick v. Pennsylvania, 268 U.S. 473,
488-489 (1925) (holding statute that attempts to tax
tangible property with situs in another state
unconstitutional). Frick tracks Chief Justice
Marshall's statement in McCulloch v. Maryland that
the power to tax "is an incident of sovereignty, and is
coextensive with that to which it is an incident. All
subjects over which the sovereign power of a state
extends, are objects of taxation; but those over which
it does not extend, are, upon the soundest principles,
exempt from taxation." McCulloch v. Maryland, 4
Wheat. (17 U.S.) 316, 429 (1819). Similarly, art. 10 of
the Massachusetts Declaration of Rights proscribes
the collection of estate taxes on a person who is not a
citizen of Massachusetts.
b. Massachusetts is reaching beyond its
taxing jurisdiction in seeking to
impose a tax on Adelaide based on
Robert's transfer of property into the
Trust.
Here, Massachusetts is attempting to reach
beyond its borders—beyond its sovereignty—to
collect a tax on a transfer made in New York by a
New York resident. By doing so, Massachusetts is
attempting to exact "a tax which it is without power
to impose," in violation of the due process clause of
Fourteenth Amendment of the United States
Constitution. Frick v. Pennsylvania, 268 U.S. 473,
488-489 (1925).
The Supreme Judicial Court has recognized
that Massachusetts may constitutionally impose an

294a

estate tax on gifts made within three years of death
by a Massachusetts decedent, even though the gifts
were of Maryland intangible securities and even
though the decedent was a Maryland resident at the
time the gifts were made. See Page v. Comm'r of
Revenue, 389 Mass. 388, 394-395 (1983). In reaching
that decision, the SJC relied, in part, on Curry v.
McCanless, 307 U.S. 357 (1939). In Curry, both
Alabama and Tennessee attempted to impose death
taxes on the transfer of an interest in intangibles. Id.
at 360. The decedent was a domiciled resident of
Tennessee, and the intangibles were held in trust by
an Alabama trustee—a trust established by the
decedent and over which she maintained the power
to dispose of the trust estate by her will (a general
power of appointment). Id. at 360-361. The Court
held that both states could constitutionally levy a
tax on the transfer of these assets. Id. at 372-373.
Of course, there are several major distinctions
between taxing the assets of the individuals in Page
and Curry and taxing the Trust assets here. In Page,
the decedent maintained absolute control and
dominion over the ultimate transfer of the property.
She could have sold them, gifted them, or
bequeathed them. Similarly, the decedent in Curry,
by her trust instrument, maintained a right to
bequeath the trust assets, thus controlling their
ultimate transfer. What is more, in Page and Curry,
the decedents were both the taxpayer and the
transferor.
Not so in the case of Adelaide Chuckrow. In
the Trust created under Robert's Will, Adelaide had
no power or control to transfer the principal.
Contrast Pearson v. McGraw, 308 U.S. 313, 318
(1939) (noting that the jurisdiction of a state "is
dependent not on the physical location of the
295a

property in the state but on control over the owner").
Unlike Page and Curry, here the transferor and the
taxpayer are not one and the same. In Page and
Curry, the states taxed their residents on the
transfers made by their residents. In the present
case, however, the transfer was made by Robert
Chuckrow, but the Department seeks to tax
Adelaide. Robert was not a Massachusetts resident
at the time of this transfer (his death), and he never
subjected himself to the estate taxing jurisdiction of
the Commonwealth, as he owned no real or tangible
personal property sited in Massachusetts. Further,
Robert was the person who determined the ultimate
disposition of the property by deciding the terms of
the trust, and he was the one who through his
executrix will transferred the property into the
Trust. Therefore, unlike the taxpayers in Page and
Curry, the present taxpayer, Adelaide, had no say in
the initial transfer of the property and no control
over the ultimate disposition of the property at her
death. The only reason that the Trust relates to
Adelaide's estate at all is because of the special rules
of I.R.C. § 2056(b)(7) and I.R.C. § 2044.
Indeed, the better analogy is to a situation
where a Donor completes an inter vivos gift by
transferring the property into an irrevocable trust,
where he is neither the trustee nor a beneficiary.
Under general principles of property law, the gift is
completed once the property is delivered to the
trustee. See In re Estate of Bracken, 175 Wash. 2d
549, 566 (2012), citing Coolidge v. Long, 282 U.S.
582, 605 (1931). At that moment, the Donor has
relinquished all rights in the property he transferred
into trust (thus triggering the requirement of filing a
gift tax return). In Wuesthoff v. Wisconsin Dep’t of
Taxation, the state of Wisconsin attempted to impose

296a

a tax on a gift made into an irrevocable inter vivos
trust by a nonresident Donor to a nonresident
trustee. 261 Wis. 98, 99-100 (1952). The only
connection to Wisconsin was that the gift consisted
of Wisconsin securities. Id. at 104. Because the gift
was completed outside the state, and because donor
and done were not residents of Wisconsin, the court
held that the transfer was beyond the taxing
jurisdiction of the state of Wisconsin. Id. at 104-105.
The Supreme Court of Washington reached a
similar conclusion regarding federal QTIP and its
interplay with state estate taxes in In re Estate of
Bracken, 175 Wash. 2d 549 (2012). In 2006 the
Washington legislature enacted a stand-alone state
estate tax and authorized the Washington
Department of Revenue to create, for the first time, a
separate state QTIP election. Id. at 559-560. The
first-to-die husbands died before the enactment of
this statute and their executors made federal QTIP
elections; the second-to-die wives died after. The
Department attempted to impose a tax on the
estates of second-to-die wives attributable to the
QTIP trusts established by their husbands. Id. at
556. The court held that the state could not impose a
tax on the federal QTIP trusts because no transfer
occurred at the surviving spouses' death. Id. at 575576. That is, the estate tax requires a transfer of
property to impose a tax; the transfer of assets of a
QTIP trust occurred when the first spouses die; and
because no taxable transfer occurred at the
surviving spouses' deaths, the state could not impose
an estate tax. Id. Although Massachusetts had a
QTIP election at the time of Robert's death, he was a
New York resident and the transfer occurred in New
York. Massachusetts cannot constitutionally tax a
transfer that occurred in a different state. The

297a

difference between Bracken and this case is that
Washington attempted to impose a retroactive estate
tax on in-state transfers. Here, not only is
Massachusetts attempting to impose a retroactive
tax, but it is also attempting to tax an out-of-state
event. The legitimacy of the present tax is thus even
more tenuous. See McCulloch v. Maryland, 4 Wheat.
(17 U.S.) 316, 429 (1819) ("All subjects over which
the sovereign power of a state extends, are objects of
taxation; but those over which it does not extend,
are, upon the soundest principles, exempt from
taxation.").
The right to collect a tax on the Trust occurred
on the death of Robert, because that is when the
taxable transfer of the property occurred. Even
under Page, where the Commonwealth was
permitted to impose a tax, the court held that "it is
the domicile of the decedent at the time the right to
impose the tax arises that determines the propriety
of the tax." Page, 389 Mass. at 395. In Page, the
taxable event was the decedent's death, which
occurred in Massachusetts. But here, the taxable
event was the transfer upon Robert's death, which
occurred in New York. Therefore, the estate tax
imposed by Massachusetts on the assets of the Trust
violates the due process clause of the Fourteenth
Amendment of the United States Constitution
because it exceeds the permissible reach of
Massachusetts's sovereignty. See McCulloch v.
Maryland, 4 Wheat. (17 U.S.) 316, 429 (1819).
Consequently, the estate is entitled to an abatement
in the full amount of $1,953,032.

298a

B. Under the terms of the Massachusetts estate
tax statute, the value of the federally elected
QTIP property is not properly includible in
Adelaide's Massachusetts gross estate.
The Massachusetts estate tax, as it existed
through 1996, was the result of patchwork
legislation in response to federal code changes, thus
resulting in a highly convoluted maze of state
statutes and regulations. Massachusetts lagged
years behind innovative updates to the federal code,
such as the unlimited marital deduction and the
QTIP. The federal QTIP was introduced in 1981, but
the Massachusetts QTIP did not become effective
until January 1, 1986. See St. 1985, c. 711, §§ 12, 19.
The federal code also moved to an unlimited marital
deduction in 1981, but Massachusetts did not do so
until July 1, 1994. See St. 1992, c. 133, §§ 422, 597.
Couple these issues with the phase out of the
Massachusetts estate tax beginning in the early
1990s (in favor of the sponge tax, G.L. c. 65C, § 2A,
which went into effect on January 1, 1997), and the
result was a complicated morass for anyone trying to
navigate between the federal and Massachusetts
estate tax.
1. The executor may make a Massachusetts
QTIP election that is separate from and
independent of the federal QTIP election
and the Massachusetts QTIP election.
The executrix of Robert Chuckrow's estate did
not make a Massachusetts QTIP election; no such
election was required. An executor may make
separate and independent QTIP elections for
purposes of federal and Massachusetts taxation. See
G.L. c. 65C, § 3A(f), as inserted by St. 1985, c. 711,
§ 12 ("Such election, once made, shall be irrevocable

299a

and shall be separate from and independent of any
election made for federal estate tax purposes.").10
This was true when Massachusetts had a standalone estate tax, and it remained true even after
Massachusetts returned to a sponge tax beginning in
2003. Not only has the legislature never repealed
G.L. c. 65C, § 3A, but the Department of Revenue's
Directive
03-2
(which
was
issued
after
Massachusetts reverted to a sponge tax) states that
"[t]he executor ... is not required to have made the
same QTIP election for federal estate tax purposes in
order to make the election for Massachusetts
purposes." Accordingly, an executor could and can
make a federal QTIP election on certain property but
not make a Massachusetts QTIP election on the
same property, or vice versa.
2. Because the state and federal QTIP
elections can be different, the analysis
does not end simply by defining the
Massachusetts gross estate as the
federal gross estate.
At the settlement conference, the decision's
reasoning began and ended with the observation
that Massachusetts estate tax is calculated by
reference to the as the federal gross estate—of which
the assets of the Trust u/w/o Robert Chuckrow would
be included. However, because it is possible for
separate federal and state QTIP elections, bare
reference to the federal gross estate runs the risk of
double taxing property for which a federal QTIP
election was made, but for which no Massachusetts
QTIP election was made. This issue was confronted
when the legislature amended the stand-alone estate
tax to allow for state QTIP elections, yet kept the
10

Section 3A(1) has never been amended.

300a

50% state marital deduction. The solution then was
to alter the definition of Massachusetts gross estate
so as to exclude property for which a federal QTIP
election was made, but no state QTIP election was
made. See G.L. c. 65C, § 1(f). Indeed, this is the only
logical construction of § 10(f).
Under the familiar tenets of statutory
interpretation, a statute is construed "in accord with
'the intent of the Legislature ascertained from all its
words construed by the ordinary and approved usage
of the language, considered in connection with the
cause of its enactment, the mischief or imperfection
to be remedied and the main object to be
accomplished, to the end that the purpose of its
framers may be effectuated.' ... " Champigny v.
Commonwealth, 422 Mass. 249, 251 (1996), quoting
Telesetsky v. Wight, 395 Mass. 868, 872-873 (1985).
Further, "a statute must be construed so that 'effect
is given to all its provisions, so that no part will be
inoperative or superfluous."' Wheatley v. Mass.
Insurers Insolvency Fund, 456 Mass. 594, 601
(2010), quoting Bankers Life & Cas. Co. v. Comm'r of
Ins., 427 Mass. 136, 140 (1998). Because this is a tax
statute, it is also necessary to note that the statute
should avoid double taxation where possible. O'Brien
v. State Tax Comm'n, 339 Mass. 56, 62 (1959).

301a

3.

The last sentence of G.L. c. 65C, § 1(f),
explicitly
excludes,
from
the
Massachusetts gross estate, the value
of property for which a federal QTIP
election
was
made,
but
no
Massachusetts QTIP election was
made.

Any analysis of G.L. c. 65C, § 1, must begin
with the language of the statute itself:
"When used in this chapter the following
words or terms shall have, unless the context
clearly indicated otherwise, the following
meanings:-….
(f) "Massachusetts gross estate", the federal
gross estate, whether or not a federal estate
tax return is required to be filed, plus the
value of any property (i) in which the decedent
had at death a qualifying income interest for
life described in subsection (c) of section three
A ... and (ii) for which a deduction was allowed
for Massachusetts estate tax purposes with
respect to the transfer of such property of the
decedent; and less the value of real and
tangible personal property having an actual
situs outside the commonwealth. The
Massachusetts gross estate shall not include
the value of any property in which the
decedent [the surviving spouse] had a
qualifying income interest for life which is not
otherwise includible in the Massachusetts
gross estate under the first sentence of this
paragraph, notwithstanding the right of the
executor of the decedent's estate to recover

302a

federal or Massachusetts estate taxes from
such property."
G.L. c. 65C, § 1(f), as amended by St. 1985, c. 711,
§ 6.11
The starting point is to determine the
decedent's federal gross estate. The statute then
adds "the value of any property (i) in which the
decedent [the surviving spouse] had at death a
qualifying income interest for life described in [G.L.
c. 65C, § 3A(c)] ... and (ii) for which a deduction was
allowed for Massachusetts estate tax purposes with
respect to the transfer of such property to the
decedent." G.L. c. 65C, § 1(f). The purpose of this
portion of the statute is to capture the value of any
property for which a Massachusetts QTIP election
was made. See 830 Code Mass. Regs. § 65C.2.1(1)(b),
(5). Without this provision, property for which a
Massachusetts QTIP election was made would not be
able to be taxed on the surviving spouse's death,
because this property would not be included by mere
reference to the federal gross estate.12
Finally, we arrive at the final sentence of the
statute:
"The Massachusetts gross estate shall not
include the value of any property in which the
decedent [the surviving spouse] had a
qualifying income interest for life which is not
Prior to the 1985 amendment, the definition simply read:
"the federal gross estate, whether or not a federal estate tax
return is required to be filed, less the value of real and tangible
personal property having an actual situs outside the
commonwealth." St. 1975, c. 684, § 74.
11

The next step is to subtract out-of-state real and tangible
personal property, but that is not relevant to the present
circumstances.
12

303a

otherwise includible in the Massachusetts
gross estate under the first sentence of this
paragraph, notwithstanding the right of the
executor of the decedent's estate to recover
federal or Massachusetts estate taxes from
such property."
To fully understand this sentence of the statute, it is
necessary to examine the context in which it was
added. See Champigny v. Commonwealth, 422 Mass.
249, 251 (1996). When this sentence was added in
1985, federal law had already moved to an unlimited
marital deduction, in addition to permitting QTIP
elections. Massachusetts followed the federal lead
regarding QTIP elections under this 1985
amendment, but chose to maintain its 50% marital
deduction. This created a serious disconnect between
federal QTIP elections and Massachusetts QTIP
elections. Hence, the executor is permitted to make a
Massachusetts QTIP election that is "separate from
and independent of' any federal QTIP election. See
G.L. c. 65C, § 3A(f). And due to the 50%
Massachusetts marital deduction, a proper estatetax-minimizing estate plan would always make a
federal QTIP election in excess of the Massachusetts
QTIP election. But this, in turn, would have created
a serious double taxation problem-that is, the excess
amount elected under the federal QTIP would
already have been taxed by Massachusetts on the
state estate taxes. So the legislature needed to create
a way to eliminate from the Massachusetts gross
estate the excess value of federal QTIP property.
Thus the last sentence of the statute was
added: "The Massachusetts gross estate shall not
include the value of any property in which the
decedent [the surviving spouse] had a qualifying
income interest for life which is not otherwise
304a

includible in the Massachusetts gross estate under
the first sentence of this paragraph." G.L. c. 65C,
§ 1(f). Understood in the proper context, it is clear
that the intent of this sentence is to eliminate the
excess federal QTIP election from the Massachusetts
gross estate.
The following hypothetical demonstrates why:
H has $2 million, and W has $0. Assume that no
federal exemption exists. H dies in 1993, and the
entire $2 million funds a trust that could qualify for
a QTIP election. H's executor makes a federal QTIP
election only, thus deferring collection of the federal
estate tax until W dies. See I.R.C. §§ 2044,
2056(b)(7). No Massachusetts QTIP election was
made, and so state estate tax would be assessed on
the $2 million at H's death. W never receives the
property; she merely has a qualifying income
interest for life in the trust. At W's death, her federal
gross estate would be $2 million, by virtue of I.R.C.
§ 2044. And if the first words of G.L. c. 65C, § 1(f), or
the formula for the sponge tax under § 2A, are to be
taken literally without regard to the last sentence—
i.e., the Massachusetts gross estate is the federal
gross estate—then W's Massachusetts gross estate
would be $2 million, even though tax was already
paid on this $2 million and even though W never
owned or had control of the $2 million. The final
sentence of G.L. c. 65C, § 1(f), remedied this
problem: it would exclude from W's Massachusetts
gross estate her qualifying income the $2 million
from W's Massachusetts gross estate. (The chart is
also attached as an exhibit).

305a

306a

4. Under
the
rules
of
statutory
interpretation,
and
the
rule
of
construction that taxing statutes should
avoid double taxation, this analysis of
the last sentence of G.L. c. 65C, § 1, is
correct.
For two reasons, this is the only logical
construction of the last sentence of this statute. And
it shows the significant flaw of simply referencing
the federal gross estate in calculating Massachusetts
estate tax. First, the rules of statutory interpretation
require that the last sentence take precedence over
the previously enacted first words of the statute.
Effect must be given to all provisions in a statute.
See Wheatley v. Mass. Insurers Insolvency Fund,
456 Mass. 594, 601 (2010). So the analysis cannot
stop at the words "the federal gross estate";
otherwise, the last sentence of G.L. c. 65C, § 1, would
be extraneous, superfluous, and entirely ineffective.
The portion of the statute referencing the "federal
gross estate" has been in the statute since it was
originally enacted in 1975, see St. 1975, c. 684, § 74,
while the final sentence was added in 1985. Not only
did the amendment come later in time, it is
undoubtedly the more specific provision and, as
such, controls over the general. See Doe v. Attorney
General (No. 1), 425 Mass. 210, 215-216 (1997)
("[W]hen two statutes (or provisions within those
statutes) conflict, ... the more specific provision,
particularly where it has been enacted subsequent to
a more general rule, applies over the general
rule.").13
The last sentence does not exclude property that is
"otherwise includible in the Massachusetts gross estate under
the first sentence." This, technically, points back to the words
13

307a

Second, this construction avoids the problem
of double taxation. "Massachusetts taxing statutes
will be 'interpreted so as not to cause double taxation
unless no other reasonable construction is
practicable.'" O'Brien v. State Tax Comm'n, 339
Mass. 56, 62 (1959), quoting DeBlois v. Comm'r of
Corps. & Taxation, 276 Mass. 437, 439-440 (1931).
Returning to the example above, W's federal gross
estate would include the $2 million. See I.R.C.
§ 2044. Under the Department's reading, this $2
million would be subject to Massachusetts estate tax
on W's death, even though the same $2 million was
already taxed at H's death. Moreover, not only would
Massachusetts be attempting to tax the same assets
twice, it would also be attempting to tax the same
transfer twice—the transfer from H into the trust.14
Cf. Rohrbough, Inc. v. Comm'r of Revenue, 385 Mass.
830, 831 (1982) (double taxation of proceeds from the
same transaction should be avoided).
At bottom, the definition of Massachusetts
gross estate is inarticulate. The last sentence was
added to avoid including federal QTIP property for
which no Massachusetts QTIP election was made in
the definition of Massachusetts gross estate. At the
very least, this statute is ambiguous. "Taxing
statutes are to be construed strictly against the
"federal gross estate," which by virtue of I.R.C. § 2044 would
include the federal QTIP property. But this would also create
an endless circle, because—it would then be excluded once
again by the last sentence. Such a construction would also
make the last sentence inoperative. Rather, the better
interpretation of "the first sentence" would be to ensure that
the last sentence did not exclude Massachusetts QTIP property.
Even more offensive, W never had any dominion or control
over the property, but received only a qualifying income
interest from the trust.
14

308a

taxing authority, and all doubts resolved in favor of
the
taxpayer."
Comm'r
of
Revenue
v.
AMIWoodbroke, Inc., 418 Mass. 92, 94 (1994),
quoting Dennis v. Comm'r of Corps. & Taxation, 340
Mass. 629, 631 (1960).
5. Adelaide Chuckrow had a qualifying
income interest for life in Trust property
for which a federal QTIP election was
made, but no Massachusetts QTIP
election was made; her situation falls
directly in line with the last sentence of
G.L. c. 65C, § 1(f), and so the value of
Robert
Chuckrow's
federal
QTIP
property must be excluded from
Adelaide's estate.
Under G.L. c. 65C, § 1(f), the value of the
property in the Trust u/w/o Robert Chuckrow would
have been excluded from Adelaide's Massachusetts
gross estate. The same result should apply under the
current sponge tax. Robert's executor did not make a
Massachusetts QTIP election, but she did make a
federal QTIP election. Adelaide had a qualifying
income interest for life in the Trust u/w/o Robert
Chuckrow, and this interest would not otherwise
have been includible under the first sentence—i.e., it
was not Massachusetts QTIP property. G.L. c. 65C,
§ 1(f). And reference cannot be made back to "federal
gross estate," because this would have rendered the
entire final sentence inoperative. Indeed, this was
the purpose of the last sentence. Therefore,
Adelaide's Massachusetts gross estate would "not
[have] include[d] the value of any property in which
[she] had a qualifying income interest for life!' So it
would not have included the value of the assets in
the Trust u/w/o Robert Chuckrow. Id. The result
should be no different under the current sponge tax.
309a

The Massachusetts legislature already confronted
the issue of how to tax an estate where a federal
QTIP election was made, but no state QTIP election
was made. The fact that Massachusetts now uses a
sponge tax does not eliminate the potential for
double taxation. And so the analysis should not
change. Therefore, Adelaide's estate is entitled to a
full abatement of $1,953,032.
C. Even if the Chuckrows had been
Massachusetts residents at the time of
Robert's death, Robert's executor could only
have made a Massachusetts QTIP election
on 48.11% of his estate, and so, at the very
least, abatement in that amount is due
Adelaide's estate.
The unfairness and injustice of the
Massachusetts estate tax regime in the 1980s and
mid-1990s is demonstrated by looking at what would
have happened if Robert Chuckrow was a
Massachusetts resident at his death. Robert
Chuckrow's estate plan demonstrated that he
intended to minimize estate taxes where possible.
Yet he would have been limited to only a 50%
marital deduction and no state estate tax exemption.
-

Robert Chuckrow's
$1,996,043.24.

-

Taking
half
of
that
number,
the
Massachusetts marital deduction would have
been limited to $998,021.62.

-

Of that amount, $591,924.12 passed directly
to Adelaide.

310a

gross

estate

was

-

And so the maximum Massachusetts QTIP
election that Robert's executor could have
made would have been $406,097.50.15

Thus, only 48.11% of the federal QTIP (which was
$844,101.27)
could
have
qualified
for
a
Massachusetts QTIP election. So the Department of
Revenue would have assessed a tax on $438,003.77
(51.89%) of the federal QTIP that would not qualify
for the Massachusetts marital deduction. But now
the Department wants to tax the entire $844,101.27,
even though 51.89% of which it already would have
been taxed on Robert's death. Such a result would be
unjust, violating principles against double taxation.
See O'Brien v. State Tax Comm'n, 339 Mass. 56, 62
(1959).
Accordingly, at the very least, Adelaide's
estate should only be required to pay tax on 48.11%
of the total assessment of $1,953,032 (which comes
to $939,603.70). And so she is due an abatement of
$1,013,428.30.
V. Conclusion
The estate tax assessed on Adelaide's estate
for the present value of Robert's federally elected
QTIP trust has no basis in the law. Both
constitutionally and statutorily, this tax cannot be
collected.
This assessment is unconstitutional because
Massachusetts is attempting to assess a tax on a
transfer that occurred in New York by a New York
resident into a New York trust. Massachusetts is
attempting to tax the trust's income beneficiary, who
never received the principal, never controlled the
Compare that to his executor's federal QTIP election:
$844,101.27
15

311a

principal, and never had a say how the principal
would ultimately be disposed. All those decisions
were made by Robert Chuckrow in his will, and the
taxable transfer occurred at his death. Adelaide's
estate, of course, must pay this amount in federal
estate tax because of the delayed collectibility of the
marital deduction. But the internal revenue code is
clear that it is not taxing a new transfer, but is
merely creating a fictional transfer to make the
mechanics work. Massachusetts insists it can tax
this fictional transfer. But in reality, this is merely a
change in the class of beneficiaries to the Trust.
Massachusetts cannot constitutionally reach across
its borders—beyond its sovereignty—to tax this New
York transfer.
This assessment also mangles the definition of
Massachusetts gross estate. The final sentence
excludes from the Massachusetts gross estate the
value of any property in which the second-to-die
spouse had a qualifying income interest for life, but
which is not otherwise includible in the
Massachusetts gross estate by virtue of the first
sentence.
When
examined
in
context
of
Massachusetts's retaining its 50% marital deduction,
it is clear that the legislature inserted this provision
to prevent the inclusion of federal QTIP election that
was in excess of the Massachusetts QTIP election. So
the analysis cannot end simply by saying that the
Massachusetts gross estate is the federal gross
estate. If it could, the final sentence of G.L. c. 65C,
§ 1(f); would be rendered ineffective, violating a
fundamental tenet of statutory construction. By its
own laws, then, Massachusetts cannot tax Adelaide's
estate for the value of the federal QTIP property.
In conclusion, the Commonwealth is
attempting to tax the transfer of property into a New
312a

York trust, effectuated by a New York resident's
death more than twenty years ago. It attempts to tax
the income beneficiary who had no control over the
property or its ultimate disposition. And it attempts
to do so in contravention of its own definition for
calculating what is taxable.
For these reasons, the application for
abatement should be allowed, and the estate of
Adelaide Chuckrow should be refunded the entire
$1,953,032.

313a

APPENDIX 23

Massachusetts
Department
Of
Revenue PO Box7010 Boston, MA 02204
AMY A. PITTER, COMMISSIONER
MICHAEL J. LIVIDOTI,
DEPUTY COMMISSIONER
Leo J. Cushing, Esq.
Cushing & Dolan
375 Totten Pond Rd.
Suite 200
Waltham, MA.02451
Notice: Abatement Denial
T/P ID: 7341
Bureau: CSB Estate Unit
Phone: (617) 887 - 6367
Tax Type: Estate
Date: 05/19/15
NOTICE OF ABATEMENT DETERMINATION
Dear Taxpayer:
This notice is to inform you that the Massachusetts
Department of Revenue (DOR) has completed review
of your Application for Abatement.
Your application has been denied. The reason that
your claim has been denied is stated on the following
page, which is a part of this notice.

314a

This determination is final. You may appeal this
decision to the Appellate Tax Board (the "Board"),
which is not part of the Department of Revenue, in
accordance with the provisions of Massachusetts
General Laws, Chapter 62C, s.39. If you choose to
file an appeal with the Board, your petition must be
postmarked or received in the Board's offices at 100
Cambridge Street, Suite 200, Boston. MA 02114
within sixty (60) days of the date of this notice
together with a minimum filing fee made payable to
the Board in the amount of $65.00 for appeals up to
$65,000 of tax abatement requested and an
additional $.10 for every $100.00 of additional
abatement requested up to a maximum of $5,000.00.
Please note that certain taxpayers may qualify to file
an appeal with a reduced filing fee under the small
claims procedure. See Massachusetts General Laws,
Chapter 58A, section 7B and Section 1.10: FEES or
the Code of Massachusetts Regulations 831 CMR
1.00; Appellate Tax Board Rules or Practice and
Procedure.
Visit
the
Board's
website
at
www.mass.gov/atb for additional information.
A copy of any petition filed with the Board must be
served upon the Commissioner of Revenue,
Litigation Bureau, P.O. Box 9565, Boston, MA
02114-9565 pursuant to Rule 1.04 of the Rules of
Practice and Procedure of the Board.
In certain estate and inheritance tax cases arising
under Chapter 65C or former Chapter 65 of the
Massachusetts General Laws, you may appeal to the
Probate Court having jurisdiction of the estate of the
decedent in accordance with applicable provisions of
those statutes and/or § 39 of Chapter 62C. In the
case of an appeal to the Probate Court, the time
limits for filing a petition and the amount of the
315a

required filing fee may be governed by statutory
provisions and court rules other than those in § 39 of
Chapter 62C. Service of Probate Court petitions
upon the Commissioner, at the above address, and
upon the Massachusetts Attorney General at its
offices should be made in accordance with the rules
applicable to Probate Court practice, including the
Massachusetts Rules of Civil Procedure.
If you decide to appeal this determination to the
Board, you generally are not required to pay and will
not be subjected to involuntary collection activities
on tax, interest or penalties that are in dispute while
any denial of your abatement claim is on appeal at
the Appellate Tax Board. However, interest and in
some cases penalties will accrue on any unpaid
amount for which you are ultimately held
responsible. Therefore, you may wish to pay the
amount you are disputing to stop the accrual of
interest and penalties. Please note that the statute
of limitations on collections will be suspended during
the appeal process.
Please note, s 33(c) late pay penalties will not be
charged during the appeal process. If your bill was
paid in full on or after July 1, 1999, you may receive
a refund of s 33(c) (late pay) penalties paid.
Very truly yours,
/s/ Michael J. Lividoti
Michael J. Lividoti
Deputy Commissioner
ATTACHMENT TO NOTICE OF ABATEMENT
DETERMINATION
Estate of Adelaide Chuckrow
316a

155-01-7340
Abatement Denial
REASON:
THE MASS. ESTATE TAX IS THE CREDIT FOR
STATE
DEATH
TAX
CALCULATED
BY
REFERENCE TO THE FEDERAL TAXABLE
ESTATE. THEREFORE, THE QTIP TRUST
ASSETS MUST BE INCLUDED IN THE FEDERAL
GROSS ESTATE PER IRC S2044 AND THE
VALUE OF THE QTIP ASSETS MUST BE
INCLUDED IN THE CALCULATION OF THE
MASS. ESTATE TAX CREDIT AMOUNT UNDER
IRC S2011 IN EFFECT ON DEC.31. 2000 AND
M.G.L. C.65C, S2A.
PER THE LETTER DATED MAY 4, 2015 FROM
THE OFFICE OF APPEALS, THE HEARING IS
DENIED
SINCE
NO
NEW
FACTUAL
INFORMATION OR LEGAL PRECEDENT WAS
PRESENTED SINCE THE PREASSESSMENT
CONFERENCE HELD BY THAT OFFICE.
PERIODS
INCLUDED
DETERMINATION:
DOD=08/14/2011

317a

IN

THIS

APPENDIX 24
THE COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
DOCKET NO. C327773
M. CHRISTINE SHAFFER, AS
EXECUTRIX OF THE ESTATE
OF ADELAIDE P. CHUCKROW,
Appellant
v.

)
)
)
)
)
)
COMMISSIONER OF REVENUE, )
Appellee
)
)
STATEMENT OF AGREED FACTS

The parties in the above-captioned matter
hereby stipulate and agree that the following facts
are true and that the attached documents are true
and accurate copies of the originals. The parties
expressly reserve their rights to contest the
materiality and/or relevance of any fact or document
stipulated herein.
JURISDICTIONAL FACTS
1. Adelaide P. Chuckrow (the "Decedent") died,
domiciled in Williamstown, Massachusetts, on
August 14, 2011, (Exhibit 1 is a copy of the
Decedent's Death Certificate.)
2. On May 14, 2012, the Estate of Adelaide P.
Chuckrow (the "Estate") filed a Massachusetts
Estate
Tax
Return,
Form
M-706,
(the
"Massachusetts Return") reporting a tax due in the
amount of $100,997.00, along with payment of
$100,997.00. (Exhibit 2 is a copy of the

318a

Massachusetts Return along with the required copy
of the Federal Estate Tax Return with a revision
date of July 1999. Exhibit 3 is a copy of the Estate's
Federal Estate Tax Return (the "Federal Return")
that was filed with the United States Internal
Revenue Service (the "IRS").)
3.
The
Commissioner
of
Revenue
(the
"Commissioner") selected the Massachusetts Return
for audit and sent the Estate a Notice of intention to
Assess, dated September 27, 2013, (the "NIA"). The
Commissioner also sent the Estate Notice of
intention to Assess Work Papers, dated August 29,
2013, (the "Work Papers"), which showed the
Commissioner proposed to assess additional estate
taxes in the amount of $1,809,141.88, based upon
increasing the Federal Gross Estate by $13,251,469.
(Exhibit 4 is a copy of the NIA and the Work
Papers.)
4. The Estate requested a conference regarding the
NIA. (Exhibit 5 is a copy of the Form DR-1 and
attachment requesting a conference.) The conference
was held on February 12, 2014. (Exhibit 6 is a copy
of the letter of determination from the conference.)
5. The Commissioner assessed the tax as proposed
and sent the Estate a Notice of Assessment (the
"NOA"), dated March 18, 2014. In addition to the
tax, the NOA showed the assessment of interest in
the amount of $143,890, which resulted in a total
balance due in the amount of $1,953,032. (Exhibit 7
is a copy of the NOA.)
6. On April 11, 2014, the Commissioner received the
Estate's payment of $1,953,032.00. The payment was
by check written on an account of the Trust under
the Will of Robert Chuckrow Deceased. (Exhibit 8 is
a copy of the check.)

319a

7. On April 17, 2014, the Commissioner refunded
$1,283.77 to the Estate. This refund consisted of an
overpayment of $1,283.35, and $0.42 in refund
interest per G.L. c. 62C, §40.
8. On November 12, 2014, the Commissioner
received the Estate's Abatement Application, Form
CA-6, seeking abatement of the audit assessment.
(Exhibit 9 is a copy of the Abatement Application,
the Table of Contents for the Abatement Application
and the Explanation of Issues Involved in Request.1
9. The Estate requested a conference with respect to
their Abatement Application. The Commissioner
denied the conference request because the Estate
had had a conference with respect to the NIA and no
new facts or legal precedent was presented in the
Abatement Application, citing G.L. c. 62C, §37.
(Exhibit 10 is a copy of the Letter rejecting the
Abatement Conference.)
10. The Commissioner denied the Estate's
Abatement Application and sent the Estate a Notice
of Abatement Determination, dated May 19, 2015.
(Exhibit 11 is a copy of the Notice of Abatement
Determination.)
11. The Estate appealed the Commissioner's
abatement denial by filing a Petition with this Board
on June 25, 2015.
12. The Assessment at issue has been paid in full.
The Commissioner's records show the following
Massachusetts Return and Audit assessments and
payments:
In an effort to avoid duplication and to reduce the number of
attachments to this Statement of Agreed Facts, the remaining
attachments listed in the Table of Contents will not be included
as part of this Exhibit
1

320a

Massachusetts
Return
Audit
Total

Tax
Assessed

Interest
Assessed

Total
Paid

100,997.00
1,809,141.88
1,910,138.88

0.00
142,606.35
142,606.35

100,997.00
1,951,748.23
2,052,745.23

(Exhibit 12 is a copy of the Massachusetts Estate
Tax Closing Letter.)
ESTATE TAX RETURN FACTS
13. On the Massachusetts Return, the Estate
reported a Total Gross Estate of $2,382,148. (See
Exhibit 2, at the top of the second page, Part 1, Line
1.)
14. On the Estate's Federal Return, the Estate
reported a Total Gross Estate of $15,633,617. (See
Exhibit 3, on the first page, Line 1.)
15. The difference between the Gross Estate reported
on the Federal Return and the Gross Estate reported
on the Massachusetts Return, $15,633,617 $2,382,148 = $13,251,469, was the value of the Trust
under the Last Will and Testament of Robert
Chuckrow (the "QTIP Trust"), the Decedent's spouse,
who died on July 11, 1993, which was included in the
Decedent's Federal estate under IRC 2044. (See
Exhibits 2, at the top of the second page, Part 1, Line
1, and Exhibit 3, on the first page, Line 1.)
16. The Estate has not filed a New York Estate Tax
Return and has not paid any New York Estate Tax
based upon the death of the Decedent.

321a

ROBERT CHUCKROW
17. The Decedent was the widow of Robert
Chuckrow.
18. Robert Chuckrow died on July 11, 1993,
domiciled in Chappaqua, New York. At the time of
Robert Chuckrow's death, the Decedent also was
domiciled in Chappaqua, New York. (Exhibit 13 is a
copy of the Robert Chuckrow’s Death Certificate.)
19. Robert had a Last Will and Testament which
established under Article Third a trust for the
benefit of his surviving spouse, the Decedent, that
qualified for a Qualified Terminable Interest
Property Trust ("QTIP") election under I.R.C.
§ 2056(b)(7) and under corollary provisions of New
York Law. (Exhibit 14 is copy of Robert Chuckrow's
Will.)
20. The Estate of Robert Chuckrow filed a Federal
Estate Tax Return reporting no tax due. (Exhibit 15
is a copy of the Federal Estate Tax Return of the
Estate of Robert Chuckrow.)
21. The Estate of Robert Chuckrow filed a New York
Estate Tax Return reporting no tax due. (Exhibit 16
is a copy of the New York Estate Tax Return of the
Estate of Robert Chuckrow.)
22. On both the Federal and New York Estate Tax
Returns of the Estate of Robert Chuckrow, the
Estate of Robert Chuckrow made a QTIP election for
the Trust established under Article Third of Robert
Chuckrow's Will as part of the marital deduction.
(See Schedule M of both Exhibits 15 and 16. See also
the copy of the Last Will and Testament of Robert
Chuckrow attached as Exhibit 14.)
23. At the date of Robert Chuckrow's death, the
value of the assets in the QTIP Trust was reported to
322a

be $844,101.27. (See Exhibits 15 and 16 at Schedule
M.)
24. The Will and Trust thereunder were established
while Robert was a resident of the State of New York
and the Will was probated in the Westchester
County Surrogate's Court, White Plains, New York
(See Exhibit 14 the introductory paragraph of
Robert's Will and Robert's 706, First Page, Exhibit
1.5).
25. The Trustees of the Trust were the decedent's
daughters, Carol Guernsey of Williamstown, MA and
Amy Chuckrow of Charlestown, MA. (See Exhibit 3,
on page 6 at paragraph Eighth.)
26. Under the Terms of the Trust, the Decedent was
entitled to all income for so long as she was living,
paid at least quarter annually. She was entitled to
principal distributions during her life at the sole
discretion of the trustees. At her death, the
remainder passed to the children of Robert and the
Decedent. (See Exhibit 3, on page 2 at paragraph
Third, subparagraphs A, B and C.) Adelaide held no
general or limited power of appointment over the
trust assets.
27. There was no real estate or tangible personal
property located in Massachusetts reported on the
Federal or New York Estate Tax Returns of Robert
Chuckrow. (See Exhibits 15 and 16.)
28. The Estate of Robert Chuckrow did not file a
Massachusetts Estate Tax Return; and, therefore,
made no Massachusetts QTIP election.
29. Neither the Estate nor the Estate of Robert
Chuckrow have filed an amended New York Estate
Tax Return, and neither have paid any New York

323a

Estate Tax based upon the death of Robert
Chuckrow.
30. Neither the Estate nor the Estate of Robert
Chuckrow have filed an Estate Tax Return, and
neither have paid any Estate Tax based upon the
death of Robert Chuckrow to any other state, other
than the Estate Tax Return that the Estate of
Robert Chuckrow filed with New York.
31. Neither the Estate nor the Estate of Robert
Chuckrow have filed an Estate Tax Return and
neither have paid any Estate Tax based upon the
death of Adelaide Chuckrow to any other state, other
than the Estate Tax Return that the Estate filed
with Massachusetts.

[The space remaining on the page is left
intentionally blank]
32. All of the assets held in the Trust under Article
Third of the Will of Robert Chuckrow were
intangible personal property.
M. CHRISTINE SHAFFER AS
EXECUTRIX OF THE ESTATE
OF ADELAIDE P. CHUCKROW
By her attorneys
Leo J. Cushing, Esq. (BBO# 110560)

lcushing@cushingdolan.com

Luke C. Bean, Esq. (BBO# 685399)

lbean@cushingdolan.com

Thomas J. McIntyre, Esq. (BBO# 685215)

tmcintyre@cushingdolan.com

Cushing & Dolan P.C.
375 Totten Pond Road, Suite 200
Waltham, MA 02451
(617) 523-1555

324a

MICHAEL J. HEFFERNAN
COMMISSIONER OF THE
DEPARTMENT OF REVENUE
By his attorney,
John J. Connors, Jr. (BBO# 552409)

connors@dor.state.ma.us

Counsel to the Commissioner
Department of Revenue
Litigation Bureau
P.O. Box 9565
100 Cambridge Street, 7th Floor
Boston, MA 02114-9565
(617) 626-3219
Date: 8/26/16
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
Docket No. C327773
M. CHRISTINE SHAFFER
AS EXECUTRIX OF THE
ESTATE OF ADELAIDE P. CHUCKROW
v.
COMMISSIONER OF REVENUE
EXHIBITS FOR STATEMENT
OF AGREED FACTS

325a

THE COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
DOCKET NO. C327773
M. CHRISTINE SHAFFER, AS
EXECUTRIX OF THE ESTATE
OF ADELAIDE P. CHUCKROW,
Appellant
v.

)
)
)
)
)
)
COMMISSIONER OF REVENUE, )
Appellee
)
)

326a

APPENDIX 25

1

327a

328a

APPENDIX 26

2

329a

330a

331a

332a

APPENDIX 27

3

333a

334a

335a

336a

337a

338a

339a

340a

341a

342a

343a

344a

345a

346a

347a

348a

349a

350a

351a

352a

353a

354a

355a

356a

357a

358a

359a

360a

361a

362a

363a

364a

365a

366a

367a

368a

369a

370a

371a

372a

373a

374a

375a

376a

377a

378a

379a

380a

APPENDIX 28

4

381a

382a

383a

384a

385a

386a

387a

388a

389a

390a

391a

392a

393a

APPENDIX 29

5

394a

395a

396a

397a

APPENDIX 30

6

398a

The Commonwealth of Massachusetts
Department of Revenue
Office of Appeals
PO Box 9551
Boston, MA 02114-9551
AMY A. PITTER
COMMISSIONER

DEBRA S. ROKOSZ
DIRECTOR

March 10, 2014
Estate of Adelaide Chuckrow
c/o Christine Shaffer Exec.
10803 Montrose Ave.
P.O. Box 96
Garret Park, MD 20896
RE: Notice of Intention to Assess Estate Tax for the
5/14/12 Taxable Period
Dear Ms. Shaffer:
Christine Shaffer, in her capacity as executrix
of the Estate of Adelaide Chuckrow (the "Taxpayer"),
requested a conference pursuant to G.L. c. 62C,
§26(b) relating to the proposed assessment of estate
tax for the May 14, 2012 tax period (the "Tax
Period"). The conference regarding the referenced
matter was conducted at this Office on February 12,
2014 with the Taxpayer's representatives, Leo
Cushing Esq. and Luke Bean Esq. The sole issue
presented for consideration is whether the assets of
Trust U/W/O Robert Chuckrow which are included in
Adelaide Chuckrow's (the "Decedent") federal gross
estate pursuant to IRC §2044 may be excluded from
the calculation of credit for state death tax and

399a

Massachusetts Estate Tax. For the reasons
discussed below, we determine that the assets of
Trust U/W/O Robert Chuckrow are properly
includible in Decedent's federal gross estate
pursuant to IRC §2044; therefore, they shall be
included in the calculation of the credit for state
death tax which is the Massachusetts estate tax.
BACKGROUND
The Decedent died on August 14, 2011. At the
time of her death the decedent was a resident of
Massachusetts and the beneficiary of the Trust
U/W/O Robert Chuckrow (the Estate of Adelaide P.
Chuckrow "Trust"). The Trust was a Qualified
Terminable Interest Property ("QTIP") as proscribed
by IRC §2056(b)(7), allowing the interest passing to
qualify for a marital deduction upon election of the
Estate of taxpayer. The Trust was created by the
Will of Robert Chuckrow on July 11, 1993 at the
time both the Decedent and Robert Chuckrow were
New York residents. An election was made to treat
the interest in the Trust passing to the Decedent as
qualifying for the marital deduction for federal
estate tax purposes.
The Massachusetts Estate Tax Return ("M706") was timely filed on May 14, 2012 reporting a
total gross estate of $2,382,148.00 and a
Massachusetts Estate Tax of $100,997.00. The
return was selected for audit. A Notice of Intention
to Assess was issued on August 29, 2013 giving
notice of the adjustment to increase the estate by
$13,251,469.00 reflecting the value of the assets held
by the Trust and resulting in $1,809,141.88 of
proposed additional estate tax.
The Taxpayer requested a conference
pursuant to G.L. c. 62C, §26(b) which was held on

400a

February 12, 2014. At the conference the Taxpayer's
representative argued that imposition of the
Massachusetts estate tax on property held by the
Trust was not proper because the trust assets were
not the subject of a Massachusetts QTIP election
upon the death of Robert Chuckrow; therefore, the
assets are not includible in pursuant to G.L. c. 65C,
§1 (f). The representative also argued that the tax
should not be assessed because Robert Chuckrow
was not a Massachusetts resident and the Decedent
did not have transferrable interest that would be
subject to the Massachusetts estate tax under
Massachusetts Law.
DISCUSSION
The Decedent died on August 14, 2011 and as
such the estate is subject to the provisions of G.L.
c. 65C, §2A. This provides in relevant part that the
Massachusetts estate tax is equal to the credit for
state death taxes as computed under IRC §2011 as
in effect on December 31, 2000, less taxes paid or
credits allocable to other jurisdictions, adjustments
not relevant here.
The Massachusetts estate tax is the credit for
state death tax calculated by reference to the federal
taxable estate which is calculated with reference to
federal gross estate. The Trust property is includible
in the Decedent's federal gross estate pursuant to
IRC §2044 therefore Estate of Adelaide P. Chuckrow
value of the property is used on the calculation of the
estate tax due pursuant to I.R.C. §2011 and G.L.
c. 65C, §2A.

401a

DISPOSITION
We are returning this matter to the Audit
Division for assessment consistent with our
determination.
If the Taxpayer continues to disagree with the
proposed adjustments, then after the Taxpayer has
received a Notice of Assessment, the Taxpayer may
file an Application for Abatement with the Customer
Service Bureau. A hearing requested in connection
with an Application for Abatement will only be
granted if the Taxpayer first establishes to the
satisfaction of the Commissioner that a further
hearing is necessary, either due to the availability of
new factual information or new legal precedent not
available to the Taxpayer at the time of the preassessment conference.
This letter may not be relied upon as
precedent in subsequent or other matters. It
represents the application of previously established
Department policy and statutory or case law only to
this particular set of facts of this particular
Taxpayer for the tax period in issue.
Very truly yours,
COMMISSIONER OF REVENUE
By /s/ Leonard R. Spector
Leonard R. Spector, Deputy Director
Barbara K. Savage, Appeals Officer
cc:

Leo Cushing Esq.
Steven Dodd, Chief, Bureau of Desk Audit
#420215

402a

APPENDIX 31

7

403a

404a

405a

406a

407a

APPENDIX 32

8

408a

409a

410a

411a

412a

413a

APPENDIX 33

9

414a

CUSHING & DOLAN, P.C.
ATTORNEYS AT LAW
TOTTEN POND ROAD OFFICE PARK
375 TOTTEN POND ROAD, SUITE 200
WALTHAM, MA 02451
TEL. (617) 523-1555
FAX (617) 523-5653
November 11, 2014
Massachusetts Department of Revenue
Estate Tax Unit
Attention: Julie Clifford
200 Arlington Street, Room 4300
Chelsea, MA 02150
RE: Estate of Adelaide P. Chuckrow
SSN: xxx-xx-7341
Dear Ms. Clifford:
Enclosed please find an Application for
Abatement, Form CA-6, together with a statement
explaining the issues involving the request, as well
as a two-volume binder with relevant supporting
document, in support of the application for
abatement of the tax, penalties assessed on the
above-referenced estate.
Should you have any questions please feel free
to contact me.
Very truly yours,
Luke C. Bean, Esq.
Enclosures
cc:

Christine Shaffer
Amy Chuckrow
Carol Guernsey
Abbe G. Shapiro, Esq.

415a

416a

417a

418a

419a

420a

421a

422a

423a

424a

425a

426a

427a

428a

429a

430a

431a

432a

433a

434a

435a

436a

437a

438a

439a

440a

441a

442a

443a

444a

445a

446a

447a

448a

449a

450a

451a

452a

453a

454a

455a

456a

457a

458a

459a

APPENDIX 34

10

460a

The Commonwealth of Massachusetts
Department of Revenue
Office of Appeals
PO Box 9551
Boston, MA 02114
MARK E. NUNNELLY
COMMISSIONER

DEBRA S. ROKOSZ
DIRECTOR

May 4, 2015
Estate of Adelaide Chuckrow
c/o Christine Shaffer Executrix
10803 Montrose Ave.
P.O. Box 96
Garret Park, MD 20896
RE: Hearing Request Application for Abatement of
Estate Tax for the Estate of Adelaide Chuckrow
Dear Ms. Shaffer,
On November 11, 2014 Christine Shaffer,
Executrix of the Estate of Adelaide Chuckrow (the
"Taxpayer") filed an application for abatement and
requested a hearing pursuant to G.L. c.62C, § 37
relating to the above-referenced matter. The Office of
Appeals is denying the Taxpayer's request for
hearing.
In accordance with to G.L. c. 62C, § 37, a
taxpayer requesting a post-assessment abatement
hearing who previously received a pre-assessment
conference will be granted a hearing only if the
taxpayer first establishes that a further hearing is
necessary, either due to the availability of new
factual information or new legal precedent not

461a

available to the applicant at the time of the preassessment
conference.
The
Commissioner
conducted a pre-assessment conference in connection
with these disputes on February 12, 2014. Your
abatement application raises no new relevant factual
information or new legal precedent that was not
available at the time of the pre-assessment
conference. Thus, there is no basis under the
applicable statutory provisions for conducting a
further hearing at the Office of Appeals on your
abatement application.
The Office of Appeals is closing its case and
returning this matter to the Customer Service
Bureau for its determination on your abatement
requests.
Very truly yours,
COMMISSIONER OF REVENUE
By /s/ Leonard R. Spector
Leonard R. Spector, Deputy Director
Barbara K. Savage, Appeals Officer
cc:

Jean Fairweather, Deputy Chief, Customer
Service Bureau
#455912

Deliveries: 100 Cambridge St., Boston, MA 02114 •
Phone: (617)626-3300 • Fax (617)626-3349
www.mass.gov/dor/appeals

462a

APPENDIX 35

11

463a

464a

465a

[This page is intentionally left blank.]

466a

APPENDIX 36

12

467a

FORM M.E.C.L.
Massachusetts Department of Revenue
Bureau of Desk Audit
Estate Tax Unit
PO Box 7023
Boston, MA 02204
Phone# (617) 887-6930
I- PROBATE COURT COPY

Date: 4/25/2014

LUKE C BEAN, ESQ
375 TOTTEN POND RD STE 200
WALTHAM, MA 02451
ESTATE TAX CLOSING LETTER
THIS IS NOT A BILL
Estate of ADELAIDE P CHUCKROW
Probate Court BERKSHIRE
Social Security No. XXX-XX-7341
Probate Number BE1 1P0655E
Date of Death August 14, 2011
The following is a summary from the Department’s
records of the Massachusetts Estate tax liability for
the taxpayer named above, including the net balance
(if any). This letter is the certificate or “closing
letter” that may be required by the Probate Court
under G.L. c. 65C, s6(b). If there is a balance due,
you will receive a separate Notice of Assessment that
contains payment instructions. The amount shown
due on the Notice of Assessment may include
additional interest or penalty. You should retain a
copy of this letter with the records of the Estate. For
dates of death prior to January 1, 1997, your
468a

attorney may need to file this letter with the probate
court in order to close the probate proceedings, if
any.
Very truly yours,
Commissioner of Revenue
By /s/
Bureau of Desk Audit
Estate Tax Unit
Massachusetts Estate Tax
(including returns, audit
assessments etc.) ........................ $1910138.88
Interest .......................................

142606.35

Penalty........................................

0.00

Total Massachusetts Estate Tax
Liabilities....................................

2052745.23

Less Total Payments ..................

2052745.23

Net Balance ................................ $

0.00

Note: Massachusetts G.L. c. 65C, S6(b) was amended
in 1998 as follows: “For dates of death on or after
January 1, 1997, said certificates shall not be
required”. (Chapter 202, S 32, relating to foreign
executors was similarly amended.)

469a

APPENDIX 37

13

470a

471a

APPENDIX 38

14

472a

I, ROBERT CHUCKROW, residing in
Chappaqua, County of Westchester and State of New
York, being of sound and disposing mind and
memory, do hereby make, publish and declare the
following document as, for and to be my Last will
and Testament, hereby revoking all former Wills and
Codicils heretofore made by me.
FIRST: I direct that all my just debts and
funeral expenses be paid as soon after my death as
may be convenient and practicable.
SECOND: A. I give and bequeath to my wife,
ADELAIDE P. CHUCKROW, if she survives me, all
of my jewelry, clothing, automobiles, if any, books,
pictures and other household furniture and
furnishings and personal effects; and if she
predeceases me, then in equal shares to my
surviving children, in specie, as far as is practicable,
as they shall agree; or, if both my said wife and one
of my children shall predecease me, then the whole
thereof to my surviving child.
B. I give devise and bequeath to my
said wife, ADELAIDE, if she survives me, any
interest I may have at my death in the premises
known as 68 Maple Avenue, Mount Kisco, New York,
together with all buildings and improvements
thereon, rights and easements, appurtenant thereto
and all insurance policies relating thereto.
C. I give, devise and bequeath to my
said wife, ADELAIDE, if she survives me, any
interest in real property used by me as a residence at
the time of my death and in any cooperative or
condominium apartment that I may own and occupy
at the time of my death, wherever located, together
with all buildings and improvements thereon, rights

473a

and easements appurtenant thereto
insurance policies relating thereto.

and

all

THIRD: I give, devise and bequeath to my
Trustees, hereinafter named, an amount equal to the
largest amount which can qualify for the exemption
from the generation-skipping tax by reason of the
allocation available to my estate pursuant to I.R.C.
§2631; provided, however, that my Executors shall
reduce the amount that shall pass pursuant to this
Paragraph THIRD to reflect (a) any exercise of this
allocation during my lifetime and (b) any allocation
by my Executors to other property, whether disposed
of by me during my lifetime or under this Will.
A. My Trustees shall hold, manage,
invest and reinvest the same and the proceeds
thereof, and collect and receive the income thereof
and, after paying all charges incident to the
administration of said trust, shall, if my said wife,
ADELAIDE, survives me, pay to her the income, or
apply the same for her benefit, in quarterly or more
frequent installments.
B. My Trustees may pay to, or apply for
the benefit of, my said wife, so much of the principal,
up to the whole thereof, as my Trustees shall, at any
time and from time to time, in their sole and
absolute discretion, determine.
C. Upon the death of my said wife, or
upon my death if she predeceases me, my Trustees
shall divide the then principal, or such bequest, as
the case may be, into two (2) equal parts in respect of
each of my children, CAROL and AMY, and shall
hold each such part, in separate trust, in respect of
the child for whom such separate trust is created
(hereinafter in this Paragraph THIRD referred to as

474a

"the Beneficiary"), upon the following uses and
purposes:
(1) My Trustees shall pay to, or
apply for the benefit of, any one or more of the
Beneficiary and her issue so much of the income as
my Trustees, in their sole and absolute discretion,
shall determine and any income not so paid or
applied shall be accumulated and added to the
principal, annually.
(2) My Trustees may pay to, or
apply for the benefit of, any one of more of the
Beneficiary and her issue, so much of the principal,
up to the whole thereof, as my Trustees shall, at any
time and from time to time, in their sole and
absolute discretion, determine.
(3) Upon the death of the
Beneficiary, or upon the death of the survivor of my
said wife, ADELAIDE, and me if the Beneficiary is
then deceased, my Trustees shall pay over and
distribute the then principal or such part, as the
case may be, to or among my grandchildren, in equal
shares, per capita; but if any of them are not then
living but leave issue then surviving, the issue of
such deceased grandchild shall take the share, per
stirpes, which such grandchild would have taken
had he or she survived; and if there are no such
grandchildren or issue of grandchildren then
surviving, to my surviving child. Any distributions
made under this Paragraph THIRD (C) (3) shall be
subject to the provisions of Paragraph SIXTH below.
(4) Anything herein to the
contrary notwithstanding, if the Beneficiary·has
attained the age of fifty (50) years and there is no
grandchild of mine or issue thereof then living, then

475a

this trust shall terminate and the then principal
shall be paid over to the Beneficiary.
FOURTH: A. My "residuary estate" is hereby
defined as meaning all the rest, residue and
remainder of my estate, real or personal and mixed,
wheresoever and whatsoever the same may be
(including, but not being limited to, lapsed legacies
or devises or any testamentary provisions herein
contained which cannot be given effect), of which I
may die seized or possessed, or to which I may be in
any way entitled at the time of my death.
B. I direct that all estate, transfer,
succession, legacy, inheritance or other death taxes
or duties, and any interest thereon, which may be
payable upon or with respect to any property
included in my gross estate, under the provisions of
any tax law of the United States or any state thereof,
or any foreign country or subdivision thereof
(including any such taxes or duties on property
taxable in accordance with sections 2044 and 2207A,
but not including transfer taxes imposed by Chapter
13 of the I.R.C. or a corresponding provision of State
law), regardless of whether such property passes
under this Will or otherwise, shall be paid by my
Executors solely out of my residuary estate.
FIFTH: I give, devise and bequeath my
residuary estate to my said wife, ADELAIDE, if she
survives me. If my said wife predeceases me, then I
give, devise and bequeath my residuary estate to my
issue, in equal shares, per stirpes, subject, however,
to the provisions of Paragraph SIXTH next below.
SIXTH: Notwithstanding anything to the
contrary herein contained, if and so often as any and
all property becomes payable or distributable under
this Will to a person who is then under the age of

476a

thirty (30) years, such property shall not vest in such
person, but shall be set apart and held by my
Trustees, hereinafter named, IN TRUST, for the
following uses and purposes:
1. My Trustees shall pay to, or apply for
the benefit of, the person for whom such
property shall be set apart, so much of the
income therefrom as my Trustees in their sole
and absolute discretion, shall determine. Any
income not so paid or applied shall be added to
principal, annually.
2. My Trustees shall pay to, or apply for
the benefit of, such person so much of the
principal, up to the whole thereof, as my
Trustees in their sole and absolute discretion
shall determine.
3. Upon the death of such person prior
to attaining the age of thirty (30) years, my
Trustees shall pay over and distribute the
then trust principal, together with all
accumulated income, to such person's issue,
per stirpes, or, if there be none, to the issue,
per stirpes, of that one of my children from
whom such person is descended or, if there be
none, to my issue, per stirpes.
4. Upon such person attaining the age
of thirty (30) years, my Trustees shall pay
over and distribute to him or her the then
principal of the trust held for his or her
benefit, together with all accumulated income,
and the trust shall thereafter cease and
terminate,
5. Any payments or distributions
pursuant to this Paragraph SIXTH may be

477a

made by my Trustees directly to such person,
or to his custodian, selected by my Trustees,
under the New York Uniform Gifts to Minors
Act (or under the corresponding act of any
other jurisdiction) even if the custodian so
selected be one of my Executors and/or
Trustees, or to his guardian, or to his other
legal representative, if any, or to the person
with whom he resides, or otherwise, as my
Trustees in their sole discretion may
determine, and the receipt in writing of the
person or persons to whom any such payment
or distribution is so made shall be a full and
sufficient discharge therefor.
6. Unless sooner terminated as
heretofore provided, all trusts established
under this Paragraph SIXTH shall terminate
twenty-one (21) years after the death of the
last surviving descendant of mine living on
the date of my death, and the principal of each
share shall thereupon be distributed to the
current income beneficiary.
SEVENTH: The discretions granted my
Trustees herein with respect to the distributions of
income and/or principal are intended to be broad and
absolute. Any and all discretionary determinations
at any time made by my Trustees shall not be open
to question by, and shall be binding and conclusive
upon, each and every person interested in any trust
hereunder, including (without limitation) any one or
more individuals who may be partially or wholly
excluded from all such distributions. I empower my
Trustees, in their discretion, to make such
determinations without regard to other sources of
income or support available to any of such
individuals or to the needs of any of them. Any
478a

discretionary distributions by my Trustees of income
and/or principal may be applied directly for the
benefit of the beneficiary thereof so that a
discretionary distribution may be made, for example,
directly to an educational institution on behalf of the
beneficiary.
EIGHTH: A. I nominate, constitute and
appoint my daughters, CAROL and AMY, to be the
Executrices of, and Trustees under, this, my Last
Will and Testament. I authorize my said daughters,
or the survivor of them, at any time, and from time
to time, to appoint an individual as Trustee
hereunder, to serve jointly with either or both of
them, or to be substituted for either or both of them,
as Trustee. In addition, if either of my said
daughters shall predecease me or, having survived
me,
shall
thereafter
die,
resign,
become
incapacitated or incompetent or, for any reason of
like or unlike nature, shall fail to qualify or cease to
act as such Executrix and/or Trustee, then I
nominate, constitute and appoint, such daughter's
husband (if he is then, or was at her death, married
to such daughter and living with her) as substituted
Executor and/or substituted Trustee in her place and
stead.
B. If at any time the number of my
Executors and/or Trustees and their named
successors acting hereunder shall be reduced to one,
I authorize my surviving Executor and/or Trustee to
designate and appoint an individual as successor
Executor and/or Trustee to serve jointly with said
surviving Executor and/or Trustee upon qualifying
in the manner hereinafter provided.
(2) The appointment of any such
successor Executor and/or Trustee hereinabove

479a

provided for shall be in writing signed by the
Executor
and/or
Trustee
making
it
and
acknowledged as deeds of real estate are required by
laws of the State of New York to be acknowledged
and shall be filed in the court granting probate to
this, my Last Will and Testament. The Executor
and/or Trustee so appointed or designated shall
accept such appointment or designation by joining in
the execution and acknowledgment of the
instrument of appointment. Upon his or her duly
qualifying as required by law, such successor
Executor and/or Trustee shall become an Executor
and/or Trustee hereunder, together with the
surviving Executor and/or Trustee who designated
him, with the same powers, discretions and duties as
if originally appointed by me, including (without
limitation) the power to designate and select a
successor Executor and/or Trustee in the manner
herein set forth as often as the number of my
Executors and/or Trustees from time to time
qualified and acting shall be reduced to one.
C. The exercise of any power, right,
duty, function, privilege or discretion shall be by
majority vote of my at-any-time acting and qualified
Trustees (if more than two be qualified and acting),
and the decision of such majority shall be, for all
purposes, binding upon all persons interested in my
estate and no dissenting Trustee shall be liable by
reason of any action thus resolved upon.
D. To the extent to which such direction
may be lawful, I direct that no bond or other security
be required in any jurisdiction of any Executor or
Trustee under this my Will, whether specifically
named herein or appointed in accordance with
subparagraph B above, for the faithful performance
of her, his or its duties in those behalfs or either of
480a

them; and that no bond or other security be required
in any jurisdiction of an Executor or Trustee for
payment on account of any such fiduciary's
commissions.
E. It is further my wish and will that,
where any power, right, duty, function, privilege or
discretion is conferred, either by law or by any
provision of this my Will, upon my Executors and
Trustees, it be deemed to be conferred upon such of
those as may be from time to time qualified and
acting, with the same force and effect as though it
had been so specifically conferred upon them by a
specific provision to that effect in this my Will.
F. Notwithstanding any other provision
of this, my Last Will and Testament, I specifically
direct that any Trustee who is a beneficiary of the
trust that he or she is administering hereunder shall
not have the right to take part in the determination
by his or her co-Trustee or co-Trustees of the manner
in which he or she shall exercise the following
discretionary powers: (i) to determine whether
principal or income is to be paid over and delivered
to him or her and, if so, the proportion and amount
thereof; and (ii) any other like or unlike power of any
nature whatsoever the possession or exercise of
which would cause all or any portion of the principal
or income of such trust to be taxed to such Trustee or
to be included in such Trustee's taxable estate
pursuant to the applicable provisions of the I.R.C.
NINTH: In the administration of my estate,
and the trusts and powers hereby, or in any codicil
hereto established or created, and with respect to
any lawful accumulation of income authorized
therein, my Executors and Trustees shall, in either
or both capacities, in addition to and not in

481a

limitation of the powers provided by the law of the
State of New York, have the following rights,
powers, privileges and discretions, which may be
exercised, from time to time, as they in their
absolute discretion may deem advisable, without
authorization by any court, and which shall continue
until the completion of the administration of my
estate and the ultimate distribution of the trusts
herein created; and the exercise by them of any such
right, power, privilege or discretion shall be binding
upon and conclusive against all persons interested in
my estate:
A. To grant options, without limitation
of time, for and to sell any real estate or chattels
real, or any interest therein, or to exchange the
same, either at public or private sale, in their
discretion, at such time and upon such terms and
provisions as my Executors and/or Trustees, in the
exercise of their sound judgment, may deem
prudent; and to convey the same by good and
sufficient deeds and other instruments in writing for
such purpose; and to mortgage the same upon such
terms and conditions as my Executors and/or
Trustees may think proper.
B. To continue, in their absolute
discretion, in whole or in part, any business in which
I may be engaged or in which I might have an
interest, whether as owner, partner, stockholder,
creditor, or otherwise (whether of like or unlike
nature), at the time of my decease and to keep
invested in any such business, in whole or in part,
for such length of time as to them may seem proper,
any portion of my estate which may be invested
therein at the time of my decease, if agreeable to my
partners and/or associates, and/or to invest an
additional portion of my estate therein, as creditor,
482a

owner, stockholder or partner or otherwise, for such
period and upon such terms as to my Executors
and/or Trustees may seem proper, or in their
discretion, to exchange and transfer my interest, in
whole or in part, in any such business for·shares of
stock or bonds, or both of a corporation which may
then exist or be thereafter formed with the consent
of my Executors and/or Trustees, for the more
convenient conduct of such business, and to dispose
of such stock or bonds in whole or in part, or to
retain the same, and to use and employ the proceeds
thereof in their discretion in carrying out the
provisions of this, my Will, and/or in their discretion
to sell and dispose of such business or my interest
therein, in whole or in part, either at public or
private sale, upon such terms as in their judgment
shall be most beneficial to my estate.
C. In any case in which my Executors
and/or Trustees are required by this Will to make a
division of property into parts or shares, or to satisfy
any pecuniary legacy, I authorize them in their
discretion to make such division or distribution in
kind, or partly in kind and partly in money. In
making the division or distribution as among
separate legatees, devisees or separate trusts, my
Executors and/or Trustees may, in their discretion
allocate, as among the separate legatees, devisees
and/or separate trusts, property like in kind to, or
different from, the property allocated to any other
legatee, devisee or trust.
D. At the risk of the fund administered,
and without responsibility to my Executors and/or
Trustees, to continue to hold any stocks, bonds or
other securities, mortgages, notes or real estate, in
which any portion of such fund may be invested at
the time of my decease for such length of time as to
483a

my Executors and/or Trustees may seem proper,
and, in their discretion, to employ the same or any
part thereof in the erection, maintenance and
continuance of any trusts herein provided as the
whole or any portion of the principal thereof, and/or
to sell the same in their discretion from time to time,
and/or to invest and reinvest the proceeds and the
principal of any trusts hereinbefore created.
E. To retain, employ, and discharge
attorneys, accountants, investment, management or
real estate agents and advisors, custodians, clerks,
bookkeepers and such other persons as they may
from time to time select; to determine and pay from
my estate the fees, salaries, charges and
disbursements of such employees; all without in any
wise diminishing the commissions or other
compensation to which my Executors or Trustees or
their counsel are entitled.
F. Upon such terms as they may deem
advisable, and without personal liability for the
same, to borrow money, whether to pay inheritance,
estate, or other taxes, to make subscriptions,
exercise options, pay assessments, or to accomplish
any other purpose of any nature and in connection
with any loan, to pledge, mortgage or create liens or
charges upon any portion thereof.
G. To lend any part of my estate (or to
extend the time of payment of any indebtedness
owed to me at the time of my death), with or without
security, in any amount, upon any terms and
conditions, at any reasonable rate of interest, for any
period or periods of time, even if for longer than the
probable duration of the administration of my estate
or of any trust holding the same, and to any person,
firm or corporation.

484a

H. Whenever required or permitted to
divide securities or other property into parts, shares
or portions to be held pursuant to a trust or power,
to hold the same, in whole or in part, in one or more
consolidated funds in which such separate trusts or
powers shall have undivided interests.
I. To determine, from time to time, by a
written authorization and consent signed by all of
them whether one of them singly or any of them,
shall have the power (1) to sign checks on and to
make withdrawals from any bank account
maintained by them in any bank or trust company
(2) to have access to and control of any safe deposit
box maintained by them in any safe deposit
company, and (3) to make deposits of cash, securities
and other property in, and withdrawals from, any
custody account maintained by them in any bank or
trust company or in any account maintained by them
with any broker or dealer whose customers are
protected by the insurance and other provisions of
the Securities Investor Protection Act of 1970, as
amended.
J. If my Executors shall, in their
discretion, elect or fail to elect (i) to qualify assets for
the marital deduction under Section 2056(h)(7) of
the Internal Revenue Code, or under any similar
provision in effect at the time of my death, so as to
increase the total estate taxes payable at my death
and/or at the termination of any trust hereunder, or
(ii) to treat certain expenses of administration,
funeral expenses, claims and/or any other items of
expense as deductions on the income tax returns of
my estate (or on my final income tax return) rather
than as deductions on the estate tax returns of my
estate, I direct that any such election or failure to
elect shall not give rise to any credit or allowance to,
485a

or for the benefit of, any residuary legatee or
remainderman (any rule of law to the contrary
notwithstanding), except to the extent that my
Executors, in their sole discretion, may determine.
K. Whenever, pursuant to any provision
of this, my last will and testament, my Executors or
Trustees shall be directed or permitted to pay a
legacy to a minor or to pay to income or principal of a
trust hereunder to, or for the benefit of any minor,
my Executors or Trustees may, and shall be
authorized to pay any such legacy, income or
principal to such minor's custodian, selected by my
Executors or Trustees under the New York Uniform
Gifts to Minors Act (or under the corresponding act
of any other jurisdiction) even if the custodian so
selected be one of my Executors and/or Trustees, or
to a parent or guardian, or the person with whom
such minor resides, without obligation by my
Executors or Trustees to look to the proper
application or use of any payments so made, or my
Executors or Trustees may expend such sums in
such manner in their discretion as they believe will
benefit such minor and may also pay to the minor
directly such sums as my Executors or Trustees
approve as an allowance.
TENTH: As provided in Section 315(5) of the
New York surrogate's Court Procedure Act (or the
comparable provision in effect from time to time),
when a party to a judicial proceeding relating to my
estate or the trusts hereunder has the same interest
as a person under a disability, it shall not be
necessary to serve the person under a disability.
ELEVENTH: A. In the event that my wife,
ADELAIDE, and I should die under circumstances
such that there is no sufficient evidence to determine

486a

who predeceased the other, it shall be presumed that
my said wife survived me and I direct that this, my
Will, shall in all respects be construed as though, in
truth and in fact, she survived me.
B. If any person herein named (other
than my said wife) and I shall die together or under
such circumstances as to render it difficult readily to
determine which of us survived the other, I direct
that I shall be deemed to have survived such person
and my Will shall be so construed.
TWELFTH: A. Wherever a pronoun in the
third person is used in this, my Will, it shall be read
in the appropriate number and gender. The
masculine, feminine and neuter shall be deemed
mutually to include each of the others. Wherever the
words
"Executrix",
"Executrices",
"Executor",
"Executors", "Trustee'' or "Trustees" are used in this,
my Will, they shall be read in the appropriate
number and shall be deemed to include and mean
any and all of my original, substituted and/or
successor Executor(s) and Trustee(s) as the context
of my Will may require under the circumstances.
B. The word "issue", as used in this, my
Will, shall mean lawful issue and shall include
persons lawfully adopted prior to attaining the age of
fourteen (14) years by any of my lawful issue, and
the lawful issue of such adopted person.
C. Any reference hereinto "I.R.C. " or to
the "Internal Revenue Code" shall mean the Internal
Revenue Code of 1986 as it shall have been amended
as at the date of my death; and any reference to a
particular "§", "Section" or "Sections" of the I.R.C.
shall mean that section, or any successor section, in
effect at my death.

487a

IN
WITNESS
WHEREOF,
I,
ROBERT
CHUCKROW, have hereunto set my hand and seal
to this, my Last Will and Testament, on the 1st day
of March, 1993.
/s/ Robert Chuckrow [L.S.]
Robert Chuckrow
The foregoing instrument was on the date hereof
subscribed by ROBERT CHUCKROW, the Testator
named in the foregoing Will, in the presence of us
and each of us, and at the time of making such
subscription the foregoing instrument was declared
by the above Testator to be his Last Will and
Testament, and each of us, at the request of said
Testator, and in his presence, and in the presence of
each other, have hereunto signed our names as
witnesses to said Will on the 1st day of March, 1993.
/s/ Frank H. Klein residing at 134 Acquaduct Drive,
Scarsdale, NY 10583
/s/ Brian J. McCarthy residing at 34 Maschester Dr.,
Mt. Kisco, NY 10549

488a

STATE OF NEW YORK )
) ss.:
COUNTY OF
)
AFFIDAVIT OF SUBSCRIBING
WITNESSES PURSUANT TO SCPA
406 MADE AT REQUEST OF
TESTATOR
In the City, County and State of New York, on
the 1st day of March, 1993, personally appeared the
within named Frank H. Klein, and Brian J.
McCarthy who being duly sworn, depose and say,
and each for himself and herself deposes and says,
that on the 1st day of March, 1993, they witnessed
the execution of the within Will of the within named
Testator, ROBERT CHUCKROW, at 225 Millwood
Road, Chappaqua, New York 10514, which was
executed under the supervision of FRANK H.
KLEIN, an attorney with offices at 230 Park Avenue,
in the City, County and State of New York; that said
ROBERT CHUCKROW subscribed said Will and, in
their sight and presence, published and declared the
same to be his Last Will and Testament, stated that
he had read it, that it had been prepared in
accordance with his instructions, and correctly set
forth his testamentary desires; and at the request of
said ROBERT CHUCKROW they thereafter
subscribed said Will as witnesses in the sight and
presence of said Testator and in the sight and
presence of each other on that said date; that said
Testator at the time of the execution of said Will was
over the age of 18 years and, in their respective
opinions, under no restraint, competent to make a
Will and of sound mind, memory and understanding
and could read, write and converse in the English

489a

language and was suffering from no defect of sight,
hearing or speech, or from any other physical or
mental impairment which would affect the Testator's
capacity to make a Will; that the Will was executed
as a single, original instrument and not in
counterparts; and that they make this affidavit at
the request of said Testator.
/s/ Frank H. Klein
/s/ Brian J. McCarthy
Subscribed and sworn to
before me this 1st day
of March, 1993
/s/
Notary Public

490a

APPENDIX 39

15

491a

492a

493a

494a

495a

496a

497a

498a

499a

500a

501a

502a

503a

504a

505a

506a

507a

508a

509a

510a

511a

512a

513a

514a

515a

516a

517a

518a

519a

520a

521a

522a

523a

524a

525a

526a

527a

528a

529a

530a

531a

532a

533a

534a

535a

536a

537a

538a

539a

540a

541a

542a

543a

544a

545a

546a

APPENDIX 40
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
Docket No. 327773
M. CHRJSTINE SHAFFER,
as Executrix of the Estate
of Adelaide P. Chuckrow,

Appellant,
v.
COMMISSIONER OF REVENUE,

Appellee.
APPELLANT'S BRIEF
I. Introduction
The question is whether the Commonwealth
may impose an estate tax on the surviving spouse
based on the transfer of property into a New York
testamentary trust by reason of a New York
resident's death, where the only plausible connection
to Massachusetts is that the surviving spouse-an
income beneficiary under the trust-moved to
Massachusetts after her husband's death. As a
matter of constitutional law and statutory
interpretation, the answer must be no.
Robert Chuckrow's executrix made a federal
QTIP election on the value of property that funded a
testamentary trust. Because Robert Chuckrow was a
resident of New York with no Massachusetts real or
tangible personal property, his executrix did not file
a Massachusetts estate tax return (as none was
required), and thus did not make a Massachusetts

547a

QTIP election. His wife Adelaide moved to
Massachusetts and died there August 14, 2011. Now,
Massachusetts attempts to collect a tax on the value
of federally elected QTIP property. This assertion is
incorrect.
First, the attempt to collect this tax is
unconstitutional under the Fourteenth Amendment.
The estate tax is a tax on the privilege of
transferring property at death, rather than a tax on
the property itself. Knowlton v. Moore, 178 U.S. 41
(1900). The taxing authority may tax only the
transfer of the assets. In this case, there was no
transfer by Adelaide; The only transfer took place
when Robert died, at which time the estate tax
would have been imposed but for the marital
deduction.
Federal law provides for an unlimited marital
deduction, meaning that all property transferred
from the decedent spouse to the surviving spouse
passes tax free-it is expected that the tax will be
collected on the second spouse's death. As a general
rule, terminable interest property (property which
the surviving spouse's interest terminates at her
death) does not qualify for a marital deduction. But
the code creates a statutory exception for qualified
terminable interest property. To qualify, a
terminable interest must meet three conditions:
(1)

the surviving spouse must receive all
income from the property for life,
payable at least annually;

(2)

No person can have a power to appoint
any part of the property to any person
other than the surviving spouse; and

548a

(3)

A QTIP election must be made by the
executor of the deceased spouse's
estate, and this election is irrevocable
once made.

The quid pro quo is that the QTIP election
merely delays collection of the tax, because there is
no separately taxable transfer at the second spouse's
death. To ensure the tax is eventually collected, the
code creates a fictional second transfer, from
surviving spouse to beneficiaries. See I.R.C. § 2044.
This transfer is just that—fictional; the only true
transfer occurs on the first-to-die spouse's death. See
In re Estate of Bracken, 175 Wash. 2d 549 (2012).
And because estate tax may only be collected on a
transfer, Massachusetts cannot constitutionally tax
this New York transfer.
Second, the attempt to collect this tax runs
afoul of the statutory definition of Massachusetts
gross estate. Determining Massachusetts gross
estate begins with the federal gross estate, but it
does not end with it. Indeed, the last sentence of G.L.
c. 65C, § 1(f) provides, in relevant part, that "[t]he
Massachusetts gross estate shall not include the
value of any property in which the decedent had a
qualifying income interest for life which is not
otherwise includible in the Massachusetts gross
estate under the first sentence of this paragraph."
Although the first sentence of § 1(f) references the
federal gross estate, that portion of the last sentence
seeks to include only property for which a
Massachusetts QTIP election was made. If it
referred back to the federal estate, it would render
this last sentence inoperable, in violation of a
fundamental tenet of statutory construction.
Further, the last sentence serves to prevent
unnecessary double taxation of assets that would
549a

have been already been taxed on the first spouse's
death. This provision was necessary because
Massachusetts maintained a 50% marital deduction,
even after federal law moved to an unlimitedmeaning that executors would regularly make
federal QTIP elections in excess of the state QTIP
election.
II. Facts
Robert Chuckrow and Adelaide Chuckrow, a
married couple, lived in and were residents of
Chappaqua, New York. Statement of Agreed Facts
¶¶ 17-18 (hereinafter, SAF ¶__ "). Robert died on
July 11, 1993, while the couple was living in New
York, leaving a Last Will and Testament. Article
Third of Robert's Will established a trust that would
qualify for a Qualified Terminable Interest Property
Trust election under I.RC. § 2056(b)(7). SAF ¶¶ 1819. The executrix filed a Form 706, United States
Estate (and Generation Skipping Transfer) Tax
Return. SAF ¶ 20.
The federal estate tax return contained the
following information about Robert's estate:
-

Robert's total federal gross estate was
$1,996,043.24.

-

A total marital deduction of $ 1,436,025.39
was taken.

-

Of that amount, $591,924.12 passed outright
to Adelaide, as a surviving spouse.

-

The remaining $844,101.27 passed into the
Trust established by Article Third of Robert's
Will, which is now known as the "Trust u/w/o
Robert Chuckrow." Pursuant to I.R.C.
§ 2056(b)(7), the co-executrix elected to have
the Trust treated as a qualified terminable
550a

interest property trust for federal estate tax
purposes. This $844,101.27 thus qualified for
the federal estate tax marital deduction.
See SAF ¶ 23; Exhibits 15-16. Because Robert
Chuckrow was a resident of New York and owned no
real or tangible property in Massachusetts, his
estate did not file a Massachusetts estate tax return.
SAF ¶¶ 27-28.
At some point in time after Robert's death,
Adelaide moved to Massachusetts to be cared for by
her daughter. SAF ¶ 1. She died while living in
Williamstown, Massachusetts on August 14, 2011.
SAF ¶ 1. Adelaide's niece, the executrix of her estate,
filed a Fann 706, United States Estate (and
Generation Skipping Transfer) Tax Return and a
Form M-706, Massachusetts Estate Tax Return. SAF
¶ 12.
Adelaide's federal estate, as reflected on Form
706, was as follows:
-

Adelaide's total federal gross estate was
$15,633,617.

-

Of that amount, $13,251,469 consisted of
assets held by the Trust u/w/o Robert
Chuckrow,
which was includible in
Adelaide's federal gross estate under I.R.C.
§ 2044, by virtue of the I.R.C. § 2056(b)(7)
election made for the Trust at Robert's
death.

SAF ¶ 14; Exhibit 3. Accordingly, Adelaide's estate
paid $5,225,419 in federal estate taxes. Exhibit 3.
Meanwhile, on Form M-706, the executrix
reported a Massachusetts gross estate of $2,382,148
(representing the difference between Adelaide's
federal gross estate and the amount attributable to
551a

the QTIP trust property). SAF ¶¶ 13, 15. Adelaide's
estate paid $100,997 in Massachusetts estate taxes.
SAF ¶ 2.
Adelaide's estate was selected for audit. SAF
¶ 3. On August 29, 2013, the Department of Revenue
issued a Notice of Intention to Assess, determining
that the Massachusetts gross estate should have
included the assets of the Trust u/w/o Robert
Chuckrow, and thus asserting that the estate owed
additional taxes in the amount of $1,809,141.88.
SAF ¶ 3. Disagreeing with the intended assessment,
Adelaide's estate requested a conference pursuant to
G.L. c. 62C, § 26(b), which was held on February 12,
2014. SAF ¶ 4. The Department of Revenue issued
its decision letter on March 10, 2014, denying the
estate's requested relief and returning the matter to
the audit division for assessment. Exhibit 4.
On March 18, 2014, Adelaide's estate received
a Notice of Assessment for $1,953,032, representing
the additional tax of $1,809,141.88 plus accrued
interest thereon. SAF ¶ 5. The estate paid the
assessed tax on April 11, 2014, and noted that an
application for abatement would be forthcoming.
SAF ¶ 6.
III. Background of the federal and Massachusetts
estate tax and marital deduction
A. History of the federal estate tax
Prior to the current estate tax system,
Congress imposed temporary death taxes to raise
revenue during or after times of war. The first three
iterations (in 1797, 1862, and 1898) were temporary
revenue raisers, and were repealed after their need
dissipated. The War Revenue Act of 1898 led to the
Supreme Court case of Knowlton v. Moore, 178 U.S.

552a

41 (1900), holding that death taxes were
constitutional and that Congress may properly tax
the transfer of property, but not the value of
property.
The estate tax as we know it came into
existence in 1916, again to fund a war. See Revenue
Act of 1916, ch. 463, 39 Stat. 756. This time,
however, the estate tax was not repealed. Until
World War II, the federal estate tax treated citizens
of common-law states differently from those in
community-property states, such that citizens of
community-property states paid significantly less in
estate taxes due to the form of ownership.
To reconcile this difference, Congress
introduced the marital deduction in 1948, thus
equalizing tax benefits in common-law and
community-property states. See Revenue Act of
1948, Pub. L. No. 80-4 71, 62 Stat. 110. Under the
1948 legislation, the decedent spouse would receive a
deduction for one-half of the property that passed to
the surviving spouse. Id. § 361. Notably, the 1948
legislation
disqualified
"terminable
interest"
property from the marital deduction, out of fear that
estate tax might be avoided on the death of the
surviving spouse.1 Id. In 1976, Congress increased
the maximum allowable marital deduction to the
greater of $250,000 or one-half of the decedent's
adjusted gross estate. See Tax Reform Act of 1976,
Pub. L. No. 94-455, 90 Stat. 1520, § 2002.

A "terminable interest" is an interest in property that
terminates upon "the lapse of time, on the occurrence of an
event or contingency, or on the failure of an event or
contingency to occur." I.R.C. § 2056(b)(]). See also Black's Law
Dictionary 886 (9th ed. 2009).
1

553a

Significant changes to the marital deduction
(and estate taxes generally) came in 1981, under the
Economic Recovery Tax Act. See Pub. L. No. 97-34,
95 Stat. 172. First, the marital deduction was made
unlimited. Id. § 403. Second, the marital deduction
was expanded to allow for certain terminable
interests to be eligible for a marital deduction-known
as qualified terminable interests. Id. For a
terminable interest that passes from the decedent
spouse to the surviving spouse to be considered a
qualified terminable interest three conditions must
be met:
(1)

The surviving spouse must receive all
income from the property for life,
payable at least annually;

(2)

No person can have a power to appoint
any part of the property to any person
other than the surviving spouse; and

(3)

A QTIP election must be made by the
executor of the deceased spouse's
estate, and this election is irrevocable
once made.

See I.R.C. § 2056(b)(7). The tradeoff is that property
for which a QTIP election was made under
§ 2056(b)(7) is includible in the surviving spouse's
federal gross estate. See I.R.C. § 2044.
Hence the QTIP trust was born. The QTIP
trust, has two major advantages, one practical and
one tax-related. The practical advantage is that the
first-to-die spouse controls the ultimate disposition
of the property upon his spouse's death. The tax
advantage is that the surviving spouse can delay
paying estate taxes until her death. And further,
with proper planning, married couples can maximize

554a

both of their federal exemption to minimize estate
taxes paid on family assets.
B. History of the Massachusetts estate tax
Massachusetts enacted its first death tax in
1926, which took advantage of the state death tax
credit under federal estate tax law—otherwise
known as a "sponge tax." St. 1926, c. 355
(establishing estate tax). This tax was suspended
(though never repealed) when the legislature
enacted a stand-alone Massachusetts estate tax. St.
1975, c. 684, § 74 (creating G.L. c. 65C). Under the
stand-alone estate tax, there was no unlimited
marital deduction, because federal law did not yet
have an unlimited deduction. Nor was there a
provision for QTIP, because QTIP property was
(again) not yet in existence under federal law.
Rather, Massachusetts followed federal law by
providing for a 50% marital deduction.
Massachusetts, mirroring the federal changes
of 1981, added a QTIP section to its estate tax
regime in 1985. St. 1985, c. 711, § 12 (inserting G.L.
c. 65C, § 3A). The Massachusetts QTIP statute
provided definitions nearly identical to those in
I.R.C. § 2056(b)(7). But the Massachusetts QTIP
required a state-level election that was "separate
from and independent of the federal QTIP election.
G.L. c. 65C, § 3A. Despite mirroring the federal
statute, Massachusetts did not permit an unlimited
state marital deduction until July 1, 1994. See St.
1992, C. 133, §§ 422, 597.2
There have been two subsequent amendments to the
Massachusetts estate tax: St. 1992, c. 133, § 422, and St. 1994,
c. 342, § 4. Both became effective for decedent's dying after July
1, 1994, so these amendments were inapplicable at the time of
Robert's death in 1993.
2

555a

The stand-alone Massachusetts estate tax was
phased out beginning in 1993, when the legislature
enacted G.L. c. 65C, § 2A, which (for decedents dying
after January 1, 1997) imposed a tax equal to the
state death tax credit under federal law. This was a
second sponge tax that was in effect for decedents
dying between 1997 and 2003.
In 2001, Congress began a decade-long phase
out of the federal estate tax, including an
elimination of the state estate tax credit. See
Economic Growth and Tax Relief Reconciliation Act
of 2001, Pub. L. No. 107-16, 115 Stat. 38
("EGTRRA").
Responding
to
EGTRRA,
the
Massachusetts
legislature
decoupled
the
Massachusetts estate tax from the federal estate tax.
See St. 2002, c. 186, § 28. See also St. 2002, c. 364,
§ 10. Thus, for those dying after January 1, 2003, the
amount of the Massachusetts estate tax is computed
by determining what would have been the federal
credit for state estate tax on December 31, 2000.
When determining Massachusetts estate tax
liability, it is therefore still necessary to fill out the
1999 version of federal Form 706.
The Massachusetts estate tax from the 1980s
forward was patchwork reaction to federal laws that
has led to much confusion, even for seasoned
practitioners.
-

From 1981 to December 31, 1985, federal law
provided for an unlimited marital deduction
and a QTJP election. Massachusetts
permitted a 50% marital deduction, but had
no provision for QTIP elections.

-

From 1986 to June 30, 1994, federal law
provided for an unlimited marital deduction
and a QTIP election. Massachusetts added a

556a

provision for QTIP elections, but still limited
the state marital deduction to 50%.3
- From July 1, 1994 to December 31, 1996,
federal law maintained the unlimited marital
deduction and QTIP elections. Massachusetts finally
provided the same.
- From 1997 to December 31, 2002, federal law
provided for an unlimited marital deduction and
QTIP elections. Massachusetts provided the same,
but altered its estate tax regime to a sponge tax.
- From January 1, 2003 to the present, the
Massachusetts estate tax is calculated based on the
state estate tax credit that would have applied under
the 2000 Internal Revenue Code.
The above documents differences in federal and
Massachusetts law with regard to the marital
deduction and QTIP elections. But this does not even
take into account the differences between federal
and Massachusetts law regarding the estate tax
exemptions. Because the exemption amounts were
different, the executor would, to minimize estate tax
liability, have to make a federal QTIP election on a
different amount than the state QTIP election. This
chart attempts to visualize the differences:

3

Robert Chuckrow died on July 11, 1993.

557a

CHART45a

Through 1985, Massachusetts had an exemption of $30,000 for
all Massachusetts decedents. But if the Massachusetts net
estate was $60,000 or less, then the exemption would be equal
to that amount, thus eliminating Massachusetts estate tax.
5 Beginning in 1986, the Massachusetts exemption was not
applicable to every decedent. In the event that a Massachusetts
decedent had a net estate equal to or lower than this threshold
amount, then the decedent is entitled to an estate tax
exemption equal to the amount of his net estate, thus
eliminating any state estate tax. If the decedent has a net
estate worth just $1 more than the threshold amount, then the
estate must pay an estate tax on the entire estate.
6 The unlimited marital deduction went into effect for
decedents dying after .July 1, 1994.
4

558a

CHART456

4Through

1985, Massachusetts had an exemption of $30,000 for
all Massachusetts decedents. But if the Massachusetts net
estate was $60,000 or less, then the exemption would be equal
to that amount, thus eliminating Massachusetts estate tax.
5 Beginning in 1986, the Massachusetts exemption was not
applicable to every decedent. In the event that a Massachusetts
decedent had a net estate equal to or lower than this threshold
amount, then the decedent is entitled to an estate tax
exemption equal to the amount of his net estate, thus
eliminating any state estate tax. If the decedent has a net
estate worth just $1 more than the threshold amount, then the
estate must pay an estate tax on the entire estate.
6 The unlimited marital deduction went into effect for
decedents dying after .July l, 1994.

558a

IV. Argument
A. The taxable transfer of QTIP occurs at the
death of the first spouse, and because Robert
Chuckrow died in New York, there is no
constitutional basis for Massachusetts to impose
a tax.
1. The estate tax does not (and
constitutionally cannot) tax the value
property, but rather taxes the transfer of
property.
The United States constitution forbids direct
taxes unless they are apportioned among the states.
U.S. Const. Art. I, § 9, cl. 4. In Knowlton v. Moore,
178 U.S. 41 (1900), the estate tax was challenged as
a direct tax that was not properly apportioned. The
Supreme Court rejected this argument, holding that
the estate tax (and taxes of that general character)
are not taxes on the property or the value of the
property itself, but on the privilege of transferring
the property at death: "[D]eath is the generating
source from which the particular taxing power takes
its being, and that it is the power to transmit, or the
transmission from the dead to the living, on which
such taxes are more immediately rested." Id. at 56.
Accordingly, estate taxes at the state and
federal level are imposed not on the value of
property, but on the transfer of the taxable estate
from the decedent to the beneficiaries. See I.R.C.
§ 2001(a) ("A tax is hereby imposed on the transfer of
the taxable estate . . . ."); 830 Code Mass. Regs.
§ 65C1.1 ("The Massachusetts estate tax is a

559a

transfer tax imposed on the value of all property in
the estate of a decedent at the date of death.").7
2. The marital deduction is unlike other tax
deductions because it merely delays the
collection of tax.
The marital deduction is unlike other tax
deductions. The typical tax deduction is given to
offset expenses or costs that are incurred by the
taxpayer, thus permanently eliminating the basis for
taxation. The marital deduction, on the other hand,
is not an elimination of taxation; it is a deferral or
postponement of a tax that would otherwise be
imposed on the first-to-die spouse. That is, if the
entire taxable estate of the first-to-die spouse is
transferred to the second-to-die, there will be no
estate tax due from the estate of first-to-die spouse
because of the unlimited marital deduction. But the
taxing authority will eventually be able to tax that
transferred property when the surviving spouse dies.
See I.R.C. § 2044.
An example: H and W are married in a
jurisdiction with an unlimited marital deduction and
no estate tax exemption. H has $2 million in assets,
and W has $0. When H dies, he can transfer the
entire $2 million to W without incurring any estate
.tax liability, because of the unlimited marital
deduction. If W dies a year later, the taxing
authority will then be able to assess a tax on W's $2
million when it is transferred to her beneficiaries.
This is colorfully illustrated by Treasury Regulation 20.20331: "[A] cemetery lot owned by the decedent is part of his gross
estate, but its value is limited to the salable value of that part
of the lot which is not designed for the interment of the
decedent and members of his family." This is so because the
occupied portion of the burial lot is not transferrable to anyone
else by the decedent's beneficiaries
7

560a

The taxing authority merely had to delay
enforcement of the tax on the $2 million, though it is
the same $2 million that was originally owned by H.
Of course, in this situation there are two transfers:
one from H to W, and another from W to the
beneficiaries.
Contrast the above with a hypothetical where
H's executor makes a QTIP election using a trust
identical to the Trust u/w/o Robert Chuckrow. H has
$2 million; W has $0. When H dies, his entire $2
million is transferred into the trust. His executor
makes a QTIP election (which qualifies for the
marital deduction), so no estate tax is due on H's
death. W does not receive any of the $2 million. She
still has $0, but she receives all income from the
trust, payable annually. When W dies, her estate
owes estate taxes on the $2 million, but only by
virtue of I.R.C. § 2044, and not § 2031.8 The trust
remains in existence; only an income beneficiary has
been removed by death. In this situation, however,
there was only one transfer-the transfer from H into
the trust. (This is explored more fully below.) W
never had any dominion or control over the property;
nor could she change its ultimate disposition. The
trust's terms controlled. So W never had the money,
but her estate is taxed under I.R.C. § 2044.

I.R.C. § 2031 defines gross estate to include, at the decedent's
death, "all property, real or personal, tangible or intangible,
wherever situated"-in other words, all assets the decedent
owns. I.R.C. § 2044, on the other hand, adds to the gross estate
the value of any property "in which the decedent had a
qualifying income interest for life." Section 2044 creates a
fictional transfer of property from the surviving spouse to the
ultimate beneficiaries of a QTIP trust.
8

561a

3. QTIP trust assets are transferred only
once, at the death of the first-to-die spouse,
so there is no basis for Massachusetts to tax
that transfer.
The estate tax is a tax on the transfer of
property at death. When the property transferred is
qualified terminable interest property, there is only
one transfer-and that transfer occurs on the death of
the first-to-die spouse. There is no transfer when the
surviving spouse later dies.
a. A background of QTIP trusts.
QTIP trusts are commonly used in modern
estate planning to minimize estate taxes for families
while preserving assets for the benefit of a surviving
spouse during her lifetime. QTIP trusts are an
exception to the general IRS rule that terminable
interest property cannot qualify for the marital
deduction. Thus, if properly established, QTIP trusts
qualify for the marital deduction.
Typically, property passing from the decedent
spouse to the surviving spouse qualifies for the
unlimited federal marital deduction. I.R.C. § 2056(a).
There are some limitations. One is that no marital
deduction can be taken for terminable interest
property. I.R.C. § 2056(b). But if the terminable
interest property is qualified terminable interest
property (QTIP), it will qualify for the marital
deduction. And so the applicable estate tax is
deferred until the surviving spouse's death. I.R.C.
§ 2056(b)(7).
Qualified terminable interest property is
defined as property "(I) which passes from the
decedent, (II) in which the surviving spouse has a
qualifying income interest for life, and (III) to which

562a

an election under this paragraph applies." I.R.C.
§ 2056(b)(7)(B)(i). And the surviving spouse has a
qualifying income interest for life if "(I) the surviving
spouse is entitled to all income from the property,
payable annually or at more frequent intervals, or
has a usufruct interest for life in the property, and
(II) no person has a power to appoint any part of the
property to any person other than the surviving
spouse." I.R.C. § 2056(b)(7)(B)(ii).
The ordinary federal estate plan for a
decedent who plans to use a QTIP trust proceeds in
this manner. Before his death, the decedent sets up
a plan to use two trusts. Upon death, an amount
equal to the federal exemption passes into a Credit
Shelter Trust, thus utilizing the decedent's federal
estate tax exemption. And the balance of the
decedent's estate funds a Marital Trust, which would
be eligible for a QTIP election.
The Marital Trust is purposefully structured
so as to preserve the marital deduction. First, the
surviving spouse must be paid income from the trust
at least annually. Second, no person may have the
power to appoint any portion of the trust property to
anyone other than the surviving spouse. And third,
the language of the trust will allow for a QTIP
election to be made by the decedent spouse's
executor, and this election is irrevocable. See I.R.C.
§ 2056(b)(7).
b. The taxable transfer of the Trust
occurs at the death of the first-to-die
spouse, not the second-to-die spouse.
When Robert Chuckrow died, the executrix of
his estate made an irrevocable federal QTIP election
on a timely filed Form 706 for the Trust assets.
Under the terms of the Trust, Adelaide had no

563a

general power of appointment over the Trust
property, and she was unable to exercise any
dominion or control over the Trust property. Her
interest in the Trust was limited to her right to
receive income distributions from the Trust, and
principal distributions in the trustee's sole and
absolute discretion.
The best way to conceptualize the estate tax
liability of QTIP is as a taxable transfer on the death
of the first spouse, but a deferment on the collection
of those taxes until the second spouse dies. This
comports with general theories of both property law
and federal tax law.
First, as a matter of general property law, the
transfer of trust property is completed when the
Donor puts the property into an irrevocable trust.
See In re Estate of Bracken, 175 Wash. 2d 549, 566
(2012), citing Coolidge v. Long, 282 U.S. 582, 605
(1931). The Donor establishes the trust terms,
nominates a trustee, and dictates the ultimate
disposition of the property by listing the
beneficiaries. Once the property is transferred into
an irrevocable trust (assuming the Donor retains no
interest in the trust), the Donor relinquishes all
rights to dominion or control over the property. This
is why a gift tax return is required when a Donor
creates an irrevocable trust in which he is neither
the trustee nor beneficiary.
The Trust established by Robert's will was no
different. Robert, through his executrix, made the
irrevocable election to treat the property transferred
into the Trust as QTIP property. See I.R.C.
§ 2056(b)(7)(v). None of this property was ever
transferred to Adelaide, and she had no authority or
power to alter the Trust's terms, to control its

564a

principal, to change its beneficiaries, or to alter the
principal's ultimate disposition.9
In short, Robert controlled the ultimate
disposition of his property by setting the terms of the
trust, and it was his death that constituted the
transferring event that the federal government (or
any state government, for that matter) could
constitutionally tax. Adelaide had no control or
dominion over the property that was in the Trust.
She could not remove it, add to it, or otherwise
manipulate it. When Adelaide died, there was no
further transfer of the Trust property. Rather, the
property remained (and still remains) held in the
same Trust for the benefit of the class selected by
Robert per the terms of the Trust. Adelaide's death
merely changed the class of beneficiaries eligible to
receive Trust property. Because she had no power or
control over the assets of the Trust, Adelaide cannot
be said to have transferred any of the Trust property
upon her death. Therefore, as a matter of property
law, the only transfer with regard to this QTIP trust
was upon the Robert's death.
Second, under the Internal Revenue Code and
applicable regulations, the death of the first-to-die
spouse is the taxable event with regard to QTIP
trust assets. As discussed above, the marital
deduction (which QTIP-elected trusts qualify for) is
not a typical deduction that eliminates taxation
completely. Rather, the election only delays or
This is also illustrated in Treas. Reg. 20.2033-1: "[A] cemetery
lot owned by the decedent is part of his gross estate, but its
value is limited to the salable value of that part of the lot which
is not designed for the interment of the decedent and members
of his family." The reason is clear: the portion of the burial plot
is used exclusively by the decedent, and is not transferrable to
any of his beneficiaries.
9

565a

postpones the collection of the tax (which would
otherwise be due at the decedent spouse's death)
until the surviving spouse dies.
The value of the first-to-die spouse's federal
gross estate includes property that he passes into a
trust for which a QTIP election is intended to be
made. See J.R.C. § 2033 (value of gross estate
includes the value of all property to the extent of the
interest of the decedent); Treas. Regs. §§ 20.0-2(a),
20.2033-1(a), 20.2044-1(e). Ordinarily, terminable
interest property passed to a surviving spouse would
not qualify for the marital deduction. But I.R.C.
§ 2056(b)(7) provides an exception for qualified
terminable interest property, which does qualify for
the marital deduction. To perfect a QTIP trust, one
of the conditions is that property actually pass from
the first-to-die spouse into the trust. I.R.C.
§ 2056(b)(7)(B)(i)(l) (property "which passes from the
decedent"). Only by value of a QTIP election, and
corresponding allowance of a marital deduction, is
such decedent spouse's property not taxed
immediately. The tradeoff, however, is that estate
taxes on the trust assets are ultimately paid when
the surviving spouse dies. The Code essentially
creates a fictional transfer to reach QTIP property in
the surviving spouse's estate—treating it as having
passed to the surviving spouse. See Rev. Proc. 200138 ("For purposes of § 2056(a), qualified terminable
interest property is treated as passing to the
surviving spouse, and no part of the property is
treated as passing to any person other than the
surviving spouse."). It is only treated as passing to
the surviving spouse for purposes of § 2056 because
the property was actually transferred into the QTIP
trust—forever out of reach of the surviving spouse.

566a

This point is reiterated in the tax procedures
for the surviving spouse. At the death of the
surviving spouse, where a QTIP election has been
made and the marital deduction previously allowed,
the Code again creates a fictional transfer. Internal
Revenue Code§ 2044(c) provides that, for estate tax
purposes, qualified terminable interest property is
"includible in the gross estate of the decedent [the
surviving spouse] under subsection (a) shall be
treated as property passing from the decedent [the
surviving spouse]." Again, it is treated as passing,
but it does not actually pass from the surviving
spouse. This is no accident of phrasing. In subsection
(b), the Code specifies that this section applies to
property for which "a deduction was allowed with
respect to the transfer of such property to the
decedent [the surviving spouse]." Thus, under a
plain reading, I.R.C. § 2044 recognizes the
differences between property that is actually
transferred and property that is only treated as
transferred.
The Code also recognizes only a single
transfer by its inclusion of I.R.C. § 2207A. Under
§ 2207A, the second-to-die's estate is entitled to
recover from the QTIP trust the portion of the
second-to-die's estate tax that is attributable to the
§ 2044 inclusion of QTIP trust—i.e., the portion the
surviving spouse fictionally transfers to the ultimate
beneficiaries by virtue of § 2044. Thus, even the
Code recognizes that the surviving spouse does not
and cannot actually transfer any property from a
QTIP trust on her death, which is why § 2207A
allocates the ultimate tax liability for taxes assessed
on the value of QTIP property to the QTIP assets
themselves.

567a

This is not some novel or unique
interpretation. Indeed, the Supreme Court of
Washington reached the very same conclusion in In
re Estate of Bracken, 175 Wash. 2d 549 (2012). The
court held that the taxable transfer of property
passing to a trust for which a QTIP election was
made is on first-to-die's death. Id. at 567-568.
Therefore, the state could not retroactively impose
Washington estate taxes on the second-to-die spouse
attributable to assets of a QTIP trust for her benefit.
Id. at 566-568, 575-576. Bracken is discussed in
further detail below.10
Accordingly, under general principles of
property law and federal and state tax law, the only
transfer of QTIP assets occurs at the death of the
first-to-die spouse. And this true transfer is the
transfer of assets from the decedent into the
qualifying trust. Nevertheless, the Code supposes a
two-step fictional transfer of QTIP assets: first from
the decedent spouse to the surviving spouse, and
then a second fictional transfer from the surviving
spouse to the ultimate beneficiaries. But these two
transfers are just that-fictional. The Code creates
these fictional events in order to collect, on the death
of the second spouse, the tax that otherwise would be
Other courts have discussed the fictional transfer on the
surviving spouse's death. See Estate of Bonner v. United
States, 84 F.3d 196, 198 (5th Cir. 1996) ("Although § 2044
contemplates that the QTIP property will be treated as having
passed from Bonner for estate tax purposes, the statute does
not require, nor logically contemplate that in so passing, the
QTIP assets would merge with other assets."); Estate of
Mellinger v. Comm'r, 112 T.C. 26, 35 (1999) ("[QTIP] property
is 'treated as property passing from the' surviving spouse, sec.
2044(c), and is taxed as part of the surviving spouse's estate at
death, but QTJP property does not actually pass to or from the
surviving spouse.'').
10

568a

collectible upon the death of the first-to-die spouse.
Without the first fictional transfer (from decedent
spouse to surviving spouse), taxes would be
immediately due. But, if the first fictional transfer
were allowed without the second fictional transfer
from the surviving spouse to the ultimate
beneficiaries, the trust assets would escape estate
taxation altogether, since an income interest in a
trust created by a third party expires at death with
no general power of appointment over such assets
would not be includible in the decedent's gross
estate-but for the fiction created by I.R.C. § 2044.
Adelaide, having no control over the Trust
assets, had nothing to actually transfer on her death.
The true transfer, and thus the taxable event,
occurred on the death of Robert.
4. The taxable event occurred when Robert
Chuckrow died in New York; thus the QTIP
property
is
beyond
the
reach
of
Massachusetts's taxing jurisdiction.
Because the taxable transfer occurred on the
death of Robert Chuckrow, the Massachusetts
Department of Revenue is powerless to impose a tax
on the Trust assets at the death of Adelaide
Chuckrow.
a. The Fourteenth Amendment and
art.10 prohibit a state from taxing a
transaction that occurs outside its
borders.
The due process clause of the Fourteenth
Amendment prohibits a state from imposing a tax on
a transaction that occurs entirely outside its borders.
"[T]he exaction by a State of a tax which it is without
power to impose is a taking of property without due

569a

process of law in violation of the Fourteenth
Amendment." Frick v. Pennsylvania, 268 U.S. 473,
488-489 (1925) (holding statute that attempts to tax
tangible
property
sited
in
another
state
unconstitutional). Frick tracks Chief Justice
Marshall's statement in McCulloch v. Maryland that
the power to tax "is an incident of sovereignty, and is
co-extensive with that to which it is an incident. All
subjects over which the sovereign power of a state
extends, are objects of taxation; but those over which
it does not extend, are, upon the soundest principles,
exempt from taxation." McCulloch v. Maryland, 4
Wheat. (17 U.S.) 316, 429 (1819). Similarly, art. 10 of
the Massachusetts Declaration of Rights proscribes
the collection of estate taxes on a person who is not a
citizen of Massachusetts.
b. Massachusetts is reaching beyond its
taxing jurisdiction in seeking to impose a
tax on Adelaide based on Robert's
transfer of property into the Trust.
Here, Massachusetts is attempting to reach
beyond its borders-beyond its sovereignty to collect a
tax on a transfer made in New York by a New York
resident. By doing so, Massachusetts is attempting
to exact "a tax which it is without power to impose,"
in violation of the due process clause of Fourteenth
Amendment of the United States Constitution. Frick
v. Pennsylvania, 268 U.S. 473, 488-489 (1925).
The Supreme Judicial Court has recognized
that Massachusetts may constitutionally impose an
estate tax on gifts made within three years of death
by a Massachusetts decedent, even though the gifts
were of Maryland intangible securities and even
though the decedent was a Maryland resident at the
time the gifts were made. See Page v. Comm'r of

570a

Revenue, 389 Mass. 388, 394-395 (1983). In reaching
this decision, the SJC cited Curry v. McCanless, 307
U.S. 357 (1939). In Curry, both Alabama and

Tennessee attempted to impose death taxes on the
transfer of an interest in intangibles. Id. at 360. The
decedent was a domiciled resident of Tennessee, and
the intangibles were held in trust by an Alabama
trustee-a trust established by the decedent and over
which she maintained the power to dispose of the
trust estate by her will (a general power of
appointment). Id. at 360-361. The Court held that
both states could constitutionally levy a tax on the
transfer of these assets. Id. at 372-373.
Of course, there are several major distinctions
between taxing the assets of the individuals in Page
and Curry and taxing the Trust assets here. In Page,
the decedent maintained absolute control and
dominion over the ultimate transfer of the property.
She could have sold them, gifted them, or
bequeathed them. Similarly, the decedent in Curry,
by her trust instrument, maintained a right to
bequeath the trust assets, thus controlling their
ultimate transfer. What is more, in Page and Curry,
the decedents were both the taxpayer and the
transferor.
Not so in the case of Adelaide Chuckrow. In
the Trust created under Robert's Will, Adelaide had
no power or control to transfer the principal.
Contrast Pearson v. McGraw, 308 U.S. 313, 318
(1939) (noting that the jurisdiction of a state "is
dependent not on the physical location of the
property in the state but on control over the owner").
Unlike Page and Curry, here the transferor and the
taxpayer are not one and the same. Here, the
transfer was made by Robert Chuckrow, but the
Commonwealth seeks to tax Adelaide. Robert was
571a

not a Massachusetts resident at the time of this
transfer (his death), and he never subjected himself
to the estate taxing jurisdiction of the
Commonwealth, as he owned no real or tangible
personal property sited in Massachusetts. Further,
Robert was the person who determined the ultimate
disposition of the property by deciding the terms of
the trust, and he was the one who, through his
executrix, transferred the property into the Trust.
Therefore, unlike the taxpayers in Page and Curry,
the present taxpayer, Adelaide, had no say in the
initial transfer of the property and no control over
the ultimate disposition of the property at her death.
The only reason that the Trust relates to Adelaide's
estate at all is because of the special rules of I.R.C.
§ 2056(6)(7) and I.R.C. § 2044.
The better analogy is to a situation where a
Donor completes an inter vivos gift by transferring
the property into an irrevocable trust, where he is
neither the trustee nor a beneficiary. Under general
principles of property law, the gift is completed once
the property is delivered to the trustee. See In re
Estate of Bracken, 175 Wash. 2d 549, 566 (2012),
citing Coolidge v. Long, 282 U.S. 582, 605 (1931). At
that moment, the Donor has relinquished all rights
in the property he transferred into trust (thus
triggering the requirement of filing a gift tax return).
In Wuesthojf v. Wisconsin Dep't of Taxation, the
state of Wisconsin attempted to impose a tax on a
gift made into an irrevocable inter vivos trust by a
nonresident Donor to a nonresident trustee. 261 Wis.
98, 99-100 (I 952). The only connection to Wisconsin
was that the gift consisted of Wisconsin securities.
Id. at 104. Because the gift was completed outside
the state, and because donor and donee were not
residents of Wisconsin, the court held that the

572a

transfer was beyond the taxing jurisdiction of the
state of Wisconsin. Id. at 104-105.
The Supreme Court of Washington reached a
similar conclusion regarding federal QTIP and its
interplay with state estate taxes in In re Estate of
Bracken, 175 Wash. 2d 549 (2012). In 2006 the
Washington legislature enacted a stand-alone state
estate tax and authorized the Washington
Department of Revenue to create a separate state
QTIP election. Id. at 559-560. The first-to-die
husbands died before the enactment of this statute
and their executors made federal QTIP elections; the
second-to-die wives died after. The Department
attempted to impose a tax on the estates of secondto-die wives attributable to the QTIP trusts
established by their husbands. Id. at 556. The court
held that the state could not impose a tax on the
federal QTIP trusts because no transfer occurred at
the surviving spouses' death. Id. at 575-576. That is,
the estate tax requires a transfer of property to
impose a tax; the transfer of assets of a QTIP trust
occurred when the first spouses die; and because no
taxable transfer occurred at the surviving spouses'
deaths, the state could not impose an estate tax. Id.
Although Massachusetts had a QTIP election at the
time of Robert's death, he was a New York resident
and the transfer occurred in New York.
Massachusetts cannot constitutionally tax a transfer
that occurred in a different state. The difference
between Bracken and this case is that Washington
attempted to impose a retroactive estate tax on instate transfers. Here, not only is Massachusetts
attempting to impose a retroactive tax, but it is also
attempting to tax an out-of-state event. The
legitimacy of the present tax is thus even more
tenuous. See McCulloch v. Maryland, 4 Wheat. (17

573a

U.S.) 316, 429 (1819) ("All subjects over which the
sovereign power of a state extends, are objects of
taxation; but those over which it does not extend,
are, upon the soundest principles, exempt from
taxation.").11
The right to collect a tax on the Trust occurred
on the death of Robert, because that is when the
taxable transfer of the property occurred. Even
under Page, where the Commonwealth was
permitted to impose a tax, the court held that "it is
the domicile of the decedent at the time the right to
impose the tax arises that determines the propriety
of the tax." Page, 389 Mass. at 395. In Page, the
taxable event was the decedent's death, which
occurred in Massachusetts. But here, the taxable
event was the transfer upon Robert's death, which
occurred in New York. Therefore, the estate tax
imposed by Massachusetts on the assets of the Trust
violates the due process clause of the Fourteenth
Amendment of the United States Constitution
because it exceeds the permissible reach of
Massachusetts's sovereignty. See McCulloch v.
Maryland, 4 Wheat. (17 U.S.) 316, 429 (1819).
Consequently, the estate is entitled to an abatement
in the full amount of $1,953,032.

This issue has once again been raised in the Connecticut
Supreme Court, on facts similar to the present controversy. See
Estate of Brooks v. Sullivan, No. SC19577. In that case, a
widow moved to Connecticut after her husband's prior death in
Florida. The husband's estate plan funded a QTIP trust upon
his death of which the surviving wife was a beneficiary. At the
Superior Court level, the state succeeded. The matter is now on
appeal at the Connecticut Supreme Court; it has been fully
briefed, but has not yet been argued.
11

574a

B. Under the terms of the Massachusetts estate
tax statute, the value of the federally elected
QTIP property is not properly includible in
Adelaide's Massachusetts gross estate.
The Massachusetts estate tax, as it existed
through 1996, was the result of patchwork
legislation in response to federal code changes,
resulting in a highly convoluted maze of state
statutes and regulations. Massachusetts lagged
federal updates to the code, such as the unlimited
marital deduction and the QTIP. The federal QTIP
was introduced in 1981, but the Massachusetts QTIP
did not become effective until January 1, 1986. See
St. 1985, c. 711, §§ 12, 19. The federal code moved to
an unlimited marital deduction in 1981, but
Massachusetts did not do so until July I, I 994. See
St. 1992, c. 133, §§ 422, 597. Couple these issues
with the phase out of the Massachusetts estate tax
beginning in the early 1990s (in favor of the sponge
tax, G.L. c. 65C, § 2A, which went into effect on
January 1, 1997), and the result was a complicated
morass for anyone trying to navigate between the
federal and Massachusetts estate tax.
1. The executor may make a Massachusetts
QTIP election that is separate from and
independent of the federal QTIP election and
the Massachusetts QTIP election.
The executrix of Robert Chuckrow's estate did
not make a Massachusetts QTIP election; no such
election was required. An executor may make
separate and independent QTIP elections for
purposes of federal and Massachusetts taxation. See
G.L. c. 65C, § 3A(f), as inserted by St. 1985, c. 711,
§ 12 ("Such election, once made, shall be irrevocable
and shall be separate from and independent of any

575a

election made for federal estate tax purposes.").12
This was true when Massachusetts had a standalone estate tax, and it remained true after
Massachusetts returned to a sponge tax beginning in
2003. Not only has the legislature never repealed
G.L. c. 65C, § 3A, but the Department of Revenue's
Directive
03-2
(which
was
issued
after
Massachusetts reverted to a sponge tax) states that
"[t]he executor .. . is not required to have made the
same QTIP election for federal estate tax purposes in
order to make the election for Massachusetts
purposes." Accordingly, an executor could and can
make a federal QTIP election on certain property but
not make a Massachusetts QTIP election on the
same property, or vice versa.
2. Because the state and federal QTIP
elections can be different, the analysis does
not
end
simply
by
defining
the
Massachusetts gross estate as the federal
gross estate.
The Commonwealth cannot rely simply on the
fact that the Massachusetts estate tax is calculated
by reference to the as the federal gross estate.
Because it is possible for separate federal and state
QTIP elections, bare reference to the federal gross
estate runs the risk of double taxing property for
which a federal QTJP election was made, but for
which no Massachusetts QTIP election was made.
This issue was confronted when the legislature
amended the standalone estate tax to allow for state
QTIP elections, yet kept the 50% state marital
deduction. The solution was to change the definition
of Massachusetts gross estate so as to exclude
property for the executor made a federal QTIP
12

Section 3A(f) has never been amended.

576a

election, but did not make a Massachusetts QTIP
election. See G.L. c. 65C, § 1(f). Indeed, this is the
only logical construction of § 1(f).
Under the familiar tenets of statutory
interpretation, a statute is construed "in accord with
'the intent of the Legislature ascertained from all its
words construed by the ordinary and approved usage
of the language, considered in connection with the
cause of its enactment, the mischief or imperfection
to be remedied and the main object to be
accomplished, to the end that the purpose of its
framers may be effectuated.' ... " Champigny v.
Commonwealth, 422 Mass. 249,251 (1996), quoting
Telesetsky v. Wight, 395 Mass. 868, 872-873 (1985).
Further, "a statute must be construed so that 'effect
is given to all its provisions, so that no part will be
inoperative or superfluous."' Wheatley v. Mass.
Insurers Insolvency Fund, 456 Mass. 594, 601
(2010), quoting Bankers Life & Cas. Co. v. Comm'r of
Ins., 427 Mass. 136, 140 (1998). Because this is a tax
statute, it is also necessary to note that the statute
should avoid double taxation where possible. O'Brien
v. State Tax Comm'n, 339 Mass. 56, 62 (1959).
3. The last sentence of G.L. c. 65C, § l(f),
explicitly excludes, from the Massachusetts
gross estate, the value of property for which
a federal QTIP election was made, but no
Massachusetts QTIP election was made.
Any analysis of G.L. c. 65C, § 1, begins with
the language of the statute itself:
"When used in this chapter the following
words or terms shall have, unless the context
clearly indicated otherwise, the following
meanings:-

577a

(f) "Massachusetts gross estate", the federal
gross estate, whether or not a federal estate
tax return is required to be filed, plus the
value of any property (i) in which the decedent
had at death a qualifying income interest for
life described in subsection ( c) of section three
A ... and (ii) for which a deduction was allowed
for Massachusetts estate tax purposes with
respect to the transfer of such property of the
decedent; and less the value of real and
tangible personal property having an actual
situs outside the commonwealth. The
Massachusetts gross estate shall not include
the value of any property in which the
decedent [the surviving spouse] had a
qualifying income interest for life which is not
otherwise includible in the Massachusetts
gross estate under the first sentence of this
paragraph, notwithstanding the right of the
executor of the decedent's estate to recover
federal or Massachusetts estate taxes from
such property."
G.L. c. 65C, § 1(f), as amended by St. 1985, c. 711,
§ 6.13
The starting point is to determine the
decedent's federal gross estate. The statute then
adds "the value of any property (i) in which the
decedent [the surviving spouse] had at death a
qualifying income interest for life described in [G.L.
c. 65C, § 3A(c)] ... and (ii) for which a deduction was
Prior to the 1985 amendment, the definition simply read:
"the federal gross estate, whether or not a federal estate tax
return is required to be filed, less the value of real and tangible
personal property having an actual situs outside the
commonwealth." St. 1975, c. 684, § 74.
13

578a

allowed for Massachusetts estate tax purposes with
respect to the transfer of such property to the
decedent." G.L. c. 65C, § 1(f). The purpose of this
portion of the statute, similar to I.R.C. § 2044, is to
capture the value of any property for which a
Massachusetts QTIP election was made. See 830
Code Mass. Regs. § 65C.2.1(1)(b), (5). Without this
provision, property for which a Massachusetts QTIP
election was made would not be able to be taxed on
the surviving spouse's death, because this property
would not be included by mere reference to the
federal gross estate.14
Finally, we arrive at the final sentence of the
statute:
"The Massachusetts gross estate shall not
include the value of any property in which the
decedent [the surviving spouse] had a
qualifying income interest for life which is not
otherwise includible in the Massachusetts
gross estate under the first sentence of this
paragraph, notwithstanding the right of the
executor of the decedent's estate to recover
federal or Massachusetts estate taxes from
such property."
To fully understand this sentence of the statute, it is
necessary to examine the context in which it was
added. See Champigny v. Commonwealth, 422 Mass.
249, 251 (1996). When this sentence was added in
1985, federal law had already moved to an unlimited
marital deduction, in addition to permitting QTIP
elections. Massachusetts followed the federal lead
regarding QTIP elections under this 1985
The next step is to subtract out-of-state real and tangible
personal property, but this is not relevant to the present
circumstances.
14

579a

amendment, but chose to maintain its 50% marital
deduction. This created a serious disconnect between
federal QTIP elections and Massachusetts QTIP
elections. Hence, the executor is permitted to make a
Massachusetts QTIP election that is "separate from
and independent of" any federal QTJP election. See
G.L. c. 65C, § 3A(f). And due to the 50%
Massachusetts marital deduction, a proper estatetax-minimizing estate plan would always make a
federal QTIP election in excess of the Massachusetts
QTIP election. But this, in turn, would have created
a serious double taxation problem-that is, the excess
amount elected under the federal QTIP would
already have been taxed by Massachusetts on the
state estate taxes of the first-to-die spouse. So the
legislature needed to create a way to eliminate from
the Massachusetts gross estate the excess value of
federal QTIP property.
Thus the last sentence of the statute was
added: "The Massachusetts gross estate shall not
include the value of any property in which the
decedent [the surviving spouse] had a qualifying
income interest for life which is not otherwise
includible in the Massachusetts gross estate under
the first sentence of this paragraph." G.L. c. 65C,
§ 2(f). Understood in the proper context, it is clear
that the intent of this sentence is to eliminate the
excess federal QTIP election from the Massachusetts
gross estate.
The following hypothetical demonstrates the
issue: H has $2 million, and W has $0. (Assume that
no federal exemption exists.) H dies in 1993, and the
entire $2 million funds a trust that could qualify for
a QTIP election. H's executor makes a federal QTJP
election only, thus deferring collection of the federal
estate tax until W dies. See I.R.C. §§ 2044,
580a

2056(b)(7). No Massachusetts QTIP election was
made, and so state estate tax would be assessed on
the $2 million at H's death. H's estate pays
Massachusetts taxes on this $2 million. W never
receives the property; she merely has a qualifying
income interest for life in the trust. At W's death,
her federal gross estate would be $2 million, by
virtue of I.R.C. § 2044. And if the first words of G.L.
c. 65C, § I (f), or the formula for the sponge tax
under§ 2A, arc to be taken literally without regard to
the last sentence—i.e., the Massachusetts gross
estate is the federal gross estate—then W's
Massachusetts gross estate would be $2 million,
even though tax was already paid on this $2 million
on H's death and even though W never owned or had
control of the $2 million. The final sentence of G.L.
c. 65C, § 1(f), remedied this problem: it would
exclude from W's Massachusetts gross estate her
qualifying income the $2 million from W's
Massachusetts gross estate.

CHART

581a

2056(b)(7). No Massachusetts QTIP election was
made, and so state estate tax would be assessed on
the $2 million at H's death. H's estate pays
Massachusetts taxes on this $2 million. W never
receives the property; she merely has a qualifying
income interest for life in the trust. At W's death,
her federal gross estate would be $2 million, by
virtue of I.R.C. § 2044. And if the first words of G.L.
c. 65C, § I (f), or the formula for the sponge tax
under§ 2A, arc to be taken literally without regard to
the last sentence-i.e., the Massachusetts gross
estate is the federal gross estate-then W's
Massachusetts gross estate would be $2 million,
even though tax was already paid on this $2 million
on H's death and even though W never owned or had
control of the $2 million. The final sentence of G.L.
c. 65C, § l(f), remedied this problem: it would
exclude from W's Massachusetts gross estate her
qualifying income the $2 million from W's
Massachusetts gross estate .

...

58la

~.

The same situation could apply in the present day,
even with Massachusetts now using a sponge tax.
See G.L. c. 65C, § 2A. The executor could choose to
make only a federal QTIP election, and simply pay
the Massachusetts estate tax on the decedent
spouse's death. Accordingly, simply referencing the
federal estate in the current estate tax regime would
create the same problems, and would lead to double
taxation of the value of assets for which estate tax
was already paid.
4.
Under
the
rules
of
statutory
interpretation, and the rule of construction
that taxing statutes should avoid double
taxation, this analysis of the last sentence of
G.L. c. 65C, § 1, is correct.
For two reasons, this is the only logical
construction of the last sentence of this statute. And
it shows the significant flaw of simply referencing
the federal gross estate in calculating Massachusetts
estate tax.
First, the rules of statutory interpretation
require that the last sentence take precedence over
the previously enacted first words of the statute.
Effect must be given to all provisions in a statute.
See Wheatley v. Mass. Insurers Insolvency Fund,
456 Mass. 594, 601 (2010). So the analysis cannot
stop at the words "the federal gross estate";
otherwise, the last sentence of G.L. c. 65C, § 1(f),
would be extraneous, superfluous, and entirely
ineffective. The position of the statute referencing
the "federal gross estate" has been in the statute
since it was originally enacted in 1975, see St. 1975,
c. 684, § 74, while the final sentence was added in
1985. Not only did the amendment come later in
time, it is undoubtedly the more specific provision

582a

and, as such, controls over the general. See Doe v.
Attorney General (No. 1), 425 Mass. 210, 215-216
(1997) ("[W]hen two statutes (or provisions within
those statutes) conflict, ... the more specific
provision, particularly where it has been enacted
subsequent to a more general rule, applies over the
general rule.").15
Second, this construction avoids the problem
of double taxation. "Massachusetts taxing statutes
will be 'interpreted so as not to cause double taxation
unless no other reasonable construction is
practicable."' O'Brien v. State Tax Comm'n, 339
Mass. 56, 62 (1959), quoting DeBlois v. Comm'r of
Corps. & Taxation, 276 Mass. 437, 439-440 (1931).
Returning to the example above, W's federal gross
estate would include the $2 million. See I.R.C.
§ 2044. Under the Department's reading, this $2
million would be subject to Massachusetts estate tax
on W's death, even though the same $2 million was
already taxed at H's death. Moreover, not only would
Massachusetts be attempting to tax the same assets
twice, it would also be attempting to tax the same
transfer twice-the transfer from H into the trust.16
Cf. Rohrbaugh, Inc. v. Comm'r of Revenue, 385
The last sentence does not exclude property that is
"otherwise includible in the Massachusetts gross estate under
the first sentence." This, technically, points back to the words
"federal gross estate," which by virtue of I.R.C. § 2044 would
include the federal QTIP property. But this would also create
an endless circle, because it would then be excluded once again
by the last sentence. Such a construction would also make the
last sentence inoperative. Rather, the better interpretation of
the first sentence would be to ensure that the last sentence did
not exclude Massachusetts QTIP property.
15

Even more offensive, W never had any dominion or control
over the property, but received only a qualifying income
interest from the trust.
16

583a

Mass. 830, 831 (1982) (double taxation of proceeds
from the same transaction should be avoided).
At bottom, the definition of Massachusetts
gross estate is inarticulate. The last sentence was
added to avoid including federal QTIP property for
which no Massachusetts QTIP election was made. At
the very least, this statute is ambiguous. "Taxing
statutes are to be construed strictly against the
taxing authority, and all doubts resolved in favor of
the
taxpayer."
Comm'r
of
Revenue
v.
AMIWoodbroke, Inc., 418 Mass. 92, 94 (1994),
quoting Dennis v. Comm'r of Corps. & Taxation, 340
Mass. 629, 631 (1960).
5. Adelaide Chuckrow had a qualifying
income interest for life in Trust property for
which a federal QTIP election was made, but
no Massachusetts QTIP election was made;
her situation falls directly in line with the
last sentence of G.L. c. 65C, § 1(f), and so the
value of Robert Chuckrow's federal QTIP
property must be excluded from Adelaide's
estate.
Under G.L. c. 65C, § 1(f), the value of the
property in the Trust u/w/o Robert Chuckrow would
have been excluded from Adelaide's Massachusetts
gross estate. The same result should apply under the
current sponge tax. Robert's executor did not make a
Massachusetts QTIP election, but she did make a
federal QTIP election. Adelaide had a qualifying
income interest for life in the Trust u/w/o Robert
Chuckrow, and this interest would not otherwise
have been includible under the first sentence—i.e., it
was not Massachusetts QTIP property. G.L. c. 65C,
§ 1(f). And reference cannot be made back to "federal
gross estate," because this would have rendered the

584a

entire final sentence inoperative. Indeed, this was
the purpose of the last sentence. Therefore,
Adelaide's Massachusetts gross estate would "not
[have] include[d] the value of any property in which
[she] had a qualifying income interest for life." So it
would not have included the value of the assets in
the Trust u/w/o Robert Chuckrow. Id. The result
should be no different under the current sponge tax.
The Massachusetts legislature already confronted
the issue of how to tax an estate where a federal
QTIP election was made, but no state QTIP election
was made. The fact that Massachusetts now uses a
sponge tax does not eliminate the potential for
double taxation. And so the analysis should not
change.
Therefore, Adelaide's estate is entitled to a
full abatement of $1,953,032.
C. Even if the Chuckrows had been
Massachusetts residents at the time of Robert's
death, Robert's executor could only have made a
Massachusetts QTIP election on 48.11 % of his
estate, and so, at the very least, abatement in
that amount is due Adelaide's estate.
The unfairness and injustice of the
Massachusetts estate tax regime in the 1980s and
mid 1990s is demonstrated by looking at what would
have happened if Robert Chuckrow was a
Massachusetts resident at his death. Robert
Chuckrow's estate plan demonstrated that he
intended to minimize estate taxes where possible.
Yet he would have been limited to only a 50%
marital deduction and no state estate tax exemption.
-

Robert Chuckrow's
$1,996,043.24.

585a

gross

estate

was

-

Taking
half
of
that
number,
the
Massachusetts marital deduction would have
been limited to $998,021.62.

-

Of that amount, $591,924.12 passed directly
to Adelaide.

-

And so the maximum Massachusetts QTIP
election that Robert's executor could have
made would have been $406,097.50.17

Thus, only 48.11 % of the federal QTIP (which was
$844,101.27)
could
have
qualified
for
a
Massachusetts QTIP election. So the Department of
Revenue would have assessed a tax on $438,003.77
(51.89%) of the federal QTIP that would not qualify
for the Massachusetts marital deduction. But now
the Department wants to tax the entire $844,101.27,
even though 51.89% of which it already would have
been taxed on Robert's death. Such a result would be
unjust, violating principles against double taxation.
See O'Brien v. Slate Tax Comm'n, 339 Mass. 56, 62
(1959).
Accordingly, at the very least, Adelaide's
estate should only be required to pay tax on 48.11 %
of the total assessment of $1,953,032 (which comes
to $939,603.70). And so she is to an abatement of
$1,013,428.30.
V. Conclusion
The estate tax assessed on Adelaide's estate
for the present value of Robert's federally elected
QTIP trust has no basis in the law. Both
constitutionally and statutorily, this tax cannot be
collected.
Compare that to his executor's federal QTIP election:
$844,101.27
17

586a

This assessment is unconstitutional because
Massachusetts is attempting to assess a tax on a
transfer that occurred in New York by a New York
resident into a New York trust. Massachusetts is
attempting to tax the trust's income beneficiary, who
never received the principal, never controlled the
principal, and never had a say how the principal
would ultimately be disposed; those decisions were
made by Robert Chuckrow in his will. Thus, the
taxable transfer occurred at the time of his death in
New York. Adelaide's estate, of course, must pay this
amount in federal estate tax because of the delayed
collectibility of the marital deduction. But the
internal revenue code is clear that it is not taxing a
new transfer, but is merely creating a fictional
transfer
to
make
the
mechanics
work.
Massachusetts insists it can tax this fictional
transfer. But in reality, this is merely a change in
the class of beneficiaries to the Trust. Massachusetts
cannot constitutionally reach across its bordersbeyond its sovereignty-to tax this New York transfer.
This assessment also mangles the definition of
Massachusetts gross estate. The final sentence
excludes from the Massachusetts gross estate the
value of any property in which the second-to-die
spouse had a qualifying income interest for life, but
which is not otherwise includible in the
Massachusetts gross estate by virtue of the first
sentence.
When
examined
in
context
of
Massachusetts's retaining its 50% marital deduction,
it is clear that the legislature inserted this provision
to prevent the inclusion of federal QTIP election that
was in excess of the Massachusetts QTIP election.
The statute itself, then, prohibits assessing an estate
tax on a second-to-die spouse for property on which
the executor of the first-to-die spouse made a federal

587a

QTIP election, but not a Massachusetts QTIP
election. The analysis cannot end simply by rote
recitation that the Massachusetts gross estate is the
federal gross estate. If it could, the final sentence of
G.L. c. 65C, § 1(f), would be rendered ineffective and
superfluous, violating a fundamental tenet of
statutory construction. By its own laws, then,
Massachusetts cannot tax Adelaide's estate for the
value of the federal QTIP property.
In conclusion, the Commonwealth is
attempting to tax the transfer of property into a New
York trust, effectuated by a New York resident's
death more than twenty years ago. It attempts to tax
the income beneficiary who had no control over the
property or its ultimate disposition. And it attempts
to do so in contravention of its own definition for
calculating what is taxable.
For these reasons, the Appellate Tax Board
should order that the Commonwealth refund the
entire $1,953,032 to the estate of Adelaide
Chuckrow.

588a

Respectfully Submitted,
The Appellant,
M. CHRISTINE SHAFFER,
as Executrix of the Estate of
Adelaide P. Chuckrow,
10803 Montrose Avenue, P.O. Box 96
Garret Park, MD 20896
(301) 933-2260
By her Attorneys,
/s/ Leo J. Cushing
Leo J. Cushing, Esq., #110560

lcushing@cushingdoland.com

Luke C. Bean, Esq. BBO #685399

lbean@cushingdolan.com

Thomas J. McIntyre, Esq. BBO #685215

tmcintyre@cushingdolan. com

Cushing & Dolan, P.C.
375 Totten Pond Road, Suite 200
Waltham, MA 02451
(617) 523-1555
Dated: November 4, 2016
Certificate of Service
I, Thomas J. McIntyre, hereby certify that on
this 4th day of November, 2016, I caused a true copy
of the within document to be served by hand on the
following attorney of record:
John J. Connors, Jr., Esq.
Counsel to the Commissioner
Department of Revenue
Litigation Bureau
100 Cambridge Street, 7th Floor
Boston, MA 02114-9565
/s/ Thomas J. McIntyre
Thomas J. McIntyre

589a

APPENDIX 41
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
DOCKET NO. C327773
M. CHRISTINE SHAFFER, AS
EXECUTRIX OF THE ESTATE
OF ADELAIDE P. CHUCKROW
Appellant
v.
COMMISSIONER OF REVENUE,
Appellee
THE COMMISSIONER OF REVENUE'S
BRIEF
I. INTRODUCTION AND ISSUE
This action concerns the calculation of
Massachusetts estate tax of the Estate of Adelaide P.
Chuckrow (The "Estate") under G.L. c. 65C, §2A.1
Adelaide P. Chuckrow (the "Decedent") was
domiciled in Massachusetts at her death in the year
2011. The Estate filed Federal and Massachusetts
Estate Tax Returns reporting different amounts for
the Gross Estate2 on the respective returns. The
difference, $13,251,469, was the inclusion of the
value of the assets of the Trust under the Will of
Robert Chuckrow (the "QTIP Trust") in the
The full text of G.L. c. 65C, §2A is attached as Appendix A.
On the Massachusetts and Federal Estate Tax Returns, the
title for this amount is "Total gross estate". On the Federal
Return, Ex. 3, the Total gross estate is found on Page 1, Part 2 Tax Computation, Line 1. On Massachusetts Estate Tax
Return, Ex. 2, the Total gross estate is found on the second
page at Part 1, Line 1.
1
2

590a

calculation of the Gross Estate on the Federal
Return, but the exclusion of the value of the QTIP
Trust from the Gross Estate reported on the
Massachusetts Return. The Estate did not file estate
tax returns in any state other than Massachusetts.
The Commissioner of Revenue (the "Commissioner")
assessed additional Massachusetts estate tax, in the
amount of $1,809,141.88, against the Estate based
upon the inclusion of the value of the QTIP Trust in
the Gross Estate for the calculation of the
Massachusetts estate tax.
By way of background, "QTIP" is an
abbreviation for "qualified terminal interest
property", which is defined in IRC §2056(b)(7).
Pursuant to this provision, the estate of a first-todie-spouse may elect to qualify certain assets for the
marital deduction, for which the assets would not
ordinarily qualify. In return for the inclusion of
these assets in the marital deduction of the first-todie-spouse, the assets are included in the Gross
Estate of the surviving spouse. The election is a
deferral of estate tax, not a forgiveness of tax.
In the matter at issue, the Decedent's
husband died in the year 1993, domiciled in New
York. Only Federal and New York Estate Tax
Returns were filed by the husband's estate. On both
the Federal and New York Estate Tax Returns, the
husband's estate claimed 100% marital deductions,
with most of which were based upon QTIP Trust
elections. Based upon constitutional and statutory
arguments, the Estate claims it is entitled to exclude
the value of the QTIP Trust from the calculation of
the Gross Estate on the Massachusetts return.
The question for this Board is whether the
assets of the QTIP Trust are includible in the Gross

591a

Estate of the Estate of the Decedent for purposes of
the measure of the Massachusetts estate tax
pursuant to G.L. c. 65C, §2A.
II. JURISDICTION AND FACTS
A.

THE
ESTATE
CHUCKROW

OF

ADELAIDE

P.

The Decedent died on August 14, 2011,
domiciled in Williamstown, Massachusetts. (A.F. 1
and Ex. 1.)3 On May 14, 2012, the Estate filed a
Massachusetts Estate Tax Return, Form M-706, (the
"Massachusetts Return") reporting a tax due in the
amount of $100,997.00, along with payment of this
amount. (A.F. 2 and Ex. 2.) On Part 1, Line 1 of the
Massachusetts Return, the Estate reported a Gross
Estate of $2,382,148. (See Ex. 2, on the second page,
Part 1, Line 1 "Total gross estate".)
The Commissioner selected the Massachusetts
Return for audit and sent the Estate a Notice of
Intention to Assess, dated September 27, 2013, (the
"NIA"). The Commissioner also sent the Estate
Notice of Intention to Assess Work Papers, dated
August 29, 2013, (the "Work Papers"), which showed
the Commissioner proposed to assess additional
estate taxes in the amount of $1,809,141.88, based
upon increasing the Gross Estate by $13,251,469.
(AF. 3 and Ex. 4.) The Estate requested a conference
on the NIA, which was held with the Commissioner
on February 12, 2014. (A.F. 4 and Ex. 5 and 6.) The
Commissioner assessed the tax as proposed and sent
the Estate a Notice of Assessment (the "NOA"),
dated March 18, 2014. In addition to the tax, the
(A.F. ) Shall be a reference to the Statement of Agreed Facts.
(Ex. ) Shall be a reference to the Exhibits attached to the
Statement of Agreed Facts.
3

592a

NOA showed the assessment of interest in the
amount of $143,890, which resulted in a total
balance due in the amount of $1,953,032. (AF. 5 and
Ex. 7.)
On November 12, 2014, the Commissioner
received the Estate's Abatement Application, Form
CA-6, seeking abatement of the audit assessment.
(A.F. 8 and Ex. 9.) The Estate requested a conference
with respect to its Abatement Application. The
Commissioner denied the conference request because
no new facts or legal precedent was presented in the
Abatement Application, citing G.L. c. 62C, §37. (A.F.
9 and Ex. 10.) The Commissioner denied the Estate's
Abatement Application and sent the Estate a Notice
of Abatement Determination, dated May 19, 2015.
(A.F. 10 and Ex. 11.) The· Estate appealed the
Commissioner's abatement denial by filing a Petition
with this Board on June 25, 2015. (A.F.11.)
The Assessment at issue has been paid in full. The
Commissioner's records show the following
Massachusetts Return and Audit assessments and
payments:
Tax
Interest
Total
Assessed
Assessed Paid
Massachusetts
Return
100,997.00 0.00
100,997.00
Audit
1,809,141.88 142,606.35 1,951,748.23
Total
1,910,138.88 142,606.35 2,052,745.23
(A.F. 12 and Ex. 12.)
On the Massachusetts Return, the Estate
reported a Gross Estate of $2,382,148. (A.F. 13 and
Ex. 2 on the second and third pages.) On the Estate
Tax Return (the "Federal Return") filed with the
United States Internal Revenue Service (the "IRS"),
the Estate reported a Gross Estate of $15,633,617.
(A.F. 14 and Ex. 3 on the first page.) The difference
593a

between the Gross Estate reported on the Federal
Return and the Gross Estate reported on the
Massachusetts Return, $15,633,617 - $2,382,148 =
$13,251,469, was the value of the QTIP Trust, the
Trust under the Last Will and Testament of the
Decedent's spouse, Robert Chuckrow; (A.F. 15, Ex. 2,
3, 13, 14, 15) The Estate has not filed a New York
Estate Tax Return and has not paid any New York
Estate Tax based upon the death of the Decedent.
(AF. 16.)
B.

THE ESTATE OF ROBERT CHUCKROW

The Decedent was the widow of Robert
Chuckrow. (A.F. 17.) Robert Chuckrow died on July
11, 1993, domiciled in Chappaqua, New York. (A.F.
18, Ex. 13.) The Estate of Robert Chuckrow filed a
Federal Estate Tax Return reporting no tax due.
(A.F. 20, Ex. 15.) The Estate of Robert Chuckrow
filed a New York Estate Tax Return reporting no tax
due. (A.F. 19, Ex. 16.) On both the Federal and New
York Estate Tax .Returns of the Estate of Robert
Chuckrow, the Estate of Robert Chuckrow elected a
QTIP as part of the marital deduction in order to
defer estate taxes to the estate of the surviving
spouse, the Estate of the Decedent.
All of the assets in the QTIP Trust were
intangible personal property. (A.F. 32.) There was no
real estate or tangible personal property located in
Massachusetts reported on the Federal or New York
Estate Tax Returns of Robert Chuckrow. (A.F. 27,
Ex. 15 and 16.) The Estate of Robert Chuckrow did
not file a Massachusetts Estate Tax Return; and,
therefore, made no Massachusetts QTIP election.
(A.F. 28.) The Estate of Robert Chuckrow has not
filed an amended New York Estate Tax Return, and
has not paid any New York Estate Tax, based upon

594a

either the death of Robert Chuckrow or the death of
Adelaide Chuckrow. (A.F. 29, 30 and 31.)
C.

THE ASSETS IN THE QTIP TRUST

All of the assets held in the Trust under Article
Third of the Will of Robert Chuckrow, which is the
QTIP Trust, were intangible personal property,
primarily shares of stock and interests in limited
partnerships. (A.F. 32 and Ex. 3, the eleventh
through twenty-fifth pages. Items numbers 1
through 126.)
III. THE STATUTORY SCHEME
A.

A
SHORT
HISTORY
OF
MASSACHUSETTS ESTATE TAX.

THE

A basic understanding of the history of the
Massachusetts estate tax is important for at least
one of the arguments in the matter at issue and will
help with the context of some of the other
arguments. The Massachusetts estate tax evolved
over several decades. It changed from a stand-alone
estate tax based upon the Federal estate tax in effect
in 1976; to a sponge tax based upon the Federal
credit for state death taxes in effect at the date of
death of the decedent; to a stand-alone estate tax
that uses a sponge tax calculation based upon the
Federal credit for state death taxes that would have
been allowable to a decedent's estate in the year
2000. Some of the provisions of the original standalone estate tax are still published in G.L. c. 65C,
but have no relevance to the calculation of the estate
tax at issue under G.L. c. 65C, §2A.

595a

January 1, 1976 was the starting date of the
Massachusetts stand-alone estate tax.4 G.L. c. 65C.
This Massachusetts estate tax was based upon the
Federal estate tax in effect in 1976, but with some
express differences. Effective January 1, 1986, the
Legislature amended the Massachusetts estate tax
to allow, among other changes, a deduction by the
first-to-die-spouse and the inclusion of the value of a
QTIP election in the estate of the surviving spouse.
In 1992, the Legislature enacted legislation5
and changed the estate tax to a system that is
commonly known as a sponge tax. A sponge tax is
designed to capture the credit for state death taxes
that was allowed against Federal Estate taxes, IRC
§2011. Under this Legislation, the original standalone estate tax was phased out over the years from
1993 to 1996. Effective January 1, 1997,
Massachusetts had a sponge tax. In addition, for the
Massachusetts has a long history with taxes at death.
Initially, Massachusetts had an inheritance tax. The
inheritance tax taxed the privilege of receiving transfers from
decedents by their beneficiaries at the time when the
beneficiary received the inheritance. The inheritance tax was
suspended for deaths after December 31, 1975.
Massachusetts also has had provisions for an estate tax
going back to the 1920’s under G.L. c. 65A. G.L. c. 65A was a
sponge tax or pick-up tax. It was designed to capture the credit
for state death taxes that was allowed against Federal Estate
taxes, IRC §2011. The sponge tax under G.L. c. 65A was
coordinated with the inheritance tax, G.L. c. 65, to make sure
the Commonwealth was receiving the benefit of the credit for
state death taxes. The sponge tax under G.L. c. 65A was not
assessed in addition to the inheritance tax. When, the
Legislature replaced the inheritance tax with the
Massachusetts Estate Tax, G.L. c. 65C, and until the adoption
of G.L. c. 65C, §2A, the sponge tax under G.L. c. 65A remained
in effect as a minimum estate tax.
5 St. 1992, c. 133, §419
4

596a

dates of death occurring after June 30, 1994, the
marital deduction was no longer limited to 50% of
the Massachusetts Adjusted Gross Estate, as it was
prior to July 1, 1994.
From January 1, 1997 to December 31, 2002,
for a decedent domiciled in Massachusetts, under the
sponge tax, there was no separate calculation of the
tax from the amount reported as the credit for state
death tax on the Federal Estate Tax Return. The
credit for state death tax reported on the Federal
Estate Tax Return also was reported on the
Massachusetts Estate Tax Return.6
The Gross
Estate for the Massachusetts estate tax was the
Gross Estate reported on the Federal return. G.L.
c. 65C, §2A used the United States Internal Revenue
Code in effect on the date of death of the decedent.
The Federal government phased out the credit
for state death tax over the years 2001 to 2005. The
elimination of the credit for state death tax credit
also eliminated the Massachusetts estate tax as it
then existed. The Legislature responded to the phase
out of the state death tax credit by amending G.L.
c. 65C, §2A to its present form.7 The amendments
applied to the estates of all decedents dying on or
after January 1, 2003.8 The amendments decoupled
the Massachusetts estate tax from the Federal estate
tax by making the Massachusetts tax calculation
based upon the Code in effect on December 31, 2000,
as opposed to using the provisions of the Internal
The only variation from the Massachusetts Estate Tax being
the amount of the Credit was in the case of another state being
entitled to the Credit as well in which case the Massachusetts
tax was apportioned to account for tax paid to another state.
G.L. c. 65C, §2A(a)(i) and (ii).
7 St. 2002, c. 186, §28 and St. 2002, c. 364, §10.
8 St. 2002, c. 186, §34 and St. 2002, c. 364, §23.
6

597a

Revenue Code in effect at the date of death of the
decedent as had been the law from 1997 through
2002. The calculation of the Massachusetts estate
tax effective January 1, 2003 remained a sponge tax,
except there was no Federal credit for state death
taxes to offset the tax paid to Massachusetts or any
other jurisdiction.
B.

A SUMMARY OF A QTIP ELECTION, THE
MARITAL DEDUCTION AND OTHER
EFFECTS

The matter at issue concerns the inclusion or
exclusion of the value of a QTIP trust in the
calculation of the Gross Estate of the Decedent.
Following is a summary of the benefits,
responsibilities and technical aspects of a QTIP
election.
Generally, where on the lapse of time, on the
occurrence of an event or contingency, or on the
failure of an event or contingency to occur, an
interest passing to a surviving spouse will terminate
or fail, no marital deduction will be allowed with
respect to such interest. IRC §2056(b)(1). An
exception to this general rule is the transfer of
property that is called: "qualified terminable interest
property" ("QTIP"). QTIP means property:
1. which passes from the decedent,
2. in which the surviving spouse has a
qualifying income interest for life (Which
means: the surviving spouse is entitled to all
of the income from the property, payable
annually or more often, and no person has
power to appoint any part of the property to
any person other than the surviving spouse.),
and,

598a

3. to which an election under IRC
2056(b)(7)(B)(v) is made, Which means the
executor shall make the election on the estate
tax return and the election once made
becomes irrevocable.)
See IRC §2056(b )(7).
When a QTIP election is made, the value of
the QTIP assets are part of the marital deduction for
the estate
of the first-to-die-spouse. IRC
§2056(b)(7)(A); the surviving spouse receives the
income interest and the ability to receive all of the
interest in the assets per a power of appointment,
IRC §2056(b)(7)(B); the surviving spouse is treated
as the person transferor of the QTIP assets as
opposed to the first-to-die-spouse, IRC §2044(c); the
value of the QTIP assets are included in the
surviving spouse's gross estate and are valued as of
the date of death of the surviving spouse, IRC §2044.
There is a quid-pro-quo: the estate of the first-to-diespouse is allowed a marital deduction for assets
which would normally not qualify for the marital
deduction, and the estate of the surviving spouse is
required to include the value of the QTIP assets, at
the value as of the date of death of the surviving
spouse, in the calculation of the surviving spouse's
gross estate.
If the surviving spouse subsequently gifts the
interest in the QTIP Trust, the gift would be treated
as a gift from the surviving spouse and the entire
value of the property is treated as gifted, not just the
income interest to which the surviving spouse was
entitled. IRC §2519. The surviving spouse could also
be treated as the transferor of the property for
generation-skipping transfer tax. IRC §2652(a).

599a

The surviving spouse's estate has the ability
to recover the tax owed due to inclusion of the value
of the QTIP in the Gross Estate from the persons in
possession of those assets pursuant to IRC §2207A,
as long as the surviving spouse does not waive the
right of recovery.
Massachusetts has a statute governing estate
tax payment in the event of a QTIP election. G.L.
c. 190B, §3-9160), and the previous law G.L. c. 65A,
§5(3)9 , apportions the estate tax liability in case of a
QTIP and requires payment of the tax from the
assets making up the QTIP.
In addition to the effects that the QTIP
election has on the spouses' estate tax returns, the
QTIP election gives the remainder beneficiaries
receiving the QTIP assets a stepped-up basis at the
value on surviving spouse's date of death. IRC
§1014.
Through the QTIP election the first-to-diespouse's estate chooses to treat the surviving spouse
as transferor of the QTIP property, in addition, the
election
creates
lights,
characteristics
and
responsibilities in the QTIP assets that are
consistent with ownership of the assets by the
surviving spouse. The surviving spouse's estate has
rights to recover for taxes apportioned; the value of
the basis of the transferred property is the value at
the date of death of the surviving spouse, not the
first spouse to die; any transfer of the surviving
spouse's income interest without consideration will
trigger a gift, and possibly a generation skipping, tax
to the surviving spouse on the entire value of the
QTIP assets.
G.L. c. 65A, §5 was repealed, St. 2008, c. 521, §1, and replaced
by G.L. c. 190B, §3·916, St. 2008, c. 521, §9.
9

600a

At the death of the surviving spouse, there is
a transfer of the beneficial interests in the QTIP
property from the surviving spouse to the remainder
beneficiaries. There is a transfer at the death of the
surviving spouse and it is by statute and election a
transfer from the surviving spouse.
C.

ASSESSMENT OF THE MASSACHUSETTS
ESTATE TAX UNDER G.L. c. 65C, §2A

For a date of death of August 14, 2011, G.L.
c. 65C, §2A, provided, in relevant part, as follows:
(a) A tax is hereby imposed upon the transfer
of the estate of each person dying on or after
January 1, 1997 who, at the time of death,
was a resident of the commonwealth. The
amount of the tax shall be the sum equal to
the amount by which the credit for state death
taxes that would have been allowable to a
decedent's estate as computed under Code
section 2011, as in effect on December 31,
2000, hereinafter referred to as the "credit",
exceeds the lesser of: ...
(e) For the estate of decedents dying on or
after January 1, 2003, all references and
provisions in this chapter to the Internal
Revenue Code or Code, unless the context
clearly indicates otherwise, shall be to the
Code as in effect on December 31, 2000.
The calculation of the Credit begins with the
determination of the Gross Estate as defined by
Internal Revenue Code or Code as in effect on
December 31, 2000, in IRC §2031, which began as
follows:
(a) General. - The value of the gross
estate of the decedent shall be determined by

601a

including to the extent provided in this part,
the value at the time of his death of all
property, real or personal, tangible or
intangible, wherever situated.
The Gross Estate included the value of
property for which a QTIP trust, or trusts, was
elected in the estate of the first-to-die-spouse. IR.C
§2044, as in effect on December 31, 2000, provided in
relevant part that:
(a) General rule. - The value of the
gross estate shall include the value of any
property to which this section applies in which
the decedent had a qualifying income interest
for life.
(b) Property to which this section
applies. - This section applies to any property
if (1) a deduction was allowed with
respect to the transfer· of such property to the
decedent (A) under section 2056 by reason of
subsection (b )(7) thereof, ...
After determination of the Gross Estate,
allowable deductions are subtracted to determine the
Taxable Estate. IRC §2051. To calculate the Credit,
$60,000.00 is subtracted from the Taxable Estate to
determine the Adjusted Taxable Estate and the
Credit is calculated per a table of dollar amounts
and additional percentages. IRC §2011(b).
The Estate reported a Gross Estate to the IRS
on the Federal Return in the amount of $15,633,617.
(A.F. 14 and Ex. 3 on the first page at Part 2 - Tax
Computation Line 1.) The Estate reported a Gross
Estate to the Commissioner in the amount of
$2,382,148. (A.F. 13 and Ex 2 on the second page at

602a

Part 1, Line 1.) The Estate calculated the
Massachusetts estate tax as required, except for one
item. The Estate did not include the value of the
QTIP Trust in the calculation of the Gross Estate on
the Massachusetts Return. The value of the QTIP
Trust was $13,251,469. (A.F. 15.) The difference
between including the QTIP Trust in the Gross
Estate and excluding the QTIP Trust from the Gross
Estate is $1,809,141.88 in tax. (See A.F. 3 and 12.)
IV. ARGUMENT
As discussed below, G.L. c. 65C; §2A requires
the inclusion of the value of the QTIP Trust in the
calculation of the Massachusetts estate tax and the
statute is constitutional.
A.

THE VALUE OF THE QTIP TRUST
BELONGS IN THE CALCULATION OF THE
MASSACHUSETTS ESTATE TAX

Since the Decedent was domiciled in
Massachusetts, and the Estate did not file an estate
tax return with any other state, the Massachusetts
estate tax "shall be the sum equal to the amount by
which the credit for state death taxes that would
have been allowable to a decedent's estate as
computed under Code section 2011, as in effect on
December 31, 2000" G.L. c. 65C, §2A(a). The
calculation only requires the calculation of the
Federal credit for state death taxes. There are no
other provisions of G.L. c. 65C, §2A, no other laws,
and no facts, which would reduce the amount of the
tax as claimed by the Estate. There is no basis for
the exclusion, exemption or deduction of the value of
the QTIP Trust from the calculation of the
Massachusetts estate tax.

603a

When interpreting a statute, "[s]tatutory
language is the principal source of insight into
legislative purpose." Commonwealth v. Lightfoot,
391 Mass. 718, 720 (1984). "[W]here the language of
a statute is plain there is no room for speculation as
to its meaning or its implication. The Legislature
must be presumed to have meant what the words
plainly say, and it must be presumed the Legislature
knew the preexisting law and decisions of this
court." Condon v. Haitsma, 325 Mass. 371 373
(1950). "A taxing statute should receive a practical
construction. [Citations omitted.] (Where no
ambiguity in tax statute appears, rule of resolving
all doubts in favor of taxpayer does not arise.)" Page
v. Commissioner of Revenue, 389 Mass. 388, 392
(1983).
There is no ambiguity in G.L. c. 65C, §2A(a).
The amount of the credit for state death truces
allowable to the Decedent in this matter at issue
includes the value of the QTIP Trust.
B.

G.L. c. 65C, §1(F) DOES NOT APPLY TO G.L.
c. 65C, §2A

The Estate suggests that G.L. c. 65C, § 1(f)10
which defines "Massachusetts gross estate", provides
10

G.L. c. 65C, §1(f)provides:
(f) "Massachusetts gross estate", the federal gross
estate, whether or not a federal estate tax return is
required to be filed, plus the value of any property (i) in
which the decedent had at death a qualifying income
interest for life described in ·subsection (c) of section
three A, or to the extent of any such interest therein of
which the decedent has at any time made a transfer, by
trust or otherwise under any circumstances which
would require the property to be included in the gross

604a

statutory support for its exclusion of the value of the
QTIP Trust from its calculation of the
Massachusetts estate tax. The Estate's argument is
flawed. There is no mention of "Massachusetts gross
estate" in G.L. c. 65C, §2A. If the Legislature
intended to include "Massachusetts gross estate" as
a factor in the calculation of the Massachusetts
estate tax, it would have specified it in the enabling
legislation.
There is no ambiguity in the language of the
statute. G.L. c. 65C, §2A refers only to the "the credit
for state death taxes that would have been allowable
to a decedent's estate as computed under Code
section 2011, as in effect on December 31, 2000" and
"all references and provisions in this chapter to the
Internal Revenue Code or Code, unless the context
clearly indicates otherwise, shall be to the Code as in
effect on December 31, 2000."
G.L. c. 65C, §2A uses the United States
Internal Revenue Code as the starting point of the
calculation of the Massachusetts tax and does not
provide for a Massachusetts modification of the
"Code". In Boston Safe Deposit & Trust Co. v.
estate under the provisions of this chapter and (ii) for
which a deduction, as allowed for Massachusetts estate
tax purposes with respect to the transfer of such
property to the decedent; and less the value of real and
tangible personal property having an actual situs
outside the commonwealth. The Massachusetts gross
estate shall not include the value of any property in
which the decedent had a qualifying income interest for
life which is not otherwise includible in the
Massachusetts gross estate under the first sentence of
this paragraph, notwithstanding the right of the
executor of the decedent' estate to recover federal or·
Massachusetts estate taxes from such property.
[Emphasis added.]

605a

Commissioner of Revenue, 406 Mass. 195 (1989), the
Supreme Judicial Court held that the reference to
''Code" in the statute in that case clearly referred to
only the Federal statute. The Court declined to read
in a Massachusetts taxation factor where there was
no such language in the statute. The Court stated:
Had the Legislature chosen to include such a
modification [, i.e. include a Massachusetts
taxation factor] in the calculation of the ... tax,
it could have made its intentions clear.
Id. at 198.
The same is true of the statute at issue. The
Legislature clearly intended that the Massachusetts
estate tax for a death occurring in the year 2011 be
based upon the Internal Revenue Code as in effect
on December 31, 2000. There is no language in G.L.
c. 65C, §2A modifying the word "Code" that provides
for the Estate's calculation of the tax at issue, which
excludes the value of assets that are included in the
Federal Gross Estate of the return filed with the
IRS. G.L. c. 65C, §2A requires the inclusion of all
assets reported in the Federal gross estate.
C.

THE EXCLUSION OF THE QTIP TRUST
FROM THE GROSS ESTATE WOULD BE A
RADICAL CHANGE TO THE STATUTE
THAT IS NOT MANIFESTED IN THE
AMENDMENT

The Estate's argument leads to a change in
the calculation of the Massachusetts estate tax that
is not contemplated in the amended statute. A rule
of statutory interpretation is that "[a] statute should
not be interpreted to 'require a radical change ... in
the existing law [if] the act does not manifest any
intent that such a change should be effected." In the

606a

Matter of Segal, 430 Mass. 359, 363 (1999), quoting
Dexter v. Commissioner of Corporations & Taxation,
316 Mass. 31, 38 (1944).
Prior to the amendment of G.L. c. 65C, §2A, which
was the statue in effect from January 1, 1997 to
December 31, 2002, G.L. c. 65C, §2A(a) provided:
(a) A tax is hereby imposed upon the transfer
of the estate of each person dying on or after
January 1, 1997 who, at the time of death,
was a resident of this Commonwealth. The
amount of this tax is a sum equal to the
amount by which the credit for state death
taxes allowable to a decedent's estate under
Code section 2011, as in effect as of the date of
death of the decedent, hereinafter referred to
as the "credit", exceeds the lesser of: ...
[Emphasis added.]
From January 1, 2003 to the Decedent's date
of death, G.L. c. 65C, §2A(a) provided:
(a) A tax is hereby imposed upon the transfer
of the estate of each person dying on or after
January 1, 1997 who, at the time of death,
was a resident of the commonwealth. The
amount of the tax shall be the sum equal to
the amount by which the credit for state death
taxes that would have been allowable to a
decedent's estate as computed under Code
section 2011, as in effect on December 31,
2000, hereinafter referred to as the "credit",
exceeds the lesser of: ... [Emphasis added.]
These changes to the statute made little
change to the calculation of the tax. Prior to January
1, 2003, the tax calculation was "the credit for state
death taxes allowable to a decedent's estate under
Code section 2011", and the amended, the decoupled,

607a

Massachusetts estate tax calculation was "the credit
for state death taxes that would have been allowable
to a decedent's estate as computed under Code
section 2011". The only difference in the tax
calculation was the year in which the Code was in
effect. Prior to January 1, 2003, it was the Code "in
effect as of the date of death of the decedent"; after
December 31, 2002, it was the Code in effect on
December 3], 2000." The Code in both of these time
periods included IRC §2044 and included the value
of any QTIP property in the calculation of the Gross
Estate of the surviving spouse.
If the Legislature intended to limit the items
included in the Gross Estate of the surviving spouse,
it could have made it clear in the statute. The only
significant change to the statute was to fix the year
the Code was in effect; the Board should not read
into the statute an intention to radically change the
tax calculation beyond the expressed change.
D.

A TRANSFER OF THE QTIP ASSETS
OCCURS AT DEATH OF THE SURVIVING
SPOUSE

The Estate argues that the transfer of the
property occurs when the first spouse dies, not when
the surviving spouse dies. This argument ignores the
effect of the QTIP election by the estate of the first
spouse to die and the statutory scheme. By statute,
and by the election of the estate of the first-to-diespouse, the QTIP election results in the property of
the QTIP trust being treated as passing from the
surviving spouse's estate. IRC §2044(c). The executor
of the estate of the first-to-die-spouse makes an
irrevocable choice to elect QTIP treatment. IRC
§2056(b)(7)(B)(v). Once the election is made, IRC
§2044(c) provides:

608a

For the purposes of this chapter and Chapter
13, property includible in the gross estate of
the decedent under subsection [2044](a) shall
be treated as property passing from the
decedent.
The QTIP election not only provides the estate
of the first spouse to die with the benefit of a delay of
the tax, it confers responsibilities on the surviving
spouse and the surviving spouse's estate that are
consistent with ownership of the QTIP property. The
QTIP election also changes the relationship between
the first-to-die-spouse's estate and the remainder
beneficiaries by changing the date for determination
of the remainder beneficiaries' basis from that date
of death of the first spouse to die to the date of death
of the surviving spouse. The QTIP election also gives
the estate of the surviving spouse rights to
contribution towards payment of estate taxes, wider
both Federal and Massachusetts law.
The QTIP election has gift tax consequences
for the surviving spouse. Any attempt to transfer the
surviving spouse's income interest in the QTIP
property, by gift or for inadequate consideration,
triggers a gift tax. IRC §2519. In Revenue Ruling 988 (Copy attached as Appendix B.), the IRS describes
how an attempt to escape estate taxation on the
value of the QTIP assets through a complicated
series of transactions resulted in a gift tax, not in the
reduction of the assets included in the gross estate of
the surviving spouse through an alleged sale of the
remainder assets. The transactions were an attempt
to reduce the gross estate of the surviving spouse, by
transferring the surviving spouse's income interest
from the QTIP assets. The consideration was
determined to be for less than adequate and full
consideration. There can be no transfer of the assets
609a

out of the surviving spouse's estate, which does not
replace the full value of the transferred assets, with
assets of the same value. In the Revenue Ruling, the
transaction were found to be for less than full and
adequate consideration, and resulted in gift tax
consequences.
In some cases, the QTIP election has
generation skipping tax consequences. In the
absence of an election pursuant to IRC §2652(a)(3),
by the first spouse to die to not treat the QTIP
election as having been made, the surviving spouse
is treated as the transferor of the property for
generation-skipping transfer tax. IRC §2652(a). See
also Rev. Proc. 2001-38. (Copy attached as Appendix
C.)
The QTIP election changes the relationship
between the first-to-die-spouse and the remainder
beneficiaries. Due to the fact the that the QTIP
Trust assets transfer at the surviving spouse's date
of death and are included in the surviving spouse's
gross estate, the assets of a QTIP trust receive a
stepped-up basis at the value on surviving spouse's
date of death. IRC § 1014. If the transfer occurred on
the date of the first-to-die-spouse, the basis of the
property would be the fair market value of the
property on the date of death of the first-to-diespouse. IRC §1014(a)(1). The QTIP election gives the
remainder
beneficiaries
the
advantage
of
appreciation of the value of the assets to the value at
the death of the surviving spouse. IRC §1014(a)(10).
The remainder beneficiaries receive the basis that
they would receive if the property had passed
directly from the surviving spouse, as if the
surviving spouse had been the owner of the QTIP
Trust property.

610a

The QTIP election gives the estate of the
decedent
rights
under
both
Federal
and
Massachusetts law to seek appo1tionment and
payment of the estate tax owed due to the inclusion
of the QTIP assets in the Gross Estate of the
surviving spouse. IRC §2207A entitles the surviving
spouse's estate to recover taxes paid on account of
inclusion of the QTIP property in the Gross Estate.
However, the surviving spouse may waive that
entitlement. This provision is similar to other
provisions for contribution towards payment of the
estate tax by persons: receiving life insurance
benefits,11
powers
of
appointment,12
assets
transferred from the decedent with retained
interests,13 under Federal law. Under G.L. c. 190B,
§3-916, the surviving spouse's estate may seek
apportionment and collection of funds to pay the
Massachusetts and Federal estate taxes from
persons in possession of property included in the
Gross Estate of the surviving spouse, but not in the
possession and control of the estate.
The QTIP election brings about more than
just a deferral of tax. It creates new relationships
between the property and the parties involved in the
transaction.
In Morgens v. Commissioner of Internal
Revenue, 678 F. 3d 769, 776, footnote 7 (2012), when
addressing the taxpayer's argument that the QTIP
property belonged to the first spouse to die and not
the surviving spouse, the U.S. Appeals Court stated:
This argument ignores the underlying premise
of the QTIP regime, that the entire QTIP
IRC §2206
IRC §2207
13 IRC §2207B
11
12

611a

property, rather than just the income interest,
is deemed to pass to, and then from, the
surviving spouse. Thus, the two spouses are
treated as a single economic unit with respect
to the QTIP property while still allowing the
first-to-die-spouse to control the eventual
disposition of the property. The Estate cannot
first use that favorable tax deferral (the §2056
marital deduction) and then claim that the
property never actually passed to [the
surviving spouse].
In its Abatement Application (Ex. 9), the
Estate argued that the transfer occurred upon the
death of the first-to-die-spouse rather than at the
death of the surviving spouse. The Estate relied on
the Washington State case of In Re Estate of
Bracken, 175 Wash 2d 549 (2012) for this argument.
This case had similar facts to the matter at issue.
The estates of the first-to-die-spouses had made
Federal QTIP elections, but had not made
Washington State QTIP elections, because there was
no Washington estate tax when the first-to-diespouses had passed away.14 The Washington State
tax authorities assessed estate taxes against the
surviving spouse's estates, based upon the inclusion
of the value·of the QTIP assets in the Washington
State Gross Estates of the swvivi.ng spouses. The
The State of Connecticut Supreme Court is currently
deciding a case with closer facts to the matter at issue than the
Washington State cases. In this Connecticut case, the first-todie-spouse was domiciled in Florida and the surviving spouse
then moved to Connecticut. This Connecticut case is still
pending before the Court. It is: Estate of Brooks v. Sullivan,
Connecticut Supreme Court Docket No. SC 19577. (A copy of
the online Docket Sheet is Appendix D.) The trial court found
for the Connecticut Commissioner of Revenue. See, 2015 Conn.
Super. Lexis 950. (A copy of the Decision is Appendix E.)
14

612a

Washington Supreme Court in Bracken found that
the transfer of the QTIP trust assets had occurred at
the death of the first-to-die-spouses. The Court found
that the legislature did not intend to measure the
tax on the QTIP trust assets for which a Washington
estate tax marital deduction had not been made.
The Bracken decision was superseded by
legislation in Washington State. The Washington
legislature passed a bill that made it clear that the
Washington estate tax statute included any QTIP
assets in the surviving spouse's Federal gross estate.
The Washington Supreme Court addressed the
clarified statute in Estate of Hambleton v. The
Department of Revenue, 181 Wash. 2d 802 (2014);
2014 Wash. Lexis 773 (U.S. Supreme Court
ce1tiorari denied 2015 U.S. Lexis 6490 (U.S.,·Oct.
13, 2015).
In Hambleton at 832-833, the Washington
Supreme Court found that there was a transfer from
the surviving spouse. The Court stated:
¶59 A tax is an "excise" or "transfer" tax if the
government is taxing "a particular use or
enjoyment of property or the shifting from one
to another of any power or privilege incidental
to the ownership or enjoyment of property.
Fernandez [v. Wiener], 326 U.S. [340] at 352
[1945)]. An estate tax is an excise tax because
the tax is not levied on the property of which
an estate is composed. Rather it is imposed
upon the shifting of economic benefits and the
privilege of transmitting or receiving such
benefits."
West
(v.
Oklahoma
Tax
Commission], 334 U.S. [717] at 727 [1948].
¶60 Transfers are broadly construed at death
under federal estate tax law the system on

613a

which the Act is based. For example, the
United States Supreme Court stated:
[T]he [federal] estate tax as originally
devised and constitutionally supported
was a tax upon transfers. But the power
of Congress to impose death taxes is not
limited to the taxation of transfers at
death. It extends to the creation,
exercise, acquisition, or relinquishment
of any power or legal privilege which is
incident to the ownership of property,
and when any of these is occasioned by
death, it may as readily be the subject
of the federal tax as the transfer of the
property at death.
Fernandez, 326 U.S. at 352 (citations
omitted). The First Circuit Court of Appeals
has stated that the estate tax is not "in a strict
sense a tax upon a 'transfer' of the property by
the death of the decedent. It is an excise tax
upon the happening of an event, namely,
death: where the death brings about certain
described changes in legal relationships
affecting
property."
Chickering
v.
Commissioner, 118 F.2d 254, 257-58 (1st Cir.
1941).
¶61 Following these general principles, taxing
QTIP assets upon the death of a surviving
spouse qualifies as an excise tax. The
surviving spouse had the economic benefit of
using the income from QTIP assets during his
or her life. And, upon the surviving spouse's
death, the remainder beneficiaries of the trust
gained a present interest in the assets and
income. The death of the surviving spouse

614a

brought about "changes in legal relationships
affecting property. " Id. . ..
By making the QTIP election, the estate of the
first-to-die-spouse elected to have the surviving
spouse treated as the owner of the property that
qualifies for QTIP treatment. The QTIP election not
only creates a deduction in the estate of the first-todie-spouse and obligation to report in the surviving
spouse's estate, it also grants benefits and
responsibilities to the surviving spouse and
remainder beneficiaries that are consistent with
ownership by the surviving spouse. The Decedent
was the transferor of the QTIP property.
E.

THE STATUTE IS CONSTITUTIONAL

1.

The Domicile of the Decedent Provides the
Constitutional Basis for Inclusion of the Value
of the QTIP Trust in the Gross Estate of the
Decedent.

The Estate claims the tax at issue violates due
process of law as provided in the Fourteenth
Amendment of the U.S. Constitution and Article X of
the Massachusetts Constitution because the
Commonwealth in taxing a transaction that occurs
outside of its borders. Even if the statute can be
applied in an unconstitutional manner, it must be
upheld if it can be applied in a constitutional
manner. "[W]here a statute may be construed as
either
constitutional
or
unconstitutional,
a
construction will be adopted which avoids an
unconstitutional interpretation." Demetropolos v.
Commonwealth, 342 Mass. 658,660 (1961). See also,
Ferguson v. Commissioner of Corporations and
Taxation, 316 Mass. 318, 322 (1944) and Kennedy v.
Commissioner of Corporations and Taxation, 256
Mass. 426, 430 (1926).

615a

The Decedent was domiciled in Massachusetts
at her death and all of the property in the QTIP
Trust was intangible personal property. Domicile
provides sufficient nexus to calculate the estate tax
based upon the amount of the Federal gross estate.
"From the beginning of our constitutional system
control over the person at the place of [her] domicile
and [her] duty there, common to all citizens, to
contribute to the support of government have been
deemed to afford an adequate constitutional basis for
imposing on [her] a tax on the use and enjoyment of
rights in intangibles measured by their value."
Curry v. McCanless, 307 U.S. 357,366 (1938). See
also Page v. Commissioner of Revenue, 389 Mass.
388, 393 (1983). At the Decedent's death, the QTIP
benefits transferred from the Decedent to the
remainder beneficiaries. There is no due process
violation in an excise tax based on the transfer from
the Decedent.
Both the U.S. Supreme Court and the
Massachusetts Supreme Judicial Court hold that if
the person or the assets of the person receive the
benefits and protections of the jurisdiction of the
person's domicile and/or the jurisdiction, that
jurisdiction may levy inheritance/estate taxes with
respect to the intangible assets.
(State
of
decedent's
domicil
may
constitutionally impose estate tax on
securities held by trustees in another State).
We decline to interpret art. 10 [Part 1, Article
X of the Massachusetts Declaration of Rights]
more broadly than its Federal counterpart in
this context.

616a

Page v. Commissioner of Revenue, 389 Mass. 388,
393 (1983), citing Curry v. McCanless, 307 U.S. 357,
370-374 (1939).
G.L. c. 190B, §3-916 is an example of how
Massachusetts law protects the Estate with respect
to the Federal and Massachusetts tax consequences
of the QTIP election. G.L. c. 190B, §3-9160)
apportions estate taxes with respect to QTIP
property. G.L. c. 190B, §3-916(d) allows for the
recovery of the apportioned tax from persons who
receive property included in the Gross Estate.15
During
the time she was domiciled in
Massachusetts, the Decedent received the protection
of Massachusetts laws, including laws that protected
her rights with 'respect to her income distributions
from the QTIP Trust. The Decedent enjoyed the
protection of Massachusetts laws and as a result was
a person obligated to contribute to the expenses of
the Commonwealth.
The Estate properly included the QTIP Trust
value in the Gross Estate for the calculation of its
Federal estate tax. (See A.F. 15.) The U.S. Supreme
Court recognizes that the estate tax can apply to a
broad range of transactions.
[T]he power of Congress to impose death taxes
is not limited to the taxation of transfers at
death. It extends to the creation, exercise,
acquisition, or relinquishment of any power or
legal privilege which is incident to the
ownership of property, and when any of these
The Commonwealth would be able to enforce its
apportionment against a New York trust through the operation
of New York Estate Law c. 124, §124.017, through reciprocity
because of G.L. c. 190B, §3-916(h). (A copy of New York Estate
Law c. 124, is attached under Appendix F.)
15

617a

is occasioned by death, it may as readily be
the subject of the federal tax as the transfer of
the property at death.
Fernandez v. Weiner, 326 U.S. 340, 352 (1945).
The Massachusetts Constitution also grants
broad powers to lay excise taxes on death of the
owner.
The language of the Constitution of
Massachusetts is general and may well be
held to authorize the laying of excises upon all
such gainful employment and privileges as are
created or may be regulated by law, and
commonly have been considered legitimate
subjects of taxation on other States and
countries. We are of the opinion the privilege
of transmitting or receiving by will or descent
property on the death of the owner is a
commodity with the meaning of this word in
the Constitution, and that an excise may be
laid upon it.
Minot v. Winthrop, 162 Mass. 113, 122 (1894), which
concerned inheritance tax. See also Frost v.
Commissioner of Corporations and Taxation, 363
Mass. 235, 253- 254 (1972), which concerned the
sponge tax, G.L. c. 65A, §1.
As discussed above, the assets of the QTIP Trust are
treated as passing from the Decedent due to the
election by her husband's estate to claim a marital
deduction based upon the value of the QTIP Trust.
In addition, by electing QTIP treatment for the QTIP
Trust, there are incidents of ownership in the QTIP
Trust assets that attach to the surviving spouse.
In Massa:chusetts, the Legislature has the
constitutional authority "to impose and levy,
reasonable duties and excises, upon any produce,

618a

goods, wares, merchandise, and commodities,
whatsoever, brought into, produced, manufactured,
or being within the same." Constitution of the
Commonwealth of Massachusetts, Part 2, C. 1, § 1,
Art. IV. The Supreme Judicial Court has held that
"the privilege of transmitting or receiving by will or
descent property on death of the owner, is a
commodity within the meaning of this word in the
Constitution, and that an excise may be laid upon
it." Minot v. Winthrop, at 122. While rendering an
opinion on whether the Legislature could impose an
excise tax upon the sale of shares or certificates of
stock in any domestic or foreign association,
company or corporation, the Supreme Judicial Court
stated:
we are of the opinion that the intention of the
(Constitutional] Convention was to give the
General Court of the Commonwealth, under
the Constitution, the same power of imposing
and levying imposts and excises which had
heretofore practiced in England in in the
Provinces. And we are further of the opinion
that the power of the General Court in
imposing and levying an excise duty is not less
extensive than that of Congress ... "
Opinion of the Justices, 196 Mass. 603, 617-618
(1908). This language is discussed in the Opinion of
the Justices, 408 Mass. 1201 (1990), which
concerned the imposition of sales tax on services. In
all of these discussions, citing Minot v. Winthrop, the
transfer of property at death is accepted as a proper
subject of an excise tax by the Legislature.
By making the QTIP election, the Estate of
Robert Chuckrow agreed that the Estate of Adelaide
Chuckrow would be treated as the transferor of the

619a

property in the QTIP Trust. Under both Federal and
Massachusetts law the QTIP Trust could be
compelled, at Adelaide Chuckrow's option, to
contribute to payment of the estate tax at issue. For
both Federal and Massachusetts estate tax
calculations; the value of QTIP
Trust belongs in the Gross Estate.
F.

THERE IS NO DOUBLE TAXATION IN
THIS MATTER

The Estate argues that the Massachusetts
statute risks causing double taxation. The argument
is misplaced. To the extent other states may seek to
assess an estate tax, G.L. c. 65C, §2A(a), provides a
means of apportioning the tax. In the matter at
issue, the Estate seeks to avoid all state estate taxes
calculated on the QTIP Trust. Based upon its
position that the transfer occurred in New York, one
would expect the Estate to have filed a return in
New York, but that is not the case. The Estate seeks
to avoid New York tax with the argument that the
Decedent was not domiciled in New York at her
death, so New York had no jurisdiction over her. At
the same time, the Estate claims the Decedent was
domiciled in Massachusetts, but her domicile is
insufficient reason to measure her Massachusetts
estate tax by the value of the assets in the QTIP
Trust, assets from which she had the exclusive
benefit of, during her life in Massachusetts, and that
transferred at her death.
As discussed above, even if the QTIP Trust
were included in the estate tax calculation of more
than one state, the inclusion would not be a problem
as the assets of the QTIP Trust were intangible
personal property. Curry v. McCanless, 307 U.S.

620a

357, 366 (1938). See also Page v. Commissioner of
Revenue, 389 Mass. 388, 393 (1983).
Contrary to the Estate's argument, there is no
issue of double taxation in this matter. If the value
of the QTIP Trust escapes taxation in
Massachusetts, it will not be taxed in any state.
G.

100% OF THE VALUE OF THE QTIP TRUST
IS
INCLUDIBLE
IN
THE
TAX
CALCULATION

At the time the Decedent's spouse passed,
Massachusetts only allowed a 50% marital
deduction. The fact that the Massachusetts estate
tax only had a 50% marital deduction when the firstto-die-spouse passed is irrelevant to this litigation.
The Estate of Robert Chuckrow did not file a
Massachusetts estate tax return, so there was no tax
paid to Massachusetts. Had the Decedent's spouse
paid Massachusetts estate tax and claimed a 50%
marital deduction, the Estate would have an
argument to only include 50% of the value of the
QTIP Trust in the calculation of the Massachusetts
estate tax.16 In the matter at issue, the Estate of
Robert Chuckrow claimed a 100% marital deduction
of his New York Estate Tax Return as well as a
100% marital deduction on his Federal Estate Tax
In Estate of Frances B. Markell. Lorraine R. Balkin, A
William Markell and H. Kcnneth Fish, as Executors, Petitioner,
v. Commissioner of the Massachusetts Department of Revenue,
Respondent, IN RE: Petition of Appeal From Denial of
Application for Abatement
Norfolk Probate Court Docket No. 09P 0593 PA, the Norfolk
Probate ordered the Commissioner to abate the tax related to
inclusion of the 50% of the QTIP trust for which estate tax had
been calculated in the first-to-die-spouse's Massachusetts
estate tax return. (A copy of the Decision is Appendix G.)
16

621a

Return. The Estate bas received the maximum
benefit from the QTIP election. It should not receive
a credit for a tax that it did not pay.
V. CONCLUSION
For all of the reasons stated above, the Estate
is not entitled to the requested abatement requested.
MICHAEL J. HEFFERNAN
COMMISSIONER OF REVENUE
By his attorney,
John J. Connors, Jr. (BBO# 552409)
Counsel to the Commissioner
Litigation Bureau
Department of Revenue
P.O. Box 9565
100 Cambridge Street, 7th Floor
Boston, MA 02114-9565
Phone: (617) 626-3219
Fax: (617) 626-3245
Email: connors@dor.state.ma.us

622a

APPENDIX 42
M.G.L.A. 65C § 2A
§ 2A. Transfer of estate and real property; tax
Effective: July 24, 2002
(a) A tax is hereby imposed upon the transfer of the
estate of each person dying on or after January 1,
1997 who, at the time of death, was a resident of the
commonwealth. The amount of the tax shall be the
sum equal to the amount by which the credit for
state death taxes that would have been allowable to
a decedent’s estate as computed under Code section
2011, as in effect on December 31, 2000, hereinafter
referred to as the “credit”, exceeds the lesser of:
(i) the aggregate amount of all estate, inheritance,
legacy and succession taxes actually paid to the
several states of the United States, other than the
commonwealth, in respect to any property owned by
that decedent or subject to those taxes as part of or
in connection with his estate; or
(ii) an amount equal to the proportion of such
allowable credit as the value of properties taxable by
other states bears to the value of the entire federal
gross estate wherever situated.
(b) A tax is hereby imposed upon the transfer of real
property situated in this Commonwealth and upon
tangible personal property having an actual situs in
this Commonwealth of every person who at the time
of his death was not a resident of this
Commonwealth. The amount of this tax is a sum
equal to the proportion of the credit which the value
of Massachusetts real and tangible personal
property taxed in this Commonwealth which

623a

qualifies for such credit bears to the value of the
decedent’s total federal gross estate.
(c) Notwithstanding any other provision of law, the
tax imposed by subsections (a) and (b) shall be
computed upon the value of any property subject to a
power of appointment which is includible in the
federal gross estate, notwithstanding that a tax has
been paid thereon pursuant to section fourteen of
chapter sixty-five.1
(d) For the purposes of computing the tax imposed by
subsections (a) and (b), the provisions of section
three shall not apply.
(e) For the estate of decedents dying on or after
January 1, 2003, all references and provisions in this
chapter to the Internal Revenue Code or Code,
unless the context clearly indicates otherwise, shall
be to the Code as in effect on December 31, 2000.

624a

APPENDIX 43

B

625a

Rev. Rul. 98-8; 1998-1 C.B. 541;
1998 IRB LEXIS 40, *; 1998-7 I.R.B. 24
Revenue Ruling 98-8
Rev. Rul. 98-8; 1998-1 C.B. 541; 1998 IRB, LEXIS
40; 1998-7 I.R.B. 24
February 17, 1998
SUBJECT MATTER: Section 2519.-Dispositions of
Certain Life Estates
APPLICABLE SECTIONS:
26 CFR 25.2519-1: Dispositions of certain life
estates. (Also sections 2044; 2056; 2511; 2512;
20.2044-1; 20.2056 (b)-7; 25.2511-1; 25.2512-8)
TEXT:
Disposition of qualifying income interest. If a
surviving spouse acquires the remainder interest in
a trust subject to a QTIP election under section 2056
(b) (7) of the Code in connection with the transfer by
the surviving spouse of property or cash to the
holder of the remainder interest, the surviving
spouse makes a gift under sections 2511, 2512, and
2519 of the Code.
ISSUE
What are the gift tax consequences to the surviving
spouse of the acquisition by the surviving spouse of
the remainder interest in a trust subject to a
qualified terminable interest property (QTIP)
election under &sect; 2056 (b) (7) of the Internal
Revenue Code?

626a

FACTS
The decedent, D, died in 1993 survived by S, D's
spouse. Under the terms of D's will, a trust (the
QTIP Trust) was established under which S was to
receive all of the trust income, payable at least
annually, for S's life. On S's death, the remainder
was to be distributed outright to C, D's [*2] adult
child. S was not given a general power of
appointment over the trust property.
On the federal estate tax return filed for D's estate,
the executor made an election under &sect; 2056 (b)
(7) to treat the trust property as QTIP, and a marital
deduction was allowed to D's estate for the value of
the property passing from D to the QTIP Trust.
Subsequently, S, C, and the trustee of the QTIP
Trust entered into the following transaction: (1) S
acquired C's remainder interest in the QTIP Trust;
(2) S gave C a promissory note in the face amount of
x dollars (the value of the remainder interest) for the
remainder interest; (3) the trustee distributed all of
the QTIP Trust assets (having a value of x + y
dollars) to S; and ( 4) S thereupon paid x dollars from
those assets to C In satisfaction of the promissory
note.
At the conclusion of the transaction, the QTIP Trust
was terminated; S held QTIP Trust assets having a
value of y dollars (which was equal to the value of S's
life interest In the trust); and C held assets having a
value of x dollars (which was equal to the value of
the remainder interest in the trust). S contended
that the transaction was not subject to gift tax
because S received full [*3] and adequate
consideration (the x dollar remainder interest in the
QTIP Trust) in exchange for the x dollar promissory
note given by S TO C.

627a

LAW AND ANALYSIS
Section 2044 (a) provides that the value of the gross
estate includes the value of any property described
in &sect; 2044 (b) in which the decedent had a
qualifying income interest for life. Section 2044 (b)
provides that &sect; 2044 applies to any property if a
deduction was allowed with respect to the transfer of
the property to the decedent under &sect; 2056 (b)
(7).
Section 2056 (a) provides that the value of the
taxable estate is, except as limited by &sect; 2056
(b), determined by deducting from the value of the
gross estate an amount equal to the value of any
interest in property that passes or has passed from
the decedent to the surviving spouse.
Under &sect; 2056 (b) (1), if an interest passing to
the surviving spouse will terminate, no deduction is
allowed with respect to such interest if, after
termination of the spouse's interest, an interest in
the property passes or has passed (for less than an
adequate and full consideration in money or money's
worth) from the decedent to any person other than
the surviving spouse (or the estate of such spouse).
Section 2056 (b) (7) (A) [*4] provides that qualified
terminable interest property, for purposes of &sect;
2056 (a), is treated as passing to the surviving
spouse, and no part of such property is treated as
passing to any person other than the surviving
spouse. In general, qualified terminable interest
property is property in which the spouse receives a
qualifying income interest for life and with respect to
which the executor makes an election to treat the
property as QTIP.

628a

Section 2511 (a) provides that the gift tax applies
whether the transfer is in trust or otherwise,
whether the gift is direct or indirect, and whether
the property is real or personal, tangible or
intangible.
Section 2512 (b) provides that where property is
transferred for less than an adequate and full
consideration in money or money's worth, the
amount by which the value of the property exceeds
the value of the consideration is deemed a gift.
Section 2519 (a) provides that any disposition of all
or part of a qualifying income interest for life in any
property to which the section applies is treated as a
transfer of all interests in the property other than
the qualifying income interest. Section 2519 (b)
provides that the section applies to any property [*5]
if a deduction was allowed with respect to the
transfer of such property to the donor under &sect;
2056 (b) (7).
The estate tax marital deduction provisions are
intended to provide a special tax benefit that allows
property to pass to the surviving spouse without the
decedent's estate paying tax on its value. Tax is
deferred on the transfer until the surviving spouse
either dies or makes a lifetime disposition of the
property: Under either circumstance, a transfer
(estate or gift) tax is paid. United States v. Stapf,
375 U.S. 118, 128 (1963), 1964-1 (Part 1) C.B. 535,
537; Estate of Clayton v. Commissioner, 976 F.2d
1486, 1491 (5th Cir. 1992); Estate of Letts v.
Commissioner, 109 T,C. 290 (1997), ("It is a basic
policy of the marital deduction that property that
passes untaxed from a predeceasing spouse to a
surviving spouse is included in the estate of the
surviving spouse.")

629a

The statutory scheme of the QTIP provisions is
consistent with this congressional Intent. Thus, a
marital deduction is allowed under &sect; 2056 (b)
(7) for property passing from a decedent to a QTIP
trust in which the surviving spouse possesses a
lifetime income interest. Sections 2519 and 2044 act
to defer the taxable event [*6] on the marital
deduction property only so long as the surviving
spouse continues to hold the lifetime Income
Interest.
Under &sect; 2519, if a surviving spouse disposes of
any part of the qualifying income interest, the
spouse is treated as making a gift of the remainder
interest in the underlying property (i.e., all interests
in the property other than the income interest).
Correspondingly, under &sect; 2511, the disposition
of the income interest by the spouse is treated as a
gift, to the extent the income interest is transferred
to another for less than adequate consideration. The
term "disposition," as used in &sect; 2519, applies
broadly to circumstances in which the surviving
spouse's right to receive the income is relinquished
or otherwise terminated, by whatever means. See H.
Rep. No. 201, 97th Cong., 1st Sess. 161 (1981) that
states:
The bill provides that property subject
to a [QTIP election] will be subject to
transfer taxes at the earlier of (1) the
date on which the spouse disposes
(either by gift, sale, or otherwise) of all
or part of the qualifying income
interest, or (2) upon the spouse's death.
A commutation, which is a proportionate division of
trust property between the life beneficiary [*7] and
remainderman based on the respective values of

630a

their interests is, in the context of a QTIP trust, a
taxable disposition by the spouse of the qualifying
income interest, resulting in a gift under &sect; 2519
of the value of the remainder- interest. The
commutation of the spouse's income interest in the
QTIP trust is essentially a sale of the income
interest by the spouse to the trustee (or the
remainderman) in exchange for an amount equal to
the value of the income interest. Sales and
commutations are expressly characterized as
dispositions in the applicable legislative history and
regulations. Section 25.2519-1 (g), Example 2
(illustrating that the safe by the spouse of the
spouse's income interest to the trust remaindermen
is a disposition of the income interest); &sect;
25.2519-1 (f) providing that "[T]he sale of qualified
terminable interest property, followed by the
payment to the donee-spouse of a portion of the
proceeds equal to the value of the donee-spouse's
income interest, is considered a disposition of the
qualifying income interest". See also, Estate of
Novotny v. Commissioner, 93 T.C. 12 (1989), in
which the surviving spouse and remainderman
divided the sale proceeds of QTIP property [*8]
proportionately on the basis of the respective values
of their interests; the court indicated that the
commutation constituted a disposition by the spouse
of the income interest for purposes of &sect; 2519
and was thus subject to gift tax.
There is little distinction between the sale and
commutation transactions treated as dispositions in
the regulations and the transaction presented here,
where S acquired the remainder interest. In both
cases, after the transaction the spouse's income
interest in the trust is terminated and the spouse
receives outright ownership of property having a net

631a

value equal to the value of the spouse's income
interest. Similarly, the remainderman receives
ownership of property equal in value to the
remainder interest. Thus, the transaction in the
instant case essentially effectuates a commutation of
S's income interest in the trust, a transaction that is
a disposition of S's income interest under &sect;
2519. Therefore, under &sect; 2519, S is regarded as
making a gift of x dollars, the value of the remainder
interest in the QTIP Trust. Section :25.2519-1 (f).
This conclusion that S has made a gift is also
supported by an additional analysis. S acquired an
asset (the remainder [*9] interest in the QTIP Trust)
that is already subject to inclusion in S's transfer tax
base under &sect; 2044. In analogous situations, the
courts have recognized that the receipt of an asset
that does not effectively increase the value of the
recipient's gross estate does not constitute adequate
consideration for purposes of the gift and estate tax.
See Commissioner v. Wemyss, 324 U.S. 303, 307, 89
L. Ed. 958, 65 S. Ct. 652, 1945 C.B. 416 (1945), 1945
C.B. 416, ("The section taxing as gifts transfers that
are not made for "adequate and full [money]
consideration" alms to reach those transfers which
are withdrawn from the donor's estate.")
A companion case to Commissioner v. Wemyss,
Merrill v. Fahs, 324 U.S. 308, 89 L. Ed. 963, 65 S.
Ct. 655, 1945 C.B. 418 (1945)1 1945 C.B. 4181 and
the cases that preceded it, involved situations where
A, an individual, transferred property to B, A's
spouse (or future spouse), in exchange for B's
relinquishment of marital rights in A's property. The
Court held that B's relinquishment of the marital
rights did not constitute adequate and full
consideration for A's transfer because the assets
subject to the marital rights were already includible
632a

in A's taxable [* 10] estate. The property subject to
dower and marital rights is clearly included in the
gross estate of the property owner. Thus, to conclude
that the relinquishment of dower and marital rights
by the spouse of the property owner constituted
adequate and full consideration for a transfer by the
property owner for gift tax purposes would
effectively subvert the legislative intent and
statutory scheme of the gift tax provisions. Merrill v.
Fahs, at 311-312. See also, Commissioner v. Bristol,
121 F.2d 129, 136 (1st Cir. 1941).
Likewise, in the present situation, property subject
to the QTIP election was intended to be subject to
either gift or estate tax. S's receipt of the remainder
interest does not increase the value of S's taxable
estate because that property is already subject to
inclusion in S's taxable estate under &sect; 2044.
Rather, S's issuance of the note results in a depletion
of S's taxable estate that is not offset by S's receipt of
the remainder interest. Thus, for estate and gift tax
purposes, S's receipt of the remainder interest
cannot constitute adequate and full consideration
under &sect; 2512 for the promissory note
transferred by S to C. As was the case in Merrill v.
Fahs, any other [*11] result would subvert the
legislative intent and statutory scheme· underlying
&sect; 2056 (b) (7). Therefore, under &sect; 2511, S
has made a gift to C equal to the value of the
promissory note S gave to C.
In addition, a gift to would be imposed under the
above alternative rationales even if S acquired only a
portion of C's remainder interest; e.g., S acquired 60
percent of C's remainder interest. If, under
applicable state law, such a transaction results in a
partial termination of the trust, s would be treated
as disposing of part of S's income interest in the
633a

trust, and the commutation analysis would apply.
See, e.g., Restatement (Second) of Trusts &sect; 340
(2) (1959). See also, &sect; 25.2519-1 (g),· Example 4,
(Illustrating the estate and gift tax consequences of
the disposition of a portion of the spouse's income
interest). If the trust does not terminate, S would
nonetheless be treated as making a transfer under
&sect;&sect; 2511 and 2512 for less than adequate
and full consideration to the extent of the value of
the property or cash S transfers in exchange for the
partial remainder interest.
Further, the conclusion of this revenue ruling would
be the same if S transferred to C property or cash
rather than the promissory [*12] note. The economic
effect of the transaction is identical, regardless
whether S uses S's own funds to finance the
transaction or gives a promissory note and
discharges the note using some of the QTIP Trust
assets received in the transaction. Thus, the result is
the same for transfer tax purposes.
HOLDING
If a surviving spouse acquires the remainder interest
in a trust subject to a QTIP election under &sect;
2056 (b) (7) in connection with the transfer by the
surviving spouse of property or cash to the holder of
the remainder interest, the surviving spouse makes
a gift both under &sect; 2519 and under &sect;&sect;
2511 and 2512. The amount of the gift is equal to the
greater of (i) the value of the remainder interest
(pursuant to &sect; 2519), or (ii) the value of the
property or cash transferred to the holder of the
remainder interest (pursuant to &sect;&sect; 2511
and 2512).

634a

DRAFTING INFORMATION
The principal author of this revenue ruling is
Deborah Ryan of the office of Assistant Chief
Counsel (Pass through and Special Industries. For
further information regarding this revenue ruling
contact Ms. Ryan on (202) 622-3090 (not a toll-free
call).

635a

APPENDIX 44

C

636a

Rev. Proc. 2001-38; 2001-2 C.B. 124;
2001 IRB LEXIS 226, *; 2001-24 I.R.8. 1335
Revenue Procedure 2001-38
Rev. Proc. 2001-38; 2001-2 C.B. 124; 2001 IRB
LEXIS 226; 2001-24 I.R.B. 1335
June 11, 2001
[*1]
APPLICABLE SECTIONS:
26 CFR 601.105: Examination of returns and claims
for refund, credit or abatement; determination of
correct tax liability. (Also Part I, §§ 2044, 2056,
2519, 2652; 20.2044-1, 20.2056 (b)-7, 25.2519-1,
26.2652-1.)
TEXT:
SECTION 1. PURPOSE
This revenue procedure provides relief for surviving
spouses and their estates in situations where a
predeceased spouse's estate made an unnecessary
qualified terminable interest property (QTIP)
election under § 2056 (b) (7) of the Internal Revenue
Code that did not reduce the estate tax liability of
the estate. This revenue procedure describes the
circumstances in which these QTIP elections will be
treated as a nullity for federal estate, gift, and
generation-skipping transfer tax purposes, so that
the property will not be subject to transfer tax with
respect to the surviving spouse.
SECTION 2. BACKGROUND
Section 2056 (a) provides that, except as limited by
§ 2056 (b) the value of a taxable estate is determined
by deducting from the value of the gross estate an

637a

amount equal to the value of any interest in property
which passes or has passed from the decedent to the
surviving spouse. Section 2056 (b) (1) denies a
marital deduction for an interest passing to the [*2]
surviving spouse that is a "terminable interest." An
interest is a terminable interest if the interest
passing to the surviving spouse will terminate or fall
on the lapse of time or on the occurrence of an event
or contingency or on the failure of an event or
contingency to occur, and on termination, an interest
in the property passes to someone other than the
surviving spouse.
Section 2056 (b) (7) (A) provides an exception to this
terminable interest rule in the case of qualified
terminable interest property. For purposes of § 2056
(a), qualified terminable interest property is treated
as passing to the surviving spouse, and no part of
the property is treated as passing to any person
other than the surviving spouse. Under § 2056 (b) (7)
(B) (1), qualified terminable interest property is
property which passes from the decedent, in which
the surviving spouse has a qualifying income
interest for life, and to which an election under
§2056 (b) (7) (B) (v) applies.
Section 2056 (b) (7) (B) (v) provides that the election
to treat property as QTIP under § 2056 (b) (7) is
made by the executor on the return of tax imposed
by §.2001. This election, once made, is Irrevocable.
Section 20.2056 (b)-7 (b) (4) (!) [*3] of the Estate Tax
Regulations provides that the QTIP election is made
on the return of tax imposed by § 2001 (or § 2101).
The term "return of tax imposed by§ 2001" means
the last estate tax return (Form 706-United States

Estate (and Generation Skipping Transfer) Tax
Return) filed by the executor on or before the due

638a

date of the return, including "extensions or, if timely
return is not flied, the first estate tax return filed
after the due date. Section 20.2056 (b)-7 (b) (4) (ii)
provides that the election, once made, is irrevocable.
A QTIP election has transfer tax consequences for
the surviving spouse. Section 2044 (a) and (b)
provides generally that the value of the gross estate
includes the value of any property in which the
decedent has a qualifying income interest for life and
with respect to which a deduction was allowed for
the transfer of the property to the decedent under §
2056 (b) (7). Under § 2519 (a) and (b), any disposition
of all or part of a qualifying income interest for life in
any property with respect to which a deduction was
allowed under § 2056 (b) (7) is treated as a transfer
of all interests in the property other than the
qualifying income interest. Further, the [*4]
surviving spouse will, in the absence of a "reverse
QTIP" election under § 2652 (a) (3), be treated as the
transferor of the property for generation-skipping
transfer tax purposes under § 265.2 (a).
The Internal Revenue Service has received requests
for relief in situations where an estate made an
unnecessary QTIP election. In some cases, a QTIP
election was made when the taxable estate (before
allowance of the marital deduction) was less than
the applicable exclusion amount under § 2010 (c).
The QTIP election was not necessary, because no
estate tax would have been imposed whether or not
the QTIP election was made. In other cases, the
decedent's will provided for a "credit shelter trust" to
be funded with an amount equal to the applicable
exclusion amount under § 2010 (c), with the balance
of the estate passing to a marital trust intended to
qualify under § 2056 (b) (7). The estate made QTIP
elections for both the credit shelter trust and the
639a

marital trust. The QTIP election for the credit
shelter trust was not necessary, because no estate
tax would have been imposed whether or not the
QTIP election was made for that trust. In these
situations, as a consequence of the unnecessary
QTIP election, [*5] the property subject to the
election would be included in the surviving spouse's
gross estate under § 2044 (a), or if that spouse
disposes of the income interest, would be subject to
gift tax under § 2519. Further, the surviving spouse
would, in the absence of a "reverse QTIP" election
under§ 2652 (a) (3), be treated as the transferor of
the property for generation-skipping transfer tax
purposes under § 2652 (a).
SECTION 3. SCOPE
This revenue procedure applies to elections under
§ 2056 (b) (7) to treat property as qualified
terminable interest property where the election was
not necessary to reduce the estate tax liability to
zero, based on values as finally determined for
federal estate tax purposes. This revenue procedure
does not apply in situations where a partial QTIP
election was required with respect to a trust to
reduce the estate tax liability and the executor made
the election with respect to more trust property than
was necessary to reduce the estate tax liablilty to
zero. This revenue procedure also does not apply to
elections that are stated in terms of a formula
designed to reduce the estate tax to zero. See, for
example, § 20.2056 (b)-7 (h), Examples 7 and 8. In
addition, this [*6] revenue procedure does not apply
to protective elections under § 20.2056 (b)-7 (c).
SECTION 4. PROCEDURE
In the case of a QTIP election within the scope of
this revenue procedure, the Service will disregard

640a

the election and treat it as null and void for purposes
of §§ 2044 (a), 2056 (b) (7), 2519 (a), and 2652. The
property for which the election is disregarded under
this procedure will not be includible in the gross
estate of the surviving spouse under § 2044, and the
spouse will not be treated as making a gift under
§ 2519 if the spouse disposes of the income interest
with respect to the property. Further, the surviving
spouse will not be treated as the transferor of the
property for generation-skipping transfer tax
purposes under § 2652 (a). To establish that an
election is within the scope of this revenue
procedure, the taxpayer must produce sufficient
evidence to that effect. For example, the taxpayer
may produce a copy of the estate tax return filed by
the predeceased spouse's estate establishing that the
election was not necessary to reduce the estate tax
liability to zero, based on values as finally
determined for federal estate tax purposes. Such
Information, including an explanation [*7] of why
the election should be treated as void under this
revenue procedure, should be submitted either with
the Form 706 filed for the surviving spouse's estate,
or with a request for a private letter ruling
submitted at any time prior to filing that Form 706.
SECTION 5. EFFECTIVE DATE
This revenue procedure is effective as of June 4,
2001, and applies to elections within the scope of this
revenue procedure, whenever made. If prior to June
4, 2001, property subject to an election within the
scope of this revenue procedure was subject to
transfer tax (for example, because the surviving
spouse has died or disposed of all or part of an
income interest), the taxpayer may file a claim for
refund provided the time prescribed by § 6511 for
filing the claim has not expired,
641a

SECTION 6. DRAFTING INFORMATION
The principal author of this revenue procedure is
Scott S. Landes of the Office of Associate Chief
Counsel (Passthroughs and Special Industries). For
further information regarding this revenue
procedure, contact Mr. Landes at (202) 622-3090 (not
a toll-free call).

642a

APPENDIX 45

D

643a

2015 Conn. Super. LEXIS 950/,*
Estate of Helen B. Brooks et al. v.
Kevin Sullivan, Commissioner of Revenue Services
CV136021058
SUPERIOR COURT OF CONNECTICUT, .JUDICIAL
DISTRICT OF NEW BRITAIN, TAX AND
ADMINISTRATIVE APPEALS SESSION AT NEW
BRITAIN
2015 Conn. Super. LEXIS 950
April 29, 2015, Decided
April 29, 2015, Filed
NOTICE: THIS DECISION IS UNREPORTED AND
MAY BE SUBJECT TO FURTHER APPELLATE
REVIEW. COUNSEL IS CAUTIONED TO MAKE AN
INDEPENDENT DETERMINATION OF THE STATUS
OF THIS CASE.
CORE TERMS: intangible, decedent, gross estate, estate
tax purposes, resident, estate tax, personal property,
surviving spouse, ownership, marital deduction, estate
tax, taxable estate, tangible, spouse, summary
judgment, taxation, fiction, dies, property situated, tax
statute, federal tax, actual situs, retroactively,
retroactive, includible, clarify, situs, matter of law,
entitled to judgment, property owned
JUDGES: [*1] Arnold W. Aronson, Judge Trial Referee.
OPINION BY: Arnold W. Aronson

644a

OPINION

MEMORANDUM OF DECISION ON PLAINTIFFS'
AND DEFENDANT'S CROSS MOTIONS FOR
SUMMARY JUDGMENT
The co-executors of the estate of Helen B. Brooks,
Dorothy B. Newberth, Nancy B. Jackman and David S.
Brooks, move for summary judgment against the
commissioner of revenue services (commissioner),
claiming that there are no genuine issues of material
fact to be decided at trial and that as a matter of law,
the plaintiffs are entitled to judgment in their favor. The
commissioner also moves for summary judgment
claiming that, as a matter of law, he is entitled to
judgment in his favor.
The decedent, Helen Brooks (Helen), died on September
22, 2009 domiciled in Connecticut. She was the widow of
Everett M. Brooks (Everett), who died domiciled in
Florida on January 31, 2000.
Prior to his death, Everett executed a last Will and
Testament (Will) in which he created a Qualified
Terminable Interest Property (QTIP) marital deduction
trust. The trust was divided into Trust A and Trust B,
both created under Article Eighth of the Will. Trust A is
entirely exempt from generation-skipping transfer taxes
and Trust B is subject to generation-skipping transfer
[*2] taxes.1
The Marital Deduction, §2056(a) of the Internal Revenue Code
(IRC), "provides that an estate may deduct the value of any interest
in property passing from the decedent to his or her surviving spouse
... to the extent such interest is included in determining the value of
the gross estate. The policy behind the marital deduction is that
property passes untaxed from a predeceasing spouse to a surviving
spouse, but is then included in the estate of the surviving spouse ...
Thus, as a general rule, the marital deduction does not eliminate
the estate tax on marital assets, but merely permits a deferral of tax
1

645a

The QTIP trust that was created in Everett's Will
provided for the benefit of Helen during her lifetime and
on her death, the trust principal was to be transferred to
Everett's children. The trust property consisted solely of
cash, publicly traded stocks and bonds owned by Everett
and transferred on his death to the QTIP trust. See ¶18
of affidavit of Attorney Herbert J. Hummers (Entry No.
111) in support of plaintiffs' motion for summary
judgment. Everett's Will granted a life use of the trust
property to Helen which provided income to Helen [*3]
during the remaining years of her life. Upon Helen's
death, the trust property, by operation of the trust
created by Everett's Will, passed automatically to
Everett's children.
Helen and Atty. Hummers were appointed as trustees of
the QTIP trust. As a trustee, Atty. Hummers was given
the power to invade the trust principal for Helen's
benefit, but never did so. See Atty. Hummers' affidavit,
¶19. Atty. Hummers was not given a general power of
appointment. Helen, as trustee, was neither given the
power to invade the trust principal nor a general power
of appointment.
In the preparation of Everett's federal estate tax return
in Florida, the estate made an election to treat the QTIP
property as qualifying for the marital deduction, the
effect of which delayed the federal estate tax due on such
property until Helen's death. Based on that election, the
QTIP property was required to be included in Helen's
federal estate tax return.2 See joint stipulation of facts
(Stip.), Entry No. 141, ¶11.
until the death of the surviving spouse." (Citation omitted.) Estate
of Kite v. Commissioner, T.C. Memo. 2013-43 (2013), p. 31.
2 As noted in Estate of Morgens v. Commissioner, 133 T.C. 402, 412
(2009), "[§]2056(b)(7) provides in pertinent part: (A) ... In the case of
qualified terminable interest property-(1) for purposes of subsection
(a), such property shall be treated as passing to the surviving

646a

Following Helen's death, her estate paid the Connecticut
estate taxes that included taxes on the QTIP property in
her Connecticut taxable estate within six months of her
death and requested an extension to file the Connecticut
estate tax return. On November 4, 2010, the plaintiffs
filed the estate's Connecticut estate tax return (Form CT
706/709) intentionally omitting the QTIP property. The
plaintiffs sought a refund of estate taxes in the amount
of $988,827 claiming that the value of Helen's estate
should have been reduced by the removal of the QTIP
trust assets.
The plaintiffs contend that the only assets in the QTIP
trust were cash, stocks and bonds and, as Intangibles,
must have been owned by the decedent in order to be
taxed by the state of Connecticut. The plaintiffs argue
that Helen was not the owner of these [*5] assets
because she only had life use of the QTIP trust assets.
The commissioner's position is that ownership of
intangibles is not an issue in this case because the
taxation of the assets of an estate of a Connecticut
resident begins with the assets contained in the federal
gross estate. Therefore, all of the assets listed in Helen's
federal estate tax return; including the intangibles in
the QTIP trust, must be listed in the Connecticut estate
tax return.
Prior to its amendment in 2013, General Statutes §12391(d)(3) provided as follows: "Property of a resident
estate over which this state has jurisdiction for estate
spouse, and (ii) [*4] for purposes of [¶](1)(A), no part of such
property shall be treated as passing to any person other than the
surviving spouse.
"Although only a life interest actually passes from the first spouse
to die to his or her surviving spouse, the entire QTIP obtains the
deferral benefit of the marital deduction and escapes inclusion in
the gross estate of the first spouse to die."

647a

tax purposes includes real property situated in this
state, tangible personal property having an actual situs
in this state and intangible personal property owned by
the decedent, regardless of where it is located."
(Emphasis added.) Subsequently, the legislature enacted
§120 of P.A. 13-247 which eliminated the words "owned
by" from the statute.
Thereafter, §12-391(d)(3) reads as follows: "For a
resident estate, the state shall have the power to levy
the estate tax upon real property situated in this state,
tangible personal property having an actual situs in this
state and intangible personal property included in the
[*6] gross estate of the decedent, regardless of where It
is located."3 (Emphasis added.)
The plaintiffs argue that the elimination of the phrase
''owned by" the decedent was a significant change in §12391(d)(3). Therefore, the plaintiffs contend that [*7] they
are entitled to judgment as a matter of law because the
QTIP property is not includible in Helen's Connecticut
taxable estate for the following reasons: (1) the assets in
the QTIP trust were not owned by Helen as required by
§12-391(d)(3) before it was amended in §120 of P.A. 13The legislative history of §120 of P.A. 13-247 shows that it was
encompassed in emergency certified bill 6706. Senator Kelly asked
the question: "Section 120, the state tax makes technical changes on
the estate tax and how it's calculated for Connecticut residents who
have an estate property in other states conforming to DRS
regulations. What exactly does that mean?'' Senator Fonfara
responded: "The language preserves the current tax treatment of
real and tangible property, which Connecticut has jurisdiction to
tax." Senator Frantz inquired: "In the description of that bill it says
it provides for both residents and nonresident estates that the state
may calculate and levy the tax to the fullest extent permitted by the
U.S. Constitution.'' Senator Fonfara responded: "Through you,
Madam President, the revision is technical and is consistent with
how we've always implemented this procedure so it doesn't change
the way Connecticut has implemented this provision previously."
3

648a

247, (2) the QTIP election pertaining to the QTIP
property was not made in Connecticut but in Florida and
(3) Connecticut does not have jurisdiction over Everett's
QTIP property or Everett's transfer of property at his
death.
The plaintiffs disregard the fact that the estate tax in
Connecticut is not governed by what happened in
Florida, but on what happens to residents who die in
Connecticut. General Statutes §12-391(c)(1)(A) defines,
for estate tax purposes, a "Connecticut taxable estate,"
with respect to the estates of decedents dying on or after
January 1, 2005, but prior to January 1, 2010, to mean
the "(i) the gross estate less allowable deductions, as
determined under Chapter 11 of the [IRC], plus (ii) the
aggregate amount of all Connecticut taxable gifts ... "
The fact that it was the executor of Everett's estate that
elected to recognize the QTIP trust in Florida does not
affect the validity of the transfer of the QTIP assets to
Helen in Connecticut. As the [*8] commissioner notes in
his brief, the start of the determination of the estate tax
of a Connecticut resident begins with Helen's federal
gross estate. See defendant's memorandum, Entry No.
133, p. 24.
The commissioner argues that the assets In the QTIP
trust, created under Everett's Will, have escaped the
payment of estate taxes In Florida, and pursuant to the
plaintiffs' argument, will also escape the Connecticut
estate tax. Although the plaintiffs agree that the same
trust assets must be included in Helen's estate for the
payment of federal estate taxes, the plaintiffs contend
that these same assets should be removed from Helen's
estate in order to escape state taxation.
The plaintiffs discount the fact that the assets in a QTIP
trust are not taxed in the estate of the spouse first-to-die
because the estate of the first-to-die spouse is allowed to

649a

take a marital deduction on the basis of a fiction that the
entire property has passed from Everett to Helen and no
part of the assets of the QTIP trust has passed to any
other person other than the surviving spouse.4
Putting aside the fiction that Helen, as the surviving
spouse, had received all of the assets contained in the
QTIP trust, the plaintiffs side-step the plain language in
§12-391(c)(3) that specifically states that the "[g]ross
estate" for Connecticut estate tax purposes "means the
gross estate, for federal estate tax purposes[,]" which in
this case, includes the assets of the QTIP trust.
As discussed above, in 2013, the legislature enacted P.A.
13-247, amending § 12-391 eliminating the term "owned
by" in favor of the language "Included in the gross estate
of the decedent ... "
The plaintiffs' reliance on the term "owned by" in §12391(d)(3) prior to its removal by the 2013 amendment is
misplaced. The elimination of the words "owned by," in
reference to intangible personal property, was not a
substantial change. Whereas real estate and personal
property have a situs which can be a basis for taxation,
intangible personal property has no situs because it has
no physical presence. See 3 W. Locke & P. Kohn,
Connecticut Probate Practice, p. 42. The situs of
intangible [* 10] personal property lies with the one who
possesses and controls the right of the intangible. See
Curry v. McCanless, 307 U.S. 357, 365-66, 59 S.Ct. 900,
83 L.Ed. 1339 (1939): "Very different considerations,
both theoretical and practical, apply to the taxation of
See In re Bracken, 175 Wn.2d 549, 290 P.3d 99 (Wash. 2012),
referring to I.R.C. §2056(b) (7)(A), "In response to In re Bracken, the
legislature [in Washington] amended the Estate and Transfer Tax
Act. [*9] in 2013, retroactive to estates of decedents ... who died on
or after May 17, 2005." Bloch v. Washington State Dept, of Revenue,
44802-5-II, 2014 Wash. App. LEXIS 3045 (Wash.App. 12-30-2014).
4

650a

intangibles, that is, rights which are not related to
physical things. Such rights are but relationships
between persons, natural or corporate, which the law
recognizes by attaching to them certain sanctions
enforceable in courts. The power of government over
them and the protection which it gives them cannot be
exerted through control of a physical thing. They can be
made effective only through control over and protection
afforded to those persons whose relationships are the
origin of the rights."
The original succession tax statute in Connecticut, the
Act of 1889, made no mention of ownership when
describing intangible property, The Act of 1889
described the property subject to tax as "all property
within the jurisdiction of this state, and any interest
therein, whether belonging to inhabitants of this state or
not, and whether tangible or intangible, .. " G, Wilhelm,
Death Taxes in Connecticut 4th, §6.2, pp. 6-6, 6-7.
In 2004, the Connecticut succession tax was repealed for
estates of decedents dying [* 11] after December 31,
2004 and was replaced with an expanded Connecticut
estate tax in P.A. 05- 2515 that is the basis for General
Statutes §12-340. With the new tax, the Connecticut
legislature did away with the "pick-up" tax which was a
tax tied to the federal estate tax.
The enactment of §12-340 described the property
contained in the estate of a resident decedent as "(1) real
P.A. 05·251 recited as follows: "(d)(1) With respect to the estates of
decedents who die on or after January 1, 2005, a tax is imposed
upon the transfer of the estate of each person who at the time of
death was a resident of this state . . . (3) Property of a resident
estate over which this state has jurisdiction for estate tax purposes
includes real property situated in this state, tangible personal
property having an actual situs in this state and intangible personal
property owned by the decedent, regardless of where it is located."
5

651a

property situated in this state; (2) tangible personal
property, except such as has an actual situs without this
state; (3) all intangible personal property ... " Again, no
mention was made of "ownership" of intangible personal
property. However, in comparison, when the issue of
ownership of intangibles was specifically [*12) addressed
by the legislature, the legislature expressly excluded
intangible personal property owned by a nonresident.
See G. Wilheim, supra, pp. 6-8.
As previously noted, §12-391(c)(3) defines the gross
estate in a Connecticut taxable estate as "the gross
estate, for federal estate tax purposes." In a sense, the
Connecticut taxable estate piggybacks the filing of a
decedent's federal estate tax return.
When our Connecticut statutes are so intertwined with
Federal tax concepts, federal tax concepts are considered
to be incorporated into state law. Berkley v. Gavin, 253
Conn, 761, 773, 756 A,2d 248 (2000). In the present case,
the federal tax concept that is key to the resolution of
the issue in this case is the fiction that Helen, having
only a life use in the QTIP property, is deemed to be the
sole owner of the property for tax purposes. See I.R.C.
§2044(a): "The value of the gross estate shall include the
value of any property to which this section applies in
which the decedent had a qualifying income interest for
life." Section 2044(c) provides that "[f]or purposes of this
chapter and chapter 13 ... property includible in the
gross estate of the decedent under subsection (a) shall be
treated as property passing from the decedent." There is
no clearer example of Federal tax statutes being
incorporated into our tax statutes [*13] than §12-391(c)
(3), which specifically incorporates a decedent's "gross
estate, for federal estate tax purposes" into Connecticut
tax statutes.

652a

This federal tax concept introduced into Connecticut tax
laws controls in the present case and supports the
commissioner's argument that "ownership" of the QTIP
assets is not at issue here. The inclusion of intangibles
in the decedent's federal gross estate is incorporated into
the decedent's Connecticut gross estate.
The plaintiffs set forth, in· their supplemental
memorandum of law (Entry No. 145), p. 14, the following
questions (Q1-Q2-Q3) for this court to answer:
Q1. Is the QTlP property properly includible in the
decedent's Connecticut taxable estate under the preP.A. 13-247 version of General Statutes §12-391,
which was in effect at the time of the decedent's
death in 2009?
Q2. Can the State of Connecticut constitutionally
apply a substantive change to the law retroactively?
In other words, is it constitutional for a substantive
change to the Connecticut estate tax laws, which
effectively create a new tax obligation, to be given
retroactive effect? Even if this Court decides that the
elimination of a requirement of ownership by the
decedent as a predicate to the imposition of [*14)
Connecticut estate tax is not substantive, can the
State of Connecticut retroactively apply a statutory
change in 2014 to a transfer that occurred on
January 1, 2000, 14 years earlier?
Q3. Can the State of Connecticut constitutionally tax
intangible property which was never owned by a
Connecticut decedent or transferred from a
Connecticut decedent?
The court answers as follows:
Q1. Yes, the QTIP assets are includible in Helen's
estate because of the fiction expressed in IRC
§2056(b)(7) that Everett, as the first-to-die spouse;
has passed the QTIP property to Helen, his

653a

surviving spouse, and because §12-391(d)(3) defines
a Connecticut gross estate as that of a federal gross
estate.
Q2: No. There was no substantive change in §12391(d)(3) when the word "ownership" was eliminated
in §120 of P.A. 13-247. The change was an
expression of the legislature clarifying its intent to
tax Intangibles contained in the federal gross estate
tax but only those intangibles that were in
possession and control of Helen at the time of her
death. Since the fiction created by 26 U.S.C. 2056(a)(b) places the assets of the QTIP trust in possession
of Helen, she was the owner of the intangible assets
in the QTIP trust. As presented by the plaintiffs, the
only situation that [*15] would involve the issue of
ownership would entail Helen being a Connecticut
resident and having assets with a situs outside the
jurisdiction of Connecticut. Since intangibles follow
the person having the possession and control of an
intangible, a person who dies a Connecticut resident
would be the "owner" of the intangible even if the
intangible was located outside the jurisdiction of
Connecticut.
As to the issue of the retroactivity of §120 of P.A. 132471 It is clear that the legislature intended to clarify
§12-391(d)(3). See Nash v. Yap, 247 Conn. 638, 661, 726
A.2d 92 (1999): "When the legislature is clarifying prior
legislation, the correction has retroactive effect.
According to well established principles of statutory
construction, an amendment that construes and clarifies
a prior statute operates as the legislature's declaration
of the meaning of the original act." (Internal quotation
marks omitted.) Indeed, the legislature ln making the
amendment went so far as to specifically clarify its

654a

intent that the removal of "ownership" in §12-391 was to
be applied retroactively. See §12 of P.A. 14-155.6
Our courts have recognized that there ls no precise
definition of substantive or procedural law. "[A]
substantive law creates, defines and regulates rights
while a procedural law prescribes the methods of
enforcing such rights or obtaining redress." (Internal
quotation marks omitted.) Carr v. Planning & Zoning
Commission, 273 Conn. 573, 593, 872 A.2d 385 (2005).
As noted in Samnard Associates, LLC v. New Britain,
140 Conn.App. 290, 298, 58 A.3d 377 (2013), whether or
not a legislative change is substantive or procedural, the
legislative history and circumstances surrounding the
amendment are important in ascertaining legislative
intent.
Public Act 14-155 clearly expresses the legislative intent
that §120 of P.A. 13-247 was to be applied retroactively
and was, not substantive in nature. See also Andersen
Consulting, LLP v. Gavin. 25S Conn. 498, 517, 767 A.2d
692 (2001), "[w]here an amendment is intended to clarify
the original intent of an earlier statute, it necessarily
has retroactive effect ... " ·
Q3 Answer:
Connecticut cannot tax intangibles that are not in
the control and possession of a person residing in
Connecticut at the time of his or her death. Such a
tax would be in violation of the U.S. Constitution, as
referenced In P.A. 13-247. In [*17] the present case,
Public and Special Acts February 2014 Regular Session, p. 1081:
"Section 12 (effective from passage). Section 120 of P.A. 13-247,
shall take effect June 19, 2013. It is the intent of [*16] the General
Assembly that the amendments made by §120 of P.A. 13-247 to
subsections (d) and (e) of §12-391 of the general statutes, as
amended by this act, are clarifying in nature· and- apply ·to -all –
open estates."
6

655a

there was no violation of the U.S. Constitution
because Helen (under the fictional concept) had
possession and control of the stocks, bonds and cash
contained in her estate. Therefore, as a resident of
Connecticut at the time of her death, Connecticut
had jurisdiction to tax these intangibles. There was
no violation of the rights of the plaintiffs as
remaindermen because "[t]he estate tax does not
deprive the remaindermen of their interest in the
[QTIP] property or change the nature of their
Interest. It simply taxes the transfer of assets." In re
Estate of Hambleton, 181 Wn,2d 802, 335 P.3d 398,
412 (Wash. 2014), As noted In United States v.
Carlton, 512 U.S. 26, 33, 114 S.Ct. 2018, 129 L.Ed.2d
22 (1994), "[t]ax legislation is not a promise, and a
taxpayer has no vested right in the [IRC] . . .
Taxation is [not] a penalty imposed on the taxpayer,
… but a way of apportioning the cost of government
among those who in some measure are privileged to
enjoy its benefits and must bear its burdens ... "
(Citation omitted; internal quotation marks
omitted.)
Accordingly, for the above stated reasons, judgment may
enter in favor of the defendant commissioner on his
motion for summary judgment. The plaintiffs' motion for
summary judgment is denied. No costs are awarded to
any party.
Arnold W. Aronson
Judge Trial Referee

656a

APPENDIX 46

E

657a

658a

659a

660a

APPENDIX 47

F

661a

ESTATES CODE
TITLE 2. ESTATES OF DECEDENTS; DURABLE
POWERS OF ATTORNEY
SUBTITLE C. PASSAGE OF TITLE AND
DISTRIBUTION OF DECEDENTS ’
PROPERTY IN GENERAL
CHAPTER 124. VALUATION AND TAXATION OF
ESTATE PROPERTY
SUBCHAPTER A. APPORTIONMENT OF TAXES
Sec. 124.001.AADEFINITIONS. In this subchapter:
(1)AA"Court" means:
(A)AAa court in which proceedings for
administration of an estate are pending or have been
completed; or
(B)AAif no proceedings are pending or have
been completed, a court in which venue lies for the
administration of an estate.
(2)AA"Estate" means the gross estate of a
decedent as determined for the purpose of estate taxes.
(3)AA"Estate tax" means any estate, inheritance,
or death tax levied or assessed on the property of a
decedent ’s estate because of the death of a person and
imposed by federal, state, local, or foreign law, including
the federal estate tax and the inheritance tax imposed
by former Chapter 211, Tax Code, and including interest
and penalties imposed in addition to those taxes.AAThe
term does not include a tax imposed under Section 2601
or 2701(d)(1)(A), Internal Revenue Code of 1986 (26
U.S.C. Section 2601 or 2701(d)).
(4)AA"Person" includes a trust, natural person,
partnership,
association,
joint
stock
company,
corporation, government, political subdivision, or
governmental agency.

662a

(5)AA"Person interested in the estate" means a
person, or a fiduciary on behalf of that person, who is
entitled to receive or who has received, from a decedent
or because of the death of the decedent, property
included in the decedent ’s estate for purposes of the
estate tax.AAThe term does not include a creditor of the
decedent or of the decedent ’s estate.
(6)AA"Representative" means the representative,
executor, or administrator of an estate, or any other
person who is required to pay estate taxes assessed
against the estate.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Amended by:
Acts 2015, 84th Leg., R.S., Ch. 1161 (S.B. 752), Sec. 2,
eff. September 1, 2015.
Acts 2017, 85th Leg., R.S., Ch. 844 (H.B. 2271), Sec. 8,
eff. September 1, 2017.
Sec.
124.002.
REFERENCES
TO
INTERNAL
REVENUE CODE. A reference in this subchapter to a
section of the Internal Revenue Code of 1986 refers to
that section as it exists at the time in question. The
reference also includes a corresponding section of a
subsequent Internal Revenue Code and, if the referenced
section is renumbered, the section as renumbered.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.

663a

Sec. 124.003. APPORTIONMENT DIRECTED BY
FEDERAL LAW. If federal law directs the
apportionment of the federal estate tax, a similar state
tax shall be apportioned in the same manner.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.004. EFFECT OF DISCLAIMERS. This
subchapter shall be applied after giving effect to any
disclaimers made in accordance with Chapter 240,
Property Code.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Amended by:
Acts 2015, 84th Leg., R.S., Ch. 562 (H.B. 2428), Sec. 8,
eff. September 1, 2015.
Sec. 124.005.AAGENERAL APPORTIONMENT OF
ESTATE TAX; EXCEPTIONS. (a) A representative shall
charge each person interested in the estate a portion of
the total estate tax assessed against the estate.AA The
portion charged to each person must represent the same
ratio as the taxable value of that person ’s interest in the
estate included in determining the amount of the tax
bears to the total taxable value of all the interests of all
persons interested in the estate included in determining
the amount of the tax.AAIn apportioning an estate tax
under this subsection, the representative shall disregard
a portion of the tax that is:
(1)AAapportioned under the law imposing
the tax;
(2)AAotherwise apportioned by federal law;
or
(3)AAapportioned as otherwise provided by
this subchapter.

664a

(b)AASubsection (a)AAdoes not apply to the
extent the decedent, in a written inter vivos or
testamentary instrument disposing of or creating an
interest in property, specifically directs the manner of
apportionment of estate tax or grants a discretionary
power of apportionment to another person.AAA direction
for the apportionment or nonapportionment of estate tax
is limited to the estate tax on the property passing under
the instrument unless the instrument is a will that
provides otherwise.
(c)AAIf directions under Subsection (b) for the
apportionment of an estate tax are provided in two or
more instruments executed by the same person and the
directions in those instruments conflict, the instrument
disposing of or creating an interest in the property to be
taxed controls.AAIf directions for the apportionment of
estate tax are provided in two or more instruments
executed by different persons and the directions in those
instruments conflict, the direction of the person in whose
estate the property is included controls.
(d)AASubsections (b) and (c) do not:
(1)AAgrant or enlarge the power of a person
to apportion estate tax to property passing under an
instrument created by another person in excess of the
estate tax attributable to the property; or
(2)AAapply to the extent federal law directs
a different manner of apportionment.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.

665a

Sec. 124.006.AAEFFECT OF TAX DEDUCTIONS,
EXEMPTIONS, OR CREDITS. (a) A deduction,
exemption, or credit allowed by law in connection with
the estate tax inures to a person interested in the estate
as provided by this section.
(b)AAIf the deduction, exemption, or credit is
allowed because of the relationship of the person
interested in the estate to the decedent, or because of the
purpose of the gift, the deduction, exemption, or credit
inures to the person having the relationship or receiving
the gift, unless that person ’s interest in the estate is
subject to a prior present interest that is not allowable
as a deduction.AAThe estate tax apportionable to the
person having the present interest shall be paid from the
corpus of the gift or the interest of the person having the
relationship.
(c)AAA deduction for property of the estate that
was previously taxed and a credit for gift taxes or death
taxes of a foreign country that were paid by the decedent
or the decedent ’s estate inure proportionally to all
persons interested in the estate who are liable for a
share of the estate tax.
(d)AAA credit for inheritance, succession, or
estate taxes, or for similar taxes applicable to property
or interests includable in the estate, inures to the
persons interested in the estate who are chargeable with
payment of a portion of those taxes to the extent that the
credit proportionately reduces those taxes.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec.
124.007.AAEXCLUSION
OF
CERTAIN
PROPERTY FROM APPORTIONMENT. (a) To the
extent that property passing to or in trust for a surviving
spouse or a charitable, public, or similar gift or devise is
not an allowable deduction for purposes of the estate tax

666a

solely because of an inheritance tax or other death tax
imposed on and deductible from the property:
(1)AAthe property is not included in the
computation provided for by Section 124.005; and
(2)AAno apportionment is made against the
property.
(b)AAThe exclusion provided by this section does
not apply if the result would be to deprive the estate of a
deduction otherwise allowable under Section 2053(d),
Internal Revenue Code of 1986, for a state death tax on
a transfer for a public, charitable, or religious use.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.008. EXCLUSION OF CERTAIN TEMPORARY
INTERESTS FROM APPORTIONMENT. (a) Except as
provided by Section 124.009(c), the following temporary
interests are not subject to apportionment:
(1)AAan interest in income;
(2)AAan estate for years or for life; or
(3)AAanother temporary interest in any
property or fund.
(b)AAThe estate tax apportionable to a temporary
interest described by Subsection (a) and the remainder,
if any, is chargeable against the corpus of the property
or the funds that are subject to the temporary interest
and remainder.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.009.AAQUALIFIED REAL PROPERTY. (a) In
this section, "qualified real property" has the meaning
assigned by Section 2032A, Internal Revenue Code of
1986 (26 U.S.C. Section 2032A).
(b)AAIf an election is made under Section 2032A,
Internal Revenue Code of 1986 (26 U.S.C. Section
2032A), the representative shall apportion estate taxes

667a

according to the amount of federal estate tax that would
be payable if the election were not made.AAThe
representative shall apply the amount of the reduction of
the estate tax resulting from the election to reduce the
amount of the estate tax allocated based on the value of
the qualified real property that is the subject of the
election.AAIf the amount of that reduction is greater
than the amount of the taxes allocated based on the
value of the qualified real property, the representative
shall:
(1)AAapply the excess amount to the
portion of the taxes allocated for all other property; and
(2)AAapportion the amount described by
Subdivision (1) under Section 124.005(a).
(c)AAIf additional federal estate tax is imposed
under Section 2032A(c), Internal Revenue Code of 1986
(26 U.S.C. Section 2032A), because of an early
disposition or cessation of a qualified use, the additional
tax shall be equitably apportioned among the persons
who have an interest in the portion of the qualified real
property to which the additional tax is attributable in
proportion to their interests.AAThe additional tax is a
charge against that qualified real property.AAIf the
qualified real property is split between one or more life
or term interests and remainder interests, the additional
tax shall be apportioned to each person whose action or
cessation of use caused the imposition of additional tax,
unless all persons with an interest in the qualified real
property agree in writing to dispose of the property, in
which case the additional tax shall be apportioned
among the remainder interests.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.010.AAEFFECT OF EXTENSION OR
DEFICIENCY IN PAYMENT OF ESTATE TAXES;

668a

LIABILITY OF REPRESENTATIVE. (a) If the date for
the payment of any portion of an estate tax is extended:
(1)AAthe amount of the extended tax shall
be apportioned to the persons who receive the specific
property that gives rise to the extension; and
(2)AAthose persons are entitled to the
benefits and shall bear the burdens of the extension.
(b)AAExcept as provided by Subsection (c),
interest on an extension of estate tax and interest and
penalties on a deficiency shall be apportioned equitably
to reflect the benefits and burdens of the extension or
deficiency and of any tax deduction associated with the
interest and penalties.
(c)AAA representative shall be charged with the
amount of any penalty or interest that is assessed due to
delay caused by the representative ’s negligence.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.011. APPORTIONMENT OF INTEREST AND
PENALTIES. (a) Interest and penalties assessed against
an estate by a taxing authority shall be apportioned
among and charged to the persons interested in the
estate in the manner provided by Section 124.005
unless, on application by any person interested in the
estate, the court determines that:
(1)AAthe proposed apportionment is not
equitable; or
(2)AAthe assessment of interest or
penalties was caused by a breach of fiduciary duty of a
representative.
(b)AAIf the apportionment is not equitable, the
court may apportion interest and penalties in an
equitable manner.
(c)AAIf the assessment of interest or penalties
was caused by a breach of fiduciary duty of a
representative, the court may charge the representative
669a

with the amount of the interest and penalties assessed
attributable to the representative’s conduct.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec.
124.012.
APPORTIONMENT
OF
REPRESENTATIVE’S EXPENSES. (a) Expenses
reasonably
incurred
by
a
representative
in
determination of the amount, apportionment, or
collection of the estate tax shall be apportioned among
and charged to persons interested in the estate in the
manner provided by Section 124.005 unless, on
application by any person interested in the estate, the
court determines that the proposed apportionment is not
equitable.
(b) If the court determines that the proposed
apportionment is not equitable, the court may apportion
the expenses in an equitable manner.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.013. WITHHOLDING OF ESTATE TAX
SHARE BY REPRESENTATIVE. A representative who
has possession of any estate property that is
distributable to a person interested in the estate may
withhold from that property an amount equal to the
person ’s apportioned share of the estate tax.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.014.AARECOVERY OF ESTATE TAX SHARE
NOT WITHHELD. (a) If property includable in an estate
does not come into possession of a representative
obligated to pay the estate tax, the representative shall:
(1)AArecover from each person interested
in the estate the amount of the estate tax apportioned to
the person under this subchapter; or

670a

(2)AAassign to persons affected by the tax
obligation the representative ’s right of recovery.
(b)AAThe obligation to recover a tax under
Subsection (a) does not apply if:
(1)AAthe duty is waived by the parties
affected by the tax obligation or by the instrument under
which the representative derives powers;AAor
(2)AAin the reasonable judgment of the
representative, proceeding to recover the tax is not costeffective.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.015.AARECOVERY OF UNPAID ESTATE
TAX; REIMBURSEMENT. (a) A representative shall
recover from any person interested in the estate the
unpaid amount of the estate tax apportioned and
charged to the person under this subchapter unless the
representative determines in good faith that an attempt
to recover the amount would be economically
impractical.
(b)AAA representative who cannot collect from a
person interested in the estate an unpaid amount of
estate tax apportioned to that person shall apportion the
amount not collected in theAAmanner provided by
Section 124.005(a) among the other persons interested in
the estate who are subject to apportionment.
(c)AAA person who is charged with or who pays
an apportioned amount under Subsection (b) has a right
of reimbursement for that amount from the person who
failed to pay the tax.AAThe representative may enforce
the right of reimbursement, or the person who is charged
with or who pays an apportioned amount under
Subsection (b) may enforce the right of reimbursement
directly by an assignment from the representative.AAA
person assigned the right under this subsection is
subrogated to the rights of the representative.
671a

(d)AAA representative who has a right of
reimbursement may petition a court to determine the
right of reimbursement.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.016.AATIME TO INITIATE ACTIONS TO
RECOVER UNPAID ESTATE TAX. (a) A representative
required to recover unpaid amounts of estate tax
apportioned to persons interested in the estate under
this subchapter may not be required to initiate the
necessary actions until the expiration of the 90th day
after the date of the final determination by the Internal
Revenue Service of the amount of the estate tax.
(b)AAA representative who initiates an action
under this subchapter within a reasonable time after the
expiration of the 90-day period is not subject to any
liability or surcharge because a portion of the estate tax
apportioned to a person interested in the estate was
collectible during a period after the death of the
decedent but thereafter became uncollectible.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.017.AATAX OR DEATH DUTY PAYABLE TO
ANOTHER STATE. (a) A representative acting in
another state may initiate an action in a court of this
state to recover from a person interested in the estate
who is domiciled in this state or owns property in this
state subject to attachment or execution, a proportionate
amount of:
(1)AAthe federal estate tax;
(2)AAan estate tax payable to another
state; or
(3)AAa death duty due by a decedent ’s
estate to another state.
(b)AAIn the action, a determination of
apportionment by the court having jurisdiction of the
672a

administration of the decedent ’s estate in the other
state is prima facie correct.
(c)AAThis section applies only if the state in
which the determination of apportionment was made
provides a substantially similar remedy.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
Sec. 124.018. PAYMENT OF EXPENSES AND
ATTORNEY’S FEES. The court shall award necessary
expenses, including reasonable attorney’s fees, to the
prevailing party in an action initiated by a person for the
collection of estate taxes from a person interested in the
estate to whom estate taxes were apportioned and
charged under Section 124.005.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
SUBCHAPTER B. SATISFACTION OF CERTAIN
PECUNIARY GIFTS Sec. 124.051. VALUATION OF
PROPERTY
DISTRIBUTED
IN
KIND
IN
SATISFACTION OF PECUNIARY GIFT. Unless the
governing instrument provides otherwise, if a will or
trust contains a pecuniary devise or transfer that may be
satisfied by distributing assets in kind and the executor,
administrator, or trustee determines to fund the devise
or transfer by distributing assets in kind, the property
shall be valued, for the purpose of funding the devise or
transfer, at the value of the property on the date or dates
of distribution.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.
OF
MARITAL
Sec.
124.052.AASATISFACTION
DEDUCTION PECUNIARY GIFTS WITH ASSETS IN
KIND. (a) This section applies to an executor,
administrator, or trustee authorized under the will or

673a

trust of a decedent to satisfy a pecuniary devise or
transfer in trust in kind with assets at their value for
federal estate tax purposes, in satisfaction of a gift
intended to qualify, or that otherwise would qualify, for
a United States estate tax marital deduction.
(b)AAUnless the governing instrument provides
otherwise, an executor, administrator, or trustee, in
order to implement a devise or transfer described by
Subsection (a), shall distribute assets, including cash,
fairly representative of appreciation or depreciation in
the value of all property available for distribution in
satisfaction of the devise or transfer.
Added by Acts 2009, 81st Leg., R.S., Ch. 680, Sec. 1, eff.
January 1, 2014.

674a

APPENDIX 48

G

675a

COMMONWEALTH OF MASSACHUSETTS
THE TRIAL COURT
PROBATE AND FAMILY COURT DEPARTMENT
Norfolk Division Docket Number

09P0593
03P1068

Estate of Frances B. Markell, by Lorraine R. Balkin, A.
William·Markell and H. Kenneth Fish, Executors,
Petitioner
v.
Commissioner·of the Massachusetts Department of
Revenue, Respondent
MEMORANDUM OF DECISION ON CROSS MOTIONS
FOR SUMMARY JUDGMENT
The parties by way of counsel appeared on September 7,
2011 in canton. Cross motions for summary judgment
were heard by Judge Phelan. This is a dispute about the
estate taxes owed by the decedent estate to the
Commonwealth of Massachusetts. Petitioner appeals
from denial by Respondent of an application for
abatement from such estate tax.
FACTS:
Edward Markell ("Spouse 1"), a Massachusetts resident,
died August 21, 1989. He was survived by his wife
Frances Markell ("Spouse 2") who later died on February
22, 2003. There were two marital deduction trusts of
Spouse 1. These are referred to in the lexicon of estate
planners and taxing authorities as Qualified Terminable
Interest Property Trusts ("QTIP"). Before his death,
Spouse 1 created an inter vivos Revocable Trust which,
after his death, split into and funded the trust assets
into three separate shares, all also to be held in trust for

676a

the benefit of Spouse 2. When Spouse 1 died, the Estate
Executors timely exercised an election pursuant to
Internal Revenue Code ("IRC" or the "IRC Code") section
2056 to include and exclude from the taxable estate
these three trusts; the result being that the trusts were
treated differently for federal versus Massachusetts
estate tax calculations. The essence of the controversy is
that the Respondent did not permit Massachusetts
estate tax deductibility treatment to two of the trusts
contrary to the deductibility treatment the Executor was
permitted to and did elect according to the federal IRC
Code. The offending result: double taxation in the
Massachusetts estate tax calculation when Spouse 2
died which was not imposed by the IRC Code in the
federal estate tax calculation for Spouse 2's death.
Both the United States ("federal") and the
Commonwealth of Massachusetts have separate and, in
some respects, different estate tax schemes: that is, the
items and amounts eligible for deduction, as well as the
calculation and rates of such taxes differ in material
respects. Among the differences was treatment of the
marital deduction. The difference, as well as the federal
and Massachusetts statutes, have changed over the
years.
In 1989 there was a significant difference between the
treatment by federal and Massachusetts estate tax
authorities with respect to the marital deduction, In
1989, the year of Spouse 1 death, IRC Code section 2056
permitted and required an election by the estate
representative of a marital deduction amount: that is, an
amount, without limit, of assets which if passing to a
surviving spouse would be deducted from the amount of
the taxable state of Spouse 1, in effect reducing the
amount of estate tax owed. If all decedent's assets
passed to the surviving spouse; the net effect if the
Executor elected marital deduction as to all such passed
677a

assets would be a taxable estate of zero, no matter the
total amount of a decedent's assets. IRC Code permitted
such an unlimited amount of decedent's assets to be
deducted, so long as the property passed in some way to
a surviving spouse. However, the marital-deductionelected QTIP assets endured peculiar treatment, causing
these assets to thereafter be included in the federal
gross estate of Spouse 2 when she died. That QTIP
assets were involved added a variable to the serpentine
scenario, described below. Conversely, if no marital
deduction had been elected for assets held in a QTIP
Trust or otherwise passing to a surviving spouse, these
non-elected assets would be subject to estate tax when
Spouse 1 died but not taxed again when Spouse 2 died,
thus avoiding the spectre of double federal taxation.
The notion of QTIP demands specific explanation here.
Ordinarily, assets from which a Surviving spouse was
entitled to benefit from but which terminated upon the
happening of a specific future event such a, death (socalled ''Terminable Interest Property'') could not qualify
for the unlimited marital deduction unless the asset was
"Qualified'' Terminable Interest Property: that is, the
property satisfied an exception enumerated within the
IRC Code. The exception for QTIP (and hence eligibility
as a ''passed'' asset to a surviving spouse and eligible for
marital deduction treatment) is found at IRC 2056(b)(7).
The parties agree that the assets held in the Subtrusts
1, 2 and 3 were all in a form which qualified for federal
and Massachusetts QTIP marital deduction treatment at
time of death of both Spouse 1 and Spouse 2.
In 1989, the federal and Massachusetts estate tax
schemes did not differ in the resulting inclusion in the
taxable estate of Spouse 2 of the QTIP property elected
for marital deduction treatment in the taxable estate of
Spouse 1. Similarly, both taxing schemes then
prescribed that failure to elect QTIP treatment when
678a

Spouse 1 died would subsequently shield that unelected
QTIP property from being included in Spouse 2 taxable
estate when Spouse 2 died, to avoid double taxation. See
IRC Code sec. 2044 and sec. 2056; see also M.G.L. ch.
65C sec. 1 and 3A.
Spouse 1 filed a US Form 706 United States Estate and
Generation-Skipping Transfer Tax Return ("federal
return") and an amended federal return in which Spouse
1 Executor elected and claimed a deduction from the
federal gross estate in the total amount of
$13,891,567.76 for Schedule M "Bequests to Surviving,
Spouse" (the marital deduction) in the form of QTIP type
property passing to Spouse 2 and represented by all
three Subtrusts: Subtrust 1 (the ''Edward Markell
Federal and Massachusetts GST Taxable QTIP Trust'')
Subtrust 2 ("Edward Markell Federal GST Taxab1e
QTIP Trust"), Subtrust 3 (Edward Markell Federal GST
Exempt QTIP 'Trust"). The result was that the value of
all three Subtrusts escaped federal estate taxation when
Spouse 1 died due to the concept of the unlimited federal
(but not Massachusetts, see below) marital deduction. ·
In 1989 and unlike the federal IRC Code treatment then
in effect, Massachusetts permitted decedent's estates to
elect on the Massachusetts estate tax return not an
unlimited marital deduction like thr1 IRC Code but a
marital deduction amount only up to 50% of the
Massachusetts "Adjusted Gross Estate" (see M.G.L ch.
65C sec. 1(e) and 3(b). With this in mind, Executor for
Spouse 1 elected for marital deduction on the
Massachusetts estate tax return only the assets in one
Subtrust (Subtrust 1, the Edward Markell Federal and
Massachusetts GST Exempt QTIP Trust'') of the three
trust shares created by Spouse 1 in his estate plan. Due
to the amount in that Subtrust 1, the election of only
Subtrust 1 ($7,758,159.20) for Massachusetts QTIP
treatment used up the entire 50% available for
679a

Massachusetts
marital
deduction.
Consequently,
because of the unavailability to elect Subtrust 2 and
Subtrust 3 for Massachusetts marital deduction
treatment, the full amount ($6,185,921.90 total) of both
Subtrust 2 and Subtrust 3 were thus included in and
taxed under the Massachusetts estate tax return of
Spouse 1. The Massachusetts result of this election and
non-election was that the Subtrust assets were excluded
from (and not taxed) by Massachusetts in 1989 for
Spouse 1; but Subtrust 2 (total assets $5,651,456.14) and
Subtrust 3 (total assets $534,465.82) were both included
in and taxed by Massachusetts in 1989 for Spouse 1. The
total Massachusetts gross estate for Spouse 1 in 1989
was $17,724,851.39 (per alternate valuation election)
with a marital deduction claimed in the amount of
$8,686;036.36. After successful abatement request,
Spouse 1 Executors ultimately paid Massachusetts
estate tax in the amount of $1,279,831.35 which
included the tax on Subtrust 2 and Subtrust 3.
Subtracting Subtrust 2 and Subtrust 3 total assets, the
Massachusetts taxable estate for Spouse 1 in 1989 would
instead have been only $2,467,216.96 instead of
$8,589,570.94 and the corresponding Massachusetts
estate tax would have been only $317,082.54 instead of
$1,279,831.35, a tax difference of $962,748.81 additional
paid to the Commonwealth of Massachusetts. Thus were
Subtrust 2 and Subtrust 3 taxed in the amount of
$962,748.81 for the first time by Respondent
Commonwealth of Massachusetts.
When Spouse 2 died February 23, 2003 as a
Massachusetts resident, Subtrust 1, 2 and 3 survived
her and remained qualified as QTIP property.
Petitioners, the Executors for Spouse 2, filed a Federal
Estate Tax return (Form 706) which included in the
gross·taxable estate the date of death amount of assets
(all since appreciated in value) in Subtrusts 1

680a

($8,602,958.96), 2 ($10,004,062.86) and 3 ($1,182,325.02)
(all not previously taxed in Spouse 1 federal estate tax
returns due to the QTIP election); but on the
Massachusetts estate tax return (Form M-706) the
Petitioner Executors did disclose Subtrusts 2 and 3 (both
previously taxed in Spouse 1 Massachusetts estate due
to the Spouse 1 Executors purposeful and mindful
failure to elect QTIP treatment on the Spouse 1
Massachusetts return for Subtrusts 2 and 3) but with a
caveat and argument that the assets of Subtrusts 2 and
3, having already once been taxed, were non-taxable as
to Spouse 2 Massachusetts estate. Petitioners thus
argued that the taxable Massachusetts Estate should
only include the value of Subtrust 1 assets
($8,602,958.96) and should not include Subtrust 2 assets
($10,004,062.86) and Subtrust 3 assets ($1,182,32.5.02),
resulting in a total gross estate for Spouse 2 of
$14,033,766.66. Spouse 2 Executers showed a federal
gross estate of $25,220,154.54. After a series of extension
requests, Spouse 2 Executors paid in advance an
estimated estate tax to the Commonwealth in the
amount of $3,472,877.23. Spouse 2 'Executor thereafter
requested a refund in the amount of $1,821,822.06,
based on the rationale that the Subtrusts 2 and 3 had
already been taxed by Massachusetts when Spouse 1
died and thus should not be taxed again. Had the refund
been granted, the Massachusetts estate tax liability for
Spouse 2 estate would be $1,651,055.17, not
$3,472,877.23. On November 16, 2006 Respondent
Commissioner Massachusetts Department of Revenue
("Respondent") issued an additional tax assessment in
the amount of $1,789,821.92. The total assessment of
estate tax due and paid by Petitioners was
$3,440,877.09. Thus the amount in controversy in this
case is refund/additional tax of $1,789,821.92.

681a

ANALYSIS:
When the smoke of both spouses' deaths cleared, the
federal and State bottom line that estate planners
anticipated and planned for their clients Edward and
Frances Markell based on then existing tax laws would
have been that the Subtrust assets were taxed once
either at death of Spouse 1 (if no QTIP treatment had
then been elected) or at death of Spouse 2 (if QTIP
treatment had been elected at death of Spouse 1), but
not after each death. See IRC Code sec. 2044 and sec.
2056; see also M.G.L. ch. 65C sec. 1 and 3A.
The Respondent Commissioner denied the request for
refund, citing a change in tax laws between the time
Spouse 1 and Spouse 2 died, and determined that double
taxation was the legislatively intended if not
unequivocally statutorily prescribed result. Respondent
denied the refund and included the full amount of assets
in all three Subtrusts in calculating the Massachusetts
estate tax owed by Spouse 2 estate. In support of its
thesis, Respondent points to a series of federal and
State. legislative enactments, intended or unwitting but
presumed to have been prescient which warranted
foisted upon Petitioners the unpalatable double taxation
result. The Respondent's logic is based on the notion
that because all three Subtrusts were required to be
included in the federal estate when Spouse 2 died due to
the language of the IRC Code in effect when Spouse 2
died, the values of all three Subtrusts specifically
including the previously Massachusetts estate-taxed
Subtrusts 2 and 3, must also be included and, alas, taxed
again. Respondents points to the change over time in
how Massachusetts calculated and collected its own
estate tax. For decedents dying on and after January 1,
1997 and up to December 31, 2001, Massachusetts had
relied on a scheme colloquially referred to as a ''sponge
tax''. In pedestrian parlance, the Massachusetts estate
682a

tax imposed was the exact amount of a "credit"
(seemingly illusory in that the federal government
anticipated a state estate tax not then calculable by
Massachusetts) that the federal estate tax afforded,
offsetting the federal estate tax owed, to decedent's
estates for any estate taxes payable to a State. That
federal estate tax credit was calculated by completing
the federal estate tax return Form 706. After calculation
of the credit, the amount of federal credit was what the
decedent estate ended up owing in estate tax to the
Commonwealth of Massachusetts. However, the Federal
estate tax underwent overhaul which Congress
legislated by way of a phaseout of the credit over a four
year period.
The Massachusetts State legislature (''Legislature"),
anticipating the loss of revenue, enacted changes to the
Massachusetts estate tax which resulted in the State's
estate tax no longer being derived from or dependent on
("sponging" from) a calculation of the soon to disappear
federal credit. For decedents dying on or after January 1,
2003, the Massachusetts estate tax became independent
of ("decoupled from" the federal estate tax. One of the
outcomes of this independence was Massachusetts
establishing its own estate asset value thresholds: for a
decedent estate to be liable for Massachusetts estate tax:
beginning in 2003 at $700,000 and increasing by a factor
of $100,000 for each year until capping out at $1,000,000
in 2006. Estates worth less than these threshold
amounts did not owe Massachusetts estate tax. Gone too
was the separate multi-page Massachusetts estate tax
return, to be replaced by a single page Form M-706 to
which must be attached a copy of the Federal Form 706,
even if the size of the estate did not exceed different (and
more generous) federal thresholds and therefor did not
even require a federal estate tax return filing. Most
significantly, issues of Massachusetts estate tax would

683a

be decided on the basis of the IRC Code in effect only as
of December 31, 2000. That version of the IRC Code does
not address the issue of estates electing State-only QTIP
elections.
Both parties agree that the controversy turns on the
interpretation of M.G.L. 65C ch. 2A which prescribes the
formula for the calculation of the estate tax for the
estate of Spouse 2: "The amount of the tax shall be the
sum equal to the amount by which the credit for state
death taxes that would have been allowable to a
decedent's estate as computed under Code section 2011,
as in effect on December 31, 2000, ..... .,, ". M.G.L. 65C
ch. 2A(e) states: ."For the estate of decedents dying on or
after January 1, 2003, all references and provisions in
this chapter to the Internal Revenue Code or Code,
unless the context clearly indicates otherwise, shall be to
the Code as in effect on December 31, 2000." The
problem lies in the fact that when Spouse 2 died on
February 22, 2003 there no longer was a "credit" but the
Massachusetts estate tax scheme in 2003 remained tied
to the IRC Code as it was in effect on December 31, 2000
when the Credit was still recognized.
If Spouse 2's 2003 estate is to be calculated on the basis
of 2000 law (i.e. as if she died in the year 2000), which
changed substantially in the interim, this results in the
values of Subtrust 2 assets ($10,004,062.86) and
Subtrust 3 assets ($1,1821,325.02) being necessarily
included, for a second time, in Spouse 2 federal gross
estate tax return and, hence taxed for a second time by
Massachusetts because it would have been taxable
federally. If strict construction prevails, this seemingly
quixotic result is required in order to have been able to
calculate the since disappeared "credit" as if
Massachusetts still recognized a "sponge tax" scheme.
Also, because when Spouse 1 died Massachusetts only
permitted a maximum 50% marital deduction for QTIP684a

asset elections and included in the taxable estate QTIP
assets which exceeded the 50% threshold, in all
Massachusetts Spouse 2 death scenarios thereafter all
second--to-die (Spouse 2) spouse estates would again be
taxed on the marital deduction QTIP trust assets which
had exceeded the 50% threshold and could not enjoy the
deduction when Spouse 1 died,
If the Massachusetts Legislature is presented to have
known this double taxation windfall in 2002 when
M.G.L. 65C ch. 2A was amended but remained tied to
the December 31, 2000 federal IRC Code, the Legislature
must also be presumed to have known the effect of the
specific language it then legislated and declined to
include in the ultimate version of M.G.L. 65C ch. 2A(c).
Curiously but perhaps instructively, the Legislature in
M.G.L. 65C ch. 2A(e) did not use the words "values" or
"amounts" when its 2002 legislation tied Massachusetts
estate tax to the December 31, 2000 federal IRC Code.
Instead, the legislative history to the 2002 amendments
to MGL ch. 65C sec. 2A reveals that a second iteration to
the proposed amendment did use the term. "values" tied
to the federal IRC Code but this was stricken and
replaced with the more generic current version of (e)
which strikes A quantity-neutral "references and
provisions" chord. Similarly, a proposed but ultimately
deleted subsection (f) would have tied the words "federal
gross estate" to the Massachusetts estate tax. The
ultimate passage of either of those versions would have
given specific and readily construable statutory
backdrop that taxpayers were to be guided by the
quantitative numbers on a federal return, not merely by
the tax principles under the federal IRC Code. Because
the State Legislature considered and then affirmatively
declined to pass the "numbers centric" versions of
subsections (e) and (f), the Legislature must be
presumed to have rejected such an analysis that

685a

Respondent now urges. Indeed, M.G.L. 65C ch. 2A(e)
contains the further caveat "unless the context clearly
indicates otherwise" (emphasis added). It would not be
an unreasonable stretch of construction that such repeat
taxation which the Respondent would impose upon
Spouse 2 estate is the type of double whammy which is
contextually antithetical to the strict construction that
"references and provisions" necessarily includes federal
values and federal grossed up estate. Legislative intent
may be presumed to lurk behind tax statute
construction. Whiteside v. Commissioner of Revenue,
394 Mass. 206 (1985). But in strict construction of any
tax statutes, any doubts are necessarily resolved on the
taxpayer's side. State Tax Commission v. John Hancock
Mutual Life Insurance Company, 361 Mass. 125 (1972);
Dennis v. Commissioner of Corporations & Taxation, 340
Mass. 629 (1960), Davisson v. Commissioner of Revenue,
18 Mass. App. Ct. 748 (1984). The Legislature's prior
knowledge of existing case law may be presumed. Page
v. Commissioner of Revenue, 389 Mass. 388 (1983).
Reasonable statutory construction to avoid double
taxation is permissible. New England Mutual Life
Insurance Co. v. Boston, 321 Mass. 683 (1947). A taxing
statute should receive a practical construction. Lowell
Gas Co. v. Commissioner of Corporations & Taxation,
377 Mass. 255 (1979).
Unlike in Board of Assessors of Holyoke v. State·Tax
Commission, 355 Mass. 223 (1969) here there was no
demonstration by Respondent of any long standing and
unopposed administrative construction of M.G.L. 65C ch.
2A under similar circumstances which would give weight
to Respondent's administrative stance in the instant
case. Instead, Respondent demonstrated a contrary
administrative stance in its circa February 19, 2003
Directive 03-2 ''Issues Arising from Decoupling the
Massachusetts Estate Tax" wherein the Commissioner
686a

clearly acknowledged that estate executors were
permitted to elect disparate QTIP treatment on federal
versus Massachusetts estate tax returns. The
Respondent Commissioner went even further in
specifically acknowledging that M.G.L. ch. 65C sec. 2A
does not require the same QTIP marital deduction
election be made for federal and Massachusetts estate
tax purposes. That QTIP specific and federalMassachusetts distinction were further recognized by
Respondent Commissioner in its Massachusetts Estate
Tax Instructions/Form M706 specifically with reference
to first-to-die and second-to-die spouse estates, eerily
echoing Petitioner's argument in the instant case that
the federal and Massachusetts gross estate amounts
(emphasis added) may indeed be different as the result
of such disparate elections. The right to tax must be
strictly construed and if not plainly conferred it can not
rest on implications. Commissioner of Corporations &
Taxation v. Fopiano, 324 Mass. 304 (1949). See also
Commissioner of Corporations & Taxation v.
Malesworth, 408 Mass. 580 (1990).
To answer the question whether the Massachusetts
Legislature intended, unwittingly devised, or did not
address a legislative scheme of double taxation that
befell the estate of Spouse 2, the legislative history of the
Massachusetts Estate Tax must be reviewed. If the tax
laws should be construed according to the strict
construction urged by Respondent to exact a double
taxation, should an exception be carved out here for
Petitioners as the Respondent did with respect to
elements of estate taxation in recognition of the same
sex marriage case law in Massachusetts?
As the result of Goodridge et al. v. Department of Public
Health, 440 Mass. 309 (2003) (see below) but in the
seeming absence of statutory reform or authority,
Respondent thereafter published guidance that it would
687a

permit disparately beneficial tax treatment potentially
affecting future estate tax liability of same sex spouses
that the federal IRC Code did not and still does not
recognize, notwithstanding the Respondent's oftrepeated mantra is its memorandum of law that the
Massachusetts estate tax law must be interpreted in
light of the IRC Code in effect as of certain dates. If
uniform application of the Massachusetts estate tax law
as tied to the federal Code is to be exerted in all
instances, Petitioners argue that the Respondent's
exceptional treatment for same sex couples in light of
Goodridge is inconsistent with Respondent's treatment
of the non-same sex couple Edward and Frances
Markell, an arbitrary and capricious application of the
Respondent's double taxation construction of M.G.L. ch.
65C sec. 2A.
Respondent argues that the Massachusetts Estate Tax
code (M.G.L. ch. 65C sec. 2A) in effect for Massachusetts
decedents dying in year 2003 (Spouse 2) was hitched to
the Internal Revenue Code in effect on December 31,
2000. M.G.L. 65C sec 2A(e) states: "For the estate of
decedents dying on or after January 1, 2003 (i.e., Spouse
2) all references and provisions in this chapter to the
Internal Revenue Code, unless the context clearly
indicates otherwise (emphasis added) shall be to the
Code as in effect on December 31, 2000."
The IRC Code in effect on December 31, 2000 permitted,
in the context of the deaths in succession of two spouses,
a deduction from the gross estate value of any
terminable interest property which qualified as so-called
QTIP type property (sections 2044 and 2056(b)(7). For
federal estate tax purposes, the QTIP asset value was
deductible in the total amount so elected from the
federal estate of the spouse who died first. That
December 31, 2000 version of the IRC Code does not
address whether estates are permitted to elect QTIP
688a

treatment only for State estate tax purposes when no
federal QTIP treatment had been elected. The parties do
not dispute that Spouse 1 at death so elected, for federal
estate tax purposes, for all three Subtrusts 1, 2, 3 but
only so elected for Massachusetts purposes Subtrust 1,
electing instead to pay the additional Massachusetts
estate tax owed by the inclusion of Subtrusts 2 and 3 in
the Massachusetts taxable estate of Spouse 1, a choice
compelled because the Massachusetts 50% marital
deduction treatment maximum had been reached by
marital deduction selection of Subtrust 1. The
Respondent now argues that applying strict construction
of the statute, given the absence of language which
permits a different calculation in the Massachusetts
estate tax return of Spouse 2 if Spouse 1 at death elected
different marital deduction treatment of these same
subtrusts on the Spouse 1 Massachusetts return, does
indeed require the anomalous double taxation result: a
taxation of Subtrusts 2 and 3 by Massachusetts at the
death of not only Spouse 1 but again at the death of
Spouse 2, over the same assets.
This anomaly was triggered by a seismic change in the
way Massachusetts calculated the amount of estate tax
owed when in 2002 the Legislature enacted changes to
M.G.L. ch. 65C sec. 2 in response to the federal Code
changing the way it gave credit against federal estate
tax owed for State estate taxes paid to any of the, States,
as explained above.
Federal IRC Code allowed, as of January 1, 1982, a
100% (''unlimited'') marital deduction for property
passing to a surviving spouse. See Code sec. 2056
amended by P.L. 97-34, sec. 403(n). Although, the
language there is nearly impenetrable to common
apprehension an examination of sec. 2056 in the
aftermath of the legislation clearly prescribe this result
Massachusetts estate tax allowed a QTIP marital
689a

deduction beginning January 1, 1986. See Acts of 1985,
ch. 711, sec. 12, which particularly referred to section
2056 of the Code. This Court notes that said sec. 12 does
not refer to the Code in effect on any particular date
whereas sec. 11 of the Act of 1985 does refer with
particularity to the Code in effect on January 1, 1985.
Sec 12(f) permits a Massachusetts specific QTIP election
"separate from and independent of any election made by
the executor for federal estate tax purposes." The
amount of marital deduction which could be deducted
from the Massachusetts estate assets became unlimited
in 1994. See Acts of 1994 ch. 342 sec 2-4., amending
M.G.L. 65C sec. 3. M.G.L. 65C, sec. 2A was ultimately
amended by the Acts of 2002 at ch. 186 sec. 28, effective
for decedent estates with date of death on or after
January 1, 2003. That change specifically incorporated
the IRC Code but only as it was in effect as of December
31, 2000. It is that change and a broadly inclusive
reading upon which Respondent hangs its double
taxation hat.
The Respondent's supplemental memorandum of law
addresses the disparate and apparently arbitrary
deference afforded to the estates of same sex couples
illustrated by the Commissioner's treatment announced
July 7, 2004 in Technical Information Release (''TIR'')
04-17 which grants, but only to same sex couples, an
estate tax result not afforded to any other non-same sex
couples under the existing IRC Code in effect on
December 31, 2000. Specifically, and by default, under
TIR 04-17 Respondent allows same sex couples to
exclude from the gross estate for estate tax calculation
purposes one-half of jointly owned assets in the estate of
the first-to-die spouse of same sex couples.
Despite the Respondent's adherence to the position that
"Code in effect as of December 31, 2000" is inviolable,
the estate tax result produced by application of TIR 04690a

17's guidance is not countenanced under the IRC Code in
effect as of December 31, 2000 for same sex couples
because the federal ''Defense of Marriage Act'', 1 USC 7
applies its definition of marriage between one man and
one women across all laws, including those
congressionally and regulatori1y spawned like the IRC
Code. Respondent amended its Estate Tax instructions
and, contrary to the treatment Respondent afforded to
the Frances Markell non-same sex couple estate,
instructed taxpayers to ignore the Code in effect on
December 31, 2000 in the case of joint property and
estate tax calculations for same sex couples guidance
whose effect could be reduction in the size of decedents'
taxable estates. Respondents lack of deference to its own
lodestar "Code in effect as of December 31, 2000"
position
was
explained
in
the
Respondent's
supplemental memorandum of law as adherence to
principle in the wake of the Massachusetts highest
court's Goodridge ruling (see Goodridge v. Department of
Public Health, 440 Mass. 309 (2003) decided by the
Commonwealth's Supreme Judicial Court on November
18, 2003). Problematically, this Respondent position
finds no basis in any Massachusetts Legislative
ruminations on the IRC Code and is unsupported under
any strict interpretation of IRC Code sec. 2040 (the
federal estate tax treatment of joint property) which was
in effect on December 31, 2000.
Respondent compounded this disparate and legislatively
unsupported position, again purportedly in adhering to
the guiding principle of Goodridge when the Respondent
acknowledged the need to modify the December 31, 2000
federal Code with respect to same sex marriages.
Respondent failed to adequately explain how the
sanctity of adherence to the December 31, 2000 Code
could be administratively nuanced by Respondent for
same sex couples, the Respondent further carves an

691a

administrative niche for same sex couples in recognizing
and tolerating in the DOR Estate Tax instructions a
Massachusetts exception for gifts made by same sex
couples eligible for "split-gift" treatment (and hence
potentially reducing the size of a taxable estate) which is
not cognizable under sec. 2513 (the federal split-gift law)
of the IRC Code. Surely, in Goodridge, by declaring that
same sex couples should not be bereft of the protections
afforded opposite sex couples, the Massachusetts
Supreme Court did not intend to strip those same tax
protections which should continue to equally apply to
non-same sex couples. The Respondent, as an
administrative agency of the Commonwealth, does not
possess nor has it been delegated nor imbued by law the
authority to have wrought as it did via administrative
announcement TIR 04-17 the disparate treatment in
favor of same sex couples in the circumstance of joint
property and gift-splitting which mathematically may
affect the ultimate amount of a decedent's taxable estate
and hence the amount of tax owed.
Respondent's pronouncements on joint property and giftsplitting, in contravention of the Code in effect on
December 31, 2000, are unsupported by law (see Telles
v. Commissioner of Insurance, 410 Mass. 560 (1991)
disparately favor same sex couples in calculation of
values which may affect how and if estates are subject to
estate taxation, are at the least inconsistent with
Respondent's estate tax treatment of the Frances
Markell estate, and thus constitute legislating beyond
its authority. In the conspicuous absence of any legal
authority for Respondent to have so promulgated and
especially contrary to Respondent's assertion that the
statute must be plainly read (see Allen v. Commissioner
of Corporations & Taxation, 272 Mass. 502 (1930), this
Court concludes that the Respondent's perception of
public policy and how the Commonwealth's tax policy

692a

should be driven by Goodridge were the catalyst for TIR
04-17 and the Estate Tax Instructions. To deny similar
exceptional estate tax treatment to the Frances Markell
estate and thus induce double taxation is arbitrary and
capricious.
Respondent's willingness to apply or not apply an
exception was flexed in Directive 03-2 (February 19,
2003) when Respondent took an opposite view of the
strict interpretation of 65C sec. 2A by declaring that
because there was no specific prohibition in the statute
against a decedent estate electing a QTIP on a
Massachusetts estate tax return when no such QTIP had
been c1aimed on the federal return, an executor could do
so contrary to Respondent's primacy of the IRC Code
argument as in effect on December 31, 2000 (which did
not expressly permit such a sequence of QTIP elections).
If public policy is driving the strict versus liberal
construction train with respect to the recognition or nonrecognition of portions of the December 31, 2000 Code,
then Respondent is not advanced any argument why the
notion of double taxation should not be part of that
policy mix.
Even Respondent concedes in its supplemental
memorandum of law that where Massachusetts tax law
incorporates Federal provisions those should be
interpreted by Massachusetts as interpreted federally
and that we should be reluctant to infer a State
legislative intent when to do so would require the
disregard of unambiguous federal statutory tax law.
Grady et al. v. Commissioner of Revenue, 421 Mass. 374
(1995). When no contrary legislative intent is apparent,
Respondent should adhere to federal statutory tax law
incorporated in a state statute. DeCordova & Dana
Museum & Park v. Director of the Division of
Employment Security, 370 Mass. 175 (1976). Yet
Respondent, in its brief, suggests that "The Legislature
693a

has had seven years to voice an objection to TIR 04-17
but has not done so. To the extent one can infer the asset
of the Legislature to the Commissioner's interpretation
of the statute from inaction, this would be such a case."
Indeed, Goodridge did not specifically address taxation
at all but for a brief allusion to "joint Massachusetts
income tax filing (G.L. c. 62C, s.6)" and a more taxtangential reference to spouse dependency classification
as being among myriad benefits accessible by way of a
marriage·license. Instead, Goodridge in broad strokes
implicated the ''protections, benefits) and obligations of
civil marriage" which necessarily includes the tax
treatment of married persons. Both parties agree that
despite Goodridge, the State Legislature has not
addressed the issue of the Respondent's same sex couple
tax instructions nor amended the Massachusetts Estate
Taxation statute, M.G.L. 65C sec. 2A, notwithstanding it
incorporated in numerous locations therein the IRC
Code which in turn remains subject to the federal
Defense of Marriage Act, 1 USC 7. Respondent argues
that this legislative silence should be entitled to an
inference of legislative acquiescence to Respondent's tax
guidance on same sex couples. Petitioners argue that
M.G.L. 65C sec. 2A in its present unamended (since
Goodridge) iteration has and continues to violate the
Massachusetts Constitution and the equality principle
enunciated in Goodridge because the serial incorporation
by Massachusetts of federal tax law (by M.G.L. 65C sec,
2A of IRC Code 2056 and the incorporation of IRC Code
2056 and all other tax law by 1 USC 7) begs that result.
The State Legislature has not thereafter amended or
repealed and replaced the Massachusetts estate tax
statute nor exercised the offending portions of M.G.L.
65C sec. 2A which run counter to Goodridge. Neither in
Goodridge not any constitutional decisional progeny has
the Supreme Judicial Court amended M.G.L. ch. 65C

694a

sec. 2A. Our case law does not permit an inference of
retroactive application to statutory law of subsequent
Court pronounced constitutional requirements. See
Commonwealth v. Upton, 394 Mass. 363 (1985).
State administrative decisions are arbitrary and
capricious when an agency's actions demonstrate lack of
uniformity or are unpredictable respecting similar
matters. Fafard v. Conservation Commission of Reading,
41 Mass. App. Ct. 565 (1996). The Massachusetts
Constitution, at a minimum, requires that the exercise
of the State's regulatory authority not be arbitrary or
capricious. Commonwealth v. Henry's Drywall Co., 366
Mass. 539 (1974). There is certainly an anomaly in
M.G.L. 65C sec. 2A which would similarly affect the
estate taxation of the Edward and Frances Markell
estates which would trigger a different estate tax
treatment than if Frances had been Francis. What was
good for the goose was not similarly beneficial for the
December 31, 2000 Code gander of Frances Markell's
gross estate. Query would the Respondent's treatment
have been different with respect to the QTIP
includability if the Markells had been a same sex couple,
given the Respondent's due deference to Goodridge's
equality principle despite the December 31, 2000 IRC
Code?
Respondent asserts in a supplemental brief that
Petitioner's argument of disparate treatment is
inharmonious wit Respondent's responsibility to
interpret and correct the offending outcomes of federal
statutory law when it is inconsistent with
Massachusetts law. While that responsibility may·be
genuinely believed, the authority to have done as
Respondent did in response to Goodridge is unsupported
by any law Respondent can point to. Mere lack of
affirmative corrective action by the Massachusetts
legislature to Respondent's TI 04-17 since July 7, 2004
695a

should not be the resting place for Respondent's reliance
of legislative approval. Even if Respondent could
articulate authority for its public guidance in light of
Goodridge, what then prohibits Respondent from
invoking its responsibility to correct the inconsistency of
application of the federal tax statute when to so literally
comply would result in double taxation to the Frances
Markell estate, a result the Commonwealth's case law
does not favor?
SUMMARY JUDGMENT
The Summary Judgment Standard of Review:
"The standard of review of a grant of summary judgment
is whether, viewing the evidence in the light most
favorable to the nonmoving party, all material facts have
been established and the moving party is entitled to a
judgment as a matter of law." Augat, Inc. v. Liberty
Mutual Ins. Co., 410 Mass. 117, 120 (1991). "The party
moving for summary judgment assumes the burden of
affirmatively demonstrating that there is no genuine
issue of material fact on every relevant issue, even if he
would have no burden on an issue if the case were to go
to trial." Pederson v. Time, Inc., 404 Mass. 14, 17 (1989).
Failure to establish the absence of a genuine issue of
material fact must, without any evidence from the nonmoving party, defeat a motion for summary judgment.
See Community Nat'l Bank v. Dawes, 369 Mass. 550,
554 (1976). If the moving party establishes the absence
of a triable issue, the party opposing the motion must
respond and allege specific facts establishing the
existence of a genuine issue or issues of fact. See
Pederson, 404 Mass. at 17. The non-moving plaintiff is
not required to prove its case at summary judgment,
Lawrence v. City of Cambridge, 422 Mass. 406 (1996).
The current version of Rule 56(c) of the Massachusetts
Rules of Civil Procedure prescribes that summary

696a

judgment is appropriate '… if the pleadings, depositions,
answers to interrogatories, and responses to requests for
admissions under Rule 36, together with the affidavits,
if any, show that there· is no genuine issue as to any
material fact and that the moving party is entitled to a
judgment as a matter of law'. " If the burden of proving
no genuine issues of material facts has not been met,
Rule 56(d) instructs the Court, to "if practicable
ascertain what material facts are actually and in good
faith controverted" and ''... make an order specifying the
facts that appear without substantial controversy ... and
directing such further proceedings in the action are
just."
Burden of proof as to abatement of tax is on the
taxpayer. Staples v. Commissioner of Corporations &
Taxation, 305 Mass. 20 (1940); Blakeley et al. v.
Commissioner of the Department of Revenue, 28 Mass.
App. Ct. 499 (1990). This burden includes establishing
the
statutory
authority
for
the
abatement.
Commissioner of Corporations & Taxation v. Adams, 316
Mass. 484 (1944). Both deductions and exemptions are
statutory offspring of legislative enactments. Drapkin v.
Commissioner of Revenue, 420 Mass. 333 (1995), citing
Adams. Statutory language is the principal (but not
exclusive) source of the crystal ball of legislative intent.
Commonwealth v. Lightfoot, 391 Mass. 718 (1984), citing
Hoffman v. Howmedica, Inc., 373 Mass. 32 (1977).
Statutory language ordinarily should be given its plain
meaning, if capable of being so construed. Bolster v.
Commissioner of Corporations and Taxation, 319 Mass.
810 (946). It is especially helpful if the language is clear,
unambiguous and plain. Pyle at al. v. School Committee
of South Hadley, 423 Mass. 283 (1996). If the statute is
susceptible to such plain meaning, then the Legislature
is entitled to the presumption that it knew of what it
spoke and must have known about the preexisting law
697a

as it was interwoven with that statute. Condon v.
Haitsme, 325 Mass. 371 (1950). Bestowing generic
legislature prescience of all laws then existing may be a
tenuous default position, especially given the murky
complexities demonstrated by the estate tax regime and
the specie QTIP. The Massachusetts Legislature1s
reference to the word "Code'' means the Internal
Revenue Code and does not necessarily also encompass
the Massachusetts Tax Code. Boston Safe Deposit &
Trust Co. v. Commissioner of the Department of
Revenue, 406 Mass. 195 (1998).
CONCLUSIONS
JUDGMENT:

OF

LAW

AND

SUMMARY

After consideration of the submissions by the moving
party in each motion, this Court determines that:
No questions of fact as to these issues have been fairly
raised that prevent this Court from entering judgment
by summary judgment.
Respondent Commissioner of the Department of
Revenue of the Commonwealth of Massachusetts motion
for summary judgment is DENIED.
The Petitioner Estate of Frances B. Markell, by Lorraine
R. Balkin, A. William Markell, and H. Kenneth Fish.,
Executors motion for summary judgment is ALLOWED
and Judgment for said Petitioner· is so entered AS
FOLLOWS.
1. Massachusetts General Laws chapter 65C section 2A
did not contemplate and does not permit double taxation
in the form of a second Massachusetts estate tax amount
on assets for which no prior Qualified Terminable
Interest Property ("QTIP") marital deduction had been
claimed for Massachusetts estate tax purposes on a
previously filed and accepted estate tax return for which
appropriate estate tax had been paid.

698a

2. The imposition for a second time of an estate tax on
the estate of Frances Markell, in the form of including in
the taxable Massachusetts estate the value of trust
assets upon which taxes had already been fully paid on a
previously filed Massachusetts return, shall be set aside
in the amount of refund/additional tax of $1,789,821.92
because such imposition is arbitrary and capricious,
given disparately favorable instruction by Respondent
on estate tax matters in the tax treatment to be afforded
the estates of same sex couples, given Respondent's
construction of Massachusetts General Laws chapter
65C section 2A, and given Respondent's public
instructions how that statute should be interpreted in
light of the equality principles enunciated in Goodridge
v. Department of Public Health, 440 Mass. 309 (2003).
3. Because it continues, post-Goodridge to incorporate
federal tax law which is constrained by 1 U.S.C. 7 in its
application to non-same sex spouses, thus posing
anathema to the equality principle and State
constitutional underpinnings cited by the Supreme
Judicial Court in Goodridge, Massachusetts General
Laws chapter 65C section 2A as it was applied by the
Respondent Commissioner in the tax treatment accorded
to the Frances Markell estate offends the Massachusetts
Constitution.
4. The amount of tax owed by the Frances Markell estate
is determined to be $1,651,055.17.
5. For all the abovestated reasons, the Respondent
Commissioner shall, within ten days hereof, abate and
refund such tax to Petitioner in the amount of
$1,789,821.92, with the statutorily prescribed interest.
Date 3/5/12
/s/ George F. Phelan
George F. Phelan, Judge
Probate and Family Court
699a

APPENDIX 49
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
Docket No. 327773
M. CHRISTINE SHAFFER,
As Executrix of the Estate
Of Adelaide P. Chuckrow,

Appellant,
v.

COMMISSIONER OF REVENUE,

Appellee.

APPELLANT'S REPLY BRIEF
At oral argument, the Commissioner of Revenue
conceded that the Appellant's analysis of G.L. c. 65C, §
1(f) was absolutely correct and that the Commonwealth
would not be able to collect the tax attributed to the
QTIP property. However, the Commissioner argues that
§ 1(f) somehow is not applicable. The Appellate Tax
Board requested further briefing on the issue. Therefore,
the question further briefed here focuses on the
statutory argument of whether G.L. c. 65C, § 1(f), is still
applicable now that Massachusetts has enacted § 2A.7
The Appellant argues in this reply brief about its statutory
argument related to § 1(f). The Appellant maintains that the
transfer of the QTIP property took place in New York, which was
beyond the taxing jurisdiction of the Commonwealth, and therefore
an unconstitutionally imposed tax. The Connecticut Supreme Court
case on this issue, Brooks v. Sullivan, No. SC-19577, was argued on
December 5, 2016, and is currently under advisement. Once a
7

700a

As argued at length in the Appellant's brief, the
definition of "Massachusetts gross estate" provided for in
§ l(f) clearly excludes QTIP property for which a federal
QTIP election was made but not a Massachusetts QTIP
election.8 Section 1(f) was designed to take into account
the difference between the Massachusetts and federal
gross estates in order to come to the correct
Massachusetts gross estate to compute the appropriate
Massachusetts estate tax. In other words, under the
plain definition provided under § 1(f), Adelaide
Chuckrow's Massachusetts gross estate would not
include the QTIP property and the estate would be
entitled to the abatement of $1,953,032.
The Commissioner, at oral argument, conceded
that the Appellant's analysis regarding § 1(f) was
correct, but argued instead that § 1(f) is no longer an
decision is released, the Appellant will advise the Commissioner
and the Board.
8

General Laws c. 65C, § 1(f) provides in full as follows:

"(f) 'Massachusetts gross estate', the federal gross estate, whether or
not a federal estate tax return is required to be filed, plus the value
of any property (i) in which the decedent had at death a qualifying
income interest for life described in subsection (c) of section three A,
or to the extent of any such interest therein of which the decedent
has at any time made a transfer, by trust or otherwise, under any
circumstances which would require the property to be included in
the gross estate under the provisions of this chapter and (ii) for
which a deduction was allowed for Massachusetts estate tax
purposes with respect to the transfer of such property to the
decedent; and less the value of real and tangible personal property
having an actual situs outside the commonwealth. The
Massachusetts gross estate shall not include the value of any
property in which the decedent had a qualifying income interest for
life which is not otherwise includible in the Massachusetts gross
estate under the first sentence of this paragraph, notwithstanding
the right of the executor of the decedent's estate to recover federal
or Massachusetts estate taxes from such property."

701a

applicable definition with regard to the estate tax
imposed by § 2A.9 Sections 1(f) and 2A must be read in
conjunction with each other, and not in contradiction. It
is clear that the Commissioner continues to rely on § 1(f)
when it suits its purpose—such as enforcement of the
automatic lien on estate funds and allowance of a
separate Massachusetts QTIP election-but ignores § 1(f)
when it hinders its purpose. Such selective enforcement
is arbitrary and should not be permitted. The Appellate
Tax Board should require that § 1(f) be applied as to
Adelaide Chuckrow's estate taxes and order the full
abatement.
II. Factual Background
The Appellant briefly restates the facts for the
convenience of the Board:
Robert Chuckrow and Adelaide Chuckrow were a
married couple living in New York. SAF ¶17-18. Robert
died on July 11, 1993. SAF ¶ 18. His will established a
QTIP trust and his executrix made a federal QTIP
9

General Laws c. 65C, § 2A provides in relevant part as follows:

(a) A tax is hereby imposed upon the transfer of the estate of each
person dying on or after January 1, 1997 who, at the time of death,
was a resident of the commonwealth. The amount of the tax shall be
the sum equal to the amount by which the credit for state death
taxes that would have been allowable to a decedent's estate as
computed under Code section 2011, as in effect on December 31,
2000, hereinafter referred to as the "credit", exceeds the lesser of:
(i) the aggregate amount of all estate, inheritance, legacy and
succession taxes actually paid to the several states of the United
States, other than the commonwealth, in respect to any property
owned by that decedent or subject to those taxes as part of or in
connection with his estate; or
(ii) an amount equal to the proportion of such allowable credit as the
value of properties taxable by other states bears to the value of the
entire federal gross estate wherever situated.

702a

election. SAF ¶¶ 18-20. This QTIP trust under Robert's
will was funded with $844,101.27. SAF ¶ 23.
Following Robert's death, Adelaide moved to
Massachusetts. She died on August 14, 2011 while living
in Williamstown, Massachusetts. SAF ¶ 1. At the time of
Adelaide's death, she had a total federal gross estate of
$15,633,617. SAF ¶ 14. This amount included the assets
held in the QTIP trust under Robert's will, the value of
which was $13,251,469. SAF ¶ 14.
Adelaide reported a Massachusetts gross estate of
$2,382,148 (which is the difference between the federal
gross estate and the amount attributable to QTIP trust
property). SAF ¶ 13, 15. Adelaide's estate paid $100,997
in Massachusetts estate taxes. SAF ¶ 2. The
Commissioner selected Adelaide's estate for audit, and
asserted that the estate owed taxes on the QTIP
property. SAF ¶ 3. Adelaide's estate paid the additional
tax assessed by the Commissioner plus the accrued
interest, a total of $1,953,032, and began the abatement
process. SAF ¶ 5, 6.
III. Analysis
Before analyzing the principal question here—
whether G.L. c. 65C, § 1(f) remains applicable to the
estate taxes imposed by§ 2A—a brief summary of the
Appellant's statutory argument is necessary. As argued
at length in the Appellant's principal brief, § 1(f) creates
a definition of "Massachusetts gross estate" that
harmonizes with the federal gross estate and avoids
thorny problems of double taxation that otherwise would
be present. Section 1(f) provides:
'"Massachusetts gross estate', the federal gross
estate, whether or not a federal estate tax return
is required to be filed, plus the value of any
property (i) in which the decedent had at death a

703a

qualifying income interest for life described in
subsection (c) of section three A,[10] or to the extent
of any such interest therein of which the decedent
has at any time made a transfer, by trust or
otherwise, under any circumstances which would
require the property to be included in the gross
estate under the provisions of this chapter and (ii)
for which a deduction was allowed for
Massachusetts estate tax purposes with respect to
the transfer of such property to the decedent; and
less the value of real and tangible personal
10 General Laws c. 65C, § 3A is the provision of law that permits a
Massachusetts QTIP election, and in relevant part provides:

(a) In the case of qualified terminable interest property, (i)
for purposes of subsection (a) of section two thousand and
fifty-six of the Code, such property shall be treated as
passing to the surviving spouse, and (ii) for purposes of
subsection (b)(1)(A) of section two thousand and fifty-six of
the Code, no part of such property shall be treated as
passing to any person other than the surviving spouse;
provided, however, that a deduction with respect to such
terminable interest property shall not be limited by
subsection (c) of section two thousand and fifty-six of the
Code.
(b) For purposes of this section, the term "qualified
terminable interest property" shall mean property (i) which
is included in the Massachusetts gross estate, (ii) which
passes from the decedent, (iii) in which the surviving spouse
has a qualifying income interest for life, and (iv) to which an
election under this section applies.
(c) The surviving spouse has a qualifying income interest for
life if (i) the surviving spouse is entitled to all the income
from the property, payable annually or at more frequent
intervals, and (ii) no person has a power to appoint any part
of the property to any person other than the surviving
spouse. Clause (ii) of this subsection shall not apply to a
power exercisable only at or after the death of the surviving
spouse.

704a

property having an actual situs outside the
commonwealth. The Massachusetts gross estate
shall not include the value of any property in
which the decedent had a qualifying income
interest for life which is not otherwise includible
in the Massachusetts gross estate under the first
sentence of this paragraph, notwithstanding the
right of the executor of the decedent's estate to
recover federal or Massachusetts estate taxes
from such property."
The starting point of the statute is the federal gross
estate. Added to this amount is the value of any property
for which a Massachusetts QTIP election was made
when the first-to-die spouse died. Next, the value of real
and tangible personal property situated outside the
Commonwealth is subtracted. The last sentence makes
one final adjustment:
"The Massachusetts gross estate shall not include
the value of any prope1iy in which the decedent
had a qualifying income interest for life which is
not otherwise includible in the Massachusetts
gross estate under the first sentence of this
paragraph, notwithstanding the right of the
executor of the decedent's estate to recover federal
or Massachusetts estate taxes from such
property."
This final sentence removes from the calculation the
value of any property for which a federal QTIP election
was made but for which no Massachusetts QTIP election
was made. At oral argument, the Commissioner
conceded that this was the correct interpretation of
§ 1(f), but argued that § 1(f) was inapplicable to the
estate tax as computed under § 2A.
However, the Commissioner continues to rely on the
definition of "Massachusetts gross estate" in other tax

705a

statutes, applying § 1(f) when it benefits the
Commissioner. Such selective enforcement is arbitrary,
and the Commissioner cannot claim here that the
"Massachusetts gross estate" is no longer applicable to
the estate tax as computed under § 2A.
1.

There has been no repeal of G.L. c. 6SC,
§ 1(f), express or implied.

First and foremost, there is no dispute that the
legislature has never repealed G.L. c. 65C, § 1(f), and
thus it still is in full force and effect. Like all statutes, an
implied repeal of a tax statute is not favored. See Dexter
v. Comm'r of Corps. & Taxation, 316 Mass. 31, 51 (1944).
In Dexter, the Commissioner attempted to impose
inheritance tax originally inserted by St. 1907, c. 563,
which for the first time in Massachusetts imposed a tax
on property passing to the decedent's spouse or lineal
descendants.11 Dexter, supra at 33-34. The tax was
assessed on the estate of Alice Meyer (who died in 1934),
who was the beneficiary of a trust under the will of her
father, Charles Appleton (who died in 1874). The
Commissioner attempted to impose a tax on the transfer
from Appleton to Meyer, even though such a tax was not
in force at the death of Appleton. The Commissioner
argued that the legislature's passing of St. 1916, § 268,
§ 4, caused an implied repeal of a certain portion of St.
1907, c. 563, which implied repeal would have permitted
the Commissioner to recover the tax from Appleton to
Meyer. The Court rejected this argument, holding: "No
implication of a repeal of said section 25 is to be drawn
from St. 1916, c. 268, § 4, or any other part of the
Prior to this statute, inheritance taxes were imposed only on the
transfer of property to the decedent's collateral relatives and to
other beneficiaries. St. 1891, c. 425; Dexter, supra at 33-34. Prior to
the 1891 statute, there was no inheritance tax in the
Commonwealth. Dexter, supra at 33
11

706a

statute, especially where, as here, such a repeal would
make a radical change in existing law." Id. at 51-52.
So too here. The Commissioner claims, in effect, that the
2002 amendment of G.L. c. 65C, § 2A caused an implied
repeal of G.L. c. 65C, § 1(f), sweeping away the definition
of "Massachusetts gross estate." However, nothing done
by the legislature expressly repealed § 1(f), and likewise,
there is no implied repeal. See Dexter, supra.
2.

The Commissioner's argument is untenable
and marked by inconsistent application
when viewed through the practicalities of
administration.

The Commissioner argues that § 2A uses only the
word "estate," and so the definition for Massachusetts
Gross Estate contained in § 1(f) is inapplicable. This
ignores the practice of the Commissioner with respect to
other aspects of the estate tax-most notably the lien on
the decedent's assets and on QTIP elections.

a.

The separate Massachusetts QTIP
election is authorized under G.L.
c. 65C, § 3A, but this statute too uses
only the term "Massachusetts gross
estate."

The Commissioner permits the decedent's
personal representative to elect a state QTIP election
that is separate and distinct from the federal QTIP
election. This ignores both the affirmative allowance of a
separate QTIP allowance under § 3A and the practical
manner in which estate taxes are calculated under § 2A.
The Commissioner, for this position, relies on the
statutory silence.
Nothing in § 2A permits the personal
representative to elect a separate Massachusetts QTIP
election. Yet the Commissioner has permitted personal

707a

representatives to make separate QTIP elections even
after the implementation of § 2A. This was the subject of
Directive 03-2, which provides: "There is no provision in
G.L. c. 65C, § 2A that requires an estate to make the
same election regarding a marital deduction for QTIP
property for Massachusetts and for federal estate tax
purposes. This is similar to that provided for by G. L. c.
65C, § 3A."
Practically, the estate tax is computed by filling
out the federal 706 for tax year 1999. After this form is
filled out, it provides the tax credit for state death taxes,
and it is this amount that becomes the estate tax
payable to the Commonwealth. The federal 706 for tax
year 1999 offers a federal QTIP election, but does not
include a state QTIP election. Under Directive 03-2, a
personal representative, in practice, may elect a
separate QTIP election for Commonwealth purposes.
But that is due to Directive 03-2; there is nothing in the
text of§ 2A that would permit such an election, and the
reference in § 3A is only to the Massachusetts gross
estate.
The only lawful way to make a separate QTIP
election for state estate taxes lies in G.L. c. 65C, § 3A.
The very definition of "qualified terminal interest
property" (i.e., QTIP property) makes reference to the
"Massachusetts gross estate." QTIP property is defined
as "property (i) which is included in the Massachusetts
gross estate, (ii) which passes from the decedent, (iii) in
which the surviving spouse has a qualifying income
interest for life, and (iv) to which an election under this
section applies." G.L. c. 65C, § 3A(b). There are two
issues here. First, QTIP property constitutes property
that "is included in the Massachusetts gross estate."
This suffers from the same issue outlined above-if the
Commissioner's argument is correct, there is no property
to QTIP, because there is no longer a Massachusetts
708a

gross estate. The analysis need not be repeated in full
here.
Second, a QTIP can be made only to property for
"which an election under this section applies." See id.
The Commissioner argues that § 2A is the only statute
that controls with regard to a payment of estate taxes. If
that were correct, an election could never be made
"under this section[§ 3A]. See also G.L. c. 65C, § 3A(f)
("An election under this section with respect to any
property shall be made by the executor .... "). This
reading is supported by Directive 03-2, which suggests
that § 3A is no longer applicable, by its use of the past
tense. From Directive 03-2: "There is no provision in
G.L. c. 65C, § 2A that requires an estate to make the
same election regarding a marital deduction for QTIP
property for Massachusetts and for federal estate tax
purposes. This is similar to that provided for by G. L.
c. 65C, § 3A." (emphasis added). This suggests that § 3A
is no longer applicable, but that the same result can be
reached under § 2A due to its silence.
"An administrative agency, however, has only the
powers and duties expressly conferred upon it by statute
and such as are reasonably necessary to carry out its
mission." Morey v. Martha’s Vineyard Comm'n, 409
Mass. 813, 818 (1991). "The commissioner's authority to
assess taxes is derived from either express or implied
statutory authority." Gillette Co. v. Comm'r of Revenue,
425 Mass. 670, 678 (1997). Thus, the Commissioner may
only assess an estate tax is explicitly authorized by the
legislature. See Id. It follows that the Commissioner may
authorize state QTIP elections if authorized by the
legislature. Indeed, this why G.L. c. 65C, § 3A originally
was implemented. If the Commissioner is correct that §
2A is the only applicable statute with respect to estate
tax assessments, then separate state QTIP elections
could not be permitted, by statute or by agency policy.
709a

Any such policy or regulation implemented by the
Commissioner would be beyond its authority. See

Gillette Co., supra.

The following examples demonstrate that the
separate and distinct Massachusetts QTIP election is
dependent on the continued recognition of the
"Massachusetts gross estate."
Example I: In this example, assume that the
estate tax law of 1993 is in effect for a married couple,
meaning an unlimited federal marital deduction, but a
50% Massachusetts marital deduction. H dies in 1993
with an estate of$ I million. H's executor makes a 100%
federal QTIP election ($1 million), but is permitted only
to make a 50% Massachusetts QTIP election and does so
($500,000), leaving $500,000 for which no Massachusetts
QTIP election was made. When W later dies in 2017
(after enactment of § 2A), bare reference to the federal
gross estate would result in the entire $1 million being
includible in W's estate for Massachusetts estate tax
purposes. The definition of "Massachusetts gross estate"
in § 1(f) corrected this problem with its last sentence,
which excludes from the Massachusetts gross estate
property for which a federal QTIP election was made but
no Massachusetts QTIP election was made.
Example 2: In this example, assume the laws that
are currently in effect in 2017 (a $5,490,000 federal
exemption and a $1 million Massachusetts exemption).
H dies with a $6 million estate, all of which is paid into a
trust that qualifies for QTIP election. H's estate plan
puts $1 million into a bypass share for which no federal
or state QTIP election is made. Next, $4,490,000 funds a
Massachusetts marital share for which a Massachusetts
QTIP election is made, but no federal QTIP election is
made. The balance of $510,000 funds the federal marital
share, for which a QTIP election is made for both federal

710a

and Massachusetts purposes. If W later dies with no
other assets of her own, her federal gross estate would
be worth only $510,000 (the other $5,490,000 was
completely shielded from federal estate taxes by virtue of
the federal exemption amount in conjunction with no
federal QTIP election). By bare reference to G.L. c. 65C,
§ 2A, Massachusetts could collect tax only based on this
$510,000, and no Massachusetts estate tax would be due
because this falls below the $1 million exemption. This,
of course, is not what happens in practice, because
pursuant to § 1(f), the Commissioner is able to add to
this $510,000 property for which a Massachusetts QTIP
election was made. The Commissioner currently takes
this position, meaning that the Commissioner would
assert that W's gross estate was actually $5,000,000 (the
$4,490,000
of
Massachusetts-only
QTIP-elected
prope1ty, plus the $510,000 of Massachusetts and
federal QTIP elected property). This demonstrates that
the Commissioner continues to rely on the definition of
"Massachusetts gross estate"; otherwise, millions of
dollars would escape Massachusetts estate taxation.
Thus, § 1(f) remains an important part of the
current estate tax regime, and the Commissioner
continues to rely on it with respect to QTIP property to
accurately assess Massachusetts estate taxes.

b.

The automatic lien placed on the
decedents property is authorized by
G.L. c. 65 C, § 14, but this statute
applies
liens
only
over
the
"Massachusetts gross estate."

By operation of statute, the Commissioner places
a lien on all the property of the decedent until estate
taxes are paid to the Commonwealth. See G.L. c. 65C, §
14. The applicable portion of the statute is as follows:

711a

"Unless the tax imposed by this chapter is sooner
paid in full, it shall be a lien for ten years from the
date of death upon the Massachusetts gross estate
of the decedent, except that such part of the
Massachusetts as is used for the payment of
charges against the estate and expenses of its
administration, allowed by the probate court,
having jurisdiction thereof, shall be divested of
such lien."
(emphasis added). If the Commissioner's argument is
correct in the present case, there is nothing to place a
lien on, for the Massachusetts gross estate is no longer
applicable. Therefore, the Commissioner should not have
been placing liens on decedents' property for the last
decade, as this lien language was not amended when §
2A was added to the chapter.
Certainly, the Commissioner has not ceased its
lien practice since the implementation of § 2A. The
Commissioner even went so far as to publish a guide
when § 2A was implemented to explain procedures with
respect to the lien. See A Guide to Estate Taxes

(Applicable to dates of death on or after January 1,
2003), http://www.mass.gov/dor/individuals/ taxpayer-

help-andresources/
tax-guides/estate-lax-information/
estate-tax-guide.html.
Under G.L. c. 65C, § 14, a lien is placed "upon the
Massachusetts gross estate of the decedent." The
Commissioner cannot read "estate" into language where
it specifically uses "Massachusetts gross estate" for
purposes of one procedure, and then ignore entirely a
definition of "Massachusetts gross estate" in another.
This is the very definition of arbitrary enforcement.
Continuing the analysis, the Commissioner
presses in this case that "Massachusetts gross estate" is
no longer an applicable definition by virtue of the

712a

passage of § 2A, which does not use the term
"Massachusetts gross estate" but simply the term
"estate."
So,
the
argument
goes,
the
term
"Massachusetts gross estate" no longer applies anywhere
in the Massachusetts estate tax regime, having been
replaced by the amount procedures of § 2A. If this
argument is correct, then the Commissioner's use of
estate tax liens has been unlawful and beyond its
permitted scope for well over a decade. Of course, this
argument that "Massachusetts gross estate" is no longer
a concept under the revised estate tax regime would fall
on deaf ears, if made to the Commissioner with respect
to an estate tax lien. Put another way, the Commissioner
has been arbitrarily choosing when it wants to use
"Massachusetts gross estate" and when it does not. If
"estate" can be substituted for "Massachusetts gross
estate"
where
context
may
require,
surely
"Massachusetts gross estate" can be substituted for
"estate" where context may require.
This issue has even arisen as against the
Appellant. The moment Adelaide Chuckrow died, the
Commissioner assessed a ten-year lien "upon the
Massachusetts gross estate of [Adelaide]." G.L. c. 65C,
§ 14. With this asserted lien in place, Adelaide's heirs
and beneficiaries could not have transferred property to
themselves with free and clear title until the estate
taxes had been fully paid. The Commissioner never
would have allowed it, and would have cited G.L. c. 65C,
§ 14, claiming that the Commonwealth has a lien over
all the assets in Adelaide's "Massachusetts gross estate."
Of course, the problem with such an assertion is that it
relies on the "Massachusetts gross estate" continuing to
exist as a concept, which the Commissioner explicitly
denies in its briefing in the present case. Having already
enforced a lien on the Massachusetts gross estate, the

713a

Commissioner is estopped from reversing that argument
with respect to the tax on the QTIP Trust.
The logical conclusion from this is that the
legislature did not intend to disregard the provisions of
G. L. c. 65C, including the definitions contained in § 1(f).
Rather, the legislature intended to change only the
method for computing the tax, not effect a wholesale
repeal of G.L. c. 65C. Surely, the legislature intended to
preserve the automatic lien, G.L. c. 65C, § 14, and the
Commissioner has determined that the legislature
intended to preserve the separate state QTIP election,
G.L. c. 65C, § 3A. The legislature intended for all the
provisions of G.L. c. 65C to work as a harmonious whole.
3.

The
interpretation
argued
by
the
Commissioner would result in the
decedent's estate paying taxes on real and
tangible personal property situated outside
the Commonwealth.

Bare reference to "estate" in G.L. c. 65C, § 2A is
troublesome on many levels with respect to residents
who own real property or tangible personal property that
is situated outside the Commonwealth. But under the
literal reading pushed by the Commissioner, such
property is taxable under § 2A. Such an attempted tax
would be patently unconstitutional. See Frick v.
Pennsylvania, 268 U.S. 473,492 (1925). In Frick,
Pennsylvania had levied an estate tax on its residents
that attempted to impose a tax on all property owned by
decedents, whether in state or out-of-state. See id. at
487-488. The Supreme Court held:
"[T]o impose either tax the State must have
jurisdiction over the thing that is taxed, and to
impose either without such jurisdiction is mere
extortion and in contravention of due process of
law. Here the tax was imposed on the transfer of

714a

tangible personalty having an actual situs in
other States—New York and Massachusetts. This
property, by reason of its character and situs, was
wholly under the jurisdiction of those States and
in no way under the jurisdiction of Pennsylvania.
True, its owner was domiciled in Pennsylvania,
but this neither brought it under the jurisdiction
of that State nor subtracted anything from the
jurisdiction of New York and Massachusetts. In
these respects the situation was the same as if the
property had been immovable realty. The
jurisdiction possessed by the States of the situs
was not partial but plenary, and included power
to regulate the transfer both inter vivos and on
the death of the owner, and power to tax both the
property and the transfer."
Id. at 492. The Supreme Judicial Court has recognized
the applicability of Frick. See Page v. Comm 'r of
Revenue, 389 Mass. 388, 392-393 (1983). In Page, the
taxpayer argued that Frick was controlling, but the
Court distinguished Frick due to the fact that the
property could be taxed because it was intangible
property. See id.
The legislature itself must have recognized this,
given that the very next paragraph of § 2A assesses a
tax on real property and tangible personal property
situated within the Commonwealth but owned by
nonresidents. Massachusetts may impose such a tax on
nonresidents due to the situs of the property. See Frick,
supra. To the contrary, Massachusetts cannot impose a
tax on its residents for real property or tangible personal
property owned by its residents but sited in other
jurisdictions. See id. The Constitution flatly prohibits
this, and even more to the point, Massachusetts has no
sovereignty over land in other jurisdictions just because

715a

said land happens to be owned by a Massachusetts
resident. See id.
"[T]he Legislature is presumed to be aware of
constitutional
requirements."
See
Verrochi
v.
Commonwealth, 394 Mass. 633, 638 (1985). Accordingly,
the legislature would not have passed such a blatantly
unconstitutional estate tax unless it intended to
preserve the definitions within the chapter that resolve
the constitutional issue entirely. The definition of
"Massachusetts gross estate" provided for in G.L. c. 65C,
§ 1(f) solves the constitutional problem by removing the
taxability of real property and tangible personal
property sited outside the Commonwealth.
Because the legislature did not repeal the
remainder of G.L. c. 65C, and because of the arguments
made above, it is clear that the legislature never
intended to completely do away with G.L. c. 65C, § 1(f)—
or § 3A or § 14, or any other provision of c. 65C-when it
enacted§ 2A. The legislature intended a harmonious
reading of the statute that comported with the
longstanding
understandings
constitutional
requirements, as codified in § 1(f).
IV. Conclusion
The Commissioner conceded at oral argument
that the taxpayers analysis of G.L. c. 65C, § 1(f) is
correct, but argues instead that § 1(f)—and specifically,
the definition of "Massachusetts gross estate"-is no
longer applicable since the passage of § 2A. The
Commissioner presses this argument even though it
contradicts not only the legislature's intent when
passing § 2A, but also contradicts the Commissioner's
practice with respect to the estate tax in the last decade.
The Commissioner relies on the continued validity of the
"Massachusetts gross estate" when it is convenient-such
as enforcement of the estate tax lien or allowance of

716a

separate QTIP—but refuses to accept its validity when it
works to its detriment, such as here.
The clear import of this analysis is that § 1 (t)
continues to have validity even after the implementation
of § 2A. It is the only mechanism that permits the
Commonwealth's estate tax to function constitutionally.
The Appellant maintains that it should be
successful under both the constitutional argument,
which is presented in its principal b1ief, and the
statutory argument, which is argued here and in the
principal brief. The Appellate Tax Board should order
that the Commonwealth refund the entire $1,953,032 to
the estate of Adelaide Chuckrow.
Respectfully Submitted,
The Appellant,
M. CHRISTINE SHAFFER,
as Executrix of the Estate of
Adelaide P. Chuckrow,
10803 Montrose Avenue, P.O. Box 96
Garret Park, MD 20896
(301) 933-2260,
By her Attorneys,
Leo J. Cushing, Esq., BBO #110560

lcushing@cushingdolan.com

Luke C. Bean, Esq. BBO #685399

lbean@cushingdolan.com

Cushing & Dolan, P.C.
375 Totten Pond Road, Suite 200
Waltham, MA 02451
(617) 523-1555

717a

Certificate of Service
I, Luke C. Bean, hereby certify that on this __ day
of August, 2017, I caused a true copy of the within
document to be served by hand on the following attorney
of record:
John J. Connors, Jr., Esq.
Counsel to the Commissioner
Department of Revenue
Litigation Bureau
100 Cambridge Street, 7th Floor
Boston, MA 02114-9565
/s/ Luke C. Bean
Luke C. Bean

718a

APPENDIX 50

The Commonwealth of Massachusetts
Department of Revenue
Resolution Division – Litigation Bureau
P.O. Box 9565
100 Cambridge Street, 7th Floor
Boston, Massachusetts 02114-9565
May 24, 2017
William J. Doherty, Clerk
Appellate Tax Board
100 Cambridge Street, Suite 200
Boston, MA 02114
Re:

M. Christine Shaffer, as Executrix of the Estate of
Adelaide P. Chuckrow, v. Commissioner of
Revenue
Appellate Tax Board Docket No. C327773

Dear Mr. Doherty:
In footnote 17, found on page 22 of the
Commissioner of Revenue’s Brief for the above-reference
matter, the Commissioner mentioned the Connecticut
Supreme Court matter of the Estate of Brooks v.
Sullivan, Connecticut Supreme Court Docket No. 19577.
This case is also mentioned in footnote 1 found of page 1
of the Appellant’s Reply Brief. This Connecticut case has
now been decided by the Connecticut Supreme Court.
Attached please find a copy of the Decision as found on
Lexis1 and another copy as found on the Connecticut
Supreme Court’s web site. Please inform the Board, in
particular Commissioner Patricia Good, of this
Connecticut Decision.
1

Lexis Decision intentionally omitted.

719a

If you have any questions, please feel free to
contact me at the phone number or Email address below.
Thank you for your attention to this matter.
Very truly yours,
/s/ John J. Connors, Jr.
John J. Connors, Jr. (BBO #552409)
Counsel to the Commissioner
Phone (617) 626-3219
Email: connors@dor.state.ma.us

720a

****************************************************
The ‘‘officially released’’ date that appears near the
beginning of each opinion is the date the opinion will be
published in the Connecticut Law Journal or the date it
was released as a slip opinion. The operative date for the
beginning of all time periods for filing postopinion
motions and petitions for certification is the ‘‘officially
released’’ date appearing in the opinion. In no event will
any such motions be accepted before the ‘‘officially
released’’ date. All opinions are subject to modification
and technical correction prior to official publication in
the Connecticut Reports and Connecticut Appellate
Reports. In the event of discrepancies between the
electronic version of an opinion and the print version
appearing in the Connecticut Law Journal and
subsequently in the Connecticut Reports or Connecticut
Appellate Reports, the latest print version is to be
considered authoritative. The syllabus and procedural
history accompanying the opinion as it appears on the
Commission on Official Legal Publications Electronic
Bulletin Board Service and in the Connecticut Law
Journal and bound volumes of official reports are
copyrighted by the Secretary of the State, State of
Connecticut, and may not be reproduced and distributed
without the express written permission of the
Commission on Official Legal Publications, Judicial
Branch, State of Connecticut.
****************************************************

721a

ESTATE OF HELEN B. BROOKS
ET AL. v. COMMISSIONER
OF REVENUE SERVICES
(SC 19577)
Palmer, Eveleigh, McDonald, Espinosa and
Robinson, Js. Argued December 5, 2016—officially
released May 23, 2017 Dennis A. Zagroba, with
whom were Heather Spaide and Patricio Suarez, for
the appellants (plaintiffs).

Dinah J. Bee, assistant attorney general, with whom
were Matthew Budzik, assistant attorney general,
and, on the brief, George Jepsen, attorney general,
for the appellee (defendant).

Opinion
EVELEIGH J. The plaintiffs, the coexecutors of the
estate of Helen B. Brooks,1 appeal from the trial
court’s rendering of summary judgment in favor of
the defendant, the Commissioner of Revenue
Services.2 The trial court upheld the decision of the
defendant to deny the plaintiffs’ request for a refund
of estate taxes paid by the estate of the decedent,
1

The coexecutors are Dorothy Newberth, Nancy B. Jackman,
and David S. Brooks. We note that, although the summons lists
the named plaintiff as the estate of Helen B. Brooks, the
present action is maintained on its behalf by the coexecutors.
See Estate of Rock v. University of Connecticut, 323 Conn. 26,
32, 144 A.3d 420 (2016). We have, however, retained the
caption of the present case for the sake of consistency with the
trial court’s memorandum of decision.
2

The plaintiffs appealed from the judgment of the trial court to
the Appellate Court, and we transferred the appeal to this
court pursuant to General Statutes § 51-199 (c) and Practice
Book § 65-1.

722a

Helen B. Brooks (decedent). On appeal, the plaintiffs
claim that the trial court incorrectly concluded that
the defendant had statutory authority to include in
the decedent’s gross estate the value of certain
qualified terminable interest property (QTIP) in
which the decedent enjoyed a life interest and levy
an estate tax upon such property. The plaintiffs also
assert that the defendant’s construction of the
statute resulted in a violation of the plaintiffs’ due
process rights. We disagree with the plaintiffs and,
accordingly, affirm the judgment of the trial court.
The following facts and procedural history are
relevant to this appeal. The material facts in this
case are not in dispute. The decedent died on
September 22, 2009, domiciled in Connecticut. She
was predeceased by her husband, Everett Brooks
(Everett), who died January 31, 2000. Everett was a
resident of Florida at the time of his death. At that
time, Florida and Connecticut each had an estate tax
based on the amount of the federal credit allowed for
state death taxes. See 26 U.S.C. § 2011 (2000);
General Statutes (Rev. to 1999) § 12-391; Fla. Stat. §
198.02 (2000). Everett’s will was probated in Florida.
Pursuant to Everett’s will, two trusts were created to
hold certain assets of the estate.3 The decedent,
acting as executor of Everett’s estate, elected to
qualify both trusts as QTIP marital deduction trusts.
See 26 U.S.C. § 2056 (b) (7) (2000). Pursuant to
Everett’s will, the decedent enjoyed a beneficial life
interest in the assets of the trusts. Everett’s will also
3

Everett’s estate elected to separate the trust set forth in
Everett’s will into two parts in order to allocate a portion of the
generation skipping tax exemption to part of the trust. See 26
U.S.C. § 2652 (a) (3) (2000). Neither the separation of the trust
into two parts nor the generation skipping tax exemption
allocation affects the resolution of this appeal.

723a

granted the decedent a testamentary limited power
of appointment to direct the remainder of the trusts
among Everett’s children. In the absence of such an
appointment by the decedent, the principal of the
trusts was to be distributed according to Everett’s
will. The trusts consisted of intangible personal
property—namely, cash and publicly traded stocks
and bonds. The decedent and Attorney Herbert J.
Hummers were appointed trustees of the trusts.
Hummers was given the power to invade the
principal of the trusts for the benefit of the
decedent.4 The decedent did not have the power to
invade the principal of the trust. In or about 2002,
the decedent moved to Connecticut and lived in the
state continuously until her death.
After the decedent’s death, the plaintiffs timely filed
a request for extension and made an estimated tax
payment of $1,435,000. On November 4, 2010, the
plaintiffs timely filed a Connecticut estate tax return
for the decedent’s estate that intentionally omitted
the value of the trusts and claimed a refund in the
amount of $988,827. The plaintiffs included a
statement on the return asserting that the value of
4

Specifically, Everett’s will provided in relevant part: ‘‘During
the life of my wife my trustee or trustees other than my wife
may encroach upon the principal of this residuary trust for her
benefit from time to time and pay any portions or all thereof to
her or apply the same to her use, if such trustees in such
trustees’ uncontrolled discretion shall deem the same to be
desirable for any reason, and this discretion shall expressly
include the power to terminate this trust by such
encroachments. It shall not be necessary for such trustees to
inquire as to any other income or property of my said wife. Any
decision of such trustees with respect to the exercise of said
discretionary power, made in good faith, shall fully protect such
trustees, and shall be conclusive and binding upon all
interested persons. . . .’’

724a

those assets was not properly includable in the
Connecticut gross estate of the decedent. The
defendant’s audit division disallowed the plaintiffs’
request for a refund. The plaintiffs subsequently
filed a timely appeal to the defendant’s appellate
division, which affirmed. The plaintiffs then filed a
timely appeal from that decision to the trial court
pursuant to General Statutes §§ 12-395 (a) (1) and
12-554. See generally Coyle v. Commissioner of
Revenue Services, 142 Conn. App. 198, 203–205, 69
A.3d 310 (2013), appeal dismissed, 312 Conn. 282, 91
A.3d 902 (2014). On cross motions for summary
judgment, the trial court concluded that the assets of
the trusts were properly included in the decedent’s
gross estate and, therefore, were subject to the
estate tax. In addition, the trial court concluded that
the imposition of the tax upon the estate did not
violate the due process clause of the fourteenth
amendment to the United States constitution.
Accordingly, the trial court denied the plaintiffs’
motion for summary judgment and granted the
defendant’s motion. The trial court then rendered
judgment thereon in favor of the defendant. This
appeal followed. Additional facts and procedural
history will be set forth as necessary.
‘‘Because the decision to grant a motion for summary
judgment is a question of law, our review of the trial
court’s decision is plenary.’’ Dattco, Inc. v.
Commissioner of Transportation, 324 Conn. 39, 44,
151 A.3d 823 (2016). ‘‘On appeal, we must determine
whether the legal conclusions reached by the trial
court are legally and logically correct and whether
they find support in the facts set out in the
memorandum of decision of the trial court.’’ (Internal
quotation marks omitted.) Cefaratti v. Aranow, 321
Conn. 637, 645, 138 A.3d 837 (2016).

725a

I
We begin by discussing the background of the federal
tax concepts implicated in the present case. In 1981,
Congress enacted ‘‘the most dramatic and expansive
liberalization of the [m]arital [d]eduction in history.’’
Estate of Clayton v. Commissioner of Internal
Revenue, 976 F.2d 1486, 1492 (5th Cir. 1992). Such a
feat was achieved in two ways. First, Congress
provided for the unlimited marital deduction.
Economic Recovery Tax Act of 1981, Pub. L. 97-34, §
403 (a), 95 Stat. 301; see also 26 U.S.C. § 2056 (a).5
Federal law did not, however, previously allow for
the deduction of terminable interests. Estate of
Clayton v. Commissioner of Internal Revenue, supra,
1492. Mindful of rising divorce and remarriage rates,
Congress created an exception to the general rule
against allowing a deduction for the interspousal
transfer of terminable interests so that a decedent
may exert more control over the ultimate disposition
of certain assets while still financially providing for
the surviving spouse with such assets unburdened
by front end taxation. See id., 1492–93 and n.26.
Thus, the concept of QTIP was born. Id., 1493.
Federal tax law currently operates by granting the
marital deduction to the first to die spouse in the
5

The general marriage deduction provision, which is set forth
in 26 U.S.C. § 2056 (a), provides: ‘‘For purposes of the tax
imposed by section 2001, the value of the taxable estate shall,
except as limited by subsection (b), be determined by deducting
from the value of the gross estate an amount equal to the value
of any interest in property which passes or has passed from the
decedent to his surviving spouse, but only to the extent that
such interest is included in determining the value of the gross
estate.’’

726a

amount of the value of certain property, subject to
certain qualifications, so long as the first to die
spouse gives a beneficial life interest in such
property to the surviving spouse. 26 U.S.C. § 2056
(b) (7).6 In order to ensure that the property does not
pass to the remainder beneficiaries untaxed, the
6

We note, in particular, that 26 U.S.C. § 2056 (b) (7) (B)
provides: ‘‘Qualified terminable interest property defined
‘‘For purposes of this paragraph—
‘‘(i) In general
‘‘The term ‘qualified terminable interest property’ means
property—
‘‘(I) which passes from the decedent,
‘‘(II) in which the surviving spouse has a qualifying income
interest for life, and
‘‘(III) to which an election under this paragraph applies.
‘‘(ii) Qualifying income interest for life
‘‘The surviving spouse has a qualifying income interest for
life if—
‘‘(I) the surviving spouse is entitled to all the income from
the property, payable annually or at more frequent
intervals, or has a usufruct interest for life in the property,
and
‘‘(II) no person has a power to appoint any part of the
property to any person other than the surviving spouse.
‘‘Subclause (II) shall not apply to a power exercisable only
at or after the death of the surviving spouse. To the extent
provided in regulations, an annuity shall be treated in a
manner similar to an income interest in property
(regardless of whether the property from which the
annuity is payable can be separately identified).
‘‘(iii) Property includes interest therein
‘‘The term ‘property’ includes an interest in property.
‘‘(iv) Specific portion treated as separate property
‘‘A specific portion of property shall be treated as separate
property.
‘‘(v) Election
‘‘An election under this paragraph with respect to any
property shall be made by the executor on the return of tax
imposed by section 2001. Such an election, once made,
shall be irrevocable.’’

727a

federal tax code imposes a tax upon the happening of
two events. During the life of the surviving spouse,
any disposition of a qualifying life interest in
property is treated as a transfer of the remainder
interest in such property for purposes of the gift tax.
See 26 U.S.C. § 2519 (a).7 To the extent that the
surviving spouse did not make any inter vivos
disposition of any qualifying life interest in property,
the entire value of the property in which the
surviving spouse enjoyed a qualifying life interest is
included in his or her gross estate and is treated as
property passing therefrom. See 26 U.S.C. § 2044.88
In short, a fictional transfer occurs from the first to
die spouse to the surviving spouse, and a second
fictional transfer occurs upon the death of the
surviving spouse to the remainder beneficiaries. We
note that, in the present case, it is undisputed that
the assets contained within the trusts established
pursuant to Everett’s will were properly included in
the decedent’s federal gross estate.
7

Section 2519 (a) of title 26 of the United States Code provides:
‘‘For purposes of this chapter and chapter 11, any disposition of
all or part of a qualifying income interest for life in any
property to which this section applies shall be treated as a
transfer of all interests in such property other than the
qualifying income interest.’’
8

Section 2044 of title 26 of the United States Code provides in
relevant part as follows: ‘‘(a) General rule
‘‘The value of the gross estate shall include the value of
any property to which this section applies in which the
decedent had a qualifying income interest for life. . . .
‘‘(c) Property treated as having passed from decedent
‘‘For purposes of this chapter and chapter 13, property
includible in the gross estate of the decedent under
subsection (a) shall be treated as property passing from
the decedent.’’

728a

II
First, we address the plaintiffs’ claim that, pursuant
to General Statutes § 12-391 (c) (3),9 the assets
contained within the trusts are not includable in the
decedent’s gross estate. Specifically, the plaintiffs
claim that the relevant federal estate tax provisions
have been incorporated into the state estate tax
provisions and, therefore, the assets contained
within the trusts form part of the decedent’s state
gross estate only if the state allowed a deduction
with respect to the transfer of such property to the
decedent following Everett’s death. The defendant
claims that such an interpretation of § 12-391 (c) (3)
is inconsistent with the plain meaning of the
provision—namely, that the gross estate for state
estate tax purposes is the same as the gross estate
for federal estate tax purposes. We agree with the
defendant.
The plaintiffs’ claim implicates a matter of statutory
construction. Our standard of review for statutory
construction claims is well established. ‘‘When
construing a statute, [the court’s] fundamental
objective is to ascertain and give effect to the
apparent intent of the legislature. . . . In other
words, [the court seeks] to determine, in a reasoned
manner, the meaning of the statutory language as
applied to the facts of [the] case, including the
9

As discussed in part III of this opinion, the legislature has
made certain amendments to § 12-391 that are relevant to the
present appeal. See Public Acts 2013, No. 13-247, § 120; Public
Acts 2014, No. 14-155, § 12. We note, however, the subdivisions
discussed in this section, namely § 12-391 (c) (3) and (f) (2),
have remained unchanged since the death of the decedent. For
the sake of simplicity, all references to § 12-391 in this opinion,
unless otherwise noted, are to the current revision of the
statute.

729a

question of whether the language actually does
apply. . . . In seeking to determine that meaning . . .
[General Statutes] § 1-2z directs [the court] first to
consider the text of the statute itself and its
relationship to other statutes. If, after examining
such text and considering such relationship, the
meaning of such text is plain and unambiguous and
does not yield absurd or unworkable results,
extratextual evidence of the meaning of the statute
shall not be considered. . . . The test to determine
ambiguity is whether the statute, when read in
context, is susceptible to more than one reasonable
interpretation.’’ (Internal quotation marks omitted.)

Allen v. Commissioner of Revenue Services, 324
Conn. 292, 307–308, 152 A.3d 488 (2016). ‘‘[A]long
with these principles, we are also guided by the
applicable rules of statutory construction specifically
associated with the interpretation of tax statutes. . . .
[W]hen the issue is the imposition of a tax, rather
than a claimed right to an exemption or a deduction,
the governing authorities must be strictly construed
. . . in favor of the taxpayer. . . . Nevertheless, [i]t is
also true . . . that such strict construction neither
requires nor permits the contravention of the true
intent and purpose of the statute as expressed in the
language used.’’ (Internal quotation marks omitted.)
Groton v. Commissioner of Revenue Services, 317
Conn. 319, 328–29, 118 A.3d 37 (2015).

We acknowledge that ‘‘when our tax statutes refer to
the federal tax code, federal tax concepts are
incorporated into state law.’’ (Internal quotation
marks omitted.) Allen v. Commissioner of Revenue
Services, supra, 324 Conn. 305 n.15. Nevertheless,
we have explained that ‘‘this rule does not require
the wholesale incorporation of the entire body of
federal tax principles into our state income tax
730a

scheme . . . .’’ (Internal quotation marks omitted.) Id.
Instead, ‘‘where a reference to the federal tax code
expressly is made in the language of a statute, and

where incorporation of federal tax principles makes
sense in light of the statutory language at issue, our

prior cases uniformly have held that incorporation
should take place.’’ (Emphasis added; internal
quotation marks omitted.) Id.

In the present case, the statutory language provides
that the term gross estate ‘‘means the gross estate,
for federal estate tax purposes.’’ General Statutes §
12-391 (c) (3). The plain language of the statute
requires nothing more than the gross estate as
reported on the federal estate tax return. The
construction urged by the plaintiffs would result in a
value of the gross estate for state estate tax purposes
that would differ from the value of the gross estate
for federal estate tax purposes. Specifically, looking
at whether Connecticut deducted the value of a
QTIP trust from the estate of the first to die spouse
in order to ascertain whether such assets are to be
included in the state gross estate of the surviving
spouse would not be ‘‘for federal estate tax
purposes.’’ General Statutes § 12-391 (c) (3). Thus,
according to § 12-391 (c) (3), if assets are included in
a decedent’s federal gross estate, they are included
in his or her state gross estate as well.
In addition, this construction is buttressed by § 12391 (f) (2), which provides: ‘‘An election under said
[26 U.S.C. § 2056 (b) (7)] may be made for state
estate tax purposes regardless of whether any such
election is made for federal estate tax purposes. The
value of the gross estate shall include the value of
any property in which the decedent had a qualifying
income interest for life for which an election was
made under this subsection.’’ (Emphasis added.)
731a

Thus, the legislature has created a separate state
QTIP election and inclusion provision. Construing
§ 12-391 (c) (3) to require the state to have first
granted a deduction for the value of a QTIP trust
from the gross estate of the first to die spouse in
order to properly include the value of such in assets
in the gross estate of the surviving spouse would, in
essence, create a state QTIP election by
incorporation that would render a separate election
under § 12-391 (f) (2) superfluous. See, e.g., Allen v.
Commissioner of Revenue Services, supra, 324 Conn.
309 (‘‘statutes shall not be construed to render any
sentence, clause, or phrase superfluous or
meaningless’’ [internal quotation marks omitted]).
Accordingly, we conclude that the plain language of
the statute, when read in context with other related
provisions, clearly provides that the assets contained
within the trusts at issue are includable in the
decedent’s gross estate pursuant to § 12-391 (c) (3)
because they were included in the decedent’s gross
estate for federal estate tax purposes.
Not advancing a textual basis for their construction
of the provision, the plaintiffs rely principally upon
case law for their claim that the federal estate tax
code is incorporated into § 12-391 (c) (3). At first
blush, our holding in Berkley v. Gavin, 253 Conn.
761, 772–75, 756 A.2d 248 (2000), would appear to
strongly support the plaintiffs’ position in the
present case. In Berkley, the issue was whether the
phrase ‘‘as determined for federal income tax
purposes’’ in the statute defining adjusted gross
income; General Statutes (Rev. to 1999) § 12-701 (a)
(19); ‘‘means as determined in accordance with
federal income tax methodology, or as reported on a
taxpayer’s federal income tax return.’’ Berkley v.
Gavin, supra, 772. Relying on case law, this court

732a

held that the phrase meant the former because the
pertinent federal tax provisions for determining
adjusted gross income were incorporated into this
state’s income tax provisions. Id., 774. This included
the tax benefit rule. 26 U.S.C. § 111.10 As a result,
whether certain recovered losses were included in
Connecticut adjusted gross income in the present
year would depend on whether the taxpayer had
reduced his state income tax liability, but not
necessarily his federal income tax liability, in a
previous year as a result of such previously reported
losses. In essence, the incorporation of the federal
tax benefit rule resulted in a ‘‘Connecticut tax
benefit rule . . . .’’ (Emphasis in original.) Id., 783
(Sullivan, J., dissenting).11 This is precisely the
interpretation the plaintiffs seek in the present
10

The tax benefit rule, 26 U.S.C. § 111 (a), provides: ‘‘Gross
income does not include income attributable to the recovery
during the taxable year of any amount deducted in any prior
taxable year to the extent such amount did not reduce the
amount of tax imposed by this chapter.’’
11

In his dissent, Justice Sullivan illustrated the consequence of
incorporating the tax benefit rule as follows: ‘‘A taxpayer, in
year one, incurs a loss and receives a federal tax benefit
because his income is reduced by that loss. For some reason,
however, he receives no Connecticut tax benefit from the loss.
In year two, the taxpayer recovers the loss. The taxpayer must
pay federal income tax on the recovered income in year two,
pursuant to the inclusionary aspect of the tax benefit rule. . . .
[B]ecause the taxpayer received no Connecticut tax benefit in
year one, he may exclude the recovered income for Connecticut
income tax purposes in year two.
Accordingly, the adjusted gross income reported on the
taxpayer’s federal income tax return in year two would have to
be modified on his Connecticut income tax return to reflect the
exclusion of the recovered loss for Connecticut income tax
purposes.’’ (Footnote omitted.) Berkley v. Gavin, supra, 253
Conn. 783.

733a

case—namely, that the inclusion of a QTIP marital
deduction trust in a decedent’s state gross estate
requires the state to have granted a corresponding
deduction to the estate of the first to die spouse.
Justice Sullivan, in his dissent in Berkley, pointed
out that the result reached by the majority in that
case was inconsistent with the plain language of the
statute because such a modification of Connecticut
adjusted gross income was not ‘‘for federal income
tax purposes . . . .’’ (Internal quotation marks
omitted.) Id., 784. Indeed, as a result of the holding
in Berkley, the legislature subsequently clarified the
definition of adjusted gross income by adding the
phrase ‘‘and as properly reported on such person’s
federal income tax return.’’ Public Acts, Spec. Sess.,
June, 2001, No. 01-6, § 35; see also Public Acts, Spec.
Sess., June, 2001, No. 01-6, § 36 (stating legislative
intent). To construe the provision defining gross
estate in the present case to incorporate the federal
estate tax code would result, as Justice Sullivan
pointed out in Berkley, in a construction inconsistent
with the plain language of the relevant statute. We
conclude, especially in light of the principles of § 12z, which was not in effect when Berkley was
decided, that incorporation of federal tax statutes
into our statutory provisions should be determined
in the first instance with reference to the plain
meaning of § 12-391 (c) (3).
Next, we disagree with the plaintiffs’ contention that
our holding in New York Trust Co. v. Doubleday, 144
Conn. 134, 145, 128 A.2d 192 (1956), incorporated all
provisions of the federal estate tax into our estate
tax code. In that case, we stated the following ‘‘The
Connecticut estate tax statute . . . adopts as the base
for computing the tax 80 [percent] of the amount of
the basic federal estate tax. Inferentially, then, our

734a

statute incorporates within itself the provisions of
the federal estate tax statute, governing the
computation of the federal estate tax, including all of
the provisions of the latter statute for exemptions
and deductions.’’ Id. The estate tax statute at issue
in that case bears no resemblance to the estate tax
at issue in the present case.12 The previous estate
tax, known as the pick up tax, was principally based
upon the federal credit available under 26 U.S.C. §
2011. See G. Wilhelm & L. Weintraub, Connecticut
Estate Practice: Death Taxes in Connecticut (4th Ed.
2013) § 1:2, p. 1-6. Under the previous estate tax,
‘‘[t]he amount of the tax was the amount by which
such credit exceeded the total amount of all death
taxes, including the Connecticut succession tax,
actually paid to the several states and territories.’’
Id., pp. 1-6 through 1-7. We described our estate tax
at that time as one that did ‘‘no more than to divert
into the state treasury what would otherwise be
taken by the federal government as a part of the
federal estate tax.’’ New York Trust Co. v.
Doubleday, supra, 145. After Congress repealed the

The applicable tax statute in New York Trust Co. v.
Doubleday, supra, 144 Conn. 144, ‘‘imposed [a tax] upon the
12

transfer of the estate of each person who at the time of death
was a resident of this state, the amount of which shall be the
amount by which [80 percent] of the estate tax payable to the
United States under the provisions of the federal revenue act in
force at the date of such decedent’s death shall exceed the
aggregate amount of all estate, inheritance, legacy, transfer
and succession taxes actually paid to the several states and
territories of the United States, including this state, in respect
to any property owned by such decedent or subject to such
taxes as a part of or in connection with his estate.’’ General
Statutes (1949 Rev.) § 2065.

735a

state death tax credit,1313 the legislature enacted a
new, stand alone estate tax applicable to decedents
dying on or after January 1, 2005. See Public Acts
2005, No. 05-251, § 69. The decedent’s estate is being
taxed under the present, stand-alone estate tax, not
the pick up tax. Accordingly, we construe the present
estate tax statute anew, unbound by this court’s
construction of a substantively different and
inoperative tax statute.
In sum, we conclude that the value of the QTIP
marital deduction trusts at issue in the present case
are included in the decedent’s gross estate for
Connecticut estate tax purposes because those assets
are included in the decedent’s gross estate for federal
estate tax purposes.
III
We next address the plaintiffs’ claim that § 12-391
does not permit the defendant to tax the assets
contained within the QTIP marital deduction trusts
because the decedent did not own the property
subject to the tax. In particular, the plaintiffs claim
that the statutory language in effect at the time of
the decedent’s death; General Statutes (Rev. to 2009)
§ 12-391 (d) (3);14 limits the authority of the
defendant to impose a tax upon intangible personal
property to only such property owned by the
decedent and that, therefore, the assets contained
13

See Economic Growth and Tax Relief Reconciliation Act of
2001, Pub. L. No. 107-16, § 532 (a), 115 Stat. 73.
14

General Statutes (Rev. to 2009) § 12-391 (d) (3) provides:
‘‘Property of a resident estate over which this state has
jurisdiction for estate tax purposes includes real property
situated in this state, tangible personal property having an
actual situs in this state and intangible personal property
owned by the decedent, regardless of where it is located.’’

736a

within the trusts at issue are not taxable. The
defendant claims that No. 13-247, § 120, of the 2013
Public Acts (P.A. 13-247), and No. 14-155, § 12, of
the 2014 Public Acts (P.A. 14-155), clarified the
original intention of the legislature with respect to
the meaning of the relevant provision and, therefore,
applies retroactively. Specifically, P.A. 13-247, § 120,
amended § 12-391 (d) (3) to, inter alia, replace the
words ‘‘owned by the decedent’’ with ‘‘included in the
gross estate of the decedent,’’ and P.A. 14-155, § 12,
expressly declared the legislative intent of P.A. 13247, § 120, to be ‘‘clarifying in nature and applicable
to all open estates.’’ The defendant points to the
legislative history of both acts in support of his
claim. The plaintiffs counter that, notwithstanding
the legislature’s belated attempt in P.A. 14-155 to
declare its intent regarding the amendments, P.A.
13-247 amounted to a substantive change to the law
that can only be applied prospectively. As evidence,
the plaintiffs point to the effective date of January 1,
2013, contained in P.A. 13-257, § 120. The plaintiffs
further claim that if § 12-391 (d) (3) were construed
in accordance with its plain meaning, it would be
evident that the amendment amounted to a
substantive change. The plaintiffs also dispute that
the legislative history is sufficient to support the
conclusion that the amendment was clarifying in
nature. We agree with the defendant.
We begin by discussing the legal standard we apply
in determining whether the legislature intended
statutory amendments to be clarifying in nature.
‘‘We presume that, in enacting a statute, the
legislature intended a change in existing law. . . .
This presumption, like any other, may be rebutted
by contrary evidence of the legislative intent in the
particular case. An amendment which in effect

737a

construes and clarifies a prior statute must be
accepted as the legislative declaration of the
meaning of the original act. . . . Furthermore, an
amendment that is intended to clarify the intent of
an earlier act necessarily has retroactive effect.’’
(Citation omitted; internal quotation marks
omitted.) Bhinder v. Sun Co., 263 Conn. 358, 368–69,
819 A.2d 822 (2003). ‘‘This court has a long tradition
of embracing clarifying legislation.’’ Greenwich
Hospital v. Gavin, 265 Conn. 511, 520, 829 A.2d 810
(2003); accord State v. Banks, 321 Conn. 821, 841–
42, 146 A.3d 1 (2016); see also FairwindCT, Inc. v.
Connecticut Siting Council, 313 Conn. 669, 685 n.21,
99 A.3d 1038 (2014) (‘‘there is no question that the
legislature has the power to enact clarifying
legislation’’).15 ‘‘[W]e have often held . . . that it is as
much within the legislative power as the judicial
power—subject, of course, to constitutional limits
other than the separation of powers—for the
legislature to declare what its intent was in enacting
previous legislation.’’ (Internal quotation marks
omitted.) Greenwich Hospital v. Gavin, supra, 520.
Accordingly, as a matter of statutory construction,
we need not construe the original statutory language
15

The plaintiffs cite General Statutes §§ 1-1 (u) and 55-3 for the
proposition that newly enacted legislation shall not affect
pending litigation or be applied retroactively. These statutes,
however, create presumptions against retroactivity and
application to pending litigation, not a per se bar. Gil v.
Courthouse One, 239 Conn. 676, 687–89, 687 A.2d 146 (1997);
see also Doe v. Hartford Roman Catholic Diocesan Corp., 317
Conn. 357, 417 n.45, 119 A.3d 462 (2015) (describing § 1-1 [u]
as embodying ‘‘rule of presumed legislative intent’’ [emphasis
added]); Andersen Consulting, LLP v. Gavin, 255 Conn. 498,
517, 767 A.2d 692 (2001) (‘‘we have uniformly interpreted § 553 as a rule of presumed legislative intent that statutes affecting
substantive rights shall apply prospectively only’’ [emphasis
altered; internal quotation marks omitted]).

738a

upon finding that subsequent legislation is clarifying
in nature. See id., 517 and n.8; see also Raftopol v.
Ramey, 299 Conn. 681, 685–86 n.7, 12 A.3d 783
(2011).
‘‘To determine whether the legislature enacted a
statutory amendment with the intent to clarify
existing legislation, we look to various factors,
including, but not limited to (1) the amendatory
language . . . (2) the declaration of intent, if any,
contained in the public act . . . (3) the legislative
history . . . and (4) the circumstances surrounding
the enactment of the amendment, such as, whether
it was enacted in direct response to a judicial
decision that the legislature deemed incorrect . . . or
passed to resolve a controversy engendered by
statutory ambiguity . . . .’’ (Citations omitted;
internal quotation marks omitted.) Middlebury v.
Dept. of Environmental Protection, 283 Conn. 156,
174, 927 A.2d 793 (2007). Not each factor is given
equal weight. We have previously observed that the
legislature ‘‘simplifie[s] our task of determining its
intention in adopting [amendatory legislation] by
incorporating into the text of the act an explicit
statement of the legislature’s intention.’’ Greenwich
Hospital v. Gavin, supra, 265 Conn. 519.
First and foremost, the legislature enacted express
language manifesting its intention to clarify its
original intent with respect to the relevant provision.
Section 12 of P.A. 14-155 provides in relevant part:
‘‘It is the intent of the General Assembly that the
amendments made by section 120 of public act 13247 to subsections (d) and (e) of section 12-391 of the
general statutes, as amended by this act, are
clarifying in nature and apply to all open estates.’’
The plaintiffs concede that such expressions of

739a

legislative intent are often taken as conclusive
evidence of original legislative intent.
Nevertheless, the plaintiffs rightfully point out that,
when the legislature enacted P.A. 13-247, § 120, it
made the provision applicable to the estates of
decedents dying after January 1, 2013.16 The
plaintiffs argue that the express declaration of intent
to clarify should not be given effect because it
directly conflicts with the effective date of P.A. 13247, § 120, and there is no other evidence that the
legislature intended that amendment to be
clarifying. Contrary to the plaintiffs’ claim, the
legislative history of P.A. 13-247, § 120, does support
the conclusion that the amendatory language was, in
fact, clarifying in nature. To be sure, the legislative
history is scant, but it points in favor of the
defendant. Senator John W. Fonfara, in response to
a question from Senator L. Scott Frantz, remarked
that the revision to the estate tax statute is
‘‘technical and is consistent with how we’ve always
implemented this procedure so it doesn’t change the
way Connecticut has implemented this provision
previously.’’ 56 S. Proc., Pt. 17, 2013 Sess., p. 5459.17
16

In a legislative hearing on the relevant provision, the
defendant, in testimony before the legislature, described P.A.
14-155, § 12, as ‘‘truly technical. It overturns a drafting error, a
really, truly drafting error of last session and restores the
intention that [the legislature] had in—in the applicability of
the estate tax.’’ Conn. Joint Standing Committee Hearings,
Finance, Revenue and Bonding, 2014 Sess., p. 153, remarks of
Kevin B. Sullivan, Commissioner of Revenue Services. We do
not, however, accord this testimony any weight in our
determination of whether the amendments are clarifying in
nature.
17

Whether Senator Fonfara’s testimony pertained to the
amendatory language at issue in the present case is the source
of disagreement between the parties. The Office of Legislative

740a

Research, in its bill analysis, described P.A. 13-247, § 120, as
follows: ‘‘[1] Makes technical changes to how estate taxes are
calculated for Connecticut residents who have estate property
in other states. This conforms to current Department of
Revenue Services. [2] Provides, for both resident and
nonresident estates, that the state may calculate and levy the
tax to the fullest extent permitted by the [United States]
[c]onstitution.’’ Office of Legislative Research, Bill Analysis for
House Bill No. 6706, ‘‘An Act Implementing Provisions of the
State Budget for the Biennium Ending June 30, 2015
Concerning General Government,’’ (2013), § 120, available at
https://www.cga.ct.gov/2013/BA/2013HB-06706-R00-BA.htm
(last visited May 4, 2017). The testimony regarding P.A. 13247, § 120, was limited to two questions. The first question,
from Senator Kevin C. Kelly, related to the first point listed in
the bill analysis. 56 S. Proc., supra, pp. 5457–58. Senator
Fonfara responded that ‘‘the section makes a correction that
goes back to the decoupling of the state tax from the federal tax
and . . . preserves the current tax treatment of real and
tangible property, which Connecticut has jurisdiction to tax.’’
Id., p. 5458. Next, Senator Frantz inquired about the second
point listed in the bill analysis as follows: ‘‘In the description of
that bill, it says it provides for both residents and nonresident
estates that the state may calculate and levy the tax to the
fullest extent permitted by the [United States] [c]onstitution.
May I ask . . . what the fullest extent . . . permitted by the
[United States] [c]onstitution is?’’ Id., p. 5459. We understand
the second point in the bill analysis as pertaining to, inter alia,
§ 12-391 (d) (3). The purpose set forth in the bill analysis was
served by amending (d) (3) by substituting the phrase ‘‘owned
by’’ with ‘‘included in the gross estate of,’’ and adding the
following language: ‘‘The state is permitted to calculate the
estate tax and levy said tax to the fullest extent permitted by
the [c]onstitution of the United States.’’ P.A. 13-247, § 120. The
changes ensured that the state could continue to levy the tax to
the greatest extent permitted by the federal constitution, which
according to Senator Fonfara is how the state has always
implemented the estate tax; 56 S. Proc., supra, p. 5459; without
the risk that a court would strictly construe the phrase ‘‘owned
by’’ thereby statutorily narrowing the class of intangible
personal property in the gross estate upon which the state
could levy the tax. Thus, we understand Senator Fonfara’s

741a

We have previously recognized that testimony in
which amendatory language is described as technical
tends to support the conclusion that the legislature
intended the language to be clarifying. See
Greenwich Hospital v. Gavin, supra, 265 Conn. 523.
Additionally, it is not disputed that the claims made
by the plaintiffs in the present case, as well as other
taxpayers, were the impetus behind P.A. 13-247, §
120. Thus, the amendment ‘‘invokes the principle of
statutory construction that [i]f the amendment was
enacted soon after controversies arose as to the
interpretation of the original act, it is logical to
regard the amendment as a legislative interpretation
of the original act . . . .’’ (Internal quotation marks
omitted.) State v. Blasko, 202 Conn. 541, 558, 522
A.2d 753 (1987); see also Caron v. Inland Wetlands
& Watercourses Commission, 222 Conn. 269, 279,
610 A.2d 584 (1992).
Finally, the plaintiffs claim that the plain meaning
of the term ‘‘owned by’’ in General Statutes (Rev. to
2009) § 12-391 operated as a substantive limitation
on the state’s authority to levy the estate tax on
certain property included in the gross estate. Thus,
according to the plaintiffs, notwithstanding the
legislature’s declaration of intent in P.A. 14-155, §
12, the amendatory language in P.A. 13-247, § 120,
broadened the class of intangible personal property
subject to the estate tax and, thereby, effected a
substantive change to the law that must be applied
prospectively. We acknowledge that, at some point, a
change in the law is so substantial that, no matter
how forcefully the legislature expresses its intent to
clarify, the change must be regarded as substantive.
response to Senator Frantz’ question to implicate all changes to
§ 12-391 (d) (3), including the amendatory language at issue in
the present case.

742a

See State v. Blasko, supra, 202 Conn. 558 (‘‘[t]he
legislature could not, even by extensive protestations
of legislative intent, convert an act that is truly
curative into one that is effectively clarifying’’).
Nevertheless, the plaintiffs have failed to persuade
us to discount the clear expression of legislative
intent in the present case.18 First, this is not a case
in which the legislature ‘‘attempt[ed] to clothe a
retroactive substantive change in clarifying garb by,
for example, attempting to ‘clarify’ the meaning of a
statute to mean something different from a court’s
repeated and consistent interpretation of the same
statute.’’ Connecticut National Bank v. Giacomi, 242
Conn. 17, 44 n.33, 699 A.2d 101 (1997).
Furthermore, it is far from clear that the ordinary
meaning of ‘‘owned by’’ furnished the proper
statutory construction when that language was
18

The plaintiffs’ claim that the fact that the trial court did not
first construe the original statutory language before concluding
that the amendatory language was clarifying in nature
amounted to an abdication of judicial responsibility resulting in
a violation of the plaintiffs’ right to separation of powers is
wholly without merit. First, we note that the plaintiffs have
failed to fully develop this argument. Specifically, the plaintiffs
have failed to cite to a single separation of powers case or to
explain how their claims fit into our separation of powers
doctrine. We briefly observe that, the trial court, in reaching its
conclusion, cited the legislative history of P.A. 13-247, cited the
express statement of legislative intent in P.A. 14-155, and
noted that the amendatory language did not amount to a
substantial change in the law. Resolution of the question of
whether amendatory language is clarifying in nature does not
first require full statutory construction of the original language
or a predicate finding of ambiguity. See Middlebury v. Dept. of
Environmental Protection, supra, 283 Conn. 174. Rather,
courts apply the multifactor test set forth and applied in this
opinion. Indeed, the plaintiffs essentially concede this point in
their reply brief by citing Middlebury. In short, there was
nothing improper about the trial court’s analysis of this issue.

743a

operative. A narrow construction of the phrase
‘‘owned by’’ would arguably operate to prevent the
state from ever levying the estate tax upon any
qualifying life interest—whether the property is
included in the gross estate because the decedent
held a federally qualifying life interest in a trust
under § 12-391 (c) (3) or a state qualifying life
interest under § 12-391 (f) (2)—because, as the
plaintiffs urge, the surviving spouse did not own the
trust assets in which he or she enjoyed the life
interest. Thus, we reject the plaintiffs’ claim that the
amendment effected such a significant change to the
law that the only conclusion to be drawn,
notwithstanding a declaration of express legislative
intent to the contrary, is that the change was
substantive. The effective date indicated in P.A. 13247, § 120, is an outlier among all the evidence that
points to the conclusion that the amendatory
language was clarifying in nature. Accordingly, we
conclude that P.A. 13-247, § 120, is clarifying in
nature
and,
therefore,
necessarily
applies
retroactively to the decedent’s estate in the present
case.
The plaintiffs also claim that retroactive application
of the amended statute to the estate of the decedent
would result in a violation of the due process clause
of the fourteenth amendment to the United States
constitution. This claim fails because the
amendment was not a substantive change to the law.
Connecticut National Bank v. Giacomi, supra, 242
Conn. 44. ‘‘The necessarily retroactive effect of
clarifying legislation is not to be confused with the
retroactive effect of legislation that changes the law.
The former clarifies the substantive provisions to
which a person has always been subject. The latter
applies substantive provisions to a person heretofore

744a

not subject to those provisions.’’ Id. To the extent
that clarifying legislation must satisfy the rational
basis test set forth in United States v. Carlton, 512
U.S. 26, 30–31, 114 S. Ct. 2018, 129 L. Ed. 2d 22
(1994), because the legislature merely clarified its
intent when enacting the Connecticut estate tax, the
application of P.A. 13-257, § 120, to the present case
clearly satisfies the rational basis test. See Bhinder
v. Sun Co., supra, 263 Conn. 374. Accordingly, we
reject the plaintiffs’ claim that the retroactive
application of the amendment to the decedent’s
estate violates due process.
IV
Lastly, we address the issue of whether, at the death
of the decedent, a transfer of the assets contained
within the QTIP marital deduction trusts occurred
such that it was proper to levy the estate tax based
on the value of those assets. By its terms, the
Connecticut estate tax is a tax ‘‘imposed upon the
transfer of the estate of each person who at the time
of death was a resident of this state.’’ (Emphasis
added.) General Statutes § 12-391 (d) (1) (B). The
plaintiffs claim that no transfer occurs at the death
of a life beneficiary of a QTIP marital deduction
trust; rather, a ‘‘deemed’’ or ‘‘fictional’’ transfer
occurs in order to collect the tax that was deferred
when the actual taxable transfer was made at the
death of the first to die spouse. In other words,
because Connecticut did not defer imposition of the
estate tax upon Everett’s actual transfer of assets
into the trusts when he died in Florida, it cannot
now properly tax the ‘‘fictional’’ transfer of those
assets from the decedent’s estate. As a result,
according to the plaintiffs, the imposition of the
estate tax on the decedent’s estate in the present
case results in an impermissible tax upon an out-of745a

state transfer in violation of the due process clause
of the fourteenth amendment. The defendant claims
that the Connecticut estate tax is properly levied
upon the transfer of the QTIP trust assets at the
decedent’s death. The defendant maintains that a
transfer can be characterized by the shift in legal
relationships to property occasioned by death, and a
tax on such shifts is a proper excise tax within the
state’s taxing authority. In turn, because the
decedent was a domiciliary of the state at her death,
the defendant maintains that imposing the tax on
this transfer comports with the due process clause.
We agree with the defendant.
The underlying basis for the assets of these trusts
being included in the decedent’s gross estate is that
those assets qualified as QTIP under the federal tax
code. See part II of this opinion. But in order to be
very clear, we set aside the fictions of the QTIP
provisions. The defendant seeks to levy the estate
tax on certain assets in which the decedent enjoyed a
life interest. The issue that we must resolve is
whether the defendant may impose the estate tax
based on the value of trust assets in which a
decedent enjoyed only a life interest.
As an initial matter, it is clear that the legislature
intended ‘‘transfer’’ to be construed as broadly as
possible. As the discussion in part II of this opinion
demonstrates, the legislature intended for all
property in the federal gross estate to be included in
the state gross estate. See General Statutes § 12-391
(c) (3). Second, as the discussion in part III of this
opinion demonstrates, § 12-391 (d) (3), as amended,
reveals a clear legislative intent to calculate and levy
the estate tax upon all intangible personal property
included in the gross estate to the greatest extent
permitted by the federal constitution. It would be
746a

illogical for the legislature to have called for the
inclusion of QTIP marital deduction trusts in the
gross estate of the decedent, but also have intended
a narrow definition of ‘‘transfer’’ that would operate
to prevent the defendant from levying the tax on the
value of such property. Accordingly, ‘‘transfer’’ must
be construed to embrace the shifting in relationships
to property attendant to the death of a life
beneficiary.
The crux of the plaintiffs’ statutory claims in the
present case is that the defendant’s construction of
the estate tax statute results in the imposition of an
unconstitutional tax upon the decedent’s estate. The
plaintiffs are correct ‘‘that this court has a duty to
construe statutes, whenever possible, to avoid
constitutional infirmities . . . .’’ (Internal quotation
marks omitted.) State v. Cook, 287 Conn. 237, 245,
947 A.2d
307, cert. denied, 555 U.S. 970, 129 S. Ct. 464, 172 L.
Ed. 2d 328 (2008). ‘‘[W]hen called [on] to interpret a
statute, we will search for an effective and
constitutional construction that reasonably accords
with the legislature’s underlying intent.’’ (Internal
quotation marks omitted.) Id. Accordingly, we turn
to the issue of whether this construction of the estate
tax statute is constitutionally infirm.
We first set forth the appropriate standard of review.
‘‘With respect to a statutory challenge on
constitutional grounds, [a] validly enacted statute
carries with it a strong presumption of
constitutionality, [and] those who challenge its
constitutionality must sustain the heavy burden of
proving its unconstitutionality beyond a reasonable
doubt. . . . The court will indulge in every
presumption
in
favor
of
the
statute’s

747a

constitutionality. . . . Therefore, [w]hen a question of
constitutionality is raised, courts must approach it
with caution, examine it with care, and sustain the
legislation unless its invalidity is clear. . . . In other
words, we will search for an effective and
constitutional construction that reasonably accords
with the legislature’s underlying intent.’’ (Citation
omitted; internal quotation marks omitted.) A. Gallo
& Co. v. Commissioner of Environmental Protection,
309 Conn. 810, 822, 73 A.3d 693 (2013), cert. denied,
U.S. , 134 S. Ct. 1540, 188 L. Ed. 2d 581 (2014).
The state’s right ‘‘to exercise the widest liberty with
respect to the imposition of internal taxes always
has been recognized in the decisions of [the Supreme
Court of the United States].’’ Shaffer v. Carter, 252
U.S. 37, 51, 40 S. Ct. 221, 64 L. Ed. 445 (1920);
accord Allen v. Commissioner of Revenue Services,
supra, 324 Conn. 314–15. The imposition of an estate
tax falls within the broad authority of the sovereign
to impose an excise tax. See, e.g., West v. Oklahoma
Tax Commission, 334 U.S. 717, 727, 68 S. Ct. 1223,
92 L. Ed. 1676 (1948); Whitney v. State Tax
Commission of New York, 309 U.S. 530, 538, 60 S.
Ct. 635, 84 L. Ed. 909 (1940); United States Trust
Co. v. Helvering, 307 U.S. 57, 60, 59 S. Ct. 692, 83 L.
Ed. 1104 (1939). ‘‘[T]he estate tax as originally
devised and constitutionally supported was a tax
upon transfers.’’ Fernandez v. Wiener, 326 U.S. 340,
352, 66 S. Ct. 178, 90 L. Ed. 116 (1945); see
generally Knowlton v. Moore, 178 U.S. 41, 20 S. Ct.
747, 44 L. Ed. 969 (1900). A proper excise or estate
tax, however, is levied not only upon literal transfers
at death. Rather, any ‘‘creation, exercise, acquisition,
or relinquishment of any power or legal privilege
which is incident to the ownership of property’’ at
the death of the decedent is subject to tax as a

748a

transfer at death. Fernandez v. Wiener, supra, 352.19
In other words, a sovereign may tax the
transmutation of legal rights in property occasioned
by death. See id., 358 (‘‘[w]e find no basis for the
contention that the tax is arbitrary and capricious
because it taxes transfers at death and also the
shifting at death of particular incidents of
property’’); see also United States Trust Co. v.
Helvering, supra, 60 (‘‘[the estate tax] is an excise
imposed upon the transfer of or shifting in
relationships to property at death’’).
In Fernandez, the heirs of the decedent challenged,
on various federal constitutional grounds, the
imposition of the estate tax on the one-half share of
marital community property owned by a surviving
spouse at the death of the decedent. Fernandez v.
Wiener, supra, 326 U.S. 346–47. The heirs had
argued that, at the decedent’s death, the surviving
spouse ‘‘acquire[d] no new or different interest in the
property’’ and the death of neither spouse
‘‘operate[d] to transfer, relinquish or enlarge any
legal or economic interest in the property of the
other spouse.’’ Id., 346. The court rejected the heirs’
claims, noting that, notwithstanding the fact that
the surviving spouse’s rights were vested, the
surviving spouse was liberated of the burdens of the
19

The plaintiffs claim that the fact the decedent had an
ownership interest in the property was integral to the United
States Supreme Court’s analysis in Fernandez. Ownership, in
the strict sense, was not integral to the analysis. See Whitney
v. State Tax Commission of New York, supra, 309 U.S. 538
(‘‘the state is not confined to that kind of wealth which was, in
colloquial language, ‘owned’ by a decedent before death’’). As
the court in Fernandez makes clear, it is the transmutation of
rights related to property, not ownership itself, that is the
touchstone of a properly taxable transfer. Fernandez v. Wiener,
supra, 326 U.S. 352.

749a

decedent’s rights over the survivor’s share and
enjoyed greater rights in the property. Id., 355–56.
The court summarized that, ‘‘[i]t is enough that
death brings about changes in the legal and
economic relationships to the property taxed, and
the earlier certainty that those changes would occur
does not impair the legislative power to recognize
them, and to levy a tax on the happening of the
event which was their generating source.’’ Id., 356–
57.
We conclude that taxing the assets contained within
the QTIP marital deduction trusts upon the death of
the decedent in the present case fits comfortably
with the general principles set forth in Fernandez.
The termination of the decedent’s beneficial life
interest in those assets, and the remainder
beneficiaries coming into possession and enjoyment
of their successive interests, is a sufficient ‘‘shifting
at death of particular incidents of property’’ to
properly impose an excise tax. Id., 358.
The plaintiffs’ claim that the reasoning of Coolidge v.
Long, 282 U.S. 582, 51 S. Ct. 306, 75 L. Ed. 562
(1931), compels the conclusion that a properly
taxable transfer of property does not occur when, at
the death of the decedent, the decedent’s life interest
in the property terminates. In that case, before the
operative state succession tax law took effect, the
decedent executed a trust declaration reserving for
herself and her spouse life interests in certain
property with remainders to take effect in possession
upon the death of the surviving spouse. Id., 593–94.
The operative statute in that case subjected to a tax
‘‘[a]ll property . . . which shall pass by . . . deed,
grant or gift . . . made or intended to take effect in
possession or enjoyment after [the grantor’s] death.
. . .’’ (Internal quotation marks omitted.) Id., 595.

750a

The United States Supreme Court rebuffed the
Massachusetts Supreme Judicial Court’s conclusion
that the death of the survivor of the settlors of the
trust was a ‘‘taxable commodity under the statute
enacted after the creation of the trust,’’ and held that
the tax was an unconstitutional retroactive tax
under the due process clause of the fourteenth
amendment and the contract clause. Id., 595–99. The
court reasoned that the grant of the remainder to
each of the beneficiaries was ‘‘a grant in praesenti,’’
to be enjoyed at the death of the surviving spouse.
Id., 597. The court stated that the provision of
income for the life of the settlors ‘‘did not operate to
postpone the vesting in the sons of the right of
possession or enjoyment,’’ and the trustees were
bound to turn over the property at the death of the
survivor. Id. Thus, the decedent’s death was not the
‘‘generating
source
of any right in the
remaindermen.. . . There was no transmission then.’’
(Citation omitted.) Id., 597–98. ‘‘The succession,
when the time came, did not depend upon any
permission or grant of the [c]ommonwealth.’’ Id.,
598. The reasoning of that case does not, however,
alter our conclusion in the present case.
First, the United States Supreme Court has sharply
criticized cases that, like Coolidge v. Long, supra,
282 U.S. 598, were ‘‘decided during an era
characterized by exacting review of economic
legislation under an approach that ‘has long since
been discarded.’ ’’ United States v. Carlton, supra,
512 U.S. 34, quoting Ferguson v. Skrupa, 372 U.S.
726, 730, 83 S. Ct. 1028, 10 L. Ed. 2d 93 (1963). In
fact, in Carlton, the United States Supreme Court
specifically referred to Nichols v. Coolidge, 274 U.S.
531, 47 S. Ct. 710, 71 L. Ed. 1184 (1927), in its
criticism of case law from that era. That case

751a

involved application of the federal estate tax to the
very same trust at issue in Coolidge v. Long, supra,
582. The court’s conclusion in Coolidge v. Long,
supra, 597–98, hinged on the fact that the trust deed
was a present grant that resulted in ‘‘vested’’ rights
in the beneficiaries. Vested rights no longer form the
touchstone of the analysis of economic regulation.
See Honeywell, Inc. v. Minnesota Life & Health Ins.
Guaranty Assn., 110 F.3d 547, 554 (8th Cir. 1997)
(noting that law had ‘‘drift[ed] away from the
Lochner [v. New York, 198 U.S. 45, 25 S. Ct. 539, 49
L. Ed. 937 (1905)] era’s strict protection of economic
freedom and vested rights’’). The court in Fernandez
clearly subordinated the fact that the surviving
spouse’s rights were vested to the practical legal and
economic shift occasioned by the decedent.
Fernandez v. Wiener, supra, 326 U.S. 356.20
It is clear from the reasoning in Fernandez that the
court embraced a broader concept of transfer than
when the court considered Coolidge v. Long, supra,
282 U.S. 582. The court in Coolidge v. Long, supra,
597, reasoned that the death of the settlor was not
the ‘‘generating source of any right in the
remaindermen.’’ In Fernandez v. Wiener, supra, 326
U.S. 356–57, the court took a more practical
approach and looked not to whether death was the
generating source of ‘‘rights,’’ but rather whether
death was the generating source of ‘‘changes in the
legal and economic relationships to the property
taxed . . . .’’ This more encompassing language
employed by the court reflects its embrace of an
The relative importance the court in Fernandez placed on the
fact that the surviving spouse’s property rights in that case
were vested is revealed by the fact the court, in a seemingly
scoffing manner, placed the word vested in quotation marks.
Fernandez v. Wiener, supra, 326 U.S. 356.
20

752a

evaluation of the practical economic and legal shifts
occasioned by death rather than a reliance of
formalistic property law distinctions in determining
whether a properly taxable transfer has occurred.
To the extent the reasoning of Coolidge v. Long,
supra, 282 U.S. 582, survives, the case can be
distinguished by the type of tax at issue. In that
case, the statute imposed a tax on a grant in trust to
take effect at the death of the settlor or the settlor’s
surviving spouse. See id., 595–96. Put more simply,
the statute, by its terms, taxed the transfer in trust
of the property. In the present case, the statute does
not purport to tax the transfer of assets from
Everett; rather, the statute taxes property in which
the decedent had a federally qualifying life interest.
See 26 U.S.C. § 2044 (a); General Statutes § 12-391
(c) (3). The tax in the present case is directly
targeting the changes in legal and economic
relationships to the property, not a prior transfer.
Finally, Coolidge v. Long, supra, 282 U.S. 582, was
decided long before the evolution of state and federal
tax schemes that employ complex fictions designed
to effectuate certain public policy—such as treating a
married couple as a single economic unit—while
ensuring that such tax schemes do not form
apertures through which it would be possible to
avoid taxation. In order to effectuate social and
economic policy, legislators have crafted ever more
complex tax laws than those that simply tax the
transfer of title to property at death. For example,
one court described the concept of QTIP as one that
had been invented by Congress ‘‘[o]ut of thin air and
from whole cloth,’’ noting that ‘‘[i]f unlimiting the
[m]arital [d]eduction was a flight into the wild blue
yonder, Congress truly slipped the surly bonds of
earth with the advent of QTIP.’’ (Footnote omitted;
753a

internal quotation marks omitted.) Estate of Clayton
v. Commissioner of Internal Revenue, supra, 976
F.2d 1493. Connecticut, too, seeks to impose the
estate tax when federally qualified terminable
interest property leaves the marital unit,
irrespective of whether this state, another state, or
no state deducted the value of that property from the
taxable estate of the first to die spouse. ‘‘Nothing can
be less helpful than for courts to go beyond the
extremely limited restrictions that the [c]onstitution
places upon the states and to inject themselves in a
merely negative way into the delicate processes of
fiscal [policymaking]. We must be on guard against
imprisoning the taxing power of the states within
formulas that are not compelled by the [c]onstitution
. . . .’’ (Emphasis added.)

Wisconsin v. J. C. Penney Co., 311 U.S. 435, 445, 61
S. Ct. 246, 85 L. Ed. 267 (1940). ‘‘The [c]onstitution
is not a formulary. It does not demand of states strict
observance of rigid categories nor precision of
technical phrasing in their exercise of the most basic
power of government, that of taxation.’’ Id., 444. In
sum, we would conclude that Coolidge v. Long,
supra, 582, does not foreclose the defendant from
taxing the assets within the QTIP marital deduction
trusts at issue in the estate of the decedent as a
transfer.
The plaintiffs’ claim that the tax in the present case
violates the fourteenth amendment as a tax on outof-state property is also unavailing. It is well settled
that ‘‘[t]he due process clause denies to the state
power to tax or regulate the [entity’s] property and
activities elsewhere.’’ (Internal quotation marks
omitted.) Allen v. Commissioner of Revenue
Services, supra, 324 Conn. 315. With respect to the
transfer of real and tangible personal property, the
754a

constitutional rule is simple—namely, the state in
which the property has an actual situs has the
exclusive jurisdiction to levy a tax. Treichler v.
Wisconsin, 338 U.S. 251, 256–57, 70 S. Ct. 1, 94 L.
Ed. 37 (1949); Frick v. Pennsylvania, 268 U.S. 473,
487–88, 45 S. Ct. 603, 69 L. Ed. 1058 (1925). The
plaintiffs’ claim that the rule in those cases as
applied to the trusts in the present case stretches
the rule too far.
Unlike real and personal property, intangible
personal property is characterized by ‘‘legal
relationships between persons and which in fact
have no geographical location . . . .’’ Graves v.
Schmidlapp, 315 U.S. 657, 660, 62 S. Ct. 870, 86 L.
Ed. 1097 (1942). For this reason, ‘‘intangibles
themselves have no real situs . . . .’’ Greenough v.
Tax Assessors of Newport, 331 U.S. 486, 493, 67 S.
Ct. 1400, 91 L. Ed. 1621 (1947). Accordingly, the rule
of situs is not controlling with respect to the issue of
jurisdiction to levy the estate tax upon intangible
personal property. Curry v. McCanless, 307 U.S.
357, 369–70, 59 S. Ct. 900, 83 L. Ed. 1339 (1939).
The proper inquiry with respect to the jurisdiction to
levy the estate tax on intangibles is whether ‘‘by the
practical operation of a tax the state has exerted its
power in relation to opportunities which it has given,
to protection which it has afforded, to benefits which
it has conferred by the fact of being an orderly,
civilized society.’’ (Internal quotation marks
omitted.) State Tax Commission of Utah v. Aldrich,
316 U.S. 174, 178–79, 62 S. Ct. 1008, 86 L. Ed. 1358
(1942), quoting Wisconsin v. J. C. Penney Co., supra,
311 U.S. 444. The state’s authority to impose a tax is
at its apogee with respect to a domiciliary. ‘‘From the
beginning of our constitutional system control over
the person at the place of his domicile and his duty

755a

there, common to all citizens, to contribute to the
support of government have been deemed to afford
an adequate constitutional basis for imposing on him
a tax on the use and enjoyment of rights in
intangibles measured by their value.’’ Curry v.
McCanless, supra, 366.
Under these principles, we conclude that
Connecticut did not lack jurisdiction to tax the
transfer of the assets contained within the QTIP
marital deduction trust as part of the decedent’s
estate. The decedent was a domiciliary of this state
at the time of her death. She enjoyed all of the
benefits of the state attendant to residence therein.
During that time, she enjoyed the economic benefits
of her beneficial life interest in the trusts. This
nexus is sufficient for due process.21 Accordingly, we
conclude that the imposition of the estate tax on the
transfer of the assets contained within relevant
trusts did not violate due process.
To summarize, we conclude that the trial court
properly rendered summary judgment in favor of the
defendant because the defendant properly included
the value of the assets contained within the QTIP
marital deduction trusts in the decedent’s gross
estate and levied the estate tax thereupon in
accordance with § 12-391 without violating due
process.
The judgment is affirmed.
In this opinion the other justices concurred.

21

We also note that, at her death, the decedent also served as
trustee of the QTIP marital deduction trusts. In addition, as
noted previously in this opinion, she held a limited
testamentary power of appointment over the trust property.

756a

APPENDIX 51
COMMONWEALTH OF MASSACHUSETTS
APPELLATE TAX BOARD
Docket No. 327773
M. CHRISTINE SHAFFER,
As Executrix of the Estate
Of Adelaide P. Chuckrow,

Appellant,
v.

COMMISSIONER OF REVENUE,

Appellee.

APPELLANT'S SUPPLEMENTAL BRIEF
I. Introduction
At oral argument, reference by both the
Appellant and Appellee was made to the pending
Connecticut case of Estate of Brooks v. Sullivan, 325
Conn. 705 (2017), which involved similar facts and
questions of law in the instant case. At that time, the
case had been argued before the Supreme Court of
Connecticut on December 5, 2016, but no decision
had been issued at the time of the hearing. On May
23, 2017, the Supreme Court of Connecticut issued
its decision and a copy of the decision was submitted
to the Board on May 24, 2017. In summary, the
Brooks case held that, based on the facts and
applicable Connecticut statutes and case law, the
She exercised the power in her will, which was probated in
Connecticut, to appoint certain property in one of the trusts.

757a

Connecticut Department of Revenue Services had
the authority to impose an estate tax on a so-called
QTIP trust established for a Connecticut decedent by
her predeceased spouse who was resident of another
jurisdiction at the time of the predeceased spouse's
passing. Estate of Brooks v. Sullivan, 325 Conn. 705
(2017). In connection with the issuance of that
decision, the Appellant filed a Motion for Leave to
File Supplemental Brief to address the issues raised
in the Brooks decision on July 11, 2017, which the
Board allowed. This Supplemental Brief is submitted
to outline the facts of the Brooks case and identify
the distinguishing factor – namely the significant
difference in the Massachusetts and Connecticut
definitions of "gross estate" - which requires this
Board to reach the opposite result concluded by the
Supreme Court of Connecticut in the Brooksdecision. Because of these differences, the decision in
Brooks is irrelevant to the controversy in this case.
Ostensibly, the facts are similar but because
Connecticut law differs in so many respects from the
applicable Massachusetts statutes, the case is
irrelevant.
II. Factual Background
The Appellant briefly restates the facts for the
convenience of the Board:
Robert Chuckrow and Adelaide Chuckrow
were a married couple living in New York. SAF ¶1718. Robert died on July 11, 1993. SAF ¶18. His will
established a QTIP trust and his executrix made a
federal QTIP election. SAF ¶¶ 18-20. This QTIP
trust under Robert's will was funded with
$844,101.27. SAF ¶123.
Following Robert's death, Adelaide moved to
Massachusetts. She died on August 14, 2011, while

758a

living in Williamstown, Massachusetts. SAF ¶ 1. At
the time of Adelaide's death, she had a total federal
gross estate of $15,633,617. SAF ¶ 14. This amount
included the assets held in the QTIP trust under
Robert's will, the value of which was $13,251,469.
SAF ¶14.
Adelaide reported a Massachusetts gross
estate of $2,382,148 (which is the difference between
the federal gross estate and the amount attributable
to QTIP trust property). SAF ¶ 13, 15. Adelaide's
estate paid $100,997 in Massachusetts estate taxes.
SAF ¶ 2. The Commissioner selected Adelaide's
estate for audit, and asserted that the estate owed
taxes on the QTIP property. SAF ¶ 13. Adelaide's
estate paid the additional tax assessed by the
Commissioner plus the accrued interest, a total of
$1,953,032, and began the abatement process. SAF ¶
5, 6.
III. Analysis
Estate of Brooks v. Sullivan is a case which
involved a Florida resident who died and established
what was essentially a "QTIP" trust, meaning all
income is payable to the surviving spouse for life and
principal is payable to the spouse in the trustee's
discretion. See generally, Estate of. Brooks v.
Sullivan, 325 Conn. 705 (2017). In Brooks; the
surviving spouse was a co-trustee with an
independent trustee and also had a so-called limited
power of appointment. Id. At the time of her death,
the surviving spouse had relocated from Florida to
Connecticut where she died. Id.
In the decision the Supreme Court of
Connecticut upheld the Department and Trial
Court's determination that the QTIP trusts
established by a predeceased spouse residing in

759a

Florida at his death for the surviving spouse were
includable in the surviving spouse's estate for
Connecticut estate tax purposes. Id. In reaching its
decision, the Supreme Court of Connecticut rested
its ruling primarily on the interpretation of the
definition of the Connecticut gross estate.22 In this
regard, the Brooks decision is not relevant to the
instant case as the statutory language in
Connecticut does not mirror the Massachusetts
statutory language.
Specifically, Conn. Gen. Stat. § 12-391 defines
the gross estate as "the gross estate, for federal
estate tax purposes." There are no elaboration and
there are exceptions or adjustments - unlike
Massachusetts. The Court interpreted the plain
meaning of this definition to mean that all assets
includable in the federal gross estate for estate tax
purposes are included in the Connecticut gross
estate.
Conversely,
the
definition
of
the
Massachusetts gross estate in much more nuanced.
The Massachusetts statute, M. G. L. ch. 65C §1(f)
(emphasis added) provides:
'"Massachusetts gross estate', the federal
gross estate, whether or not a federal estate
tax return is required to be filed, plus the
A significant portion of the decision addressed the question of
whether an amendment to the Connecticut statute that
changed the requirement that the property subject to the estate
tax must be owned by the decedent to simply stating that it
would need to be includible in the gross estate, was a
substantive change or a clarifying change. No such analysis is
needed in this case and therefore the finding by the
Connecticut Supreme Court that the change was clarifying in
nature rather than substantive and therefore could be applied
retroactively, has no application in this case.
22

760a

value of any property (i) in which the decedent
had at death a qualifying income interest for
life described in subsection (c) of section three
A, or to the extent of any such interest therein
of which the decedent has at any time made a
transfer, by trust or otherwise, under any
circumstances which would require the
property to be included in the gross estate
under the provisions of this chapter and (ii)
for which a deduction was allowed for
Massachusetts estate tax purposes with
respect to the transfer of such property to the
decedent; and less the value of real and
tangible personal property having an actual
situs outside the commonwealth. The

Massachusetts gross estate shall not include
the value of any property in which the
decedent had a qualifying income interest for
life which is not otherwise includible in the
Massachusetts gross estate under the first
sentence of this paragraph, notwithstanding
the right of the executor of the decedent's
estate to recover federal or Massachusetts
estate taxes from such property. "

Unlike the Connecticut statute, which makes
no distinction between QTIP trusts for which a state
QTIP election was allowed, the Massachusetts
statute specifically contemplates separate QTIP
elections and recognizes that if a Massachusetts
QTIP election was not elected for Massachusetts
purposes under M.G.L. ch. 65C § 3A, the interest is
not included in the definition of the Massachusetts
gross estate. This final sentence functions to remove
from the calculation of the Massachusetts gross
estate the value of any property for which a federal
QTIP election was made but for which no

761a

Massachusetts QTIP election was made pursuant to
§ 3A. At oral argument, the Commissioner conceded
that this was the correct interpretation of § 1(f), but
argued that § 1 (f) was inapplicable to the estate tax
as computed under § 2A. However, for the reasons
stated in the Appellant's Reply Brief, § 1(f) is
applicable. The statute could not be clearer and if
and to the extent the statute is ambiguous, any
ambiguity must be resolved in favor of the taxpayer.
Because of this key difference between the
Massachusetts and Connecticut statutes defining the
state's gross estate for estate tax purposes, the
Brooks decision does not support the assertions of
the Department of Revenue that the QTIP trust in
the instant case is subject to Massachusetts estate
tax. Rather, the distinction only further emphasizes
the fact that, at least in Massachusetts, the statute
requires that a state QTIP election have been made
on the death of the first spouse to die in order for a
QTIP trust to be included in the estate of the
surviving spouse.
The Connecticut case also concludes that,
notwithstanding the fact that the imposition of an
estate tax requires the transfer of property,
somehow the termination of the QTIP trust upon the
death of the surviving spouse represented a taxable
transfer. This, of course, is not and cannot be the
case. The only reason QTIP property is includible in
the estate of the decedent's spouse is by virtue of the
artificial marital deduction allowed pursuant to
I.R.C. § 2056(b)(7) and the corresponding I.R.C.
§ 2044, which requires inclusion to the extent that a
QTIP election was made on the first death. It should
be noted that the symmetry here is only fair in that,
if a deduction is allowed on the first death, then

762a

estate taxes are deferred and should be imposed on
the death of the survivor.
The Commonwealth in this case disregards
this fundamental rule inasmuch as no QTIP election
was made for Massachusetts on the first death, no
such amount should be includible in the estate of the
surviving spouse. There are a number of cases from
other jurisdictions that conclude that the mere
termination of a life interest is not a sufficient
transfer upon which to impose an estate tax. See
e.g., In re Estate of Bracken, 175 Wash. 2d 549
(2012).
In the Brooks case, it should also be noted
that the surviving spouse was a co-trustee and, in
fact, had a limited power of appointment. In this
case, the surviving spouse was not even a trustee
and therefore had no control whatsoever over the
distribution of principal and did not have any limited
power of appointment so had no ability to direct the
disposition of funds in the QTIP trust upon her
death.
For these reasons, the Connecticut finding
that the termination of the QTIP beneficiary was
somehow
a
transfer
is
inapplicable
in
Massachusetts. This concept is embodied in the very
first provisions of the Internal Revenue Code and
Regulations thereunder relating to the concept of
estate taxes, as noted in footnotes 7 and 9 of
Appellant's Brief.
IV. Conclusion
The Brooks decision is not relevant to the
instant case. The Brooks decision is based on
Connecticut's estate tax statute which, in relevant
and key part, differs from the Massachusetts estate

763a

tax
statute.
Since
Massachusetts,
unlike
Connecticut, specifically provides in defining the
gross estate for state estate tax purposes that QTIP
trusts for which no Massachusetts QTIP election was
made is not included in the Massachusetts gross
estate, the decision reached by the Supreme Court of
Connecticut in the Brooks case is immaterial to the
instant case. Further, the Supreme Court's analysis
of the issue of a transfer of the assets is inconsistent
with applicable Internal Revenue Code sections and
regulations, and therefore is not relevant to the facts
at hand in this case.
The Appellant maintains that it should be
successful under both the constitutional argument,
which is presented in its principal brief, and the
statutory argument, which is argued here and in the
principal brief and that the Brooks decision has no
bearing on the result which should be reached in this
case. The Appellate Tax Board should order that the
Commonwealth refund the entire $1,953,032 to the
Estate of Adelaide Chuckrow.
Respectfully Submitted,
The Appellant,
M. CHRISTINE SHAFFER,
as Executrix of the Estate of
Adelaide P. Chuckrow,
10803 Montrose Avenue, P.O. Box 96
Garret Park, MD 20896
(301) 933-2260,
By her Attorneys,
Leo J. Cushing, Esq., BBO #110560

lcushing@cushingdolan.com

Luke C. Bean, Esq. BBO #685399

lbean@cushingdolan.com

Cushing & Dolan, P.C.
375 Totten Pond Road, Suite 200
764a

Waltham, MA 02451
(617) 523-1555
Certificate of Service
I, Luke C. Bean, hereby certify that on this __
day of August, 2017, I caused a true copy of the
within document to be served by hand on the
following attorney of record:
John J. Connors, Jr., Esq.
Counsel to the Commissioner
Department of Revenue
Litigation Bureau
100 Cambridge Street, 7th Floor
Boston, MA 02114-9565
/s/ Luke C. Bean
Luke C. Bean

765a

APPENDIX 52

Department of
Taxation and Finance

Technical Memorandum
TSB-M-19(1)E
Estate Tax
November 20, 2019
Summary of Estate Tax Legislation Enacted in 2019

New York qualified terminable interest property
(QTIP) election
The Tax Law now requires a New York QTIP
election to be made directly on a New York estate
tax return for decedents dying on or after April 1,
2019. Any election made under this subsection is
irrevocable.
In addition, the value of any QTIP for which a New
York marital deduction was previously allowed must
be included in the surviving spouse’s New York gross
estate, whether the QTIP election was made on the
transferring spouse’s New York estate tax return or
on a federal pro forma return if an actual federal
return was not otherwise required.
[Part F of Chapter 59 of the Laws of 2019; Tax Law
§§ 954(a)(4) and 955(c)]
Gift addback
The requirement to add back taxable gifts has been
extended to apply to estates of decedents who died
on or after January 16, 2019 and before January 1,
2026. This addback requirement applies to any
taxable gift under Internal Revenue Code (IRC) §
2503 that was made during the preceding three-year
period ending on the decedent’s date of death and
that is not already included in the decedent’s federal
gross estate, except any gift made:

766a

• when the decedent was not a resident of
New York State;
• before April 1, 2014;
• between January 1, 2019 and January 15,
2019; or
• that is real or tangible personal property
located outside New York State at the time
the gift was made.
[Part F of Chapter 59 of the Laws of 2019; Tax Law
§ 954(a)(3)]
Relief provisions regarding the disposition of estates
to surviving spouses who are not U.S. citizens
The relief provisions for the disposition of an estate
when the surviving spouse is not a U.S. citizen were
extended and are now scheduled to expire on July 1,
2022. The relief provisions are described in TSB-M14(5)M, 2013 Legislation Amending the New York
State Estate Tax.
[Chapter 89 of the Laws of 2019]
Note: A TSB-M is an informational statement of
existing department policies or of changes to the law,
regulations, or department policies. It is accurate on
the date issued. Subsequent changes in the law or
regulations, judicial decisions, Tax Appeals Tribunal
decisions, or changes in department policies could
affect the validity of the information presented in a
TSB-M.

767a

